<html>
<title> - GEOENGINEERING: PARTS I, II, AND III</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                  GEOENGINEERING: PARTS I, II, AND III

=======================================================================



                                HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION
                                  AND
                             SECOND SESSION

                               ----------                              

                            NOVEMBER 5, 2009
                            FEBRUARY 4, 2010
                                  and
                             MARCH 18, 2010

                               ----------                              

                           Serial No. 111-62
                           Serial No. 111-75
                                  and
                           Serial No. 111-88

                               ----------                              

     Printed for the use of the Committee on Science and Technology




                  U.S. GOVERNMENT PRINTING OFFICE
53-007                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        MICHAEL T. McCAUL, Texas
JIM MATHESON, Utah                   MARIO DIAZ-BALART, Florida
LINCOLN DAVIS, Tennessee             BRIAN P. BILBRAY, California
BEN CHANDLER, Kentucky               ADRIAN SMITH, Nebraska
RUSS CARNAHAN, Missouri              PAUL C. BROUN, Georgia
BARON P. HILL, Indiana               PETE OLSON, Texas
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
JOHN GARAMENDI, California
VACANCY
                                 ------                                

                 Subcommittee on Energy and Environment

                  HON. BRIAN BAIRD, Washington, Chair
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
EDDIE BERNICE JOHNSON, Texas         ROSCOE G. BARTLETT, Maryland
LYNN C. WOOLSEY, California          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                       
LINCOLN DAVIS, Tennessee                 
BEN CHANDLER, Kentucky                   
JOHN GARAMENDI, California               
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  CHRIS KING Democratic Staff Director
         SHIMERE WILLIAMS Democratic Professional Staff Member
          ADAM ROSENBERG Democratic Professional Staff Member
            JETTA WONG Democratic Professional Staff Member
            ANNE COOPER Democratic Professional Staff Member
          ROBERT WALTHER Democratic Professional Staff Member
             DAN BYERS Republican Professional Staff Member
          TARA ROTHSCHILD Republican Professional Staff Member
                      JANE WISE Research Assistant



                            C O N T E N T S

   Geoengineering: Assessing the Implications of Large-Scale Climate 
                              Intervention

                            November 5, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........    11
    Written Statement............................................    12

Statement by Representative Ralph M. Hall, Ranking Minority 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    13
    Written Statement............................................    13

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    14
Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    14

                               Witnesses:

Dr. Ken Caldeira, Professor of Environmental Science, Department 
  of Global Ecology, The Carnegie Institution of Washington, and 
  Co-Author, Royal Society Report
    Oral Statement...............................................    16
    Written Statement............................................    17

Professor John Shepherd, FRS, Professional Research Fellow in 
  Earth System Science, National Oceanography Centre, University 
  of Southampton, and Chair, Royal Society Geoengineering Report 
  Working Group
    Oral Statement...............................................    27
    Written Statement............................................    28
    Biography....................................................    32

Mr. Lee Lane, Co-Director, American Enterprise Institute (AEI) 
  Geoengineering Project
    Oral Statement...............................................    33
    Written Statement............................................    34
    Biography....................................................    43

Dr. Alan Robock, Professor, Department of Environmental Sciences, 
  School of Environmental And Biological Sciences, Rutgers 
  University
    Oral Statement...............................................    43
    Written Statement............................................    45
    Biography....................................................    51

Dr. James Fleming, Professor and Director, Science, Technology 
  and Society Program, Colby College
    Oral Statement...............................................    68
    Written Statement............................................    72
    Biography....................................................    79

Discussion
  The Eruption of Mt. Pinatubo: Natural Solar Radiation 
    Management...................................................    80
  Structuring a Research Initiative..............................    80
  The Potential Efficacy of Greenhouse Gas Mitigation............    82
  Research and Development Before Application....................    83
  The Dire Need for Mitigation and Behavior Change...............    84
  The Need for a Multidisciplinary and Realistic Approach to 
    Climate Change...............................................    85
  The Challenge of International Collaboration...................    87
  Agriculture and Livestock......................................    87
  The Power of Scientific Innovation.............................    89
  Geoengineering and Climate Simulations.........................    90
  A Potential Role for NASA......................................    90
  Skepticism of Global Climate Change............................    95
  Prioritizing Geoengineering Strategies.........................    97
  Needed International Agreements................................    98
  More on Livestock Methane Output...............................    99
  The Need for Mitigation........................................    99
  Global Dimming and Risks of Stratospheric Injections...........   100
  The Impact of Ingenuity and Behavior Change....................   100
  Climate Modeling Resources.....................................   101

             Appendix 1: Answers to Post-Hearing Questions

Dr. Ken Caldeira, Professor of Environmental Science, Department 
  of Global Ecology, The Carnegie Institution of Washington, and 
  Co-Author, Royal Society Report................................   109

Professor John Shepherd, FRS, Professional Research Fellow in 
  Earth System Science, National Oceanography Centre, University 
  of Southampton, and Chair, Royal Society Geoengineering Report 
  Working Group..................................................   110

Mr. Lee Lane, Co-Director, American Enterprise Institute (AEI) 
  Geoengineering Project.........................................   114

Dr. Alan Robock, Professor, Department of Environmental Sciences, 
  School of Environmental And Biological Sciences, Rutgers 
  University.....................................................   118

Dr. James Fleming, Professor and Director, Science, Technology 
  and Society Program, Colby College.............................   126

             Appendix 2: Additional Material for the Record

Letter to U.S. House of Representatives Committee on Science and 
  Technology from ETC group, dated November 4, 2009..............   134

                            C O N T E N T S

   Geoengineering II: The Scientific Basis and Engineering Challenges

                            February 4, 2010

Witness List.....................................................   137

Hearing Charter..................................................   138

                           Opening Statements

Statement by Representative Brian Baird, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................   144
    Written Statement............................................   144

Statement by Representative Bob Inglis, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................   145
    Written Statement............................................   145

                               Witnesses:

Dr. David Keith, Canada Research Chair in Energy and the 
  Environment, Director, ISEEE Energy and Environmental Systems 
  Group, University of Calgary
    Oral Statement...............................................   145
    Written Statement............................................   147
    Biography....................................................   151

Dr. Philip Rasch, Chief Scientist for Climate Science, Laboratory 
  Fellow, Atmospheric Sciences and Global Change Division, 
  Pacific Northwest National Laboratory
    Oral Statement...............................................   151
    Written Statement............................................   153
    Biography....................................................   166

Dr. Klaus Lackner, Department Chair, Earth and Environmental 
  Engineering, Ewing Worzel Professor of Geophysics, Columbia 
  University
    Oral Statement...............................................   167
    Written Statement............................................   168
    Biography....................................................   175

Dr. Robert Jackson, Nicholas Chair of Global Environmental 
  Change, Professor, Biology Department, Duke University
    Oral Statement...............................................   176
    Written Statement............................................   177
    Biography....................................................   182

Discussion
  Economic Costs of Geoengineering...............................   182
  Atmospheric Sulfate Injections.................................   183
  Land-Based Geoengineering......................................   184
  Carbon Air Capture and Mineral Sequestration...................   184
  Public Opinion and Education...................................   185
  Political, Scientific, and Economic Challenges.................   185
  Skepticism of Climate Change...................................   187
  The Scientific Basis of Climate Change.........................   195
  Chemical & Geological Carbon Uptake............................   196
  Alternatives to Fossil Fuels...................................   197
  The Successes of Protera LLC and the Need for Innovation.......   197
  Increasing Structural Albedo...................................   200
  Alternative Fuels and Conservation Priorities..................   200
  Coal and Carbon Capture and Sequestration......................   202
  Economically Viable Energy Sources.............................   203
  Closing........................................................   204

             Appendix 1: Answers to Post-Hearing Questions

Dr. David Keith, Canada Research Chair in Energy and the 
  Environment, Director, ISEEE Energy and Environmental Systems 
  Group, University of Calgary...................................   206

Dr. Philip Rasch, Chief Scientist for Climate Science, Laboratory 
  Fellow, Atmospheric Sciences and Global Change Division, 
  Pacific Northwest National Laboratory..........................   209

Dr. Klaus Lackner, Department Chair, Earth and Environmental 
  Engineering, Ewing Worzel Professor of Geophysics, Columbia 
  University.....................................................   214

Dr. Robert Jackson, Nicholas Chair of Global Environmental 
  Change, Professor, Biology Department, Duke University.........   215

             Appendix 2: Additional Material for the Record

Transcript of Discussion prior to the Formal Hearing Opening.....   218

                            C O N T E N T S

   Geoengineering III: Domestic and International Research Governance

                             March 18, 2010

Witness List.....................................................   220

Hearing Charter..................................................   221

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........   226
    Written Statement............................................   226

Statement by Representative Ralph M. Hall, Ranking Minority 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................   227
    Written Statement............................................   227

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................   228

                                Panel I:

Hon. Phil Willis, MP, Chairman, Science and Technology Committee, 
  United Kingdom House of Commons
    Oral Statement...............................................   229
    Written Statement............................................   232
    Biography....................................................   234

Discussion
  International Research Database................................   246
  The Future of Geoengineering Research in the U.K...............   247
  Additional Opportunities for International Collaboration.......   248
  Public Opinion of Geoengineering...............................   249
  The U.K. Inquiry Process.......................................   250

                               Panel II:

Dr. Frank Rusco, Director of Natural Resources and Environment, 
  Government Accountability Office (GAO)
    Oral Statement...............................................   251
    Written Statement............................................   254
    Biography....................................................   271

Dr. Granger Morgan, Professor and Department Head, Department of 
  Engineering and Public Policy, and Lord Chair Professor in 
  Engineering, Carnegie Mellon University
    Oral Statement...............................................   272
    Written Statement............................................   274
    Biography....................................................   295

Dr. Jane Long, Deputy Principal Associate Director at Large and 
  Fellow, Center for Global Strategic Research, Lawrence 
  Livermore National Lab
    Oral Statement...............................................   296
    Written Statement............................................   297
    Biography....................................................   309

Dr. Scott Barrett, Lenfest Professor of Natural Resource 
  Economics, School of International and Public Affairs and the 
  Earth Institute at Columbia University
    Oral Statement...............................................   310
    Written Statement............................................   312
    Biography....................................................   320

Discussion
  Initial Regulations............................................   320
  A Potential Role for DOE and National Labs.....................   321
  The Prospect of Unilateral Geoengineering......................   330
  The National Security and Geopolitical Impacts of Climate 
    Change.......................................................   332
  The Role for Federal Agencies..................................   332

             Appendix 1: Answers to Post-Hearing Questions

Dr. Frank Rusco, Director of Natural Resources and Environment, 
  Government Accountability Office (GAO).........................   336

Dr. Scott Barrett, Lenfest Professor of Natural Resource 
  Economics, School of International and Public Affairs and the 
  Earth Institute at Columbia University.........................   341

Dr. Jane Long, Deputy Principal Associate Director at Large and 
  Fellow, Center for Global Strategic Research, Lawrence 
  Livermore National Lab.........................................   345

Dr. Granger Morgan, Professor and Department Head, Department of 
  Engineering and Public Policy, and Lord Chair Professor in 
  Engineering, Carnegie Mellon University........................   351

             Appendix 2: Additional Material for the Record

CRS Report on the International Governance of Geoengineering.....   358


   GEOENGINEERING: ASSESSING THE IMPLICATIONS OF LARGE-SCALE CLIMATE 
                              INTERVENTION

                              ----------                              


                       THURSDAY, NOVEMBER 5, 2009

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:10 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

            ``Geoengineering: Assessing the Implications of

                   Large-Scale Climate Intervention''

                       thursday, november 5, 2009
                               10:00 a.m.
                   2318 rayburn house office building

Purpose

    On Thursday, November 5, 2009, the House Committee on Science & 
Technology will hold a hearing entitled ``Geoengineering: Assessing the 
Implications of Large-Scale Climate Intervention.'' Geoengineering can 
be described as the deliberate large-scale modification of the earth's 
climate systems for the purposes of counteracting climate change. 
Geoengineering is a controversial issue because of the high degree of 
uncertainty over potential environmental, economic and societal 
impacts, and the assertion that research and deployment of 
geoengineering diverts attention and resources from efforts to reduce 
greenhouse gas emissions. The purpose of this hearing is to provide an 
introduction to the concept of geoengineering, including the science 
and engineering underlying various proposals, potential environmental 
risks and benefits, associated domestic and international governance 
issues, research and development needs, and economic rationales both 
supporting and opposing the research and deployment of geoengineering 
activities. This hearing is the first in a series on the subject to be 
conducted by the Committee, with subsequent hearings intended to 
provide more detailed examination of these issues.

Witnesses

        <bullet>  Professor John Shepherd, FRS is a Professorial 
        Research Fellow in Earth System Science at the University of 
        Southampton, and Chair of the UK Royal Society working group 
        that produced the report Geoengineering the Climate. Science, 
        Governance and Uncertainty.

        <bullet>  Dr. Ken Caldeira is a professor of Environmental 
        Science in the Department of Global Ecology and Director of the 
        Caldeira Lab at the Carnegie Institution of Science at Stanford 
        University, and a co-author of the Royal Society report.

        <bullet>  Mr. Lee Lane is a Resident Fellow and the Co-director 
        of the Geoengineering Project at the American Enterprise 
        Institute (AEI) and former Executive Director of the Climate 
        Policy Center.

        <bullet>  Dr. Alan Robock is a Distinguished Professor of 
        Climatology in the Department of Environmental Sciences at 
        Rutgers University and Associate Director of Rutgers Center for 
        Environmental Prediction.

        <bullet>  Dr. James Fleming is a Professor and Director of 
        Science, Technology and Society at Colby College and the author 
        of Fixing the Sky: The Checkered History of Weather and Climate 
        Control.

Background

Climate
    Global warming is caused by a change in the ratio between the 
amount of incoming shortwave radiation from the sun and the outgoing 
longwave radiation. Greenhouse gases (GHG's), such as carbon dioxide 
and methane, decrease the ability of longwave radiation to escape 
earth's atmosphere. This makes it more difficult for radiation to 
``escape'' and therefore, causes higher radiation absorption. The 
trapped energy causes higher global temperatures. Proposals for 
geoengineering typically include activities that alter the earth's 
climate system by either directly reflecting solar radiation back into 
space or removing greenhouse gases from the atmosphere to stabilize the 
intake-output ratio.
    In pre-industrial times, the atmospheric concentration of carbon 
dioxide (CO<INF>2</INF>) remained stable at approximately 280 parts per 
million (ppm). Today the concentration stands at approximately 385 ppm 
and is steadily increasing. While some industrialized countries' 
emissions have remained flat in recent years--due in part to slowing 
economic growth and reduction of economic energy-intensity--overall 
global emissions are still growing more rapidly than most 1990s climate 
projections had anticipated,\1\ currently increasing CO<INF>2</INF> 
concentrations by approximately 2 ppm per year.
---------------------------------------------------------------------------
    \1\ The Global Carbon Project's CO<INF>2</INF> emissions trends 
notes that CO<INF>2</INF> emissions from fossil fuels and industrial 
processes have increased from 1.1% a year from 1990-1999 to 3.0% a year 
from 2000-2004. This growth represents a faster rate of increase than 
projected by even the most fossil-intensive scenarios projected in by 
the IPCC in the late 1990s. Archived at http://
www.globalcarbonproject.org/global/pdf/TrendsInCO2Emissions.V15.pdf as 
of October 20, 2009.
---------------------------------------------------------------------------
    Estimates on safe and plausible CO<INF>2</INF> concentration 
targets vary greatly. Climate scientists at the National Oceanic and 
Atmospheric Administration (NOAA) and a consensus of other scientific 
authorities identify 350 ppm as the long-term upper limit of 
atmospheric carbon concentrations that avoid significant environmental 
consequences. A climate panel led by NASA's Dr. Jim Hansen identified 
the ecological ``tipping point,'' the level at which atmospheric 
carbon, without additional increases, would produce rapid climate 
changes outside of our control, to be 450 ppm.\2\ \3\ The U.S. Global 
Change Research Program has also identified a stabilization target of 
450 ppm in order to ``keep the global temperature rise at or below . . 
. 2 F above the current average temperature, a level beyond which many 
concerns have been raised about dangerous human interference with the 
climate system.''
---------------------------------------------------------------------------
    \2\ Michael McCracken notes that the lowest concentration at which 
economic analyses [suggest] that stabilization seem even remotely 
possible is 450 ppm. See McCracken p. 2.
    \3\ Hansen, James et al. Target Atmospheric C02: Where Should 
Humanity Aim? Open Atmospheric Science Journal., 2, 217-231, 
doi:10.2174/1874282300802010217.
---------------------------------------------------------------------------
    Pending U.S. climate legislation and international initiatives 
under the United Nations Framework Convention on Climate Change 
(UNFCCC) would establish goals for reducing domestic and global 
greenhouse gas emissions and accelerating development of low-carbon or 
zero-carbon energy technologies. However, many in the international 
climate community hold that even the most aggressive achievable 
emissions reductions targets will not result in the avoidance of 
adverse impacts of climate change and ocean acidification. Given global 
economic growth trends, many consider reaching 450 ppm and temperature 
increases of more than 2 C to be imminent. The Intergovernmental Panel 
on Climate Change (IPCC) estimated in its 2007 assessment report that, 
under various emissions scenarios, the global temperature average will 
rise between 1.1 and 6.4 C by the year 2100, resulting in sea level 
rise of 18 to 59 cm in the same time frame.
    Further complicating these projections is the possibility of non-
linear, ``runaway'' environmental reactions to climate change. Two such 
reactions that would amount to climate emergencies are rapidly melting 
sea ice and sudden thawing of Arctic permafrost. Sea ice reflects 
sunlight, and as it melts it exposes more (darker) open ocean to 
sunlight, thus absorbing more heat and accelerating melting and sea 
level rise. Likewise, as Arctic permafrost thaws it releases methane, a 
more powerful greenhouse gas than CO<INF>2</INF>, which then further 
decreases the Earth's albedo and accelerates warming.

Geoengineering
    It is for these reasons that geoengineering activities are 
considered by some climate experts and policymakers to be potential 
``emergency tool'' in a much broader long-term and slower acting global 
program of climate change mitigation and adaptation strategies. Dr. 
John Holdren, director of the Office of Science and Technology Policy 
and President Obama's lead science advisor, asserted that while 
geoengineering proposals are currently problematic due to potential 
environmental side effects and financial costs, the possibility ``has 
got to be looked at'' as an emergency approach.\4\ While the deployment 
of geoengineering will likely remain a very controversial subject, an 
increasing number of experts are calling for a robust and transparent 
international research and development program to help determine which, 
if any, geoengineering proposals have potential for slowing climate 
change, and which carry unacceptable environmental or financial risk.
---------------------------------------------------------------------------
    \4\ Associated Press Interview with Seth Borenstein, April 8, 2009. 
See also his clarifying follow up email, published by Andrew C. Revkin, 
New York Times, April 9, 2009.
---------------------------------------------------------------------------
    Scientific hypotheses resembling geoengineering were published as 
early as the mid 20th century, but serious consideration of the topic 
has only begun in the last few years. In 1992 the National Academies of 
Sciences published a brief review of climate engineering concepts \5\ 
and provided rough cost estimates for injecting aerosols into the 
stratosphere to reflect sunlight.\6\ The Academies will also finalize a 
report in early 2010 which, in part, formally addresses geoengineering. 
The Intergovernmental Panel on Climate Change (IPCC) plans to do the 
same in its 5th report, to be finalized in 2014. The U.S. Department of 
Energy penned a White Paper in 2001 recommending a $64 million, five-
year program for research as part of the National Climate Change 
Technology Initiative, but it was not published. NASA held a workshop 
in April 2007 to discuss solar radiation management options. In May 
2008, the Council on Foreign Relations held the forum Geoengineering: 
Workshop on Unilateral Planetary Scale Geoengineering. Earlier in 2009, 
the Defense Advanced Research Projects Agency (DARPA) began 
consideration of funding certain geoengineering research initiatives, 
and NSF has funded independent research projects on potential 
implications.\7\ Last Friday, the Massachusetts Institute of Technology 
hosted a public symposium, ``Engineering a Cooler Earth: Can We Do It? 
Should We Try?''
---------------------------------------------------------------------------
    \5\ National Academy of Sciences. ``Chapter 28: Geoengineering.'' 
In Policy Implications of Greenhouse Warming: Mitigation, Adaptation 
and the Science Base, 422-464. National Academies Press, 1992.
    \6\ Council on Foreign Relations, workshop notes, May 2008.
    \7\ For example, Rutgers University received a research grant in 
May 2008 to be led by Alan Robock and Richard P. Turco to perform 
collaborative research on the implications of stratospheric aerosols 
and sun shading.
---------------------------------------------------------------------------
    In September of this year, the United Kingdom's Royal Society--an 
equivalent to the U.S. National Academies--published what many consider 
to be the most significant report on geoengineering entitled 
Geoengineering the Climate: Science, Governance and Uncertainty, which 
outlines various geoengineering methods and the associated challenges 
in research, ethics and governance. Otherwise, in general, the body of 
work on geoengineering consists of a limited number of individual 
scientific papers exploring variations of a few potential strategies, 
and the body of evaluative information on specific topics remains 
modest and mostly theoretical. The specific ecological safety issues 
and ethical considerations, similarly, have been assessed by only a 
handful of scientists and ethicists. Cost estimations for the various 
strategies are generally rough. Some are inexpensive enough to be 
undertaken unilaterally by independent nations or even wealthy 
individuals, while others entail immensely expensive technologies that 
would likely only be carried out through international partnerships.
    The Royal Society report and other studies divide geoengineering 
methods into two main categories: Solar Radiation Management (SRM) 
methods that reflect a portion of the sun's radiation back into space, 
reducing the amount of solar radiation trapped in the earth's 
atmosphere; and Carbon Dioxide Removal (CDR) methods that involve 
removing CO<INF>2</INF> from the atmosphere. SRM and CDR present 
fundamentally different challenges of governance, ethics, economics, 
and ecological impacts and experts most often assess them as wholly 
separate topics.

Carbon Dioxide Removal (CDR) or Air Capture (AC)

    CDR purports to remove greenhouse gases from the atmosphere, either 
by displacement or by stimulating the pace of naturally occurring 
carbon-consuming chemical processes. CDR strategies have the advantage 
of lowering the carbon content of the atmosphere. However, several of 
the options would be slow to implement and may be impossible to 
reverse. Those strategies involving a release of chemicals could also 
have a significant effect on vulnerable oceanic and terrestrial 
ecosystems. In addition, the chemical strategies would require 
increased mining efforts and the transportation of needed materials, 
which would carry its own environmental implications. Some of the 
potential strategies include:

    Afforestation/avoided deforestation--planting new trees on earlier 
deforested lands or otherwise promoting forest growth results in 
greater carbon absorption. In addition, old growth forests are 
efficient carbon consumers. Many believe a more comprehensive plan for 
avoiding old-forest destruction could be a useful contribution to 
greenhouse gas management.\8\
---------------------------------------------------------------------------
    \8\ The Canadian Forest Service's Forest Carbon Accounting Program 
educates land managers and the public on forestry's contribution to GHG 
management and establishes a National Forest Carbon Monitoring 
Accounting and Reporting System (NFCMARS). Archived online at http://
carbon.cfs.nrcan.gc.ca/CBM-CFS3<INF>-</INF>e.html as of October 20, 
2009. Scientific sources on the impact of trees on atmospheric carbon 
generally attribute between 15 and 20% of global GHG emissions to 
deforestation.

    Biological sequestration--Because terrestrial vegetation removes 
atmospheric carbon, carbon sinks can sequester carbon as biomass or in 
soil. This biomass could be used for fuels or sequestered permanently 
as biochar or other organic materials. The Committee held a hearing 
entitled Biomass for Thermal Energy and Electricity: A Research and 
Development Portfolio for the Future on October 21, 2009 that addressed 
---------------------------------------------------------------------------
this among other topics.

    Enhanced weathering techniques--Silicate materials react with 
CO<INF>2</INF> to form carbonates, thereby reducing ambient 
CO<INF>2</INF>. Silicate rocks could be mined and dispersed over 
agricultural soils, or released and dissolved into ocean waters 
(discussed below).

    Carbon capture and sequestration (CCS)--Already the subject of 
several U.S. and international research and development initiatives for 
electric power plant applications,\9\ in this case CCS describes the 
capture of ambient GHGs and storage in geologic reservoirs, such as 
natural cave systems and depleted oil wells. Some geoengineering papers 
refer to this strategy as Carbon Removal and Storage (CRS).
---------------------------------------------------------------------------
    \9\ For example, FutureGen and the Clean Coal Power Initiatives 
(CCPI) at DOE support RD&D for carbon capture and sequestration.

    Oceanic upwelling and downwelling--the natural ocean circulation 
processes are increased and accelerated in order to transfer 
atmospheric GHGs to the deep sea, a kind of carbon sequestration, using 
---------------------------------------------------------------------------
vertical pipes.

    Chemical ocean fertilization--The addition of iron, silicates, 
phosphorus, nitrogen, calcium hydroxide and/or limestone could enhance 
specific natural chemical processes which consume carbon, such as 
carbon uptake by phytoplankton.

Solar Radiation Management (SRM) or Sunlight Management

    Solar Radiation strategies do not modify CO<INF>2</INF> levels in 
the atmosphere. Instead, they reflect incoming radiation to reduce the 
atmosphere's solar energy content and restore its natural energy 
balance. Proposed reductions of solar radiation absorption are usually 
1-2% \10\; around 30% is already reflected naturally by the earth's 
surface and atmosphere.\11\ The methods are space, land, or ocean-based 
and involve either introducing new reflective objects within or outside 
of the atmosphere, or an increase in the reflectivity or albedo \12\ of 
existing structures and landforms. SRM could reduce increases in 
temperature, but it may not address the non-temperature aspects of 
greenhouse-induced climate changes. SRM strategies would generally take 
effect more quickly than CDR strategies. However, once started, some 
would likely require constant maintenance and/or replenishment to avoid 
sudden and drastic increases in temperature. Some SRM proposals 
include:
---------------------------------------------------------------------------
    \10\ The Royal Society report suggests a reduction of 1.8% (RS 23).
    \11\ Novim 8. This inherent reflectivity of the earth is often 
referred to as ``planetary albedo.''
    \12\ Albedo is usually presented as a number between 0 and 1, 0 
representing a material in which all radiation is absorbed and 1 a 
material which reflects all radiation.

    Stratospheric Sulfate Injections--A spray of sulfates into the 
second layer of earth's atmosphere \13\ could reflect incoming solar 
radiation to reduce absorption. This process occurs naturally after a 
volcanic eruption, in which large quantities of sulfur dioxide are 
released into the stratosphere.\14\
---------------------------------------------------------------------------
    \13\ Roughly 6 to 30 miles above the earth's surface.
    \14\ The naturally-occurring sulfur emissions from the 1991 
eruption of a volcano in the Philippines, Mt. Pinatubo, are thought to 
have decreased the average global temperature by 0.5 C for a 1-2 year 
period by increasing global albedo. Another example of such short term 
atmospheric cooling is often attributed to the eruption of El Chicon in 
March 1982.

    White roofs and surfaces--Painting the roofs of urban structures 
and pavements of urban environments white would increase their albedo 
by 0.15-0.25 (15-25%). This strategy was suggested by DOE Secretary 
Steven Chu in May of 2009 at the St. James Palace Nobel Laureate 
---------------------------------------------------------------------------
Symposium.

    Cloud brightening/Tropospheric Cloud Seeding--A fine spray of salt 
water or sulfuric acid is injected into the lowest level of our 
atmosphere to encourage greater cloud formation over the oceans, which 
would increase the local albedo.

    Land use changes--Portions of the earth's natural land cover could 
be modified for more reflective growth patterns, such as light colored 
grasses. Also, existing agricultural crops could be genetically 
modified to reflect more sunlight.

    Desert reflectors--Metallic or other reflective materials could be 
used to cover largely underused desert areas, which account for 2% of 
the earth's surface.

    Space-based reflective surfaces--One large satellite or an array of 
several small satellites with mirrors or sunshades could be placed in 
orbit to reflect a portion of sun radiation before it reaches the 
earth's atmosphere. Reflectors could also be placed at the sun-earth 
Lagrange (L 1) point, where the gravitational pulls from each body act 
with equal force and therefore allow objects to ``hover'' in place.

Key Strategies for Levying Assessments of Geoengineering Methods

    Very little applied research to demonstrate the efficacy and 
outside consequences of geoengineering proposals has been conducted so 
far; study has largely been limited to computer simulations. According 
to the Royal Society, outside of the existing RD&D programs for carbon 
sequestration and forest management, the only proposals that have 
undergone sustained research by the scientific community are certain 
types of ocean fertilization.\15\ Such research will likely need to be 
conducted over many years. Thus, experts argue that broad, 
collaborative discussions of proposed geoengineering methods should 
happen in the near term so policymakers can be sufficiently informed of 
their options well in advance of potential emergency climate events.
---------------------------------------------------------------------------
    \15\ Royal Society 19
---------------------------------------------------------------------------
    The primary costs for program deployment can be determined with 
some measure of accuracy, but a program's secondary costs (ecological, 
political, etc) and economic benefits will be more difficult to 
measure. Strenuous modeling is required to identify potential 
ecological impacts on, among other considerations: precipitation 
patterns and the hydrological cycle, ozone concentrations, agricultural 
resources, acid rain, air quality, ambient temperatures, and species 
extinction. Other factors to be examined include human health impacts, 
the costs incurred on consumers and taxpayers, impacts on minerals 
markets and increased mining needs,\16\ job creation or dissolution, 
international opinion/consensus, data collection and monitoring needs, 
sources of technology and infrastructure, and the energy demands 
incurred by large scale deployment. Many of these criteria can be 
quantified in relatively absolute scientific and economic terms, but 
others will be difficult to measure and even more difficult to weigh 
against one another.
---------------------------------------------------------------------------
    \16\ For example, stratospheric injections and ocean fertilization 
would require large chemical inputs of mined materials.
---------------------------------------------------------------------------
    Geoengineering methods with more encapsulated impacts (e.g. 
reforestation and white roofs) are expected to be easier to research 
and implement from a governance standpoint, but the evaluation of 
concentrated impacts on community natural resources and microeconomies 
remains a challenge.
    The reversibility of any geoengineering proposal is also a factor. 
Reversibility includes both the time it takes to end the program itself 
(e.g. the time it takes for stratospheric sulfate injections to 
dissipate) and the time in which the externalities will be ended and/or 
remediated (e.g. the time it takes for additional sulfates in the 
ecosystem to recede). Identifying the party responsible for reversing a 
geoengineering application, should it become necessary, is also a key 
front end consideration.
    Lastly, both the cost of carbon credits and public opinion are 
expected to heavily impact which strategies would be most viable. Just 
as a significant price on carbon would encourage the development of 
carbon-neutral energy sources, a higher price per ton of 
CO<INF>2</INF>, paired with offsets allowances, would likely increase 
the economic viability of many CDR options such as reforestation and 
CCS. Similarly, public preference for particular strategies will affect 
the viability of application for different methods.
    Experts in the field believe that the risks and costs associated 
with the various geoengineering strategies must not only be assessed in 
comparison to one another, but also relative to the potential costs of 
inaction on climate change or insufficient mitigation efforts.

Risks and Detriments

    Unilateral deployment--It is possible for a non-governmental group 
or individual to undertake one of the higher-impact, lower-cost 
geoengineering initiatives unilaterally, perhaps without scientific 
support or any risk management strategy. As recognized in the Royal 
Society report, the materials for stratospheric injections, for 
example, would be readily available and affordable to a small group or 
even a wealthy individual. For this reason and others, national and 
global security are also key concerns with geoengineering and 
international governance may be needed at the front end.

    Moral hazard--Another concern is that the public knowledge of 
widespread implementation of geoengineering represents a moral hazard, 
in which a person or group perceiving itself insulated from risk is 
more likely to engage in risky or detrimental behavior. The Royal 
Society suggests that there is significant risk in large-scale efforts 
being treated as a ``get out of jail free card,'' in which carbon 
sensitive consumer decision-making for mitigation will wane. Federal 
funding and political momentum for mitigation could also be compromised 
if geoengineering is seen as a superior substitute for traditional 
mitigation and adaptation.

    Ocean Acidification--A clear and significant disadvantage of 
geoengineering is that, unlike carbon mitigation strategies, most 
strategies do not reduce the progress of ocean acidification or 
destruction of coral reefs and marine life due to higher ocean 
temperatures. CDR methods address ambient carbon levels and could 
indirectly affect ocean carbon levels by slowing the rate of carbon 
uptake, but it is not clear that decreases in atmospheric carbon would 
help reverse ocean acidification. SRM methods do not address carbon 
levels at all.

    Accidental Cessation of SRM--One critical drawback of SRM methods 
specifically is that, because they do not modify atmospheric carbon 
concentrations, a disruption of service could result in large and rapid 
changes in climate, i.e. a return to the unmitigated impact of 
increased carbon levels. If SRM methods are undertaken without 
congruent controls on GHG emissions, then we would be constantly at 
risk of dramatic climate changes if the SRM program ends. These 
potential rapid, potentially catastrophic impacts must be carefully 
considered before implementation at any scale. A concurrent charge 
against geoengineering is that we may not have the political power, 
funds, foresight or organization, either domestically or 
internationally, for long-term governance of projects of this scale 
without incurring unacceptable negative impacts.

    Food and Water Security--A large-scale initiative impacting weather 
patterns could greatly modify the precipitation patterns in particular 
geographic areas, jeopardizing local food and fresh water supplies for 
local populations. For example, a drought incurred by unforeseen 
impacts of artificial cloud formation could suppress crop growth. Poor 
and developing nations may be particularly susceptible to such impacts.

    Butterfly Effect--Ultimately, there is near certainty that some 
consequences of geoengineering methods cannot be anticipated and will 
remain unseen until full-scale deployment. Skeptics have alleged the 
possibility of an ecological ``butterfly effect,'' in which the 
secondary effects of geoengineering are so wildly unforeseen that a 
large scale ecological crisis could occur. Some scientists argue that 
the possibility that such harmful side effects may be larger than the 
expected benefits should deter consideration of some or all 
geoengineering proposals.

Governance and International Issues

    Any effective, large-scale modification of the climate will 
necessarily have global consequences. While the technical aspects of 
essentially every geoengineering method will require a great deal of 
additional research and examination, the legal, governmental, socio-
political and ethical issues may ultimately be greater challenges to 
deployment. There are several fundamental questions on geoengineering 
governance that would need to be addressed: Who decides what methods 
are used? What regulatory mechanisms are there, and who establishes 
them? Who pays for the research, implementation, and surveillance? Who 
decides our ultimate goals and the pace in which we take toward 
achieving them? While some international treaties or agreements may be 
applicable to certain geoengineering applications, there are currently 
no regulatory frameworks in place aimed at geoengineering 
specifically.\17\ Furthermore, several proposed geoengineering 
strategies may directly violate existing treaties. These frameworks may 
pose an additional challenge for geoengineering implementation, but 
they may also provide guidance on ways to address the complex issues of 
jurisdiction and responsibility at the international scale.
---------------------------------------------------------------------------
    \17\ Royal Society 5
---------------------------------------------------------------------------
    One challenge to address is the likelihood of inequitable effects 
on particular localities. Large-scale efforts conducted in a particular 
place may produce greater net impact on that region. For example, 
stratospheric aerosols injections in the Midwest United States might 
result in decreased crop outputs in the region. In addition, a weather 
pattern, ecosystem balance or wildlife population modified as an effect 
of geoengineering could yield a disproportionate effect somewhere 
outside the source area. This could, for example, cause erratic 
precipitation patterns in a non-participatory nation.
    It is not clear whether one or more existing international 
frameworks such as the Intergovernmental Panel on Climate Change (IPCC) 
or the United Nations Framework Convention on Climate Change (UNFCCC) 
could be the appropriate managing entity of global geoengineering 
governance issues, or if the unique features of geoengineering would 
require the creation of a new international mechanism. In addition, as 
geoengineering is multidisciplinary, several domestic agencies at the 
Federal level have clear jurisdiction over topics imbedded in all or 
some of the suggested geoengineering methods as well as their immediate 
research and development needs. A number of cabinet-level departments 
and Federal agencies may be directly pertinent to the concurrent 
agricultural, economic, international security, and governance issues.

Analogous Government Initiatives

    The early years of nuclear weapons testing display a number of 
similarities to geoengineering, including the difficulties of levying 
cost-benefit analyses of their impacts, uncertain ecological impacts, 
an unknown geographic scope of impact, and potential intra- and 
intergovernmental liability issues. This relationship is noted by the 
ETC Group for the U.S. National Academies workshop on geoengineering 
held earlier this year.\18\ Before the Limited Test Ban Treaty was 
signed in 1963, several nations regularly performed nuclear tests 
underwater and in the atmosphere without international agreement, 
regulation, or transparency. Of course, the consequences of nuclear 
radiation and the potential for creating weapons are inherently 
international, but domestic experimentation preceded diplomatic 
considerations. The global impacts on both human health and 
international diplomacy, incurred without international consent, were 
considerable.
---------------------------------------------------------------------------
    \18\ Geoengineering's Governance Vacuum: Unilateralism and the 
Future of the Planet. For the National Academies workshop 
Geoengineering Options to Respond to Climate Change: Steps to Establish 
a Research Agenda. Washington, DC. June 15-16, 2009.
---------------------------------------------------------------------------
    Human-engineered weather modification shares these characteristics 
as well. The most commonly used strategy is cloud-seeding, in which 
particles \19\ are sprayed into the air to stimulate condensation and 
cloud formation. This practice is thought to modify precipitation 
patterns \20\ in order to enhance crop growth, manage water resources 
and promote human safety from natural hazards like floods and droughts. 
In 2003, the National Academies' National Research Council published 
its fourth report on weather modification, Critical Issues in Weather 
Modification Research. As of report publication there were 23 countries 
engaging in weather modification on a large scale, and China is the 
Nation most aggressively pursuing it, with an annual budget of over $40 
million for hail suppression and precipitation enhancement. However, 
NAS concluded that ``there is still no convincing scientific proof of 
the efficacy of intentional weather modification efforts. In some 
instances there are strong indications of induced changes, but this 
evidence has not been subjected to tests of significance and 
reproducibility.'' \21\ No consensus on the cause-and-effect 
relationship between cloud seeding and weather patterns has been 
determined, but it still continues to be practiced worldwide.
---------------------------------------------------------------------------
    \19\ Usually silver iodide or frozen CO<INF>2
    </INF>\20\ A highly visible example of an application of weather 
modification occurred during the 2008 Summer Olympic Games in China, 
when the Beijing Weather Engineering Office used cloud seeding to delay 
rainfall for several hours in order to accommodate the Games' opening 
ceremonies.
    \21\ NAS 3

Public Perception and Ethical Implications

    Due to the large uncertainties associated with most geoengineering 
methods, the opinions of the general public and the scientific 
community at this time generally vary from cautiously optimistic to 
unequivocally opposed. While a portion of the scientific community is 
committed to investigating the possibilities of geoengineering, another 
portion is resistant because geoengineering and carbon mitigation could 
be seen by some as direct substitutes\22\ and therefore in competition 
with one another, as discussed above.
---------------------------------------------------------------------------
    \22\ Barrett 1
---------------------------------------------------------------------------
    The general public may have qualms with geoengineering for several 
reasons. A given method's efficacy and safety may not coincide with the 
general public's perception, which then may unduly influence momentum 
toward an unjustified strategy. However, negative public perceptions of 
geoengineering may also prove to be a powerful catalyst for emissions 
reductions.\23\ A study by the British Market Research Bureau found 
that while participants were cautious or hostile toward geoengineering, 
``several agreed that they would actually be more motivated to 
undertake mitigation actions themselves'' after a large-scale 
geoengineering application was suggested.\24\
---------------------------------------------------------------------------
    \23\ Barrett 2
    \24\ Royal Society 43
---------------------------------------------------------------------------
    One major ethical issue is that even in a best case scenario, some 
nations are expected to benefit more than others. Moreover, the effects 
won't necessarily reflect which nations have contributed the most to 
the carbon problem (the debtors), nor those agent nations who devise, 
fund and execute the geoengineering activities. Another is the ``Dr. 
Frankenstein'' ethical concern, in which some believe deliberate human 
modification of the global climate is both a dangerous and 
inappropriate activity in the first place.
    Because geoengineering threatens to alter biological processes at a 
large scale, many are concerned that inequitable negative impacts may 
occur. Undue burdens may be placed on a particular locality, even if 
the locality or nation neither engaged in geoengineering nor produced a 
disproportionate share of anthropogenic carbon emissions. Because 
deployment and even applied research can hold global implications, open 
information access and an open equitable forum for international 
dialogue are expected to be requisite for a responsible approach to 
geoengineering.

Bibliography

Shepherd, John et al. Geoengineering the Climate: Science, Governance 
        and Uncertainty. September, 2009. New York: The Royal Society, 
        September, 2009.

Garstang, Michael et al. Critical Issues in Weather Modification 
        Research. Washington, DC: The National Academies Press, 2003.

Barrett, Scott. ``The Incredible Economics of Geoengineering.'' Johns 
        Hopkins University School of Advanced International Studies. 18 
        March, 2007.

Blackstock, J.J. et al. Climate Engineering Responses to Climate 
        Emergencies. (Novim, 2009). Archived online at: http://arvix/
        org/pdf/0907.5140

Cicerone, Ralph J. ``Geoengineering: Encouraging Research and 
        Overseeing Implementation,'' Climatic Change, 77, 221-226. 
        2006.

McCracken, Dr. Michael C. ``Geoengineering: Getting a Start on a 
        Possible Insurance Policy.'' The Climate Institute. Washington, 
        DC.

T.M.L. Wigley. ``A Combined Mitigation/Geoengineering Approach to 
        Climate Change.'' Science Magazine, 314, 452. October 2006.
    Chairman Gordon. Good morning. I would like to welcome 
everyone to today's hearing of the House Committee on Science 
and Technology entitled Geoengineering: Assessing the 
Implications of Large-Scale Climate Intervention.
    I believe this hearing marks the first time that a 
Congressional committee has undertaken a serious review of 
proposals for climate engineering. That is not surprising 
because this is a very complex, controversial subject that has 
had little formal debate in the United States.
    Geoengineering carries with it a tremendous range of 
uncertainties, ethical and political concerns, and the 
potential for catastrophic environmental side-effects. But we 
are faced with the stark reality that the climate is changing, 
and the onset of impacts may outpace the world's political and 
economic ability to avoid them.
    Therefore, we should accept the possibility that certain 
climate engineering proposals may merit consideration and, as a 
starting point, review research and development as appropriate. 
At its best geoengineering might only buy us some time. But if 
we want to know the answers we have to begin to ask the tough 
questions. Today we begin what I believe will be a long 
conversation.
    In fact, my intention is for this hearing to serve as the 
introduction to the concept of climate engineering. Over the 
next eight months the Committee will hold two to three more 
hearings to explore underlying science, engineering, ethical, 
economic and governance concerns in fuller detail.
    I am pleased to announce that this will be part of an 
inter-parliamentary project with our counterpart in the United 
Kingdom House of Commons Science and Technology Committee. When 
members of the Commons Committee visited us last spring, the 
Chairman, Phil Willis, proposed that we work together on issues 
of common interest. Geoengineering has decidedly global 
implications, and research should be considered in the context 
of a transparent international process.
    Yesterday the Commons Committee voted to undertake a 
parallel effort to examine the domestic and international 
regulatory framework that may be applicable to geoengineering. 
We will be in close contact with them, sharing the findings 
from our own efforts. When they complete their work in the 
spring, the Chairman of the Committee will testify before us in 
a hearing on domestic and international governance issues.
    But before we begin this discussion today I want to make 
something very clear upfront. My decision to hold this hearing 
should not in any way be misconstrued as an endorsement of any 
geoengineering activity, and the timing has nothing to do with 
the pending negotiations in Copenhagen. I know we will run the 
risk of misleading headlines.
    However, this subject requires very careful examination, 
and will likely only be considered as a potential stopgap tool 
in a much wider package of climate change mitigation and 
adaptation strategies. It will require years of internationally 
coordinated research for us to better understand our options, 
to examine the impacts, and to know if any activity warrants 
deployment. In the meantime nothing should stop us from 
pursuing aggressive long-term domestic and global strategies 
for achieving deep reductions in greenhouse gas emissions.
    This issue is too important for us to keep our heads in the 
sand. We must get ahead of geoengineering before it gets ahead 
of us, or worse, before we find ourselves in a climate 
emergency with inadequate information as to the full range of 
options. As Chairman of the committee of jurisdiction, I feel a 
responsibility to begin a public dialogue and develop a record 
on geoengineering.
    With that, I look forward to a good, healthy discussion, 
and I turn it over to my distinguished Ranking Member, Mr. 
Hall, for his opening statement.
    [The prepared statement of Chairman Gordon follows:]
               Prepared Statement of Chairman Bart Gordon
    Good morning. I would like to welcome everyone to today's hearing 
of the House Committee on Science and Technology entitled, 
``Geoengineering: Assessing the Implications of Large-Scale Climate 
Intervention.''
    I believe this hearing marks the first time that a Congressional 
Committee has undertaken a serious review of proposals for climate 
engineering. That is not surprising; it is a very complex and 
controversial subject that has seen little formal debate in the U.S.
    Geoengineering carries with it a tremendous range of uncertainties, 
ethical and political concerns, and the potential for catastrophic 
environmental side-effects. But we are faced with the stark reality 
that the climate is changing, and the onset of impacts may outpace the 
world's political and economic ability to avoid them.
    Therefore, we should accept the possibility that certain climate 
engineering proposals may merit consideration and, as a starting point, 
review research and development as appropriate. At its best 
geoengineering might only buy us some time. But if we want to know the 
answers we have to first ask the tough questions. Today we begin what I 
believe will be a long conversation.
    In fact, my intention is for this hearing to serve as the 
introduction to the concept of climate engineering. Over the next 8 
months the Committee will hold two to three more hearings to explore 
underlying science, engineering, ethical, economic and governance 
concerns in further detail.
    I am pleased to announce that this will be part of inter-
parliamentary project with our counterparts in the United Kingdom House 
of Commons Science and Technology Committee. When members of the 
Commons Committee visited us last spring the Chairman, Phil Willis, 
proposed that we work together on issues of common interest. 
Geoengineering has decidedly global implications, and research should 
be considered in the context of a transparent international process.
    Yesterday the Commons committee voted to undertake a parallel 
effort to examine the domestic and international regulatory frameworks 
that may be applicable to geoengineering. We will be in close contact 
with them, sharing the findings from our own efforts. When they 
complete their work in the spring the Chairman of the Committee will 
testify before us in a hearing on domestic and international governance 
issues.
    Before we begin this discussion today I want to make something very 
clear upfront--my decision to hold this hearing should not in any way 
be misconstrued as an endorsement of any geoengineering activity, and 
the timing has nothing to do with the pending negotiations in 
Copenhagen. I know we run the risk of misleading headlines.
    However, this subject requires very careful examination, and will 
likely only be considered as a potential stopgap tool in a much wider 
package of climate change mitigation and adaptation strategies. It will 
require years of internationally-coordinated research for us to better 
understand our options, examine the impacts, and know if any activity 
warrants deployment. In the meantime nothing should stop us from 
pursuing aggressive long-term domestic and global strategies for 
achieving deep reductions in greenhouse gas emissions.
    This issue is too important for us to keep our heads in the sand. 
We must get ahead of geoengineering before it gets ahead of us, or 
worse, before we find ourselves in a climate emergency with inadequate 
information as to the full range of options. As Chairman of the 
committee of jurisdiction, I feel a responsibility to begin a public 
dialogue and develop a record on geoengineering.
    With that, I look forward to a healthy discussion, and I yield to 
the distinguished Ranking Member, Mr. Hall for his opening statement.

    Mr. Hall. Mr. Chairman, I could make the shortest opening 
speech in the history of this committee.
    Chairman Gordon. Okay.
    Mr. Hall. I could say geoengineering, hello, but I won't do 
that. I will just say to you that I thank you for holding this 
hearing today, and once again, the Commerce and this Committee 
in our duties are taking on issues that are really the 
forefront of cutting-edge science, and I appreciate your 
leadership.
    As many of my colleagues will agree, the debate about 
climate change is far from over, and I am sure that you have 
conducted and participated in that and came to the conclusion 
that the fact that there are still many, many opinions as to 
the causes, the effects and the potential solutions 
demonstrates how much uncertainty there is out there and how 
crucial it is for our Nation to continue to search for answers.
    Geoengineering, or climate engineering, is the intentional 
modification of the earth's environment to promote--and just go 
to the definition and see that it is so broad that you could 
apply the term to almost any human changes that are made by 
humans and their surrounding environment, from building dams to 
deforestation. The actions are more local or regional in scope. 
The types of modifications we will be discussing are global in 
nature, and therefore, no matter what our preconceptions are, 
the implications of such technologies are far-reaching.
    I understand that the hearing is to be the first of a 
series of hearings on this topic, further exploring the 
scientific basis underpinning the concept of geoengineering, 
and the ethical concerns and issues surrounding any future 
development and deployment scenarios could be extremely helpful 
in advancing the discussion about geoengineering.
    I will reserve my full judgment on this issue until all the 
facts are in, but I have to admit I am a bit skeptical about 
this non-traditional approach. I know that our witnesses here 
today represent a variety of different viewpoints on 
geoengineering, and I am eager to listen to their thoughts 
about the issue. I am sure we will have plenty of questions to 
ask them. I really look forward to a very lively discussion, 
and I expect we are going to have one.
    So I think I have to thank you again, Mr. Chairman. This 
kind of opens up, you know--Alfred Hitchcock did The Birds. You 
remember that movie? And I have been working all since that 
time on a movie that have the elephants, flying elephants, you 
know, like Hitchcock had those birds that just were going to 
disturb the whole world. I don't know if I can get that 
underway or not, but we will maybe work that in in some of this 
here.
    I would yield back to my Chairman, James Bond, and I thank 
you very much for letting me talk.
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall
    Thank you, Mr. Chairman. I would like to thank you for holding this 
hearing today on geoengineering. Once again, this Committee is tackling 
issues that are the forefront of cutting edge science, and I appreciate 
your leadership.
    As many of my colleagues will agree, the debate about climate 
change is far from over. I am sure that you concluded that the fact 
that there are still so many opinions as to the causes, the effects and 
the potential solutions, demonstrates how much uncertainty is out there 
and how crucial it is for our nation to continue to search for answers.
    Geoengineering, or climate engineering, is the intentional 
modification of the Earth's environment to promote habitability. The 
definition is so broad that you could apply the term to any changes 
humans make in their surrounding environment, from building dams to 
deforestation. These actions are more local or regional in scope. The 
types of modifications we will be discussing this morning are global in 
nature, and therefore no matter what our preconceptions are, the 
implications of such technologies are far reaching.
    I understand that this hearing is to be the first of a series of 
hearings on the topic. Further exploring the scientific basis 
underpinning the concept of geoengineering, and the ethical concerns 
and issues surrounding any future development and deployment scenarios 
could be extremely helpful in advancing the discussion about 
geoengineering. I will reserve my full judgment on this issue until all 
the facts are in, but I have to admit I am a bit skeptical about this 
nontraditional approach.
    I know that our witnesses here today represent a variety of 
different viewpoints on geoengineering, and I am eager to listen to 
their thoughts about the issue. I'm sure that we will have plenty of 
questions to ask them, and I look forward to a lively discussion.
    So I have to thank you once again for holding this hearing, and I 
look forward to hearing from our distinguished witnesses.

    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good Morning. Thank you, Mr. Chairman, for holding today's hearing 
to examine the future of geoengineering strategies for reducing 
greenhouse gas emissions and counteracting climate change.
    This committee has met several times to discuss the implications of 
climate change and the best mechanisms to counter its effects. 
Throughout these discussions, we have emphasized the importance of 
working with our international partners to ensure that the global 
problem of climate change is addressed through a global solution.
    I am pleased to welcome our colleagues from the United Kingdom with 
whom this committee has worked to explore the potential of 
geoengineering as a means of reducing greenhouse gas emissions.
    I have been a strong supporter of many geoengineering techniques 
currently in use today, in particular the use of carbon capture and 
storage technology for coal, to reduce the amount of carbon released 
into the atmosphere. These demonstrated technologies allow us to combat 
climate change and continue using abundant natural resources. However, 
I am concerned about the unintended consequences of some geoengineering 
proposals. These untested techniques could have irreversible effects 
that may permanently change the chemical, physical and biological make-
up of our oceans and land. While I recognize that these proposals are 
still in their earliest stages, I believe it is important to address 
these concerns early in the research effort.
    I would like to hear from our witnesses how they will address these 
risks during the in-depth discussions on the potential of 
geoengineering. Further, as research and development projects move 
forward, how will these concerns be addressed and what protections will 
be put in place.
    I welcome our panel of witnesses, and I look forward to their 
testimony. Thank you again, Mr. Chairman.

    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Good morning, Mr. Chairman.
    I would like to welcome today's panel to our hearing, focused on 
research and work done in the field of geoengineering.
    Perhaps the greatest challenge the science community will face in 
the years ahead is being able to moderate climate change and global 
warming.
    While I believe that cutting emissions of greenhouse gases is a 
priority in climate mitigation, we must also prepare for the 
possibility that our environment will continue
    to degrade.
    There is no simple, solution, and while geoengineering may be 
possible, we still face many hurdles to its implementation and success.
    There are a range of methods that are currently being considered in 
the field of geoengineering and I look forward to hearing more about 
their potential today.
    We need global solutions to this global problem. We cannot proceed 
with any approach until we thoroughly examine the potential downside 
and all of the legal and ethical ramifications.
    There is a great deal of uncertainty in this field and as we 
proceed with future hearing look forward to examining all the 
consequences of implementing this type of science.
    Today's hearing represents a commitment on behalf of this Committee 
and Congress to work in a global capacity to foster this type of 
research.
    The witnesses who will join us are true subject experts. It is my 
hope that they can provide committee members with good information that 
is based on science.
    It is my hope that we can move forward proactively to devise 
policies for a broad approach to the problem of global warming.
    Thank you for hosting today's full committee hearing to learn more 
about geoengineering.

    Chairman Gordon. Well, Professor Shepherd, welcome to 
America. If there are other Members who wish----
    Mr. Hall. I knew that would get me in trouble.
    Chairman Gordon. If there are other Members who wish to 
submit additional opening statements, your statements will be 
added to the record at this point.
    And now it is my pleasure to introduce our witnesses. 
Professor John Shepherd is a Professional Research Fellow in 
Earth System Science at the University of Southampton and Chair 
of the Royal Society Geoengineering Working Group that produced 
the report Geoengineering The Climate: Science, Governance & 
Uncertainty. And it is the University of Southampton not 
located in New York. Dr. Ken Caldeira is a Professor of 
Environmental Science in the Department of Global Ecology at 
the Carnegie Institute of Washington and co-author of the Royal 
Society Report. Mr. Lee Lane is the Co-Director of the American 
Enterprise Institute for Public Policy Research's 
Geoengineering Project. Dr. Alan Robock is a Professor at the 
Department of Environmental Science at the School of 
Environmental and Biological Sciences at Rutgers University. 
Dr. Robock, Mr. Rothman wanted us to give you his best. He is 
ill today but wanted to be with you. And Dr. James Fleming is a 
Professor and Director of the Science, Technology and Society 
Program at Colby College and the author of Fixing the Sky: The 
Checkered History of Weather and Climate Control.
    As our witnesses should know, we will have five minutes for 
your spoken testimony. Your written testimony will be included 
in the record for the hearing, and when you have completed your 
spoken testimony we will begin the questions. Each Member then 
will have five minutes to question the witnesses.
    So we begin in the order, Dr. Caldeira.
    Dr. Caldeira. Isn't Dr. Shepherd first?
    Chairman Gordon. Well, I am reading from my report here, 
and so you are first in that regard but if you would like to 
yield to Dr. Shepherd, then we will do that. So if you will 
turn on your mic, we will all be better off.

   STATEMENT OF DR. KEN CALDEIRA, PROFESSOR OF ENVIRONMENTAL 
SCIENCE, DEPARTMENT OF GLOBAL ECOLOGY, THE CARNEGIE INSTITUTION 
       OF WASHINGTON, AND CO-AUTHOR, ROYAL SOCIETY REPORT

    Dr. Caldeira. Chairman Gordon, Ranking Member Hall, Members 
of the Committee, I thank you for giving me the opportunity 
today to speak with you about why it makes sense for us as 
American taxpayers to invest some of our hard-earned dollars in 
exploring ways to cost-effectively reduce the environmental 
threats that are facing us.
    I am a climate scientist working at the Carnegie 
Institution Department of Global Ecology. I have been studying 
climate and ocean acidification for over 20 years and 
investigating geoengineering options for more than 10 years.
    Climate change poses a real risk to Americans. The surest 
way to reduce this risk is to reduce emissions of greenhouse 
gases, such as carbon dioxide. We can build a 21st-century 
energy system based on solar and nuclear power along with 
carbon capture and storage from coal-, oil- and gas-fired power 
plants. I believe we can and will make this transformation to 
the clean energy system of the future. However, even if we 
decide to start building our 21st-century energy system today, 
because of the long time lags involved, we will still face 
threats from climate change.
    The options we are discussing today can be divided into two 
categories with very different characteristics, solar radiation 
management [SRM] approaches and carbon dioxide removal [CDR] 
approaches.
    Solar radiation management methods, which you could also 
call sunlight reflection methods, seek to reduce the amount of 
climate change by reflecting some of the sun's warming rays 
back to space. We know this basically works because volcanoes 
have cooled the earth in this way. Preliminary research 
suggests that we could rapidly and relatively cheaply put tiny 
particles high in the stratosphere and that this would cause 
the earth to cool quickly.
    Nobody thinks these approaches will perfectly offset the 
effects of carbon dioxide. For example, these methods do not 
address the problem of ocean acidification. However, 
preliminary climate model simulations indicate that these 
approaches could offset most climate change in most places most 
of the time.
    While these approaches may be able to reduce overall risk, 
they could and likely will introduce new environmental and 
political risks.
    In contrast, carbon dioxide removal approaches seek to 
reduce the amount of climate change and ocean acidification by 
removing carbon dioxide from the atmosphere. Essentially, these 
options reverse carbon dioxide emissions in the atmosphere by 
pulling carbon dioxide back out of the atmosphere.
    There are two basic types of carbon dioxide removal 
methods. One is to use growing forests or other plants to store 
carbon in organic forms. The other is to use chemical 
techniques. We could build centralized carbon dioxide removal 
factories or perhaps spread out finely ground-up minerals that 
would remove carbon dioxide from the atmosphere.
    With the exception of proposals to fertilize the oceans, 
carbon dioxide removal methods are unlikely to introduce new, 
unprecedented risks, so cost is likely to be the primary 
consideration governing deployment.
    Let me mention in closing that I do not think the term 
``geoengineering'' is very useful in informed discussions. The 
term has been used by so many people to refer to so many 
different and poorly defined grab bags of distantly related 
things that I do not believe the term can help us to think 
clearly about the decisions we need to make.
    So to conclude, we need multi-agency research programs in 
both sunlight reflection methods and carbon dioxide removal 
approaches to find cost-effective ways to protect American 
taxpayers from unnecessary environmental risk. Because these 
two basic approaches, the solar radiation management approaches 
and the carbon dioxide removal approaches, differ in so many 
dimensions, it seems unwise to link these research programs 
closely together.
    Solving our climate change problem is largely about cost-
effective risk management. There are many different ways that 
risk might be diminished, and the most important of these is to 
reduce greenhouse gas emissions. However, we also need to 
improve our resilience so that we can better adapt to the 
climate change that does occur. We also need to understand 
whether there are ways that we can cost-effectively remove 
carbon dioxide and perhaps other greenhouse gases from the 
atmosphere. Lastly, we should try to understand whether 
thoughtful, intentional interventions into the climate system 
might be able to undo some of the damage that we are doing with 
our current, inadvertent intervention.
    The problem is too serious to allow prejudice to take 
options off of the table. I thank you for your attention, and I 
would be happy to answer your questions.
    [The prepared statement of Dr. Caldeira follows:]
                   Prepared Statement of Ken Caldeira
            1. Summary

    Climate change poses a real risk to Americans. The surest way to 
reduce this risk is to reduce emissions of greenhouse gases.
    However, other options may also be available which could in some 
circumstances cost-effectively contribute to risk reduction. These 
options can be divided into two categories with very different 
characteristics:

        <bullet>  Solar Radiation Management (SRM) approaches seek to 
        reduce the amount of climate change by reflecting some of the 
        sun's warming rays back to space.

                  The most promising Solar Radiation Management 
                proposals appear to be inexpensive (at least with 
                respect to direct costs), can be deployed rapidly, and 
                can cause the Earth to cool quickly. They attempt 
                symptomatic relief without addressing the root causes 
                of our climate problem. Thus, these methods do not 
                address the problem of ocean acidification. While these 
                approaches may be able to reduce overall risk, there is 
                the potential that they could introduce additional 
                environmental and political risk. Solar Radiation 
                Management approaches have not yet been given careful 
                consideration in international negotiations to diminish 
                risks of climate change. The primary consideration 
                governing whether such systems would be deployed is our 
                level of confidence that they would really contribute 
                to overall risk reduction.

        <bullet>  Carbon Dioxide Removal (CDR) approaches seek to 
        reduce the amount of climate change and ocean acidification by 
        removing the greenhouse gas carbon dioxide from the atmosphere.

                  The most promising of the Carbon Dioxide Removal 
                approaches appear to be expensive (relative to SRM 
                methods, but perhaps competitive with methods to reduce 
                emissions), slow acting, and take a long time before 
                they could cool the Earth. However, they address the 
                root cause of the problem--excess CO<INF>2</INF> in the 
                atmosphere. There is no expectation that these methods 
                will introduce any new unprecedented risks. Some Carbon 
                Dioxide Removal approaches associated with forests and 
                agricultural practices have received attention in 
                international negotiations and in carbon offsetting 
                schemes. The primary consideration governing whether 
                Carbon Dioxide Removal approaches would be deployed is 
                cost relative to options to reduce greenhouse gas 
                emissions.
    We need multi-agency research programs in both Solar Radiation 
Management and Carbon Dioxide Removal. (Every agency that has something 
to contribute should be given a seat at the table.) Because Solar 
Radiation Management and Carbon Dioxide Removal approaches differ in so 
many dimensions, it seems unwise to link them closely together. In 
particular, Carbon Dioxide Removal approaches have more in common with 
efforts to reduce CO<INF>2</INF> emissions than they have with Solar 
Radiation Management approaches.

        <bullet>  Solar Radiation Management research might best be led 
        by agencies that have a strong track record in the highest 
        quality science, with no vested interest in the outcome of such 
        research, such as the National Science Foundation or perhaps 
        NASA.

        <bullet>  Carbon Dioxide Removal research that focuses on 
        storing carbon in reduced (organic) forms might best be led by 
        agencies that are already involved in conventional Carbon 
        Dioxide Removal methods involving agricultural or forestry 
        practices. Carbon Dioxide Removal approaches which employ 
        centralized chemical engineering methods to remove CO<INF>2</INF> 
        from the atmosphere might best be led by agencies, such as DOE, 
        already involved in carbon dioxide capture from power plants. 
        It is less clear where research into distributed chemical 
        approaches might fit best, although leadership by the National 
        Science Foundation is a possibility.

            2. Background

Climate change represents a real risk to Americans

    It is increasingly obvious that modern industrial society is 
affecting climate. It is less clear how much this climate change will 
affect the average American. Nevertheless, it is reasonable to think 
that there is a significant risk that climate change will be more 
disruptive to our economy than a few million mortgage defaults.
    Economists estimate that it might take 2% of our GDP to squeeze 
carbon dioxide emissions out of our energy and transportation systems. 
I believe that the risk is high that, if we continue to produce devices 
that dump carbon dioxide waste into the atmosphere, climate change will 
lead to problems that dwarf the subprime mortgage debacle. The recent 
subprime mortgage crisis, driven by defaults on several million 
mortgages, led to an approximately 4% reduction in worldwide GDP 
growth. Therefore, I believe a rational investor would invest 2% of our 
GDP to avoid this risk.
    When I am speaking, I often ask:

         If we already had energy and transportation systems that met 
        our needs without using the atmosphere as a waste dump for our 
        carbon dioxide pollution, and I told you that you could be 2% 
        richer, but all you had to do was acidify the oceans and risk 
        killing off coral reefs and other marine ecosystems, all you 
        had to do was heat the planet, and risk melting the ice caps 
        with rapid sea-level rise, risk shifting weather patterns so 
        that food growing regions might not be able to produce adequate 
        amounts of food, and so on, would you take all of that 
        environmental risk, just to be 2% richer?

    Nobody I have ever spoken with has said that all of this 
environmental risk is worth being 2 % richer. (Some years, I have 
gotten a 2% raise and barely noticed it.) So, I think we have to agree 
that the main issue with solving the climate-carbon problem is not the 
cost per se--it is that the cost is high enough to make it difficult to 
generate the necessary level of cooperation needed to solve the 
problem.
    I do not know how much climate change will affect the average 
American. While I cannot with confidence predict great damage, I can 
predict great risk.
    The carbon-climate problem is about risk management--and the best, 
surest, and clearest way to reduce environmental risk associated with 
greenhouse gas emissions is to reduce greenhouse gas emissions.
    If you take the risk of climate damage seriously, you want to take 
action to diminish risk by reducing greenhouse gas emissions, but you 
would not want to limit yourself to only one risk-reduction approach.
    There may be novel approaches that could also help us manage risk 
associated with greenhouse gas emissions. However, these novel 
approaches are poorly understood and have been inadequately evaluated. 
There has been a paucity of the kind of research and development that 
would let us understand the positive and negative properties of these 
approaches. These novel approaches are not alternatives to reducing 
greenhouse gas emissions; they are supplementary measures that might 
help us reduce the risk of climate-related damage. Some of them are 
approaches that America might need in a time of crisis.

            3. Introduction to the concept of ``geoengineering''

    ``Geoengineering'' is a catch-all term, used to refer to a broad 
collection of strategies to diminish the amount of climate change 
resulting from greenhouse gas emissions. The term ``geoengineering'' is 
used in different ways by different authors and there is no generally 
agreed-upon definition, although features common to strategies referred 
to by the word ``geoengineering'' generally include:

         (1) Intent to affect climate

         (2) Affecting climate at a regional to global scale

         (3) Novelty or lack of familiarity

    Emitting CO<INF>2</INF> by driving a car is not generally 
considered geoengineering because, while it affects global climate, 
there is no intent to alter climate. Planting a shade tree to provide a 
cooler local environment is not generally considered geoengineering 
because, while there is intent to alter climate, it is not at a 
sufficiently large scale. Promoting the growth of forests as a climate 
mitigation strategy involves an intent to affect climate at global 
scales; however, we are familiar with forest management, so this 
approach does not have the novelty that would cause most people to use 
the word ``geoengineering'' to refer to it.
    The term ``geoengineering'' also has another meaning related to the 
engineering of tunnels and other structures involving the solid Earth. 
Furthermore, the term ``geoengineering'' has been applied to large 
scale efforts to alter geophysical systems, such as the old Soviet plan 
to reroute northward flowing rivers so that they would instead flow 
south towards central Asia.
    Because ``geoengineering'' has been used by different people to 
refer to many different types of activities, and there is no single 
universally agreed definition, it is my opinion that the term 
``geoengineering'' no longer has much use in informed discussions. More 
than that, use of the term ``geoengineering'' can have a negative 
influence on the ability to conduct an informed discussion, since there 
is little that can be said generally about such an ill-defined and 
heterogeneous set of proposals.

            4. An introduction to the major ``geoengineering'' 
                    strategies

``Geoengineering'' strategies can be divided into two broad categories:

         (1) Solar Radiation Management (SRM) and related strategies 
        that seek to directly intervene in the climate system, without 
        directly affecting atmospheric greenhouse gas concentrations.

         (2) Carbon Dioxide Removal (CDR) and related strategies that 
        seek to diminish atmospheric greenhouse gas concentrations, 
        after the gases have already been released to the atmosphere.

    These two broad classes of strategy are so different, that they 
should be treated as being independent of each other. Solar Radiation 
Management approaches (SRM--can also be thought of as Sunlight 
Reflection Methods) attempt to limit damage from elevated greenhouse 
gas concentrations--these methods are designed to provide symptomatic 
relief. In contrast, Carbon Dioxide Removal strategies try to remove 
the atmospheric drivers of climate change--these methods are designed 
to address the root causes of our climate problem.
    Solar Radiation Management proposals will inherently involve 
actions by governments, because the primary issues driving deployment 
of such approaches will involve questions of environmental risk 
reduction, equity, governance, and so on. (Of course, a clear 
scientific and technical basis needs to be developed to act as a 
foundation for these policy discussions.)
    In contrast, Carbon Dioxide Removal proposals would likely be 
driven by actions of private corporations, because the primary factor 
driving deployment is likely to be a price on carbon emissions. If it 
is more cost-effective to remove carbon dioxide from the atmosphere 
than to prevent an emission to the atmosphere, and local environmental 
issues have been adequately addressed, then there will be an economic 
driver to remove carbon dioxide from the atmosphere.
    Because the issues around Solar Radiation Management (and related 
approaches) differ so greatly from issues around Carbon Dioxide Removal 
(and related approaches), it is best to address these two classes of 
possible activities separately.

            4.1 Solar Radiation Management (SRM) and related strategies

4.1.1. Overview of Solar Radiation Management

    While proposals to intentionally alter climate go back a half 
century or more, relatively little research has been done on these 
strategies. Therefore, everything said about these approaches must be 
regarded as provisional and preliminary. The recent report on 
Geoengineering by the U.K. Royal Society provides a good summary of 
this preliminary research.
    The sun warms the Earth. Greenhouse gases make it harder for heat 
to leave the Earth. With additional greenhouse gases warming the Earth, 
one way to cool things back down is to prevent the Earth from absorbing 
so much sunlight.
    There are two classes of proposal that appear to be able to address 
a significant part, if not all, of globally averaged mean warming: (1) 
placing small particles high in the atmosphere to reflect sunlight to 
space or (2) seeding clouds over the ocean to whiten them so that they 
reflect more sunlight to space.
    The leading proposal for reflecting large amounts of sunlight back 
to space is the emplacement of many small particles in the 
stratosphere. We have good reason to believe that such an approach will 
fundamentally work because volcanoes have performed natural experiments 
for us. It is thought that the rate of particle injection needed to 
offset a doubling of atmospheric CO<INF>2</INF> content is small enough 
that it could be carried in a single fire hose. The determination of 
whether we would ever want to deploy such a system would not depend on 
cost of the deployment, but rather on an assessment of whether it was 
really able to contribute to overall risk reduction, taking both 
environmental and political factors into consideration.
    In 1991, the Mt. Pinatubo volcano erupted in the Philippines, 
introducing a large amount of tiny particles into the stratosphere. 
This caused the Earth to cool by around 1 degree Fahrenheit. Within a 
year or two, most of this material left the stratosphere. Had we 
replenished this material, the total amount of cooling would have been 
more than enough to offset the average amount of warming from a 
doubling of atmospheric CO<INF>2</INF> concentration.
    There are questions about how good a short term eruption is as an 
analogue for a continuous injection of material into the stratosphere. 
Nevertheless, the natural experiment of volcanic eruptions give us 
confidence that the approach will basically work, and while there might 
be negative consequences, the world will not come instantly to an end, 
and that after stopping a short-term deployment, the world is likely to 
return to its previous trajectory within years.
    Nobody should think that any Solar Radiation Management strategy 
will work perfectly. Sunlight and greenhouse gases act differently on 
the atmosphere. Sunlight strikes the surface of the Earth where it can 
both warm the surface and help to evaporate water. Greenhouse gases for 
the most part absorb radiation in the middle of the atmosphere. So, 
changes in sunlight can never exactly compensate for changes in 
greenhouse gases.
    However, preliminary simulations indicate that it should be 
possible to offset most of the climate change in most of the world most 
of the time. Climate model simulations show that deflecting some 
sunlight away from the Earth can make a high CO<INF>2</INF> world more 
similar to a low CO<INF>2</INF> world at most times and at most places. 
However, the climate might deteriorate in some places. This raises 
important governance issues in that Solar Radiation Management 
approaches (or Solar Reflection Methods) have the potential to cause 
harm at some times in some places, even if they are able to reduce 
overall environmental damage and environmental risk.

4.1.2. Concerns relating to Solar Radiation Management

    While there is some expectation that Solar Radiation Management 
approaches can diminish most of the climate change in most of the world 
most of the time, it is possible that there could be bad effects that 
would render this offsetting undesirable. These bad effects could be 
environmental, or they could be socio-political.
    With regard to environmental negatives, it is possible there could 
be adverse shifts in rainfall, or damage to the ozone layer, or 
unintended impacts on natural ecosystems. These unintended consequences 
should be a major focus of a Solar Radiation Management research 
program. Furthermore, we must bear in mind that Solar Radiation 
Management proposals do not solve problems associated with ocean 
acidification (but they do not significantly affect ocean 
acidification).
    With regard to socio-political negatives, some countries might 
actually prefer their warmer high CO<INF>2</INF> climate or perhaps 
they might be (or believe they are) negatively impacted by a Solar 
Radiation Management scheme--or perhaps countries might differ in the 
amount or type of Solar Radiation Management to be deployed. These 
sorts of issues could cause political tension.
    It is also possible that the perceptions that there is a technical 
fix could lull people into complacency, and diminish pressure for 
emissions reductions. However, when the U.K. Royal Society conducted a 
preliminary focus group, they found that people were even more willing 
to put effort into emissions reduction after hearing the extreme 
measures scientists are considering to reduce climate risk. Just 
because we wear seatbelts, that does not mean we will drive more 
recklessly. Seat belts can remind us that driving is a dangerous 
activity.

4.1.3. Governance, regulation, and when to deploy

4.1.3.1. Gradual deployments

    Often, in discussions of Solar Radiation Management, there is an 
assumption that we are speaking about large scale deployments and some 
system of global governance is necessary. While discussions of 
governance and regulation of both experiments and deployments are 
necessary, it is not clear at this time what form that governance or 
those regulations should take.
    For example, it is thought that sulfur emissions from power plants 
might today be reflecting about 1 W/m2 back to space that would have 
otherwise been absorbed by Earth. This could be causing the Earth to be 
about 1 degree Fahrenheit cooler than it would otherwise be. In other 
words, if we cleaned up all of the sulfur emitted by power plants 
worldwide, the Earth might heat up another degree.
    Because sulfur lasts a year or more in the stratosphere but 
generally less than a week in the lower atmosphere, if we were to emit 
just a few per cent of the sulfur now emitted in the lower atmosphere 
into the upper atmosphere instead, we would get the same average 
cooling effect with a more than 95% reduction in overall pollution. 
What if China were to say, ``For each power plant that we fit with 
sulfur scrubbers, we will inject a few percent of that sulfur in the 
stratosphere--and we will get the same average cooling effect with a 
greater than 95% reduction in our sulfur emissions.''?
    Today, ships at sea burn high sulfur oil. These ships can leave 
white contrails in their wake, reflecting sunlight to space. The 
International Maritime Organization has requested that these sulfur 
emissions be curtailed for reasons related to pollution and health--and 
the expected outcome is additional global warming. What if these ships 
were retrofitted with cloud seeding devices that would produce these 
same contrails, but without releasing any pollution? (It has suggested 
that a seawater spray would do the job.)
    It is not clear whether these things would be good things to do or 
bad things to do. It is not clear what kind of governance or regulatory 
structures should be built around such activities. One reason why we 
need a research program and discussions about governance and regulation 
is so that we can make informed decisions about such issues.

4.1.3.2. Emergency deployments

    While such gradual deployments might be one path to implement Solar 
Radiation Management schemes, there is another possibility.
    In every emissions scenario considered by the Intergovernmental 
Panel on Climate Change, temperatures continue to increase throughout 
this century. Because of lags in the climate system and the long time 
scales involved in transforming our energy and transportation systems, 
the Earth is likely to continue warming throughout this century, 
despite our best efforts to reduce emissions. Our actions to diminish 
emissions can reduce the rate of warming and reduce the damage from 
warming, but it is probably already too late for us to see the Earth 
start to cool this century, unless we engage in solar radiation 
management (or related climate system interventions).
    What if we were to find out that parts of Greenland were sliding 
into the sea, and that sea-level might rise 10 feet by mid-century? 
(Such rapid sea level rises apparently happened in the geologic past, 
even without the kind of rapid shock we are now applying to our climate 
system.) What if rainfall patterns shifted in a way that caused massive 
famines? What if our agricultural heartland turned into a perpetual 
dustbowl? And what if research told us that an appropriate placement of 
tiny particles in the stratosphere could reverse all or some of these 
effects?
    That was a lot of ``what if's'', but nevertheless there is 
potential that direct intervention in the climate system could someday 
save lives and reduce human suffering. Moreover, direct intervention in 
the climate system might someday save lives and reduce suffering of 
American citizens. I do not know what the probabilities of such 
outcomes are, but I believe that if we take the risks associated with 
climate change seriously, we must investigate our options carefully and 
without prejudice.
    We do not want our seat belts to be tested for the first time when 
we are in an automobile accident. If the seat belts are not going to 
work, it would be good to know that now. If there is something really 
wrong with thoughtfully intervening in the climate system, we should 
try to find that out now, so that if a crisis occurs, policy makers are 
not put in the decision of having to decide whether to let people die 
or try to save their lives by deploying, at full scale, an untested 
system.
    We need the research now to establish whether such approaches can 
do more good than harm. This research will take time. We cannot wait to 
ready such systems until an emergency is upon us.

4.1.3.3. Building governance and regulatory structures

    We should proceed cautiously in developing governance and 
regulatory structures that could address Solar Radiation Management 
approaches both in the deployment phase and in the research phase.
    At this point we know very lithe. It is very easy to sound as if 
you are taking the moral high ground by saying, ``It is wrong to 
intentionally intervene in the climate system, so it should be 
disallowed.'' However, every simulation of a Solar Radiation Management 
method that used a ``reasonable'' amount of solar offsetting has found 
that there is potential to offset most of the climate change in most 
places most of the time. If we really believe that climate change has 
the potential to cause loss of life and suffering, and we believe that 
Solar Radiation Management approaches may have the potential to cost-
effectively reduce that loss of life and suffering, it could be immoral 
not to research and develop these options.
    Information on Solar Radiation Management approaches is at this 
point highly preliminary and has not been widely disseminated. Pushing 
too early for formal agreements may lock political entities into hard 
positions that will be difficult to modify later. Therefore, what is 
needed now for governance is a period of discussion, careful 
consideration, and learning.
    With respect to experiments, no additional regulation is needed for 
small scale field experiments designed to improve process understanding 
where there is no expectation of any detectable lasting effects and no 
detectable trans-boundary effects.
    Discussions need to begin about how to develop norms that might 
govern larger experiments where there is potential for detectable 
climate effects or where significant trans-boundary issues must be 
addressed.
    Since these larger experiments and deployments could affect people 
in many countries, it is important that these discussions occur both 
internationally and domestically. Initially, it is probably best if 
these discussions proceed informally, perhaps with the facilitation of 
scientific unions or professional organizations.
    In short, we need to do the informal groundwork now, so that we can 
develop the shared understanding that is necessary for the development 
of good governance and regulatory structures.

4.1.4. Additional Solar Radiation Management strategies

    While this discussion has focused on introducing small particles 
high in the atmosphere, a number of other approaches have been proposed 
that attempt to reduce the amount of climate change caused by increased 
greenhouse gas concentrations in the atmosphere. These include 
proposals to whiten clouds over the ocean, to mix heat deeper into the 
ocean, to whiten roofs and roads, to put giant satellites in space, and 
so on.
    For a number of reasons, I believe that placing small particles 
high in the atmosphere is the most promising category of Solar 
Radiation Management approaches. However, approaches to whiten clouds 
over the ocean or mix heat downward into the deep ocean, both appear 
feasible and may be able to be scaled up to offset a large fraction of 
century-scale warming. Of these two options, whitening marine clouds 
seems more benign, but neither of these approaches has been subject to 
sufficient scrutiny.
    Most other proposed Solar Radiation Management (and related) 
approaches, either cannot be scaled up sufficiently (e.g., proposals to 
whiten roofs and roads) to be a ``game changer'', or cannot be cost-
effectively scaled up quickly enough (e.g., massive satellites placed 
between the Earth and Sun) to make a difference this century.

4.1.4. Institutional arrangements for research

    Within the United States, agencies such as National Science 
Foundation or NASA might be in the best position to lead research into 
Solar Radiation Management, although DOE, NOAA, and other agencies also 
may have important roles to play.
    It is important that this research be internationalized and 
conducted in as open and transparent a way as possible.
    While laboratory and small scale process studies in the field need 
no additional regulation at this time, larger scale field studies will 
require some form of norms, governance, or regulation. Discussions need 
to take place, both domestically and internationally, to better 
understand how to strike the best balance between allowing the 
advancement of science and technology while safeguarding our 
environment.

            4.2 Carbon Dioxide Removal (CDR) and related strategies

    We emit greenhouse gases to the atmosphere, causing the Earth to 
warm. Is there potential to actively remove these gases from the 
atmosphere?
    The answer is, `yes, we are confident that there are ways to remove 
substantial amounts of carbon dioxide from the atmosphere.' By 
addressing the root cause of the climate change problem (high 
greenhouse gas concentrations in the atmosphere), Carbon Dioxide 
Removal strategies diminish climate risk. They also reduce ocean 
acidification. Carbon dioxide removal methods do not introduce 
significant new governance or regulatory issues.
    I would suggest that within the domain of Carbon Dioxide Removal 
there are at least two, and possibly three or more, relatively 
independent research programs.
    Because Carbon Dioxide Removal approaches represent a miscellaneous 
collection of approaches, there is no one taxonomy that would uniquely 
classify all of these proposals. Nevertheless, Carbon Dioxide Removal 
approaches can be divided into two categories:

        <bullet>  Strategies that use biological approaches (i.e., 
        photosynthesis) to remove carbon dioxide from the atmosphere 
        and store carbon in a reduced (organic) form.

        <bullet>  Strategies that use chemical approaches to remove 
        CO<INF>2</INF> from the atmosphere.

    Biological approaches may be subdivided in several different ways, 
but one way is to divide them into land-based and ocean-based 
approaches. Proposed land-based biological approaches include planting 
forests, changing agricultural practices to result in more carbon 
storage, and burying farm waste. All of these methods are limited by 
the low efficiency of photosynthesis, and thus require significant land 
area, although in some cases this land can be multi-use. Many of these 
approaches are already the subject of considerable study and are 
already being considered in discussions about how to limit climate 
change. Current research indicates that biologically-mediated carbon 
storage in the ocean is problematic in several dimensions, and is not 
likely to represent a significant contributor to solving our climate 
change problems.
    Chemical approaches may be divided into two categories: centralized 
approaches and distributed approaches. Centralized approaches seek to 
build industrial chemical processing facilities to remove carbon 
dioxide from the atmosphere and store it in a form that cannot interact 
with the atmosphere. The most promising avenue appears to be to store 
the carbon dioxide underground in compressed form, as with conventional 
carbon capture and storage. Distributed approaches seek to spread 
chemicals over large areas of the land or ocean, where they can react 
with carbon dioxide and cause the carbon dioxide to be removed from the 
atmosphere.
    There are additional hybrid approaches that do not fit easily into 
this taxonomy. For example, it has been suggested that plants could be 
grown and then burned in power stations to generate electricity, and 
then the CO<INF>2</INF> could be captured from the power stations and 
stored underground.
    More thought needs to be put into finding institutional homes for 
these research elements. While all of these research efforts are likely 
to require multi-agency input, it is likely that research into 
biologically based methods might best be led by agencies that have 
strong track records in the biological sciences or experience with 
agriculture and forestry issues. Research into the centralized chemical 
approaches might best be led by DOE, but this is uncertain.

            5. Closing comments

    Solving our climate change problem is largely about cost-effective 
risk management. There are many different ways that risk might be 
diminished. The most important of these is to diminish greenhouse gas 
emissions. However, we also need to improve our resilience so that we 
can better adapt to the climate change that does occur. We also need to 
understand whether there are ways that we can cost-effectively remove 
carbon dioxide and perhaps other greenhouse gases from the atmosphere. 
Lastly, we should try to understand whether a thoughtful intentional 
intervention in the climate system might be able to undo some of the 
damage of a thoughtless unintentional intervention in the climate 
system. This problem is too serious to allow prejudice to take options 
off the table.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Gordon. Thank you, Dr. Caldeira. And Professor 
Shepherd, you are recognized.

    STATEMENT OF PROFESSOR JOHN SHEPHERD, FRS, PROFESSIONAL 
RESEARCH FELLOW IN EARTH SYSTEM SCIENCE, NATIONAL OCEANOGRAPHY 
  CENTRE, UNIVERSITY OF SOUTHAMPTON, AND CHAIR, ROYAL SOCIETY 
              GEOENGINEERING REPORT WORKING GROUP

    Professor Shepherd. Good morning, Mr. Chairman, Ranking 
Member, members of the Committee, ladies and gentlemen, thank 
you very much for the invitation to come and testify to you 
this morning. It is a privilege to have that opportunity, and 
my testimony will be largely based on the Royal Society study 
that you mentioned, Mr. Chairman, which was undertaken over the 
past year and which I chaired. The report of this study was 
published in September, and it is available on the Royal 
Society's website, and printed copies have been made available 
to the Committee.
    The aim of this study was really to try and produce an 
authoritative and wide-ranging review to reduce the confusion 
and misinformation which exists in some quarters about this 
rather controversial and novel issue in order to enable a well-
informed debate on the subject, and so it is a great pleasure 
for me to be here at the beginning of such a debate, and I hope 
that our work will be useful.
    The Working Group was composed of 12 members, mainly 
scientists and engineers from the U.K., but also included a 
sociologist, a lawyer and an economist and one member from the 
U.S.A., Dr. Caldeira on my left, and one from Canada. And the 
members of the group were not proponents of geoengineering; 
they reflected a very wide range of opinions on the subject, 
and all recognize that the primary goal is to make the 
transition to the low-carbon economy that Dr. Caldeira has 
already mentioned which we shall need to do eventually 
irrespective of climate change simply because fossil fuels are 
a finite resource.
    So our terms of reference were to consider and as far as 
possible to evaluate proposed schemes for geoengineering, which 
we took to mean the deliberate, large-scale intervention in the 
earth's climate system primarily in order to moderate the 
global warming. Our study was based primarily on a review of 
the literature but also by a call for submissions of evidence, 
of which we received some 75.
    Since time is short, I would like to move directly to 
summarize the key messages of our study and first among these 
is that geoengineering is not a magic bullet. None of the 
methods that have been proposed provide an easy or immediate 
solution to the problems of climate change. There is a great 
deal of uncertainty about various aspects of virtually all the 
schemes that are being discussed. So at present, this 
technology, in whatever form it takes, is not an alternative to 
emissions reductions which remain the safest and most 
predictable method of moderating climate change, and in our 
view cutting global emissions of greenhouse gases must remain 
our highest priority.
    However, we all recognize that this is proving to be 
difficult, and in the future, given adequate research, 
geoengineering may be useful to support the efforts to mitigate 
climate change by conventional means.
    We concluded that geoengineering is very likely to be 
technically possible, but there are major uncertainties and 
risks with all methods concerning not only their effectiveness 
but also their costs, their unintended environmental impacts, 
and the social consequences and mechanisms needed to manage 
them.
    So in our view, this is not a technology which is ready for 
deployment in the immediate future. It is, however, a 
technology that may be useful at some point in the future if we 
find that we have need of it. But it will not be available 
unless we undertake the necessary research, not only on the 
technology but particularly also on the environmental and 
social impacts of such proposals. And to do that we need to 
have a widespread public debate and widespread public 
engagement and especially to develop an acceptable system of 
governance. Geoengineering by intention will affect everybody 
on the planet because it is an intentional moderation of the 
environment, and consequently everybody has an interest in the 
outcome. And we need to find a way to engage the opinions of a 
very diverse group of people on the planet in order that this 
can be done in an orderly and acceptable manner.
    Dr. Caldeira has reviewed the major differences between 
some of the methods, which I support entirely. And I would say 
finally, too little is known about the technologies at this 
stage to pick a winner. What we need is research on a small 
portfolio of promising techniques of both major types in order 
that our Plan B will be well prepared, should we ever need it.
    Mr. Chairman, thank you very much.
    [The prepared statement of Professor Shepherd follows:]
                  Prepared Statement of John Shepherd

Preamble

    This testimony is based extensively on the results of the U.K. 
Royal Society study undertaken during 2008 and 2009, which I chaired, 
entitled ``Geoengineering the Climate: Science, Governance & 
Uncertainty''. The report of this study was published in September 
2009. It is available at on-line at http://royalsociety.org/
document.asp?tip=0&id=8770, and printed copies of it have also been 
made available to the Committee. For the study we considered 
Geoengineering to be the deliberate largescale intervention in the 
Earth's climate system, in order to moderate global warming. The study 
was based primarily on a review of the available literature 
(concentrating so far as possible on published papers which have been 
peer reviewed) but also supplemented by a call for submissions of 
evidence (of which 75 were received).

Key Messages

<bullet>  Geoengineering is not a magic bullet: none of the methods 
proposed provides an easy or immediate solution to the problems of 
climate change, and it is not an alternative to emissions reductions.

<bullet>  Cutting global emissions of greenhouse gases must remain our 
highest priority. However, this is proving to be difficult, and 
geoengineering may in the future prove to be useful to support 
mitigation efforts.

<bullet>  Geoengineering is very likely to be technically possible. 
However, there are major uncertainties and thus potential risks with 
all methods, concerning their effectiveness, costs, and social & 
environmental impacts.

<bullet>  Much more research is needed before geoengineering methods 
could realistically be considered for deployment, especially on their 
possible environmental impacts (as well as on technological and 
economic aspects).

<bullet>  Widespread public engagement and debate is also needed, 
especially to develop an acceptable system of governance & regulation 
(for both eventual deployment and for some research activities)

Other major issues

    Geoengineering comprises a very wide range of methods which vary in 
many ways. This includes:

        <bullet>  Methods that remove greenhouse gases from atmosphere 
        (e.g. engineered air capture).
                  These address the root cause of problem and would be 
                generally preferred, but they only act slowly and are 
                likely to be costly.

        <bullet>  Methods that reflect a little sunlight (e.g. small 
        particles in the upper atmosphere)

                  These act quickly, and are relatively cheap, but 
                have to be maintained so they may not be sustainable in 
                the long term (there is a major problem if you stop) 
                and they do nothing for ocean acidification (the 
                ``other CO<INF>2</INF> problem'').

    We do not yet have enough information, so it is too soon to pick 
winners, and if geoengineering is ever deployed we may need a 
combination of both types of method. We therefore need to commence 
serious research and development on several of the promising methods, 
as soon as possible.

1) Introduction

    It is not yet clear whether, and if so when, it may become 
necessary to consider deployment of geoengineering to augment 
conventional efforts to moderate climate change by mitigation, and to 
adapt to its effects. However, global efforts to reduce emissions have 
not yet been sufficiently successful to provide confidence that the 
reductions needed to avoid dangerous climate change will be achieved. 
There is a serious risk that sufficient mitigation actions will not be 
introduced in time, despite the fact that the technologies required are 
both available and affordable. It is likely that global warming will 
exceed 2 C this century unless global CO<INF>2</INF> emissions are cut 
by at least 50% by 2050, and by more thereafter. There is no credible 
emissions scenario under which global mean temperature would peak and 
then start to decline by 2100. Unless future efforts to reduce 
greenhouse gas emissions are much more successful then they have been 
so far, additional action such as geoengineering may be required should 
it become necessary to cool the Earth this century.
    Proposals for geoengineering for climate intervention are numerous 
and diverse, and for our study we deliberately adopted a broad scope in 
order to provide a wide-ranging review. There has been much discussion 
in the media and elsewhere about possible methods of geoengineering, 
and there is much misunderstanding about their feasibility and 
potential effectiveness and other impacts. The overall aim of study was 
therefore to reduce confusion & misinformation, and so to enable a 
well-informed debate among scientists & engineers, policy-makers and 
the wider public on this subject.
    The working group which undertook the study was composed of 12 
members (listed below). These were mainly scientists & engineers, but 
also included a sociologist, a lawyer and an economist. The members 
were mainly from U.K. but included one member from the U.S.A. and one 
from Canada, and the study itself had an international remit. The WG 
members were not advocates of geoengineering, and held a wide range of 
opinions on the subject, ranging from cautious approval to serious 
scepticism.
    The terms of reference for the study were to consider, and so far 
as possible evaluate, proposed schemes for moderating climate change by 
means of geoengineering techniques, and specifically:

        1)  to consider what is known, and what is not known, about the 
        expected effects, advantages and disadvantages of such schemes

        2)  to assess their feasibility, efficacy, likely environmental 
        impacts, and any possible unintended consequences

        3)  to identify further research requirements, and any specific 
        policy and legal implications.

    The scope adopted included any methods intended to moderate climate 
change by deliberate large-scale intervention in the working of the 
Earth's natural climate system, but excluded:

                a)  Low-carbon energy sources & methods for reducing 
                emissions of greenhouse gases (because these are 
                methods for conventional mitigation, not 
                geoengineering)

                b)  carbon capture & storage (CCS) at the point of 
                emission, and

                c)  conventional afforestation and avoided 
                deforestation schemes (because these are also not 
                geoengineering per se and have been extensively 
                considered elsewhere)

2) General issues

    The methods considered fall into two main classes, which differ 
greatly in many respects, including their modes of action, the 
timescales over which they are effective, their effects on temperature 
and on other aspects of climate, so that they are generally best 
considered separately. These classes are:

        1)  Carbon dioxide removal (CDR) techniques which address the 
        root cause of climate change by removing greenhouse gases from 
        the atmosphere;

        2)  Solar Radiation Management (SRM) techniques that attempt to 
        offset the effects of increased greenhouse gas concentrations 
        by reflecting a small percentage of the sun's light and heat 
        back into space.

    Carbon Dioxide Removal methods reviewed in the study include:

        <bullet>  Land use management to protect or enhance land carbon 
        sinks;

        <bullet>  The use of biomass for carbon sequestration as well 
        as a carbon neutral energy source ;

        <bullet>  Acceleration of natural weathering processes to 
        remove CO<INF>2</INF> from the atmosphere;

        <bullet>  Direct engineered capture of CO<INF>2</INF> from 
        ambient air;

        <bullet>  The enhancement of oceanic uptake of CO<INF>2</INF>, 
        for example by fertilisation of the oceans with naturally 
        scarce nutrients, or by increasing upwelling processes.

    Solar Radiation Management techniques would take only a few years 
to have an effect on climate once they had been deployed, and could be 
useful if a rapid response is needed, for example to avoid reaching a 
climate threshold. Methods considered in the study include:

        <bullet>  Increasing the surface reflectivity of the planet, by 
        brightening human structures (e.g. by painting them white), 
        planting of crops with a high reflectivity, or covering deserts 
        with reflective material;

        <bullet>  Enhancement of marine cloud reflectivity;

        <bullet>  Mimicking the effects of volcanic eruptions by 
        injecting sulphate aerosols into the lower stratosphere;

        <bullet>  Placing shields or deflectors hi space to reduce the 
        amount of solar energy reaching the Earth.

    The scale of the impact required is global, and its magnitude is 
large. To have a significant effect on man-made global warming by an 
SRM method one would need to achieve a negative radiative forcing of a 
few WIm2, and for an effective CDR method one would need to remove 
several billion tons of carbon per year from the atmosphere for many 
decades. We did not consider in any detail any methods which were not 
capable of achieving effects approaching this magnitude.
    There are many criteria by which geoengineering proposals need to 
be evaluated, and some of these are not easily quantified. We undertook 
a preliminary and semi-quantitative evaluation of the more promising 
methods according to our judgement of several technical criteria only, 
namely their effectiveness, affordability, safety and timeliness. The 
cost estimates available are extremely uncertain, and it would be 
premature to attempt detailed cost-benefit analysis at this time.

3) Technical Aspects: feasibility, cost, environmental impacts and 
                    side-effects

    Our study concluded that geoengineering of the Earth's climate is 
very likely to be technically possible. However, the technology to do 
so is barely formed, and there are major uncertainties regarding its 
effectiveness, costs, and environmental impacts. If these uncertainties 
can be reduced, geoengineering methods could in the future potentially 
be useful in future to augment continuing efforts to mitigate climate 
change by reducing emissions. Given these uncertainties, it would be 
appropriate to adopt a precautionary approach: to enable potential 
risks to be assessed and avoided requires more and better information. 
Potentially useful methods should therefore be the subject of more 
detailed research and analysis, especially on their possible 
environmental impacts (as well as on technological and economic 
aspects).
    In most respects Carbon Dioxide Removal methods would be preferable 
to Solar Radiation Management methods, because they effectively return 
the climate system to a state closer to its natural state, and so 
involve fewer uncertainties and risks. Of the Carbon Dioxide Removal 
methods assessed, none has yet been demonstrated to be effective at an 
affordable cost, with acceptable side effects. In addition, removal of 
CO<INF>2</INF> from the atmosphere only works very slowly to reduce 
global temperatures (over many decades). If safe and low cost methods 
can be deployed at an appropriate scale they could make an important 
contribution to reducing CO<INF>2</INF> concentrations and could 
provide a useful complement to conventional emissions reductions. It is 
possible that they could even allow future reductions of atmospheric 
CO<INF>2</INF> concentrations (negative emissions) and so address the 
ocean acidification problem.
    Carbon Dioxide Removal methods that remove CO<INF>2</INF> from the 
atmosphere without perturbing natural systems, and without large-scale 
land-use change requirements, such as CO<INF>2</INF> capture from air 
and possibly also enhanced weathering are likely to have fewer side 
effects. Techniques that sequester carbon but have land-use 
implications (such as biochar and soil based enhanced weathering) may 
be useful contributors on a small-scale although the circumstances 
under which they are economically viable and socially and ecologically 
sustainable remain to be determined. The extent to which methods 
involving large-scale manipulation of Earth systems (such as ocean 
fertilisation), can sequester carbon affordably and reliably without 
unacceptable environmental side-effects, is not yet clear.
    Solar Radiation Management techniques are expected to be relatively 
cheap and would take only a few years to have an effect on the climate 
once deployed. However there are considerable uncertainties about their 
consequences and additional risks. It is possible that in time, 
assuming that these uncertainties and risks can be reduced, that Solar 
Radiation Management methods could be used to augment conventional 
mitigation. However, the large-scale adoption of Solar Radiation 
Management methods would create an artificial, approximate, and 
potentially delicate balance between increased gas concentrations and 
reduced solar radiation, which would have to be maintained, potentially 
for many centuries. It is doubtful that such a balance would really be 
sustainable for such long periods of time, particularly if emissions of 
greenhouse gases were allowed to continue or even increase. The 
implementation of any large-scale Solar Radiation Management method 
would introduce additional risks and so should only be undertaken for a 
limited period and in parallel with conventional mitigation and/or 
Carbon Dioxide Removal methods.
    Of the Solar Radiation Management techniques considered, 
stratospheric aerosol methods have the most potential because they 
should be capable of producing large and rapid global temperature 
reductions, because their effects would be more uniformly distributed 
than for most other methods, and they could be readily implemented. 
However, potentially there are significant side-effects and risks 
associated with these methods that would require detailed investigation 
before large-scale experiments are undertaken. Cloud brightening 
methods are likely to be less effective and would produce primarily 
localised temperature reductions, but they may prove to be readily 
implementable, and should be testable at small scale with fewer 
governance issues than other SRM methods. Space based SRM methods would 
provide a more uniform cooling effect than surface or cloud based 
methods, and if long-term geoengineering is required, may be a more 
cost-effective option than the other SRM methods although development 
of the necessary technology is likely to take decades.

4) The Human Dimension (Public Attitudes, Legal, Social & Ethical 
                    issues)

    The acceptability of geoengineering will be determined as much by 
social, legal and political issues as by scientific and technical 
factors. There are serious and complex governance issues which need to 
be resolved if geoengineering is ever to become an acceptable method 
for moderating climate change. Some geoengineering methods could 
probably be implemented by just one nation acting independently, and 
some maybe even by corporations or individuals, but the consequences 
would affect all nations and all people, so their deployment should be 
subject to robust governance mechanisms. There are no existing 
international treaties or bodies whose remit covers all the potential 
methods, but most can probably be handled by the extension of existing 
treaties, rather than creating wholly new ones. The most appropriate 
way to create effective governance mechanisms needs to be determined, 
and a review of existing bodies, treaties and mechanisms should be 
initiated as a high priority. It would be highly undesirable for 
geoengineering methods which involve activities or effects that extend 
beyond national boundaries (other than simply the removal of greenhouse 
gases from the atmosphere), to be deployed before appropriate 
governance mechanisms are in place.

Overall Conclusion

    The safest and most predictable method of moderating climate change 
is to take early and effective action to reduce emissions of greenhouse 
gases. No geoengineering method can provide an easy or readily 
acceptable alternative solution to the problem of climate change.

Key recommendations:

<bullet>  Parties to the UNFCCC should make increased efforts towards 
mitigating and adapting to climate change, and in particular to 
agreeing to global emissions reductions of at least 50% by 2050 and 
more thereafter. Nothing now known about geoengineering options gives 
any reason to diminish these efforts.

<bullet>  Further research and development of geoengineering options 
should be undertaken to investigate whether low risk methods can be 
made available if it becomes necessary to reduce the rate of warming 
this century. This should include appropriate observations, the 
development and use of climate models, and carefully planned and 
executed experiments. We suggested an expenditure of around 
<brit-pound>10M per year for ten years as an appropriate initial level 
for a U.K. contribution to an international programme, to which we 
would hope that the U.S.A. would also contribute a substantially larger 
amount.


Members of the working group

Chair

Professor John Shepherd, University of Southampton, U.K.

Members

Professor Ken Caldeira, Carnegie Institution, U.S.A.
Professor Peter Cox, University of Exeter, U.K.,
Professor Joanna Haigh, Imperial College, London, U.K.
Professor David Keith, University of Calgary, Canada.
Professor Brian Launder, University of Manchester, U.K.
Professor Georgina Mace, Imperial College, London, U.K.
Professor Gordon MacKerron, University of Sussex, U.K.
Professor John Pyle, University of Cambridge, U.K.
Professor Steve Rayner, University of Oxford, U.K.

                      Biography for John Shepherd
    Professor John Shepherd MA Ph.D. CMath FLMA FRS is a Professorial 
Research Fellow in Earth System Science in the School of Ocean and 
Earth Science, National Oceanography Centre, University of Southampton, 
U.K. He is a physicist by training, and has worked on the transport of 
pollutants in the atmospheric boundary layer, the dispersion of tracers 
in the deep ocean, the assessment & control of radioactive waste 
disposal in the sea, on the assessment and management of marine fish 
stocks, and most recently on Earth System Modelling and climate change. 
His current research interests include the natural variability of the 
climate system on long time-scales, and the development of intermediate 
complexity models of the Earth climate system for the interpretation of 
the palaeo-climate record. He graduated (first degree in 1967 and Ph.D. 
in 1971) from the University of Cambridge. From 1989-94 he was Deputy 
Director of the MAFF Fisheries Laboratory at Lowestoft, and the 
principal scientific adviser to the U.K. government on fisheries 
management. From 1994-99 he was the first Director of the Southampton 
Oceanography Centre. He has extensive experience of international 
scientific assessments and advice in the controversial areas of 
fisheries management, radioactive waste disposal, and climate change, 
and has recently taken a particular interest in the interaction between 
science and public policy. He is Deputy Director of the Tyndall Centre 
for Climate Change Research, and a Fellow of the Institute of 
Mathematics and its Applications. He was elected a Fellow of the Royal 
Society in 1999, participated in the Royal Society study on Ocean 
Acidification published in 2005, and chaired that on Geoengineering the 
Climate published in 2009.

    Chairman Gordon. Thank you, Professor Shepherd. And now, 
Mr. Lane, you are recognized.

  STATEMENT OF MR. LEE LANE, CO-DIRECTOR, AMERICAN ENTERPRISE 
             INSTITUTE (AEI) GEOENGINEERING PROJECT

    Mr. Lane. Chairman Gordon, Ranking Member Hall, other 
Members of the Committee, thank you very much for the 
opportunity to appear here this morning.
    I am Lee Lane. I am a Resident Fellow and head of the AEI 
Geoengineering Project. The American Enterprise Institute is a 
non-profit, non-partisan organization that engages in research 
and education on issues of public policy. AEI does not take 
organizational stances on the issues that it studies, and the 
views that I am going to express here this morning are entirely 
my own.
    I want to begin by warmly commending the Committee for 
convening this hearing, and my statement fundamentally urges 
that you treat this session as a first step toward embarking 
upon a serious, sustained and systematic exploration by the 
U.S. Government of research and development into solar 
radiation management in particular, one of the two approaches 
to climate engineering discussed by Dr. Caldeira and Dr. 
Shepherd.
    Solar radiation management, or SRM, as the Committee has 
heard, envisions offsetting manmade global warming by slightly 
raising the amount of sunlight that the earth reflects back 
into space. In a recent study, a panel of five highly acclaimed 
economists, including three Nobel laureates, rated R&D for two 
solar radiation management concepts as the first- and third-
most productive kinds of investment that can be made in dealing 
with climate change. Now, the panel that did those rankings was 
well aware of the large uncertainties that continue to surround 
solar radiation management, and they were also aware of the 
fact that, in the long run, at least solar radiation management 
cannot replace the need for greenhouse gas emissions 
reductions. But at the same time, the panel was clearly very 
much aware of the vast potential that solar radiation 
management has.
    One preliminary assessment is that SRM, if deployed, might 
well produce savings in terms of reduce damages from climate 
change, in terms of $200 to $700 billion a year. So we have 
potentially a good deal of upside with this technology.
    The cost of an R&D effort into solar radiation management 
is likely to be miniscule in comparison with these potential 
benefits. SRM research is needed in part because for many 
nations, steep reductions in greenhouse gas emissions cost more 
than the perceived value of the benefits of making those 
reductions. The record of the last 20 years of climate talks 
amply demonstrates that the prospects for steep emissions 
reductions on a global scale are poor, and they are likely to 
remain so for an extended period of time. Yet, without such 
emissions reductions, and perhaps even with them, some risk 
exists that quite harmful climate change might occur. An SRM 
system might greatly reduce the potential for harm. SRM, it is 
true, carries some hazards of its own. An R&D program, though, 
provides the best chance of gaining the information that might 
be needed, both to assess the prospects of SRM in a more 
knowledgeable way and also perhaps to find ways of minimizing 
those risks in the future.
    At this point, the top priority should be to gain added 
knowledge about SRM. Eventually, the United States may wish to 
address questions of international governance, but at this 
point, our first goal should be to learn more about solar 
radiation management as a tool.
    I guess the single most important caution that I would like 
to leave with the Committee is that the governance arrangements 
for any research program, including one on solar radiation 
management, can either serve to nurture R&D success or they can 
serve to stifle it. And I think it is awfully important as we 
go forward in considering how we want to manage research and 
development into SRM that we keep in mind the need to balance 
the risks and the benefits of how we structure our R&D efforts.
    Thank you very much.
    [The prepared statement of Mr. Lane follows:]
                     Prepared Statement of Lee Lane

1 Introduction

1.1 Summary

    Chairman Gordon, ranking member Hall, other members of the 
Committee, thank you for the opportunity to appear before you today. I 
am Lee Lane, a Resident Fellow at the American Enterprise Institute, 
where I am also co-director of AEI's geoengineering project. AEI is a 
nonpartisan, non-profit organization conducting research and education 
on public policy issues. AEI does not adopt organizational positions on 
the issues that it studies, and the views that I express here are 
solely my own.
    The Committee is to be commended for its decision to address the 
issue of geoengineering as a possible response to climate change. 
Climate change is an extremely difficult issue. It poses multiple 
threats that are likely to evolve over time. Too often, climate policy 
discussions have been locked into an excessively narrow range of 
possible responses.
    My statement this morning urges that the committee treat this 
hearing as a first step in what should grow into a serious, sustained, 
and systematic effort by the U.S. government to conduct research and 
development (R&D) on solar radiation management (SRM). SRM, as the 
committee has heard, envisions offsetting man-made global warming by 
slightly raising the amount of sunlight that the Earth reflects back 
into space.
    In a recent study, a panel of five highly acclaimed economists, 
including three Nobel laureates, rated fifteen possible concepts for 
coping with climate change. The rankings were based on the panel's 
assessments of the ratio of benefits to costs of each approach. 
Research on the two SRM technologies discussed below ranked first and 
third among these concepts. The expert panel was aware that many doubts 
continue to surround SRM, but its members were also clearly impressed 
with SRM's vast potential as one tool among several for holding down 
the cost of climate change.
    Research into SRM is needed in part because, for many nations, a 
steep decline in greenhouse gas (GHG) emissions may well cost more than 
the perceived value of its benefits (Nordhaus, 2008; Tol, 2009; Posner 
and Sunstein, 2008). The record of the last twenty years of climate 
negotiations amply demonstrates that steep emission reductions are 
unlikely, and will probably remain so for a long time to come. Yet, 
without such controls, and even with them, some risk exists that quite 
harmful climate change might occur.
    A successful SRM system could greatly reduce the risk of these 
harmful effects. SRM, it is true, carries some risks of its own. An R&D 
program may, however, provide additional information with which to 
assess these risks and, perhaps, to devise means to limit them. The 
potential net benefits of SRM are very large indeed. One recent study 
found that the difference between the costs of deploying SRM and the 
savings it could reap amount to $200 billion to $700 billion (Bickel 
and Lane, 2009). The costs of an R&D effort appear to be minuscule 
compared with these possible gains.

1.2 Main SRM concepts

    SRM aims to offset the warming caused by the build-up of man-made 
greenhouse gases in the atmosphere by reducing the amount of solar 
energy absorbed by the Earth. GHGs in the atmosphere absorb long-wave 
radiation (thermal infrared or heat) and then radiate it in all 
directions-including a fraction back to Earth's surface, raising global 
temperature. SRM does not attack the higher GHG concentrations. Rather, 
it seeks to reflect into space a small part of the sun's incoming 
short-wave radiation. In this way, temperatures are lowered even though 
GHG levels are elevated. At least some of the risks of global warming 
can thereby be counteracted (Lenton and Vaughan, 2009).
    Reflecting into space only one to two percent of the sunlight that 
strikes the Earth would cool the planet by an amount roughly equal to 
the warming that is likely from doubling the pre-industrial levels of 
greenhouse gases (Lepton and Vaughan, 2009). Scattering this amount of 
sunlight appears to be possible.
    Several SRM concepts have been proposed. They differ importantly in 
the extent of their promise and in the range of their possible use. At 
least two such concepts appear to be promising at a global scale: 
marine cloud whitening and stratospheric aerosols.

1.2.1 Marine Cloud Whitening

    One current proposal envisions producing an extremely fine mist of 
seawater droplets. These droplets would be lofted upwards and would 
form a moist sea salt aerosol. The particles within the aerosol would 
be less than one micron in diameter. These particles would provide 
sites for cloud droplets to form within the marine cloud layer. The up-
lofted droplets would add to the effects of natural sea salt and other 
small particles, which are called, collectively, cloud condensation 
nuclei (Latham et al., 2008). The basic concept was succinctly 
described by one of its developers:

         Wind-driven spray vessels will sail back and forth 
        perpendicular to the local prevailing wind and release 
        micronsized drops of seawater into the turbulent boundary layer 
        beneath marine stratocumulus clouds. The combination of wind 
        and vessel movements will treat a large area of sky. When 
        residues left after drop evaporation reach cloud level they 
        will provide many new cloud condensation nuclei giving more but 
        smaller drops and so will increase the cloud albedo to reflect 
        solar energy back out to space.'' (Salter et al., 2008)

    The long, white clouds that form in the trails of exhaust from ship 
engines illustrate this concept. Sulfates in the ships' fuel provide 
extra condensation nuclei for clouds. Satellite images provide clear 
evidence that these emissions brighten the clouds along the ships' 
wakes.
    Currently, the widely discussed option for implementing this 
approach envisions an innovative integration of several advanced 
technologies. The system calls for wind-powered, remotely controlled 
ships (Salter et al., 2008). However, other more conventional 
deployment systems may also be possible (Royal Society, 2009).
    Analyses using the general circulation model of the Hadley Center 
of the U.K. Meteorological Office suggest that the marine clouds of the 
type considered by this approach contribute to cooling. They show that 
augmenting this effect could, in theory, cool the planet enough to 
offset the warming caused by doubling atmospheric GHG levels. A 
relatively low percentage of the total marine cloud cover would have to 
be enhanced in order to achieve the desired result. A British effort is 
developing hardware with which to test the feasibility of this concept 
(Bower et al., 2006).

1.2.2 Stratospheric Aerosols

    Tnserting aerosols into the stratosphere is another approach. The 
record of several volcanic eruptions offers a close and suggestive 
analogy. The global cooling from the large Pinatubo eruption (about .5 
degrees Celsius) that occurred in 1991 was especially well-documented 
(Robock and Mao, 1995). Such eruptions loft particles into the 
atmosphere. There, the particles scatter back into space some of the 
sunlight that would otherwise have warmed the surface. As more sunlight 
is scattered, the planet cools.
    Injecting sub-micron-sized particles into the stratosphere might 
mimic the cooling effects of these natural experiments. Compared to 
volcanic ash, the particles would be much smaller in size. Particle 
size is important because small particles appear to be the most 
effective form for climate engineering (Lepton and Vaughan, 2009). 
Eventually, the particles would descend into the lower atmosphere. Once 
there, they would precipitate out. ``The total mass of such particles 
would amount to the equivalent of a few percent of today's sulfur 
emissions from power plants'' (Lane et al., 2007). If adverse effects 
appeared, most of these effects would be expected to dissipate once the 
particles were removed from the stratosphere.
    Sulfur dioxide (SO<INF>2</INF>), as a precursor of sulfate 
aerosols, is a widely discussed candidate for the material to be 
injected. Other candidates include hydrogen sulfide (H<INF>2</INF>S) 
and soot (Crutzen, 2006). A fairly broad range of materials might be 
used as stratospheric scatterers (Caldeira and Wood, 2008). It might 
also be possible to develop engineered particles. Such particles might 
improve on the reflective properties and residence times now envisioned 
(Teller et al., 2003).
    The volumes of material needed annually do not appear to be 
prohibitively large. One estimate is that, with appropriately sized 
particles, material with a combined volume of about 800,000 m3 would be 
sufficient. This volume roughly corresponds to that of a cube of 
material of only about 90 meters on a side (Lane et al., 2007). The use 
of engineered particles could, in comparison with the use of sulfate 
aerosols, potentially reduce the mass of the particles by orders of 
magnitude (Teller et al., 2003).
    Several proposed delivery techniques may be feasible (NAS, 1992). 
The choice of the delivery system may depend on the intended purpose of 
the SRM program. In one concept, SRM could be deployed primarily to 
cool the Arctic. With an Arctic deployment, large cargo planes or 
aerial tankers would be an adequate delivery system (Caldeira and Wood, 
pers. comm., 2009). A global system would require particles to be 
injected at higher altitudes. Fighter aircraft, or planes resembling 
them, seem like plausible candidates. Another option entails combining 
fighter aircraft and aerial tankers, and some thought has been given to 
balloons (Robock et al., 2009).

1.3 Air capture of CO<INF>2</INF> (AC)

    Air capture (AC) of carbon dioxide (CO<INF>2</INF>) is the second 
family of climate engineering concepts. AC focuses on removing CO<INF>2</INF> 
from the atmosphere and securing it in land- or sea-based sinks.

         ``Air capture may be viewed as a hybrid of two related 
        mitigation technologies. Like carbon sequestration in 
        ecosystems, air capture removes CO<INF>2</INF> from the 
        atmosphere, but it is based on large-scale industrial processes 
        rather than on changes in land use, and it offers the 
        possibility of near-permanent sequestration of carbon.'' (Keith 
        et al., 2005).

    Like carbon capture and storage (CCS), air capture involves long-
term storage of CO<INF>2</INF>, but air capture removes the CO<INF>2</INF> 
directly from the atmosphere rather than from the exhaust streams of 
power plants and other stationary sources (Bickel and Lane, 2009).
    Were technological progress to greatly lower the costs of AC, this 
approach might offer a number of advantages. However, even with costs 
far below those that are now possible, large-scale AC appears to face 
huge cost penalties vis-a-vis SRM. For instance, compare the cost of 
using AC to achieve the cooling possible with one W 
m<SUP>-</SUP><SUP>22</SUP> of SRM. The present value cost of achieving 
this goal (over a 200-year period) with AC is (very optimistically) 
$5.6 trillion. The direct cost of SRM might well be less than $0.5 
trillion (Bickel and Lane, 2009).
    Proponents of AC may argue that even this low level of SRM might 
entail some costs from unwanted side effects. AC, they may also note, 
conveys some added benefits with regard to ocean acidification. These 
points are well-taken; yet it is far from clear that, when taken 
together, these benefits would be worth anything even remotely near $5 
trillion. It seems safe to conclude that, compared with SRM, when 
economics is accounted for, AC should be a distinctly lower priority 
target for R&D. Thus, the rest of my remarks this morning will focus on 
SRM.

2 Deploying SRM might yield large net benefits

2.1 Initial estimates of benefits and direct costs

    Expert opinion suggests that SRM is very likely to be a feasible 
and effective means of cooling the planet (Royal Society, 2009). 
Indeed, this concept may have more upside potential than does any other 
climate policy option. At the same time, SRM, like all other options, 
entails risks, and these will be discussed below.
    As noted earlier, recent study found that the benefits of SRM 
exceeded the costs of operating the system by an amount that would 
translate into $200 billion to $700 billion per year (Bickel and Lane, 
2009). Some of these benefits stem from lowering the economic harm 
expected from climate change. SRM, by lowering the risk of rapid 
climate change, would also allow a more gradual path toward GHG 
control--lowering the total costs of controls.
    It is quite true that these benefit estimates are preliminary and 
subject to many limitations. They do not, for instance, account for the 
indirect costs implied by possible unwanted side effects of SRM. These 
indirect costs could be substantial, and the next section of my 
statement will discuss them. At the same time, the estimate excludes 
several factors that would be likely to increase the estimated 
benefits.

2.2 Abrupt climate change might increase the value of SRM

    For example, some grounds exist for fearing that many of the 
current models understate the risks of extremely harmful climate change 
(Weitzman, 2008). Emission controls, even if they could be implemented 
effectively, i.e. globally, require more than a century before actually 
cooling the planet (IPCC, 2007). SRM, however, might stand a much 
better chance of preventing the worst should such a nightmare scenario 
begin to unfold. Once developed, either of the two techniques discussed 
above could be deployed very rapidly. The low costs of SRM mean that a 
few nations working together, or even a single advanced state, could 
act to halt warming, and it could do so quickly (Barrett, 2009).
    Merely developing the capacity to deploy SRM, therefore, is like 
providing society with a climate change parachute. And like a real 
parachute, having it may be valuable even if it is not actually 
deployed. In general, the more one credits the risk of rapid, highly 
destructive climate change, the greater is the potential value of SRM.

2.3 Suboptimal controls will raise the value of SRM

    Less-than-optimal GHG emission controls, or no controls, would 
decrease global economic welfare, but these flawed policies would 
actually increase the positive contribution of SRM. This fact is 
important because actual GHG controls are certain to be far from the 
broad, uniform, price-based incentives that economic analysis calls 
for. In fact, few, if any, countries are likely to implement controls 
of this kind (Lane and Montgomery, 2009).
    Excess GHG emissions are an example of a fairly common kind of 
market failure, which can arise when property rights allow open access 
to a valuable resource. Instances include open access to grazing land, 
fishing grounds, or to oil and gas reservoirs. Open access can cause 
under-investment in maintaining the resource and too much consumption 
of it (Eggertsson, 2003). In the case of climate, the open access 
resource is the atmosphere's capacity to absorb GHG discharges.
    In principle, collective action could solve the problem by limiting 
access. In practice, efforts to limit open access property rights often 
founder. For example, wild ocean fish stocks are being seriously 
depleted. Curbs on the over-pumping of oil and gas resources have 
sometimes worked, but often they have only done so after a great deal 
of economic waste had already occurred (Libecap, 2008). So far, GHG 
control has been another instance of this pattern of frequent failure.
    Further, GHG control has many of the features that make an 
effective global solution more difficult to attain. In such 
transactions, the more diverse are the interests of the parties, the 
poorer are the prospects for success (Libecap, 2008). Contrasting value 
judgments often cause conflict (Alston and Mueller, 2008). With GHG 
controls, the differing interests of richer and poorer nations have 
emerged as especially problematic (Bial et al., 2001).
    Thus, for China and India, economic development offers better 
protection from harmful climate change than do GHG limits. This choice 
makes sense. Industrialization can boost the ability to adapt to 
climate change-- Of course, it can also relieve many other more acute 
problems. For these countries, slowing growth in the name of GHG 
control may simply be a bad investment (Schelling, 2002). To put the 
matter bluntly, for China and India, there seem to be good reasons for 
thinking that taking any but the lowest cost steps to control GHG 
emissions is just not worth the cost.
    As a result, China and India have largely limited their GHG control 
steps to those that in the U.S. context have been called ``no regrets'' 
measures. These are steps that would make sense absent concern about 
climate change. Such measures will have at best marginal impacts on the 
growth of emissions. Yet unless far steeper GHG cuts are implemented, 
widely cited goals for 2050 and 2100 are simply unattainable (Jacoby et 
al., 2008).
    The most logical inference from this situation is that those goals 
will not, in fact, be met. If they are not, climate change damages will 
exceed those projected to occur with an optimal control regime, as will 
the risks of abrupt, high-impact climate change. This prospect suggests 
that SRM is likely to be more valuable than the recent Bickel/Lane 
analysis indicates.

3 Important uncertainties remain

    SRM could, then, offer important help in reducing some of the risks 
of climate change, but it poses some risks as well.

3.1 Concerns about possible indirect costs

    Some of the risks that have been ascribed to SRM are somewhat 
poorly defined (Smith, 2009). Others, however, are clear enough, at 
least in concept. One such risk is the possible lessening of rainfall. 
The strength of the Indian or African monsoons is a particular worry. 
Other concerns also exist. For example, until chlorine concentrations 
return to levels present in the 1980s, sulfate aerosols added to the 
stratosphere may retard the ozone layer's recovery (Tilmes et al., 
2008).
    Concerns have also arisen over acid precipitation if SO<INF>2</INF> 
were injected into the stratosphere. In addition, stratospheric aerosol 
injections would whiten skies, interfere with terrestrial astronomy, 
and reduce the efficiency of some kinds of solar power (Robock, 2008). 
Finally, some analysis suggests the possibility of ``rebound warming'' 
should SRM be deployed for a long time period and then halted abruptly 
(Goes et al., 2009).

3.2 Viewing indirect costs in a larger perspective

    Several points about the above concerns warrant attention.
    None of the possible ill-effects of SRM has been monetized. 
Therefore, how they compare with SRM's apparently large potential 
benefits is unclear. In fact, the scale of the effects of these 
unintended consequences is highly speculative. With regard to the 
Indian monsoon, for example, the underlying climate science is too 
uncertain to assess the scale of the changes with confidence (Zickfeld 
et al., 2005). Thus, Rasch et al. (2008), on which Robock is an author, 
observe:

         ``Robock et al. (2008) have emphasised that the perturbations 
        that remain in the monsoon regions after geoengineering are 
        considerable and expressed concern that these perturbations 
        would influence the lives of billions of people. This would 
        certainly be true. However, it is important to keep in mind 
        that: (i) the perturbations after geoengineering are smaller 
        than those without geoengineering; (ii) the remaining 
        perturbations are less than or equal to 0.5 mm 
        d<SUP>-</SUP><SUP>1</SUP> in an area where seasonal 
        precipitation rates reach 6-15 mm d<SUP>-</SUP><SUP>1</SUP>; 
        (iii) the signals differ between the NCAR and Rutgers 
        simulations in these regions; and (iv) monsoons are a 
        notoriously difficult phenomenon to model [Annamalai et al., 
        2007] [emphasis in original].

    Ozone depletion may be a problem, but it is likely to grow less 
severe with the passage of time. Acid deposition seems to be a 
considerably less serious problem, as a recent study concluded that ``. 
. . the additional sulfate deposition that would result from 
geoengineering will not be sufficient to negatively impact most 
ecosystems, even under the assumption that all deposited sulfate will 
be in the form of sulfuric acid'' (Kravitz et al., 2009).
    On rebound warming, the significance of the problem is, again, 
unclear. For the effect to be large, the SRM regime would have to 
remain in place for at least several decades. Also, during this period, 
adaptation and GHG control efforts would have to be held to low levels 
(Bickel and Lane, 2009). Ex ante, such a course of events may be 
possible, but it hardly seems inevitable or, perhaps, even likely.
    All of these concerns may warrant study. Nonetheless, to take a 
step back from the details, a few broader factors should also be kept 
in mind. Most importantly, it is worth noting that the relevant choice 
before us is not between a climate-engineered world and a world without 
climate change; rather, it is between the former and the world that 
would prevail without climate engineering. SRM may, indeed, do some 
harm. Society may, however, have to choose between accepting this harm 
on the one hand and running the risk of a planetary emergency on the 
other (Bickel and Lane 2009).
    Finally, in assessing SRM, it is important to keep in mind that all 
climate policy options entail side-effects. GHG controls, for instance, 
may imply greater reliance on biofuels or nuclear power. Border tax 
adjustments may unleash a global trade war (Barrett, 2007). In weighing 
the relative priority of SRM and GHG control, these factors are no less 
relevant than SRM's impacts on rainfall or ozone. The key to climate 
policy is fording the mix of responses that minimizes total costs more 
than it is about either/or choices.

4 Approaches to limiting the risks of SRM

    Since the risks of unintended consequences are the major barriers 
preventing the exploitation of this option, it is important to ford 
means of lowering those risks. A number of options might serve this 
purpose.

4.1 R&D as a risk reduction strategy

    Currently, we lack much of the information that would be needed to 
weigh all of the potential risks of SRM against its possible benefits. 
Only an R&D program can buy this information, and the potential 
benefits of SRM appear to be very large compared to the costs of such 
an R&D effort. A vigorous, but careful, R&D program may offer the means 
of reducing the risks of SRM. It may identify faulty concepts and ford 
new means of avoiding risks. Progress in climate science can also 
increase the expected benefits of SRM (Goes et al., 2009).
    Such an R&D program would begin with modeling and paper studies, 
move to laboratory testing, and eventually, embark on field trials. The 
latter would start small and increase in scale by increments. As R&D 
progresses, spending would increase from tens of millions of dollars in 
early years to the low billions of dollars later. Total spending may 
fall in the range of $10-15 billion (Bickel and Lane, 2009). The work 
would stress defensive research i.e. research designed to identify and 
limit possible risks. A recent report has defined this type of research 
agenda for stratospheric aerosols (Blackstock et al., 2009).
    Research cannot entirely eliminate risk (Smith, 2009). Yet the risk 
of deploying a system under emergency conditions and without full 
testing are likely greatly to exceed those entailed by deploying a more 
fully tried and better understood system. Again, none of the options 
for dealing with climate change is free of risk.

4.2 Delayed deployment as a risk management strategy

    The passing of time seems likely to diminish the risks of deploying 
SRM. One option, therefore, might be to delay deployment. This approach 
offers two advantages.
    First, delay is likely to make it easier for the nations wishing to 
deploy SRM to gain international acquiescence for their plans. Today, 
some nations may still benefit from additional warming. Such states 
might strenuously object to near-term efforts to halt warming. Russia, 
one of the nations that might adopt this view, is a great power. It 
could probably apply enough pressure to prevent any other nation from 
deploying SRM. However, as decades pass, climate change is increasingly 
likely to threaten even Russia with net costs. As this happens, Russian 
and other objections to SRM are also likely to fade.
    Second, the ozone depletion problem will also diminish with time. 
The stock of ozone-depleting chemicals in the atmosphere is shrinking. 
Before mid-century, levels will return to those that prevailed pre-
1980. At that point, the impact of stratospheric aerosols on UV 
radiation also loses significance (Wigley, 2006).
    Delayed deployment, of course, would also lower the difference 
between SRM's total benefits and its direct costs. Even so, large net 
benefits remain. This result obtains for both SRM concepts. Thus, if 
marine cloud whitening were deployed in 2055, the estimated present 
discounted value of the benefits exceeds that of the direct costs by at 
least $3.9 trillion, and perhaps by as much as $9.5 trillion (in 2005 
dollars). If stratospheric aerosols were deployed in 2055, the gap 
between total benefits and total costs would range between $3.8 
trillion and $9.3 trillion (Bickel and Lane, 2009).

5 Proposals for international governance require caution

    For some people, creating an international governance regime is the 
preferred choice for controlling the risks of SRM. A number of 
proposals for establishing systems of international governance of SRM 
seem suddenly to have sprouted up. Many of them seem to be couched in 
somewhat alarming tones about future conflicts, and most seem to be 
accompanied by expressions of great urgency (Victor et al., 2009). In 
responding to them, caution is in order.

5.1 Proposals for regulation require balancing of risks

    To start with, it is important to recognize that a regime of 
controls can and often does produce counter-productive results. An 
overly restrictive system can raise the costs of undertaking R&D. 
Higher costs may narrow the field of active researchers. Since 
competition spurs technological progress, a regulatory regime that adds 
to research costs may slow the pace of progress (Arrow, 1962; Cohen and 
Noll, 1991; NRC 1999; Sarewitz and Cohen, 2009). If so, lowering the 
risks of unintended harm from SRM might be purchased at the costs of 
higher risks from abrupt, high-impact climate change. This trade-off 
may be worthwhile, or it may not be, depending on how one rates the 
relative risks.

5.2 U.S. interests may differ from those of other states

    A second caution pertains to nations' different weights in world 
politics. A few nations command much more heft than do others. The 
U.S., China, and Russia are clearly in this category; others may be in 
the process of joining it. These states have a disproportionate ability 
either to carry an SRM regime into effect or to impede another state 
from doing so. If any of these states were to conclude that SRM was 
necessary to protect its vital interests, a system of international 
restraints would be most unlikely to constrain them.
    For the U.S., the question of whether to foster the development of 
an international body with the authority to regulate SRM entails 
accepting possible future constraints on its own freedom of action, as 
well as constraints on other states that might be acting in accord with 
U.S. preferences. In exchange, the U.S. would gain possible added 
support were it is seeking to halt or change SRM activity by another 
power.
    In considering this trade-off, it may be worth pondering that at 
least two other great powers, China and Russia, are autocracies. It is 
at least possible that these states are far less constrained by global 
public opinion than is the United States. In this case, in consenting 
to the creation of a global regime for governing SRM, the U.S. might be 
accepting a more binding limit on its own actions than that which it 
gains on the actions of the other great powers.

5.3 Who should consider SRM regulation?

    SRM regulation is a matter of U.S. foreign policy. In this matter, 
U.S. interests may be congruent with those of some countries and clash 
with those of others. In addition to distinctions in wealth, power, and 
climate, states may differ in risk averseness. The strength of the 
contrasting U.S. and E.U. reactions to genetically modified organisms 
suggest that in at least some specific instances, such differences may 
be large.
    Technical and scientific expertise is certainly important to the 
issue of how (or whether) SRM should be subject to international 
control. Yet the more basic question lies in the definition of national 
interests. This question is not technical; it is political. And how it 
is answered may well affect any nation's choices among international 
control regimes. For this reason, recommendations made by panels of 
scientists or lawyers may miss central aspects of the issues and yield 
misleading results. Such advice may still provide useful insights, but 
it should be handled with care.

6 SRM as part of a broader context

6.1 Multiple responses are needed to cope with climate change

    Multiple tools are available for coping with climate change. 
Adaptation to change is likely to be the primary response for many 
decades. Weak and patchy greenhouse gas (GHG) controls are in place, 
but these measures fall far, far short of those that would be needed to 
actually halt climate change. And they are likely to continue to do so. 
Solar radiation management (SRM) offers great upside potential.
    Still, it remains in the concept stage and is surrounded by 
uncertainties. Eventually, even air capture of CO<INF>2</INF> may 
become appealing, although its economic feasibility remains 
speculative.
    In any case, a mix of climate policies is better than placing too 
much stress on any one response. GHG emissions pose multiple threats, 
and multiple responses are likely needed to respond to them. Further, 
at some point all responses are likely to encounter diminishing 
marginal returns. Excessive reliance on any one policy option is likely 
to raise net costs.

6.2 New knowledge as a key to climate policy success

    With the current state of science and technology, the costs of 
coping with climate change are likely to be high. New knowledge may, 
however, drastically lower those costs. As just discussed, R&D on SRM 
may allow a better assessment of this option as well as offer ways of 
limiting its risks and controlling its costs. Better climate science is 
likely to enable more cost-effective adaption to climate change. R&D on 
new energy sources or on capturing and storing CO<INF>2</INF> might 
lower the cost and raise the political acceptability of GHG controls. 
Each of the six climate policy options selected by the above-mentioned 
economists' panel as being the most promising centered on the search 
for one or another form of new knowledge. Clearly, in the economists' 
opinions, research is a powerful strategy for dealing with climate 
change.
    The quest for new knowledge may not, though, be easy. First, its 
results are inherently uncertain. Diversified risks and hedging are 
important. Second, research can take time. Electrification of the 
global economy, for example, has been going on for over a century and 
is still far from complete. Third, the right kind of rules and 
structures can make the difference between success and failure. This 
Committee is very well positioned to raise questions about the kinds of 
arrangements likely to maximize the chances of R&D success. I hope that 
this hearing may prove to be an important step forward in that inquiry.

References

Alston, L.J., and B. Mueller, 2008: Property Rights and the State, in 
        Handbook of New Institutional Economics, C. Menard and M.M. 
        Shirley (eds), Springer, Dordrecht.

Annamalai, H., K. Hamilton, and K.R. Sperber, 2007: South Asian Summer 
        Monsoon and its Relationship with ENSO in the IPCC AR4 
        Simulations, Journal of Climate, 20(6), 1071-1092.

Arrow, K., 1962: Economic Welfare and the Allocation of Resources for 
        Invention, in The Rate and Direction of Inventive Activity: 
        Economic and Social Factors, Princeton University Press, 
        Princeton, NJ.

Barrett, S., 2007: The Incredible Economics of Geoengineering, 
        Environmental and Resource Economics, 39(1), 45-54.

Barrett, S., 2009: Geoengineering's Role in Climate Change Policy, 
        Working paper for the AEI Geoengineering Project.

Bial, J.J., D. Houser, and G.D. Libecap, 2001: Public Choice Issues in 
        International Collective Action: Global Warming Regulation.

Bickel, J.E., and L. Lane, 2009: An Analysis of Climate Engineering as 
        a Response to Climate Change: A Case for Research, Copenhagen 
        Consensus on Climate.

Blackstock, J.J., D.S. Battisti, K. Caldeira, D.M. Eardley, J.I. Katz, 
        D.W. Keith, A.A.N. Patrinos, D.P. Schrag, R.H. Socolow, and 
        S.E. Koonin, 2009: Climate Engineering Responses to Climate 
        Emergencies, Novim.

Bower, K., T. Choularton, J. Latham, J. Sahraei, and S. Salter, 2006: 
        Computational assessment of a proposed technique for global 
        warming mitigation via albedo-enhancement of marine 
        stratocumulus clouds, Atmospheric Research, 82(1-2), 328-336.

Caldeira, K., and L. Wood, 2008: Global and Arctic climate engineering: 
        numerical model studies, Philosophical Transactions of the 
        Royal Society A, 366(1882), 4039-4056.

Cohen, L.R., and R.G. Noll, with J.S. Banks, S.A. Edelman, and W.M. 
        Pegram, 1991: The Technology Pork Barrel, The Brookings 
        Institution Press, Washington, DC.

Crutzen, P.J., 2006: Albedo Enhancement by Stratospheric Sulfur 
        Injections: A Contribution to Resolve a Policy Dilemma? 
        Climatic Change, 77(3-4), 211-220.

Eggertsson, T., 2003: Open Access versus Common Property, in Property 
        Rights: Cooperation, Conflict, and Law, T.L. Anderson and F.S. 
        McChesney (eds), Princeton University Press, Princeton, NJ.

Goes, M., K. Keller, and N. Tuana, 2009: The economics (or lack 
        thereof) of aerosol geoengineering, Working paper.

Intergovernmental Panel on Climate Change, 2007: Summary for 
        Policymakers, in Climate Change 2007: The Physical Science 
        Basis, Contribution of Working Group I to the Fourth Assessment 
        Report of the Intergovernmental Panel on Climate Change.

Jacoby, H.D., M.H. Babiker, S. Paltsev, and J.M. Reilly, 2008: Sharing 
        the Burden of GHG Reductions, MIT Joint Program on the Science 
        and Policy of Global Change, Report No. 167.

Keith, D.W., M. Ha-Duong, and J.K. Stolaroff, 2005: Climate strategy 
        with CO<INF>2</INF> capture from the air, Climatic Change, 74, 
        17-45.

Kravitz, B., A. Robock, L. Oman, G. Stenclikov, and A.B. Marquardt, 
        2009: Acid Deposition from Stratospheric Geoengineering with 
        Sulfate Aerosols, Journal of Geophysical Research, 114, D14109.

Kuylenstierna, J.C.I., H. Rodhe, S. Cinderby, and K. Hicks, 2001: 
        Acidification in developing countries: Ecosystem sensitivity 
        and the critical load approach on a global scale, Ambio, 30(1), 
        20-28.

Lane, L., K. Caldeira, R. Chatfield, and S. Langhoff, 2007: Workshop 
        Report on Managing Solar Radiation, NASA Ames Research Center, 
        Carnegie Institute of Washington Department of Global Ecology, 
        NASA/CP-2007-214558.

Lane, L., and D. Montgomery, 2008: Political Institutions and 
        Greenhouse Gas Controls, AEI Center for Regulatory and Market 
        Studies, Related Publication 08-09.

Latham, J., P.J. Rasch, C.C. Chen, L. Kettles, A. Gadian, A. Gettleman, 
        H. Morrison, K. Bower, and T. Choularton, 2008: Global 
        Temperature Stabilization via Controlled Albedo Enhancement of 
        Low-Level Maritime Clouds, Philosophical Transactions of The 
        Royal Society A, 366(1882), 3969-3987.

Lenton, T.M., and N.B. Vaughan, 2009: The radiative forcing potential 
        of different climate geoengineering options, Atmospheric 
        Chemistry and Physics Discussions 9, 2559-2608.

Libecap, G.D., 2008: State Regulation of Open-Access Common-Pool 
        Resources, in Handbook ofNew Institutional Economics, C. Menard 
        and M.M. Shirley (eds), Springer, Dordrecht.

National Academy of Sciences, 1992: Policy Implications of Greenhouse 
        Warming: Mitigation, Adaptation, and the Science Base, National 
        Academy Press, Washington, DC.

National Research Council, 1999: Funding a Revolution: Government 
        Support for Computing Research, National Academy Press, 
        Washington, DC.

Nordhaus, W.D., 2008: A Question of Balance: Weighing the Options on 
        Global Warming Policies, Yale University Press, New Haven, CT.

Posner, E.A., and C.R. Sunstein, 2008: Climate Change Justice, 
        Georgetown Law Journal, 96, 1565-1612.

Rasch, P.J., S. Tilmes, R.P. Turco, A. Robock, L. Oman, C.C. Chen, G. 
        Stenchikov, and R.R. Garcia, 2008: An Overview of 
        Geoengineering of Climate using Stratospheric Sulfate Aerosols, 
        Philosophical Transactions of The Royal Society A, 366(1882), 
        4007-4037.

Robock, A., 2008: 20 reasons why geoengineering may be a bad idea, 
        Bulletin of the Atomic Scientists, 64(2), 14-18.

Robock, A., and J. Mao, 1995: The Volcanic Signal in Surface 
        Temperature Observations, Journal of Climate, 8(5), 1086-1103.

Robock, A., L. Oman, and G. Stenchikov, 2008: Regional climate 
        responses to geoengineering with tropical and Arctic SO<INF>2</INF> 
        injections, Journal of Geophysical Research, 113, D16101. 
        Robock, A., A. Marquardt, B. Kravitz, and G. Stenchikov, 2009: 
        The Benefits, Risks, and Costs of Stratospheric Geoengineering, 
        Forthcoming in Geophysical Research Letters.

Royal Society, The, 2009: Geoengineering the climate, Policy Document 
        10109.

Salter, S., G. Sortino, and J. Latham, 2008: Sea-going hardware for the 
        cloud albedo method of reversing global warming, Philosophical 
        Transactions of The Royal Society A, 366(1882), 39894006.

Sarewitz, D., and A. Cohen, 2009: Emission limits alone won't solve 
        global warring; Government must fund demonstration and scale-up 
        of new technology, Clean Air Task Force; Consortium for 
        Science, Policy & Outcomes, Arizona State University.

Schelling, T.C., 2002: What Makes Greenhouse Sense?: Time to Rethink 
        the Kyoto Protocol, Foreign Affairs, 81(3).

Skeffington, R.A., 2006: Quantifying uncertainty in critical loads: (A) 
        literature review, Water, Air, and Soil Pollution, 169(1-4), 3-
        24.

Smith, A.E., 2009: A Perspective Paper on Climate Engineering as a 
        Response to Climate Change, Copenhagen Consensus on Climate.

Teller, E., R. Hyde, M. Ishikawa, J. Nuckolls, and L. Wood, 2003: 
        Active Stabilization of Climate: Inexpensive, Low-Risk, Near-
        Term Options for Preventing Global Warming and Ice Ages via 
        Technologically Varied Solar Radiative Forcing, University of 
        California Lawrence Livermore National Laboratory.

Tilmes, S., R. Muller, and R. Salawitch, 2008: The Sensitivity of Polar 
        Ozone Depletion to Proposed Geoengineering Schemes, Science, 
        320(5880), 1201-1204.

Tol, R.S.J., 2008: The Social Cost of Carbon: Trends, Outliers and 
        Catastrophes, Economics 2, 2008-2025.

Tol, R.S.J., 2009: An Analysis of Mitigation as a Response to Climate 
        Change, Copenhagen Consensus on Climate.

Victor, D.G., M.G. Morgan, J. Apt, J. Steinbruner, and K. Rieke, 2009: 
        The Geoengineering Option: A Last Resort Against Global 
        Warming?, Foreign Affairs, 88(2).

Weitzman, Mi., 2007: A Review of the Stem Review on the Economics of 
        Climate Change, Journal of Economic Literature, 45(3), 703-724.

Weitzman, M.L., 2008: On Modeling and Interpreting the Economics of 
        Catastrophic Climate Change, The Review of Economics and 
        Statistics, 91(1), 1-19.

Wigley, T.M.L., 2006: A Combined Mitigation/Geoengineering Approach to 
        Climate Stabilization, Science, 314(5798), 452-454.

Zickfeld, K., B. Knopf, V. Petoukhov, and H.J. Schellnhuber, 2005: Is 
        the Indian summer monsoon stable against global change?, 
        Geophysical Research Letters, 32, L15707.

                         Biography for Lee Lane
    Lee Lane is a Resident Fellow at the American Enterprise Institute 
for Public Policy Research. He is Co-Director of AEI's Geoengineering 
Project. Lane recently co-authored ``An Analysis of Climate Engineering 
as a Response to Climate Change,'' a benefit/cost analysis published by 
the Copenhagen Consensus Center. He has also recently written 
``Institutions for Developing New Climate Solutions''. This paper is 
soon to be published in a book by the Geneva, Switzerland-based World 
Federation of Scientists. In 2008, Lane co-authored ``Political 
Institutions and Greenhouse Gas Controls.'' Mr. Lane was the lead 
author of NASA's April 2007 report on geoengineering. He is also the 
author of Strategic Options for Bush Administration Climate Policy (AEI 
Press, November 2006). Lane has testified before Congress, and has been 
a consultant to the U.S. Department of Energy, the U.S. Department of 
Transportation, the State Department, NASA, and Japan's Ministry of 
Economics, Trade, and Industry, as well as with CRA International, an 
international economics and management consulting firm. Before joining 
AEI, Lane served for seven years as the Executive Director of the 
Climate Policy Center, a policy research organization in Washington DC.

    Chairman Gordon. Thank you, Mr. Lane. I also thank you for 
being an early supporter of ARPA-E. We hope that some of the 
research that will come out of ARPA-E will mean that this 
potential review will be moot.
    Mr. Lane. I hope so, too.
    Chairman Gordon. Dr. Robock, we welcome your discussion.

    STATEMENT OF DR. ALAN ROBOCK, PROFESSOR, DEPARTMENT OF 
ENVIRONMENTAL SCIENCES, SCHOOL OF ENVIRONMENTAL AND BIOLOGICAL 
                  SCIENCES, RUTGERS UNIVERSITY

    Dr. Robock. Mr. Chairman, Mr. Hall, Members of the 
Committee, thank you for inviting me. First I would like to 
agree with Ken Caldeira, that global warming is a serious 
problem and that mitigation, reduction of emissions, should be 
our primary response. We also need to do adaptation and learn 
to live with some of the climate change which is going to 
happen no matter what.
    Using geoengineering should only be in the event of a 
planetary emergency and only for a temporary period of time, 
and it is not a solution to global warming.
    Could I have the first slide?
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    I am a climatologist. I have done climate research and 
effects of volcanic eruptions for 35 years. We did a climate 
model simulation of what would happen if we put in the 
equivalent of one Mount Pinatubo volcanic eruption every four 
years. The green line is the global warming temperatures that 
we have seen up until now. The black line is one Pinatubo every 
four years. The brown line is one Pinatubo every two years, 
assuming that you could do it.
    This brings up several questions. What temperature do we 
want the planet to be? Do we want it to stay constant? Do we 
want it to be at 1980 levels, do we want it at 1880 levels? And 
who decides? What if Russia and Canada want it a little bit 
warmer and India wants it a little bit cooler?
    If we stopped after 20 years, we would have rapid warming, 
as you can see. We did it for 20 years. And this rapid climate 
change would be much more dangerous than the gradual change we 
would get without doing anything. So this is a couple of the 
reasons why I am concerned about it, but we certainly need more 
research.
    Now, how do we get the aerosols--I am talking about the 
solar radiation management. How do we get the aerosols into the 
stratosphere? There is no way to do it today. Ideas of 
artillery or balloons or airplanes need a lot of research. Ken 
said it would be easy and cheap, but there is no demonstration 
of that. It might not be that expensive, but such equipment 
just doesn't exist today.
    So I have made a list of seven reasons why it--benefits for 
stratospheric geoengineering and 17 reasons why it might be a 
bad idea.
    Now, volcanic eruptions produce drought in Africa and Asia. 
They produce ozone depletion, no more blue skies, less solar 
power, and each of these needs to be quantified so you 
policymakers can make a decision about whether or not to 
implement it. We don't have quantification of any of these yet.
    I disagree with the economic analysis because they just 
ignored many of the risks and didn't even count what the 
possible dangers might be. But I agree with everybody that we 
need a research program so that we can quantify each of these 
so policymakers can tell if--is there a Plan B in your pocket, 
or is it empty? We really need to know that, and we don't know 
the answer to that yet.
    If we were going to test putting particles in the 
stratosphere, we don't have a system to observe them. The 
United States used to have a series of satellites called SAGE 
which looked at particles in the stratosphere. It was very 
useful for monitoring volcanic eruptions. And they stopped 
working, and there is no plan to put them up there. So we need 
the system anyway to monitor the stratosphere for the next 
volcanic eruption and to monitor it if we ever do 
experimentation.
    If we wanted to do experimentation, it is not possible to 
do just a small-scale test, to put a little bit of particles in 
and see what would happen. We could do that, but we couldn't 
measure their effects because there are a lot of weather 
variability, a lot of weather noise. And so we would really 
have to put a lot of material in for a substantial period of 
time to see whether we are having an effect. And that would 
essentially be doing geoengineering itself. You can't do it on 
a small scale.
    You could fly a plane up there and dump some gas out and 
see what would happen at the nozzle. But to do a full-scale 
experiment, we couldn't do it. For example, if there is already 
a cloud there and we want to put gases in and see if we get 
more particles, you can't do that if there are not particles 
there already. We may just make the particles bigger. And so it 
is problematic whether we could actually ever do an experiment 
in the stratosphere without actually doing geoengineering.
    So I would like to urge you to support a research program 
into the climatic response with climate models, into the 
technology to see if it is possible to develop different 
systems so that you can make an informed decision in the 
future.
    Thanks.
    [The prepared statement of Dr. Robock follows:]
                   Prepared Statement of Alan Robock

Introduction

    In the October 28, 2009, letter from Chairman Gordon inviting me to 
testify at the House Committee on Science and Technology Hearing, 
``Geoengineering: Assessing the Implications of Large-Scale Climate 
Intervention,'' I was asked to address a number of specific issues, 
which I do below. But first I would like to give a brief statement of 
the framework within which we consider the issue of geoengineering.
    I agree with the October 21, 2009, statement from the leaders of 17 
U.S. scientific societies to the U.S. Senate (Supplementary Material 
1), partially based on my own research, that, ``Observations throughout 
the world make it clear that climate change is occurring, and rigorous 
scientific research demonstrates that the greenhouse gases emitted by 
human activities are the primary driver.'' I also agree with their 
statement that ``Moreover, there is strong evidence that ongoing 
climate change will have broad impacts on society, including the global 
economy and on the environment.'' Therefore, it is incumbent on us to 
address the threat of climate change.
    I also agree with the recent policy statement of the American 
Meteorological Society on geoengineering (Supplementary Material 2). I 
was a member of the committee that wrote this statement. As the 
statement explains, ``Three proactive strategies could reduce the risks 
of climate change: 1) mitigation: reducing emissions; 2) adaptation: 
moderating climate impacts by increasing our capacity to cope with 
them; and 3) geoengineering: deliberately manipulating physical, 
chemical, or biological aspects of the Earth system.''
    Before discussing geoengineering it is necessary to define it. As 
the American Meteorological Society statement says, ``Geoengineering 
proposals fall into at least three broad categories: 1) reducing the 
levels of atmospheric greenhouse gases through large-scale 
manipulations (e.g., ocean fertilization or afforestation using non-
native species); 2) exerting a cooling influence on Earth by reflecting 
sunlight (e.g., putting reflective particles into the atmosphere, 
putting mirrors in space, increasing surface reflectivity, or altering 
the amount or characteristics of clouds); and 3) other large-scale 
manipulations designed to diminish climate change or its impacts (e.g., 
constructing vertical pipes in the ocean that would increase downward 
heat transport).''
    My expertise is in category 2, sometimes called ``solar radiation 
management.'' In particular, my work has focused on the idea of 
emulating explosive volcanic eruptions, by attempting to produce a 
stratospheric cloud that would reflect some incoming sunlight, to shade 
and cool the planet to counteract global warming. In this testimony, 
except where indicated, I will confine my remarks to this specific 
idea, and use the term ``geoengineering'' to refer to only it. I do 
this because it is the suggestion that has gotten the most attention 
recently, and because it is the one that I have addressed in my work.
    My personal view is that we need aggressive mitigation to lessen 
the impacts of global warming. We will also have to devote significant 
resources to adaptation to deal with the adverse climate changes that 
are already beginning. If geoengineering is ever used, it should be as 
a short-term emergency measure, as a supplement to, and not as a 
substitute for, mitigation and adaptation. And we are not ready to 
implement geoengineering now.
    The question of whether geoengineering could ever help to address 
global warming cannot be answered at this time. In our most recent 
paper (Supplementary Material 9) we have identified six potential 
benefits and 17 potential risks of stratospheric geoengineering, but a 
vigorous research program is needed to quantify each of these items, so 
that policy makers will be able to make an informed decision, by 
weighing the benefits and risks of different policy options.
    Furthermore, there has been no demonstration that geoengineering is 
even possible. No technology to do geoengineering currently exists. The 
research program needs to also evaluate various suggested schemes for 
producing stratospheric particles, to see whether it is practical to 
maintain a stratospheric cloud that would be effective at blocking 
sunlight.

Introduce the key scientific, regulatory, ethical, legal and economic 
                    challenges of geoengineering.

    In Robock (2008a; Supplementary Material 4) I identified 20 reasons 
why geoengineering may be a bad idea. Subsequent work, summarized in 
Robock et al. (2009; Supplementary Material 9), eliminated three of 
these reasons, determined that one is still not well understood, but 
added one more reason, so I still have identified 17 potential risks of 
geoengineering. Furthermore, there is no current technology to 
implement or monitor geoengineering, should it be tested or 
implemented. Robock (2008b; Supplementary Material 5) described some of 
these effects, particularly on ozone.
    Key challenges of geoengineering related to the side effects on the 
climate system are that it could produce drought in Asia and Africa, 
threatening the food and water supply for billions of people, that it 
would not halt continued ocean acidification from CO<INF>2</INF>, and 
that it would deplete ozone and increase dangerous ultraviolet 
radiation. Furthermore, the reduction of direct solar radiation and the 
increase in diffuse radiation would make the sky less blue and produce 
much less solar power from systems using focused sunlight. Any system 
to inject particles or their precursors into the stratosphere at the 
needed rate would have large local environmental impacts. If society 
lost the will or means to continue geoengineering, there would be rapid 
warming, much more rapid than would occur without geoengineering. If a 
series of volcanic eruptions produced unwanted cooling, geoengineering 
could not be stopped rapidly to compensate. In addition, astronomers 
spend billions of dollars to build mountain-top observatories to get 
above pollution in the lower troposphere. Geoengineering would put 
permanent pollution above these telescopes.
    Another category of challenges is unexpected consequences. No 
matter how much analysis is done ahead of time, there will be 
surprises. Some will make the effects less damaging, but some will be 
more damaging. Furthermore, human error is likely to produce problems 
with any sophisticated technical system.
    Ethical challenges include what is called a moral hazard--if 
geoengineering is perceived to be a solution for global warming, it 
will lessen the current gathering consensus to address climate change 
with mitigation. There is also the question of moral authority--do 
humans have the right to control the climate of the entire planet to 
benefit them, without consideration of all other species? Another 
ethical issue is the potential military use of any geoengineering 
technology. One of the cheapest approaches may even be to use existing 
military airplanes for geoengineering (Robock et al., 2009; 
Supplementary Material 9). Could techniques developed to control global 
climate forever be limited to peaceful uses? Other ethical 
considerations might arise if geoengineering would improve the climate 
for most, but harm some.
    Legal and regulatory challenges are closely linked to ethical ones. 
Who would end up controlling geoengineering systems? Governments? 
Private companies holding patents on proprietary technology? And whose 
benefit would they have at heart? Stockholders or the general public 
welfare? Eighty-five countries, including the United States, have 
signed the U.N. Convention on the Prohibition of Military or Any Other 
Hostile Use of Environmental
    Modification Techniques. It will have to be modified to allow 
geoengineering that would harm any of the signatories. And whose hand 
would be on the thermostat? How would the world decide on what level of 
geoengineering to apply? What if Canada or Russia wanted the climate to 
be a little warmer, while tropical countries and small island states 
wanted it cooler? Certainly new governance mechanisms would be needed.
    As far as economic challenges go, even if our estimate (Robock et 
al., 2009; Supplementary Material 9) is off by a factor of 10, the 
costs of actually implementing geoengineering would not be a limiting 
factor. Rather, the economic issues associated with the potential 
damages of geoengineering would be more important.

Major strategies for evaluating different geoengineering methods.

    Evaluation of geoengineering strategies requires determination of 
their costs, benefits, and risks. Furthermore, geoengineering requires 
ongoing monitoring. As discussed below, a robust research program 
including computer modeling and engineering studies, as well as study 
of historical, ethical, legal, and social implications of 
geoengineering and governance issues is needed. Monitoring will require 
the reestablishment of the capability of measuring the location, 
properties and vertical distribution of particles and ozone in the 
stratosphere using satellites.

Broadly evaluate the geoengineering strategies you believe could be 
                    most viable based on these criteria.

    I know of no viable geoengineering strategies. None have been shown 
to work to control the climate. None have been shown to be safe. 
However, the ones that have the most potential, and which need further 
research, would include stratospheric aerosols and brightening of 
marine tropospheric clouds, as well as carbon capture and 
sequestration. Carbon capture has been demonstrated on a very small 
scale. Whether it can be conducted on a large enough scale to have a 
measurable impact on atmospheric CO<INF>2</INF> concentrations, and 
whether the CO<INF>2</INF> can be sequestered efficiently and safely 
for a long period of time, are areas that need to be researched.

Identify the climate circumstances under which the U.S. or 
                    international community should undertake 
                    geoengineering.

    For a decision to actually implement geoengineering, it needs to be 
demonstrated that the benefits of geoengineering outweigh the risks. We 
need a better understanding of the evolution of future climate both 
with and without geoengineering. We need to know the costs of 
implementation of geoengineering and compare them to the costs of not 
doing geoengineering. Geoengineering should only be implemented in 
response to a planetary emergency. However, there are no governance 
mechanisms today that would allow such a determination. Governance 
would also have to establish criteria to determine the end of the 
emergency and the ramping down of geoengineering.
    Examples of climate circumstances that would be candidates for the 
declaration of a planetary emergency would include rapid melting of the 
Greenland or Antarctic ice sheets, with attendant rapid sea level rise, 
or a catastrophic increase in severe hurricanes and typhoons. Even so, 
stratospheric geoengineering should only be implemented if it could be 
determined that it would address these specific emergencies without 
causing worse problems. And there may be local means to deal with these 
specific issues that would not produce the risks of global 
geoengineering. For example, sea level rise could be addressed by 
pumping sea water into a new lake in the Sahara or onto the cold 
Antarctic ice sheet where it would freeze. There may be techniques to 
cool the water ahead of approaching hurricanes by mixing cold water 
from below up to the surface. Of course, each of these techniques may 
have its own unwelcome side effects.
    Right now there are no circumstances that would warrant 
geoengineering. This is because we lack the knowledge to evaluate the 
benefits, risks, and costs of geoengineering. We also lack the 
requisite governance mechanisms. Our policy right now needs to be to 
focus on mitigation, while funding research that will produce the 
knowledge to make such decisions about geoengineering in five or ten 
years.

Recommendations for first steps, if any, to begin a geoengineering 
                    research and/or governance effort.

    In 2001, the U.S. Department of Energy issued a white paper 
(Supplementary Material 3) that called for a $64,000,000 research 
program over five years to look into a variety of suggested methods to 
control the climate. Such a coordinated program was never implemented, 
but there are now a few research efforts using climate models of which 
I am aware. In addition to my grant from the National Science 
Foundation, discussed below, I know of one grant from NASA to Brian 
Toon for geoengineering research and some work by scientists at the 
National Center for Atmospheric Research, funded by the Federal 
Government. In addition, there have been some climate modeling studies 
conducted at the United Kingdom Hadley Centre, and there is a new 
three-year project, started in July 2009, funded by the European Union 
for =1,000,000 ($1,500,000) for three years called ``IMPLICC--
Implications and risks of engineering solar radiation to limit climate 
change,'' involving the cooperation of 5 higher educational and 
research institutions in France, Germany and Norway.
    In light of the importance of this issue, as outlined in Robock 
(2008b; Supplementary Material 5), I recommend that the U.S., in 
collaboration with other countries, embark on a well-funded research 
program to ``consider geoengineering's potential benefits, to 
understand its limitations, and to avoid ill-considered deployment'' 
(as the American Meteorological Society says in Supplementary Material 
2). In particular the American Meteorological Society recommends:

        1)  Enhanced research on the scientific and technological 
        potential for geoengineering the climate system, including 
        research on intended and unintended environmental responses.

        2)  Coordinated study of historical, ethical, legal, and social 
        implications of geoengineering that integrates international, 
        interdisciplinary, and intergenerational issues and 
        perspectives and includes lessons from past efforts to modify 
        weather and climate.

        3)  Development and analysis of policy options to promote 
        transparency and international cooperation in exploring 
        geoengineering options along with restrictions on reckless 
        efforts to manipulate the climate system.

    I support all these recommendations. Research under item 1) would 
involve state-of-the-art climate models, which have been validated by 
previous success at simulating past climate change, including the 
effects of volcanic eruptions. They would consider different suggested 
scenarios for injection of gases or particles designed to produce a 
stratospheric cloud, and evaluate the positive and negative aspects of 
the climate response-- So far, the small number of studies that have 
been conducted have all used different scenarios, and it is difficult 
to compare the results to see which are robust. One such example is 
given in the paper by Rasch et al. (2008; Supplementary Material 7). 
Therefore, I am in the process of organizing a coordinated experiment 
among the different climate modeling groups that are performing runs 
for the Coupled Model Intercomparison Project, Phase 5, which will 
inform the next Intergovernmental Panel on Climate Change report. Once 
we agree on a set of standard scenarios, participation will depend on 
these different groups from around the world volunteering their 
computer and analysis time to conduct the experiments. Financial 
support from a national research program, in cooperation with other 
nations, will produce more rapid and more comprehensive results.
    Another area of research that needs to be supported under topic 1) 
is the technology of producing a stratospheric aerosol cloud. Robock et 
al. (2009; Supplementary Material 9) calculated that it would cost 
several billion dollars per year to just inject enough sulfur gas into 
the stratosphere to produce a cloud that would cool the planet using 
existing military airplanes. Others have suggested that it would be 
quite a bit more expensive. However, even if SO<INF>2</INF> (sulfur 
dioxide) or H<INF>2</INF>S (hydrogen sulfide) could be injected into 
the stratosphere, there is no assurance that nozzles and injection 
strategies could be designed to produce a cloud with the right size 
droplets that would be effective at scattering sunlight. Our 
preliminary theoretical work on this problem is discussed by Rasch et 
al. (2008; Supplementary Material 7). However, the research program 
will also need to fund engineers to actually build prototypes based on 
modification of existing aircraft or new designs, and to once again 
examine other potential mechanisms including balloons, artillery, and 
towers. They will also have to look into engineered particles, and not 
just assume that we would produce sulfate clouds that mimic volcanic 
eruptions.
    At some point, given the results of climate models and engineering, 
there may be a desire to test such a system in the real world. But this 
is not possible without full-scale deployment, and that decision would 
have to be made without a full evaluation of the possible risks. 
Certainly individual aircraft or balloons could be launched into the 
stratosphere to release sulfur gases. Nozzles can be tested. But 
whether such a system would produce the desired cloud could not be 
tested unless it was deployed into an existing cloud that is being 
maintained in the stratosphere. While small sub-micron particles would 
be most effective at scattering sunlight and producing cooling, current 
theory tells us that continued emission of sulfur gases would cause 
existing particles to grow to larger sizes, larger than volcanic 
eruptions typically produce, and they would be less effective at 
cooling Earth, requiring even more emissions. Such effects could not be 
tested, except at full-scale.
    Furthermore, the climatic response to an engineered stratospheric 
cloud could not be tested, except at full-scale. The weather is too 
variable, so that it is not possible to attribute responses of the 
climate system to the effects of a stratospheric cloud without a very 
large effect of the cloud. Volcanic eruptions serve as an excellent 
natural example of this. In 1991, the Mt. Pinatubo volcano in the 
Philippines injected 20 Mt (megatons) of SO<INF>2</INF> (sulfur 
dioxide) into the stratosphere. The planet cooled by about 0.5 C (1 
F) in 1992, and then warmed back up as the volcanic cloud fell out of 
the atmosphere over the next year or so. There was a large reduction of 
the Asian monsoon in the summer of 1992 and a measurable ozone 
depletion in the stratosphere. Climate model simulations suggest that 
the equivalent of one Pinatubo every four years or so would be required 
to counteract global warming for the next few decades, because if the 
cloud were maintained in the stratosphere, it would give the climate 
system time to cool in response, unlike for the Pinatubo case, when the 
cloud fell out of the atmosphere before the climate system could react 
fully. To see, for example, what the effects of such a geoengineered 
cloud would be on precipitation patterns and ozone, we would have to 
actually do the experiment. The effects of smaller amounts of volcanic 
clouds on climate can simply not be detected, and a diffuse cloud 
produced by an experiment would not provide the correct environment for 
continued emissions of sulfur gases. The recent fairly large eruptions 
of the Kasatochi volcano in 2008 (1.5 Mt SO<INF>2</INF>) and Sarychev 
in 2009 (2 Mt SO<INF>2</INF>) did not produce a climate response that 
could be measured against the noise of chaotic weather variability.
    Some have suggested that we test stratospheric geoengineering in 
the Arctic, where the cloud would be confined and even if there were 
negative effects, they would be limited in scope. But our experiments 
(Robock et al., 2008; Supplementary Material 6) found that clouds 
injected into the Arctic stratosphere would be blown by winds into the 
midlatitudes and would affect the Asian summer monsoon. Observations 
from all the large high latitude volcanic eruptions of the past 1500 
years, Eldgja in 939, Laid in 1783, and Katmai in 1912, support those 
results.
    Topics 2) and 3) should also be part of any research program, with 
topic 3) dealing with governance issues. This is not my area of 
expertise, but as I understand it, the U.N. Convention on the 
Prohibition of Military or Any Other Hostile Use of Environmental 
Modification Techniques prohibits geoengineering if it will have 
negative effects on any of the 85 signatories to the convention (which 
include the U.S.). International governance mechanisms, probably 
through the United Nations, would have to be established to set the 
rules for testing, deployment, and halting of any geoengineering. Given 
the different interests in the world, and the current difficulty of 
negotiating mitigation, it is not clear to me how easy this would be. 
And any abrogation of such agreements would produce the potential for 
conflict.
    How much would a geoengineering research program cost? Given the 
continued threat to the planet from climate change, it is important 
that in the next decade policy makers be provided with enough 
information to be able to decide whether geoengineering can be 
considered as an emergency response to dangerous climate change, given 
its potential benefits, costs, and risks. If the program is not well-
funded, such answers will be long in coming. The climate modeling 
community is ready to conduct such experiments, given an increase in 
funding for people and computers. Funding should include support for 
students studying climate change as well as to existing scientists, and 
would not be that expensive. It should certainly be in, the range of 
millions of dollars per year for a 5-10 year period. I am less 
knowledgeable of what the costs would be for engineering studies or for 
topics 2) and 3).
    A geoengineering research program should not be at the expense of 
existing research into climate change, and into mitigation and 
adaptation. Our first goal should be rapid mitigation, and we need to 
continue the current increase in support for green alternatives to 
fossil fuels. We also need to continue to better understand regional 
climate change, to help us to implement mitigation and adapt to the 
climate change that will surely come in the next decades no matter what 
our actions today. But a small increment to current funding to support 
geoengineering will allow us to determine whether geoengineering 
deserves serious consideration as a policy option.

Describe your NSF-funded research activities at Rutgers University.

    I am supported to conduct geoengineering research by the following 
grant:
    National Science Foundation, ATM-0730452, ``Collaborative Research 
in Evaluation of Suggestions to Geoengineer the Climate System Using 
Stratospheric Aerosols and Sun Shading,'' February 1, 2008--January 31, 
2011, $554,429. (Includes $5000 Research Experience for Undergraduates 
supplement.)
    I conduct research with Professors Georgiy Stenchikov and Martin 
Bunzl and students Ben Kravitz and Allison Marquardt at Rutgers, in 
collaboration with Prof. Richard Turco at UCLA, who is funded on a 
collaborative grant by NSF with separate funding. We conduct climate 
model simulations of the response to various scenarios of production of 
a cloud of particles in the stratosphere. We use a NASA climate model 
on NASA computers to conduct our simulations. We also have investigated 
the potential cost of injecting gases into the stratosphere that would 
react with water vapor to produce a cloud of sulfuric acid droplets. We 
calculated how much additional acid rain and snow would result when the 
sulfuric acid eventually falls out of the atmosphere. Prof. Turco 
focuses on the detailed mechanisms in the stratosphere whereby gases 
convert to particles. Prof. Bunzl is a philosopher. Together we are 
also examining the ethical dimensions of geoengineering proposals.
    We have published five peer-reviewed journal articles on our 
research so far, attached as Supplementary Material items 5-9, and 
Prof. Bunzl has published one additional peer-reviewed paper supported 
by this grant.

Delineate the precautionary steps that might be needed in the event of 
                    large scale testing or deployment.

    First of all, there is little difference between large-scale 
testing and deployment. To be able to measure the climate response to a 
stratospheric cloud above the noise of chaotic weather variations, the 
injection of stratospheric particles would have to so large as that it 
would be indistinguishable from deployment of geoengineering. And it 
would have to last long enough to produce a measurable climate 
response, at least for five years. One of the potential risks of this 
strategy is that if it is perceived to be working, the enterprise will 
develop a constituency that will push for it to continue, just like 
other government programs, with the argument that jobs and business 
need to be protected.
    The world will have to develop a governance structure that can 
decide on whether or not to do such an experiment, with detailed rules 
as to how it will be evaluated and how the program will be ended. The 
current U.N. Convention on the Prohibition of Military or Any Other 
Hostile Use of Environmental Modification Techniques will have to be 
modified.
    Any large-scale testing or deployment would need to be first be 
evaluated thoroughly with climate model simulations. Climate models 
have been validated by simulating past climate change, including the 
effects of large volcanic eruptions. They will allow scientists to test 
different patterns of aerosol injection and different types of 
aerosols, and to thoroughly study the resulting spatial patterns of 
temperature, precipitation, soil moisture, and other climate responses. 
This information will allow the governance structure to make informed 
decisions about whether to proceed--
    Any field testing of geoengineering would need to be monitored so 
that it can be evaluated. While the current climate observing system 
can do a fairly good job of measuring temperature, precipitation, and 
other weather elements, we currently have no system to measure clouds 
of particles in the stratosphere. After the 1991 Pinatubo eruption, 
observations with the Stratospheric Aerosol and Gas Experiment II (SAGE 
II) instrument on the Earth Radiation Budget Satellite showed how the 
aerosols spread, but it is no longer operating. To be able to measure 
the vertical distribution of the aerosols, a limb-scanning design, such 
as that of SAGE II, is optimal. Right now, the only limb-scanner in 
orbit is the Optical Spectrograph and InfraRed Imaging System (OSIRIS), 
a Canadian instrument on Odin, a Swedish satellite. SAGE III flew from 
2002 to 2006, and there are no plans for a follow on mission. A spare 
SAGE III sits on a shelf at a NASA lab, and could be used now. There is 
one Canadian satellite in orbit now with a laser, but it is not 
expected to last long enough to monitor future geoengineering, and 
there is no system to use it to produce the required observations of 
stratospheric particles. Certainly, a dedicated observational program 
would be needed as an integral part of any geoengineering 
implementation.
    These current and past successes can be used as a model to develop 
a robust stratospheric observing system, which we need anyway to be 
able to measure the effects of episodic volcanic eruptions. The recent 
fairly large eruptions of the Kasatochi volcano in 2008 and Sarychev in 
2009 produced stratospheric aerosol clouds, but the detailed structure 
and location of the resulting clouds is poorly known, because of a lack 
of an observing system.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                       Biography for Alan Robock
    Dr. Alan Robock is a Professor II (Distinguished Professor) of 
climatology in the Department of Environmental Sciences at Rutgers 
University and the associate director of its Center for Environmental 
Prediction. He also directs the Rutgers Undergraduate Meteorology 
Program. He graduated from the University of Wisconsin, Madison, in 
1970 with a B.A. in Meteorology, and from the Massachusetts Institute 
of Technology with an S.M. in 1974 and Ph.D. in 1977, both in 
Meteorology. Before graduate school, he served as a Peace Corps 
Volunteer in the Philippines. He was a professor at the University of 
Maryland, 1977-1997, and the State Climatologist of Maryland, 1991-
1997, before moving to Rutgers in 1998.
    Prof. Robock has published more than 250 articles on his research 
in the area of climate change, including more than 150 peer-reviewed 
papers. His areas of expertise include geoengineering, the effects of 
volcanic eruptions on climate, the impacts of climate change on human 
activities, detection and attribution of human effects on the climate 
system, regional atmosphere-hydrology modeling, soil moisture, and the 
climatic effects of nuclear weapons.
    Professor Robock is currently supported by the National Science 
Foundation to do research on geoengineering. He has published five 
peer-reviewed journal articles on geoengineering, in 2008 and 2009. He 
was a member of the committee that drafted the July 2009 American 
Meteorological Society Policy Statement on Geoengineering the Climate 
System. He has convened sessions on geoengineering at two past 
American. Geophysical Union Fall Meetings, and is the convener of 
sessions on geoengineering to be held at meetings of the American 
Association for the Advancement of Science and European Geosciences 
Union in 2010.
    His honors include being a Fellow of the American Meteorological 
Society, a Fellow of the American Association for the Advancement of 
Science (AAAS), and a participant in the Intergovernmental Panel on 
Climate Change, which was awarded the Nobel Peace Prize in 2007. He was 
the American Meteorological Society/Sigma Xi Distinguished Lecturer for 
the academic year 2008-2009.
    Prof. Robock was Editor of the Journal of Geophysical Research--
Atmospheres from April 2000 through March 2005 and of the Journal of 
Climate and Applied Meteorology from January 1985 through December 
1987. He was Associate Editor of the Journal of Geophysical Research -
Atmospheres from November 1998 to April 2000 and of Reviews of 
Geophysics from September 1994 to December 2000, and is once again 
serving as Associate Editor of Reviews of Geophysics, since February, 
2006.
    Prof. Robock serves as President of the Atmospheric Sciences 
Section of the American Geophysical Union and Chair-Elect of the 
Atmospheric and Hydrospheric Sciences Section of the American 
Association for the Advancement of Science. He has been a Member 
Representative for Rutgers to the University Corporation for 
Atmospheric Research since 2001, and serves on its President's Advisory 
Committee on University Relations. Prof Robock was a AAAS Congressional 
Science Fellow in 1986-1987, serving as a Legislative Assistant to 
Congressman Bill Green (R-NY) and as a Research Fellow at the 
Environmental and Energy Study Conference.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Gordon. Thank you, Dr. Robock. Dr. Fleming, you 
are recognized.

    STATEMENT OF DR. JAMES FLEMING, PROFESSOR AND DIRECTOR, 
     SCIENCE, TECHNOLOGY AND SOCIETY PROGRAM, COLBY COLLEGE

    Dr. Fleming. Thank you, Mr. Chairman, Ranking Member Hall, 
and Members of the Committee on Science and Technology. I want 
to talk about history, and one of my epigraphs is that in 
facing unprecedented challenges, which I think we are, it is 
good to seek historical precedents. History matters, and 
informed policy decisions are going to require 
interdisciplinary, international, and intergenerational 
perspectives. So I applaud your international move, and I would 
like to make a case for intergenerational perspectives as well 
that are informed by history.
    I was once asked when humans first became concerned about 
climate change, and I immediately responded, in the 
Pleistocene. That is, our whole history comes out of ice age 
variations of climate, and all of human history lies within the 
last interglacial era, which was 12,000 years ago. We have 
experienced huge variations in climate, up to 27 degrees 
Fahrenheit, and I am sure the early humans had important tribal 
councils, too, to talk about these things, although they didn't 
have mitigation yet as an option.
    European explorers and early American settlers were 
surprised that the New World was so much colder than the areas 
of the same latitude in Europe. For example, Washington D.C. is 
on the same parallel as Lisbon, Portugal. Colonists worked to 
improve the climate by cutting the forest, tilling the soil, 
and draining the marshes. Benjamin Franklin thought this was 
possible. Thomas Jefferson thought it was actually happening. 
He called for an index of the American climate, which is one 
reason we have great weather records in this country, to 
document the changes being caused by human intervention.
    I will show a few pictures.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    The quest to control nature, including the sky, is deeply 
rooted in the history of western science. Some climate 
engineers claim they are the first generation to propose the 
deliberate manipulation of the planetary environment, but 
history says otherwise. In the 1830s, America's first national 
meteorologist, James Espy, who worked for the U.S. Army Surgeon 
General, advocated large-scale engineering proposals to emulate 
``artificial volcanoes.'' He proposed lighting huge fires each 
week--he preferred Sunday evenings--all along the Appalachian 
Mountains. Each week he was going to make it rain and control 
and enhance the Nation's rainfall. Espy argued that the heated 
updrafts would trigger rain that would not only eliminate 
droughts but also temperature extremes and would render the air 
healthy by clearing it of miasmas. A popular writer at the 
time, Eliza Leslie, pointed out that manufactured weather 
control would generate more problems than it solved and would 
satisfy no one. This is 1842.
    The image of the technocrat pulling the levers of weather 
control appeared on the cover of Collier's Magazine in 1954. We 
were in a weather control race with the Soviet Union at the 
time, and an Air Force general had just announced to the press 
that the nation that controls the weather will control the 
world. The magazine article inside, by President Eisenhower's 
Weather Advisor, Harold Orville, provided detailed ways of 
conducting weather warfare. A year later, the noted Princeton 
mathematician, Johnny Von Neumann, in an article called, Can We 
Survive Technology?, wrote that climate control through 
managing solar radiation was not necessarily a rational 
undertaking. In his opinion, climate control could alter the 
entire globe, shatter the existing political order, merge each 
nation's affairs with every other, and lend itself to forms of 
warfare as yet unimagined. He compared climate control to the 
threat of nuclear proliferation.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Here, Archimedes is acting as a geoengineer and technology 
is his lever, but where is he standing and where will the earth 
roll if tipped? Geoengineering is not cheap since we don't know 
the side-effects. Quoting Ron Prinn of MIT, ``How do you 
engineer a system you don't understand?'' While some argue that 
we can control the temperature of the globe, ironically, at a 
recent NASA meeting on the topic of managing solar, a meeting 
coordinator apologized for not being able to control the 
temperature of the room. Think about it.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    This is Hurricane King, 1947, when Project Cirrus 
intervened and seeded it. They wanted to announce to the press 
that they can control hurricanes, but basically they cancelled 
the press conference when it came ashore and devastated 
Savannah, Georgia.
    Other diplomatic disasters include Project Stormfury in the 
1960s where Fidel Castro accused America of cloud seeding over 
Cuba and in Vietnam, Operation Popeye, when the UN subsequently 
outlawed hostile use of weather modification.
    People have said that climate control is not a good idea. 
Harry Wexler, head of research at the Weather Bureau, said this 
in 1962, and just two years ago, Bert Bolin, the first chair of 
the IPCC, wrote that the political implications of 
geoengineering are largely impossible to assess and it is not a 
viable solution because in most cases, it is an illusion to 
assume that all possible changes can be foreseen. Climate 
change is simple. We should do the right thing. Climate is 
complex. It involves oceans and atmospheres, ice sheets and now 
monsoons, so studying the human dimension is essential. We need 
the interdisciplinary, international and intergenerational 
emphasis.
    Thank you for your time.
    [The prepared statement of Dr. Fleming follows:]
                  Prepared Statement of James Fleming
    Thank you Mr. Chairman, Ranking Member Hall, and Members of the 
Committee on Science and Technology for the opportunity to appear 
before you to provide testimony on Geoengineering: Assessing the 
Implications of Large-Scale Climate Intervention.
    I am a historian of science and technology with graduate training 
in and life-long connections to the atmospheric sciences, and the 
founding president of the International Commission on History of 
Meteorology. I have just written a book on the history of weather and 
climate control, and I am currently working to connect the history of 
science and technology with public policy. I have been asked to provide 
a general historical context for geoengineering as a political 
challenge and to recommend first steps toward effective international 
collaboration on geoengineering research and governance.

Introduction

    I would like to state my conclusions in advance, which are all 
based on the premise that history matters:

        First, a  coordinated interdisciplinary--effort is needed to 
        study the historical, ethical, legal, political, and societal 
        aspects of geoengineering and to make policy and governance 
        recommendations. This is one conclusion of the American 
        Meteorological Society's 2009 Policy Statement on 
        Geoengineering.

        Second,  an international--``Working Group 4'' on historical, 
        social, and cultural dimensions of climate change in general 
        and geoengineering in particular should be added to the 
        Intergovernmental Panel on Climate Change (IPCC).

        Third,   a robust intergenerational--component of training and 
        participation, especially by young people, should be included 
        in these efforts.

    That is to say climate change is not quintessentially a technical 
issue. It is a socio-cultural and technical hybrid, and our effective 
response to it must be historically and technically informed, 
interdisciplinary in nature, international in scope, and 
intergenerational in its inclusion of graduate, undergraduate, and 
younger students.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    A year later, in a prominent article titled, ``Can We Survive 
Technology?'' the noted Princeton mathematician and pioneer in 
computerized weather forecasts and climate models John von Neumann 
referred to climate control through managing solar radiation as a 
thoroughly ``abnormal'' industry that could have ``rather fantastic 
effects'' on a scale difficult to imagine. He pointed out that altering 
the climate of specific regions or purposefully triggering a new ice 
age were not necessarily rational undertakings. Tinkering with the 
Earth's heat budget or the atmosphere's general circulation ``will 
merge each nation's affairs with those of every other more thoroughly 
than the threat of a nuclear or any other war may already have done.'' 
In his opinion, climate control could lend itself to unprecedented 
destruction and to forms of warfare as yet unimagined. It could alter 
the entire globe and shatter the existing political order. He made the 
Janus-faced nature of weather and climate control clear. The central 
question was not ``What can we do?'' but ``What should we do?'' This 
was the ``maturing crisis of technology'' for von Neumann, a crisis 
made more urgent by the rapid pace of progress.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    First of all, a male hand is on the thermometer, the hand is god-
like in scale, and the thermostat is ``nowhere,'' but perhaps in outer 
space. The temperature of 73 F is being turned back to 54, or 5 degrees 
cooler than the long-term planetary average of 59 F. Looking closely at 
the center of dial, the thermometer is centered on Roswell, New Mexico, 
which I take to be symbolic.
    An emergent property of the MIT meeting was that the social science 
component the voices calling for the study of history, politics, and 
governance of geoengineering convinced more people than those engaged 
in geo-scientific speculation of a more technical nature. It is an 
emerging view in climate studies that humanities and governance 
perspectives are sorely needed. This was also clear this past summer at 
``America's Climate Choices'' meeting on geoengineering, sponsored by 
Congressman Mollohan of West Virginia and convened by the National 
Academies of Science.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The image of Archimedes is sometimes invoked by geoengineers with 
the assertion that our technological levers are now getting long enough 
and powerful enough to move the Earth. But if Archimedes is a supposed 
geoengineer, where is he standing? And where will the Earth roll if 
tipped? With what consequences? Widespread discussions of ``tipping 
points,'' have involved the physical climate system or public opinion, 
but it is important to remember that the geoengineering community has 
also passed a tipping point, and many of them actually wish to try it! 
But while some argue we can control the temperature of the globe, 
ironically, at a recent NASA meeting in 2006 on the topic of ``Managing 
Solar Radiation,'' a meeting coordinator apologized for not being able 
to control the temperature of the room.

A Geopolitical Perspective on Aerosol Haze

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The aerosol haze from dust storms, industrial sulfate emissions, 
and biomass burning is widely believed have a local cooling effect by 
reflecting sunlight and by making clouds brighter in the troposphere, 
below about 30,000 feet. As we clean up industrial pollution and reduce 
biomass burning, the warming effects of greenhouse gases may become 
more pronounced. Since the early I960s some geoengineers have 
repeatedly proposed injecting a sulfate aerosol haze into the high, 
dry, and stable stratosphere, where it would spread worldwide and have 
global cooling effects that might not fully offset greenhouse warming, 
might have unwanted side effects that might not be welcomed by all 
nations.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Although the heating effect of the major greenhouse gases is well 
known, the level of scientific understanding of the cooling effect of 
aerosols ranges from ``low'' to ``very low.'' Geoengineers propose to 
transfer this cooling effect, and the lack of understanding about it, 
to the stratosphere, where it will become a global rather than a local 
process, again with likely unwanted side effects that others will 
address.

What's Wrong with Climate Engineering? (the short list)

        1.  We don't have the understanding (Ron Prinn, MIT).

        2.  We don't have the technology (Brian Toon, Univ. of 
        Colorado).

        3.  We don't have the political capital, wisdom, or will to 
        govern it.

        4.  It is not ``cheap'' since the side effects are unknown.

        5.  It poses a moral hazard, reducing incentives to mitigate.

        6.  It could be attempted unilaterally, or worse, proliferate.

        7.  It could be militarized, and learning from history it 
        likely would be militarized.

        8.  It could violate a number existing treaties such as ENMOD 
        (1978).

        9.  It does nothing to solve ocean acidification.

        10.  It will alter fundamental human relationships to nature.

What Role for History?

    We have known this for a long time. Some climate engineers claim 
they are the ``first generation'' to propose the deliberate 
manipulation of the planetary environment. History says otherwise. In 
the 1790s Thomas Jefferson called for an ``index'' of the American 
climate to document its changes being effected by the clearing of the 
forests and the draining of the marshes. In the 1830s the first serious 
large scale engineering proposal to emulate ``artificial volcanoes'' 
was advanced by James Espy, the distinguished theorist of convection as 
the cause of rain who was employed by the U.S. Army as the first 
national meteorologist. Espy proposed lighting huge fires all along the 
Appalachian Mountains to control and enhance the nation's rainfall, 
arguing that the heat, updrafts would trigger rain and would not only 
eliminate droughts, but also heat waves and cold snaps, rendering the 
air healthy by clearing it of miasmas. A popular writer, Eliza Leslie, 
immediately pointed out that manufactured weather control would 
generate more problems than it solved.
    In 1946, Nobel Laureate Irving Langmuir believed he and his team at 
the General Electric Corporation had discovered means of controlling 
the weather with cloud seeding agents such as dry ice and silver 
iodide. A year later, in conjunction with the U.S. military, they 
sought to deflect a hurricane from its path. After seeding, but not 
because of seeding, the hurricane veered due to what were later 
determined to be natural steering currents and smashed ashore on 
Savannah, Georgia. The planned press conference was cancelled, but 
Langmuir continued to claim he could control hurricanes, influence the 
nation's weather, and even planned to seed the entire Pacific basin in 
a mega-scale experiment intended to generate climate-scale effects.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Commercial and military interests inevitably influence what 
scientists might consider purely technical issues. Agricultural 
interests drove the nineteenth-century charlatan rainmakers in the 
American west as well as commercial cloud seeding since the 1940s. In 
the early Cold War era, as mentioned earlier, the military sought to 
control clouds and storms as weapons and in the service of an all-
weather air force. There was a ``weather race'' with the Russians and 
secret cloud seeding in Vietnam. The 1978 United Nations Convention on 
the Prohibition of Military or any other Hostile Use of Environmental 
Modification Techniques (ENMOD), a landmark treaty, may have to be 
revisited soon to avoid or at least try to mitigate possible military 
or hostile use of climate control.
    In 1962 Harry Wexler, Head of Research at the U.S. Weather Bureau, 
shown here in the Oval Office, used computer models and satellite 
observations to study techniques to change Earth's heat budget. Wexler 
helped pen Kennedy's notable line, ``We choose to go to the moon in 
this decade and do the other things . . .'' Wexler was in charge of 
``the other things,'' such as the World Weather Watch and ways to 
influence or control weather and climate. It was Wexler, in the era of 
JFK (not Paul Crutzen in 2006) who first claimed climate control was 
now ``respectable to talk about,'' even if he considered it quite 
dangerous and undesirable. Wexler described techniques to warm or cool 
the planet by two degrees. He also warned, notably, that the 
stratospheric ozone layer was vulnerable to inadvertent or intentional 
damage, perhaps by hostile powers, from small amounts of a catalytic 
agent such as chlorine or bromine.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Here is an important discovery, made just next door in the Library 
of Congress. It is Harry Wexler's handwritten note of 1962 that reads 
(substituting words for symbols), ``Ultraviolet light decomposes ozone 
into atomic oxygen. In the presence of a halogen like bromine or 
chlorine, atomic oxygen becomes molecular oxygen and so prevents ozone 
from forming. 100,000 tons of bromine could theoretically prevent all 
ozone north of 65 N from forming.'' Recently, I have been in 
correspondence with three notable ozone scientists about Wexler's early 
work: Nobel Laureates Sherwood Rowland, Paul Crutzen, and current U.S. 
National Academy of Sciences President Ralph Cicerone. They are 
uniformly interested and quite amazed by Wexler's insights and 
accomplishments.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Wexler wrote in 1962, ``[Climate control] can best be classified as 
``interesting hypothetical exercises'' until the consequences of 
tampering with large-scale atmospheric events can be assessed in 
advance. Most such schemes that have been advanced would require 
colossal engineering feats and contain the inherent risk of 
irremediable harm to our planet or side effects counterbalancing the 
possible short-term benefits.'' This is still true today.

Today's science is tomorrow's history of science

    ``In facing unprecedented challenges, it is good to seek historical 
precedents,'' this is the epigraph of my new book Fixing the Sky: The 
checkered history of weather and climate control. History matters--it 
shapes identity and behavior; it is not just a celebratory record of 
inevitable progress; and its perspective should inform sound public 
policy. Each of our personal identities is the sum of our integrated 
past, including personal and collective memories, events, and 
experiences. It is not just who and where we are now, how we feel 
today, and what we had for breakfast. Applied to geoengineering, we 
should base our decision-making not on what we think we can do ``now'' 
and in the near future. Rather our knowledge is shaped by what we have 
and have not done in the past. Such are the grounds for making informed 
decisions. Students of climate dynamics who are passionate about 
climate change would be well-served to study science dynamics 
(history), since on decades to centuries and millennial time scales 
ideas and technologies have changed as dramatically or perhaps more 
dramatically than the climate system itself.
    History can provide scholars in other disciplines with detailed 
studies of past interventions by rainmakers and climate engineers as 
well as structural analogues from a broad array of treaties and 
interventions. Only in such a coordinated fashion, in which researchers 
and policymakers participate openly, can the best options emerge that 
promote international cooperation, ensure adequate regulation, and 
avoid the inevitable adverse consequences of rushing forward to fix the 
sky.
    Climate change is simple, and we all should seek ways of having 
less impact on the planet though a ``middle course'' of mitigation and 
adaptation that is amenable to all, reasonable, practical, equitable, 
and effective. But the climate system is extraordinarily complex, 
perhaps the most complex system ever modeled or observed, with the most 
important consequences imaginable for life and ecosystems. At best we 
can only apprehend climate change, with three senses of the word 
apprehension implied: (1) awareness and understanding, (2) 
anticipation, dread, fear, and (3) intervention and control. Certainly 
clouds, oceans, ice sheets and other factors make it more complex. But 
the wildest of the wild cards in the system is the human dimension, so 
studying that is absolutely essential.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Recommendations

    I repeat my recommendations to the committee. We need:

        1.  A coordinated and autonomous interdisciplinary effort to 
        study the historical, ethical, legal, political, and societal 
        aspects of geoengineering and to make policy and governance 
        recommendations, not as an afterthought and not necessarily 
        within an existing scientific society.

        2.  An international ``Working Group 4'' on historical, social, 
        and cultural dimensions of climate change in general and 
        geoengineering in particular, perhaps under the auspices of the 
        IPCC.

        3.  A robust intergenerational component of training and 
        participation in such efforts.

    In these ways I believe history can effectively inform public 
policy. Thank you for your attention.

Selected References:

Fleming, James Rodger. Fixing the Sky: The checkered history of weather 
        and climate control. Columbia University Press, 2010.

Fleming, James Rodger. ``The Climate Engineers: Playing God to Save the 
        Planet,'' Wilson Quarterly (Spring 2007): 46-60. http://
        www.colby.edu/sts/climateengineers.pdf.

Fleming, James Rodger. ``The Pathological History of Weather and 
        Climate Modification: Three cycles of promise and hype,'' 
        Historical Studies in the Physical Sciences 37, no. 1 (2006): 
        3-25. http://www.Colby.edulsts/
        06<INF>-</INF>fleming<INF>-</INF>pathological.pdf

                      Biography for James Fleming
    James Rodger Fleming is Professor of Science, Technology, and 
Society at Colby College. He earned degrees in astronomy (B.S., Penn 
State), atmospheric science (M.S. Colorado State), and history (M.A. 
and Ph.D. Princeton) and worked in atmospheric modeling, airborne 
observational programs, consulting meteorology, and as historian of the 
American Meteorological Society. Professor Fleming has held major 
fellowships from the Smithsonian Institution, the National Science 
Foundation, the National Endowment for the Humanities, and the American 
Association for the Advancement of Science. He has been a visiting 
scholar at MIT, Harvard, Penn State, the National Air and Space Museum, 
the National Academy of Sciences, and the Woodrow Wilson International 
Center for Scholars.
    Awards and honors include election as a Fellow of the AAAS ``for 
pioneering studies on the history of meteorology and climate change and 
for the advancement of historical work within meteorological 
societies,'' participation as an invited contributing author to the 
Intergovernmental Panel on Climate Change, appointment to the Charles 
A. Lindbergh Chair in Aerospace History by the Smithsonian Institution, 
the Roger Revelle Fellowship in Global Stewardship by the AAAS, and a 
number of named lectureships including the Ritter at Scripps 
Institution of Oceanography, the Vetelsen at the University of Rhode 
Island, and the Gordon Manly Lectureship of the Royal Meteorological 
Society.
    He is the author of Meteorology in America, 1800-1870 (Johns 
Hopkins, 1990), Historical Perspectives on Climate Change (Oxford, 
1998), The Callendar Effect (American Meteorological Society, 2007), 
and his latest, Fixing the Sky: The Checkered History of Weather and 
Climate Control (Columbia University Press, 2010). Recent co-edited 
volumes include Intimate Universality (Science History/U.S.A., 2006), 
Globalizing Polar Science (Palgrave, 2010), and Osiris 26 (forthcoming) 
on climate. He is currently working to link the local and global in the 
history of Earth system science and to connect the history of science 
and technology with public policy.
    Professor Fleming was the founder and first president of the 
International Commission on History of Meteorology and associate editor 
of the New Dictionary of Scientific Biography, He currently serves as 
editor-in-chief of History of Meteorology, domain editor for Wiley 
Interdisciplinary Reviews on Climate, history editor of the Bulletin of 
the American Meteorological Society, and member of the history 
committee of the American Meteorological Society and the American 
Geophysical Union.
    Jim is a resident of China, Maine (not Mainland China!) with his 
wife Miyoko. Together they raised two sons. He enjoys fishing, good 
jazz, good BBQ, seeing students flourish, and building the community of 
historians of the geosciences. ``Nothing is really work unless you 
would rather be doing something else.''

                               Discussion

    Chairman Gordon. Thank you, Dr. Fleming. At this point, we 
will begin the first round of questions, but first I would like 
to give a premise. Listening to the panel makes me think that 
for most people, this is like coming in after the intermission 
to Mr. Hall's movie about the elephants, and that we might want 
to give a little bit more of a premise. And I would really 
advise that anyone that has an interest in this issue to review 
the Royal Society's report. It is very good.
    I was thinking about giving Mr. Hall the two-page summary, 
but I didn't want to overwhelm him. So Professor Shepherd----
    Mr. Hall. You would have had to read it to me.

         The Eruption of Mt. Pinatubo: Natural Solar Radiation 
                               Management

    Chairman Gordon. Professor Shepherd, just quickly, would 
you sort of remind everyone about the volcano in Pinatubo in 
1991 and what happened? I think that is a good foundation for 
everyone to know.
    Dr. Shepherd. Yes, thank you. The volcano emitted a large 
amount of sulfur dioxide, amongst other things, some of which 
made its way to the stratosphere, and the result of this was 
the formation of a natural sulfate-based aerosol that spread 
very rapidly around the world and lasted for a couple of years, 
causing a fall in temperature of approximately 1 degree 
Fahrenheit for a couple of years.
    So this gives us some confidence that aerosols in the 
stratosphere do have a cooling effect and that the quantities 
of material required to do this are not unthinkably large. 
However, volcanoes, of course, emit a lot of other stuff, as 
well as sulfur dioxide, and so they are not a perfect analogue. 
And one of the other issues in relation to----
    Chairman Gordon. I just wanted you to sort of point out 
that really nature has already given us somewhat of a model and 
this is not completely not out of line.
    Mr. Hall. I don't really understand it yet.

                   Structuring a Research Initiative

    Chairman Gordon. I am going to give the panel some 
questions to take home with you, and I would like your response 
later. But let us just start a discussion if we could today 
because if we are looking at a research program, I would like 
to get a little better idea of what we should do. So let me put 
out some questions for the panel and get some reaction, and 
again, I would like for you to take it back and respond to us 
later.
    What would be the critical features of such a program? 
Would there be just one coordinated program in the United 
States? Which U.S. agencies would have to be involved from the 
start and which would need to play a later role? What scale of 
investment would be necessary, both initially and in the long 
term, and what kind of expertise would be required? I will 
later ask about the international implications but I would like 
to get your thoughts on a research program here in the United 
States. Who wants to start? Yes, sir. Dr. Fleming?
    Dr. Fleming. I think based on what I said, we would have to 
have more humanists involved, a lot more social science 
component, and I know that the National Academy has done 
things, but it is the National Academy of Science. And so I 
would like to recommend that we go multi-agency but include not 
only technical outfits in the discussion.
    Chairman Gordon. We will just go down the hall. Professor 
Shepherd and then Caldeira and then Lane and then Robock?
    Professor Shepherd. Yes, I would suggest that the program 
has to be international and that it should not focus 
exclusively on one technology and specifically that it should 
not focus exclusively on solar radiation management, because 
that is a technology which requires you to maintain your 
activity for as long as the greenhouse gases stay in the 
atmosphere, which is several centuries to a thousand years. And 
it is not clear that human society has the ability to sustain 
an activity on that time scale.
    So I think it would be very dangerous to start solar 
radiation management without having figured out your exit 
strategy, and your exit strategy would almost certainly include 
one or other of the carbon dioxide removal methods. So I would 
suggest that a small portfolio of methods of both of these 
types should be researched in parallel.
    Chairman Gordon. Dr. Caldeira?
    Dr. Caldeira. I would like to suggest that we should be 
thinking in terms of several research programs, each multi-
agency in character but led by different agencies. If we 
separate the solar radiation management proposals from the 
carbon dioxide removal proposals, I think the solar radiation 
management proposals, the research, should perhaps be led by 
the National Science Foundation [NSF], possibly the National 
Aeronautics and Space Administration [NASA].
    On the carbon dioxide removal, approaches again could be 
divided into two major classes. Some are essentially growing 
plants and burying the organic carbon made by plants. We 
already have some research programs into growing new forests 
and similar techniques. And those programs could perhaps be 
expanded to encompass a broader range of biologically based 
methods to remove carbon dioxide from the atmosphere.
    The Department of Energy is already leading projects to 
remove carbon dioxide from gases coming out of power plants. 
Those programs could be expanded to also consider removal of 
gases from the atmosphere. And so I think there is at least 
three separate programs, and some of them might involve 
expansion of existing programs on the carbon dioxide removal 
side, but there is really no program at all on the solar 
radiation management side. And I personally would like to see 
NSF probably lead it, although NASA might make sense as well.
    Chairman Gordon. Let us move to Mr. Lane.
    Mr. Lane. I would suggest that the solar radiation 
management--first of all, let me agree with Dr. Shepherd that I 
think there ought to be research in both families, both air 
capture and solar radiation management. However, solar 
radiation management offers much larger economic payoffs 
potentially and a much greater ability to reverse rapid, highly 
destructive climate change should that occur. Therefore, I 
guess I would reverse Dr. Shepherd's judgment of priorities and 
say that of the two approaches, solar radiation management 
deserves more attention, and as Dr. Caldeira has suggested, it 
is not really receiving any support from the U.S. Government at 
this time. It is clearly the sort of problem that is going to 
require multiple agency inputs and poses a very difficult 
organizational challenge for combining science and engineering.
    Chairman Gordon. I am going to let everybody respond in 
writing later, but Dr. Robock, if you would maybe just quickly 
close us.
    Dr. Robock. First of all, I would like to mention that 
although the Pinatubo volcanic eruption cooled the planet, it 
also produced drought in Asia and Africa. It destroyed ozone, 
and it reduced solar radiation generation from direct solar 
radiation by 30 percent in those technologies that were 
developing. So it is a lesson of efficacy but also of problems.
    I think that research into solar radiation management needs 
to be done in a coordinated way, internationally, with climate 
models. The National Science Foundation should probably take 
the lead in the United States along with the National Oceanic 
and Atmospheric Administration [NOAA] and NASA. There also 
needs to be a research program to the technology. Can we 
actually get particles into the stratosphere, and probably 
NASA, the--Aeronautics, and the Department of Defense might be 
looking into the technology of it, whether it is possible.
    Chairman Gordon. I thank you. I now yield to Mr. Hall for 
rebuttal.
    Mr. Hall. I always come out second on that one when you are 
the Chairman. You have got the gavel.
    I will be serious with you because I appreciate you and I 
appreciate your backgrounds and many years of studying and the 
gifts you have made to this country, and your very appearance 
here today makes me even more appreciative of you. I especially 
like Dr. Shepherd, Professor Shepherd, because he at least 
discussed global warming and he added the term cost to it, and 
that is what we can't get hardly anybody to talk about, who is 
going to pay it or how much China is going to continue to 
pollute the world and not pay a dollar and then increase it on 
an increasing ratio. So thank you for that. I agree with you on 
that.
    I don't disagree with you on anything you have said, I just 
don't fully understand it. But he has given me the right to 
write you, and you will be hearing from me. Thank you.

          The Potential Efficacy of Greenhouse Gas Mitigation

    Mr. Lane, you said you advocate research and not 
deployment, I guess that is what I am trying to say. Would you 
expand on your comment and your testimony that a steep decline 
in greenhouse gas emissions may well cost more than the 
perceived value of the benefits? And let me say before that, we 
had a study, I chaired one of the committees one time when we 
were studying and we studied about asteroids. A professor told 
us about volcanoes, but we were studying asteroids and the 
danger and trying to get an international thrust on them. We 
got no help on that because we had I think about $1.5 million 
budget on that, and that was a couple of brilliant people and 
their workers, co-workers with them. But we learned during that 
hearing something that none of the group knew, including the 
chairman, and that was me, that an asteroid just missed the 
earth by five minutes some time in 1987 or 1988. So I think 
this is worthwhile. And I was just spoofing the Chairman. He is 
so good-natured. He is the only Chairman I can kid like that.
    But go ahead now and answer me, if you would, Mr. Lane.
    Mr. Lane. Yes, sir. It seems that the last 20 years have 
shown not only that it is difficult to get agreement on 
greenhouse gas controls, but that that is happening for very 
clear reasons. China and India both have very rapidly growing 
emissions, and yet it is clear from the way their governments 
are dealing with the negotiations that they do not perceive 
greenhouse gas emissions reductions, at least not steep ones, 
as being in their national interest. And both of those 
countries are too powerful to coerce, and the cost of bribing 
them to reduce emissions when they don't feel that it is in 
their national interests are likely to be prohibitively high. I 
don't want to give the impression that I believe that we can go 
on emitting greenhouse gases at ever-increasing rates. I don't. 
I think eventually controls are going to be essential, but I 
really strongly believe that the conditions are not in place 
yet for a global agreement on significantly reducing emissions. 
And until those conditions are in place, there really isn't 
very much that the United States can do to change the global 
trajectory of emissions.

              Research and Development Before Application

    Mr. Hall. Well, I thank you for that, and also I guess I 
would ask you, your testimony seemed to suggest at the time 
that there is R&D and not implementation. Are there entities, 
organizations or countries that see an urgent need for 
implementation versus the process of R&D? I know most of the 
really rabid advocates of global warming mention everything but 
the cost and mention everything but the fact that China I think 
every six days are spewing--not using clean coal. And I think 
we will fall back on coal one day, we are going to have to. But 
it has to be clean coal. But they are increasing again I say on 
an increasing ratio the damage to the earth without paying 
anything. That goes for them, that goes for Russia, it goes for 
India, it goes for Mexico, and it could go on and on of those 
that want the benefits of the work that you probably all 
believe in but don't want to participate in the cost. One or 
the others of you made mention of that. I will let you have 
whatever--I think I have may be two seconds left, but if you 
can do your best to give me----
    Mr. Lane. I do support R&D rather than deployment. Dr. 
Robock is absolutely right. We don't have the technology yet to 
do deployment, nor would it be prudent. For me personally, if I 
were going to put my bet on where to do R&D in the U.S. 
Government, along with NSF, as that Dr. Caldeira mentioned, I 
would suggest that DARPA [Defense Advanced Research Projects 
Agency] might have a role.
    Mr. Hall. Thank you.
    Chairman Gordon. Thank you, Mr. Hall. I think we can submit 
unanimously that this panel would say that there should be no 
deployment, only research. I don't think you are going to find 
anybody that is going to disagree with that.
    Dr. Baird is recognized.

            The Dire Need for Mitigation and Behavior Change

    Mr. Baird. Thank you, Mr. Chairman. I thank our panelists. 
Roughly, how much CO<INF>2</INF> do human beings put into the 
air, anthropogenic CO<INF>2</INF> on a daily basis? Anyone have 
an estimate of that or annual, whatever number? Dr. Caldeira?
    Dr. Caldeira. The average American puts out something like 
their own average body weight each day in the form of carbon 
dioxide. So something like 150 pounds of CO<INF>2</INF> per 
person per day in the United States.
    Mr. Baird. Times 300 million people?
    Dr. Caldeira. Right, times 365 days a year.
    Mr. Baird. Mr. Robock, did you want to add to that? The 
reason I ask the question is, we are doing geoengineering on a 
massive scale. If 100 years ago somebody had said, hey, here is 
a bright idea. We should promote a plan to put that much carbon 
into the air--And Dr. Caldeira, I commend you for mentioning 
ocean acidification--25 percent of which will go into the 
oceans to make the oceans 30 percent more acidic within 50 
years, and then continuing on after that to make it so acidic 
that it reaches levels since not seen since the age of the 
dinosaurs and dissolve coral reefs. Shouldn't Congress support 
that? People would say, you are crazy. Geoengineering on that 
scale, which is what we are doing, and now we are looking at 
ways to reverse that.
    Second observation would be, you know, years ago there was 
a psychologist named Elizabeth Kubler-Ross who looked at what 
happens when people are dying, and not everybody goes through 
her five stages of dying, which got a lot of play at the time. 
Nevertheless, her stages of dying went, you know, denial and 
then bargaining, and the bargaining tends to be, isn't there 
going to be someone to come rescue me from this cancer or this 
other illness that I have got?
    It strikes me that we are in sort of in those stages now, 
and the reason I raise that, in the context of geoengineering. 
We have had a whole series of hearings in my subcommittee and 
this full committee on carbon sequestration, on nuclear fusion, 
on geoengineering, and it seems to be everybody is trying to 
say, isn't there someway out there that we don't have to make 
changes in our behavior, that we can continue to spew just as 
much CO<INF>2</INF> or use just as much energy and something 
somewhere is going to save us from just having to make this 
horrific changes like turning down our thermostat, putting air 
in our tires, et cetera? And so I applaud you all for 
suggesting that we are not going to have this--to rescue us by, 
you know, chemtrails or whatever people want to distribute into 
the air.
    There are some positive things that we could do. What would 
be the impact of simple things like changing the color of roof 
shingles or painting the rooftops? My rooftop here in town is 
black. It is a black rubber surface. It gets hot as blazes up 
there. I am told we can make substantial differences in 
temperature and energy consumption, not on the scale that we 
need. It is not enough. But the point is, piece together the 
small stuff that doesn't require massive interventions. What 
are some of the things we could do?
    Dr. Robock. Actually, if we put solar panels on our roofs, 
that would be a much better way to respond because we would 
produce electricity from the sun and that would reduce the 
amount of CO<INF>2</INF> emissions from other sources, and that 
would be much better than just painting the roofs white. It 
would cost a little bit more money to start with, but in the 
long run, it would be the best investment and it would be a 
business opportunity. Why doesn't every new house have solar 
panels built into the shingles rather than retrofitting it like 
I did on my house, thanks to the subsidies from the State of 
New Jersey?
    And there are lots of little things we can do, and they 
will all add up to a mitigation plan.
    Mr. Baird. We focused mostly today so far on atmosphere and 
solar radiation management. What about in water? I mean, we are 
also geoengineering our water system. We are putting hundreds 
of billions of pounds of effluent and fertilizers, et cetera, 
in the water. What are some positive changes that we can do to 
agricultural practices, runoff practices, et cetera, that could 
help improve the quality of our water, not, you know, dumping 
clay as a flocculent of algal blooms but some positive things 
to reduce them from occurring to begin with. Do any of you have 
comments on that? Are we mostly atmospheric today? You get the 
point I am trying to make here, that we are causing the problem 
through our own behavior and then we are somehow going to try 
to fix the earth instead of fixing ourselves. If you had to 
summarize that, which would you say is easier, change our 
behavior or change the planet? Dr. Shepherd?
    Dr. Shepherd. Well, you are making it into a black-and-
white choice, and my answer would be both. The problem is there 
is an awful lot that we could do in Europe, in the United 
States and in China and everywhere to reduce the impacts that 
we are having, but however hard we try, that may not be enough. 
So I think it is a mistake to make it black and white and say 
it is either/or. I think we need to do both, and that may at 
some stage involve geoengineering.
    Mr. Baird. My time is expired. Thank you.
    Chairman Gordon. Thank you, Dr. Baird. Dr. Barlett. Excuse 
me, Dr. Ehlers is recognized.
    Mr. Ehlers. Thank you, Mr. Chairman. I appreciate the 
interesting interaction you just had. I am not quite sure what 
Mr. Baird meant when he talked about fixing people. I know a 
lot of people fix their dogs and cats, but on the other hand 
that might be part of a good solution.
    Mr. Hall. Professor, do you remember the name of that woman 
that wrote that book?

      The Need for a Multidisciplinary and Realistic Approach to 
                             Climate Change

    Mr. Ehlers. Anyway, hearing this discussion I am very much 
reminded of Garrett Hardin who was a great environmentalist, 
and he had a statement which I framed and hung on my wall for a 
while. You can't do just one thing. And that is the heart of 
the issue we are facing here today. I think we have a lot of 
good ideas, a lot of things we might want to try, but you can't 
do just one thing. And almost everything you do has side-
effects, some may be good, some may be bad. Frequently you 
don't know until you have tried it. And that is what is going 
to be the major impediment here as we proceed.
    There is also a public attitude problem that--well, the 
best example that I can give you, in the 1973 gas shortages, 
when we had the big long gas lines, and you know, as a 
physicist I was very interested in people's attitude toward 
energy, and I thought we could do a much better job of 
conserving energy. The response of most people even talking to 
me would say, well, we really don't have to worry about this. 
The scientists will come up with a solution. This intrinsic 
faith that science can solve mammoth problems like that is 
not--it is nice they think that much of me, but I don't think 
it is realistic. I think we have to face these problems in all 
of their dimensions.
    And the point was made about China and India and what their 
attitude is going to be. As long as we continue with the 
current economic behavior of this Nation, we have no leverage 
in which to try to solve the environmental problems. How can we 
threaten the Chinese? If you don't do this for us, we are going 
to stop borrowing money from you. That is not an awful lot of 
leverage.
    So I think you have to keep all these factors in mind. I am 
not in the least bit skeptical about geoengineering. I think 
that is something we really have to investigate. I am skeptical 
about saying this is the answer to a major problem until we get 
some data, do some experiments, find out what works and what 
doesn't work, and above all, continue to recognize you can't do 
just one thing.
    I remember very clearly--I am showing my age by this--but 
in the era when everyone believed we could shoot silver iodide 
up into the atmosphere and make rain wherever we had a drought 
spot. And we seriously pursued this in some areas of our Nation 
and found that it just didn't work well because we had a lot of 
side-effects we didn't anticipate.
    So this was a bit more of a sermon than a question, and you 
are welcome, any of you who wish to, can feel free to comment 
on this and how you think our Nation and other nations can 
address this problem in a thoughtful, reasonable, meaningful 
way to try to come up with some solutions of geoengineering 
that would work. Any comments? Yes. Dr. Caldeira.
    Dr. Caldeira. I think you are correct in that we can't do 
just one thing, and that I think everybody on the panel here 
believes that we need to eventually get to an energy system 
that does not use the atmosphere as a waste dump for our 
industrial products, but that there is a potential for some of 
these methods to reduce the risks that we are facing and reduce 
these risks cost-effectively. And while the panel disagrees 
about maybe the scale and scope of what a research program 
should be, I think it is indicative that the entire panel 
asserts the need for a research program.
    I would just also like to take this opportunity to support 
something Alan Robock said before when I was talking about the 
structure of research, that on the solar radiation management 
side, there is an environmental science component that might be 
NSF but there is another component about developing and 
engineering hardware that might better fit in the agencies that 
Alan mentioned. Thank you.
    Mr. Ehlers. Dr. Robock?
    Dr. Robock. I would just like to say that we can't hold 
geoengineering as a solution and allow that to reduce our push 
toward mitigation. It is never going to be a complete solution. 
We may need it in the event of an emergency, but let us not 
stop mitigation and wait and see if geoengineering would work. 
That is not the right strategy.
    Mr. Ehlers. Along that line, I think it would be very 
important for us to continue very strongly the approach of 
reducing our use of fossil fuels. For example, I have advocated 
for years that we try to move to solar shingles, that every 
house has to be built with solar shingles.
    Dr. Robock. We don't really need all these lights on in 
here, either.
    Mr. Ehlers. No, we don't.
    Chairman Gordon. Well, the cameras wouldn't work as well. 
Dr. Ehlers, if you don't--I am going to be a little more strict 
because we are going to votes, unfortunately, in a few minutes.
    Mr. Ehlers. It is so amazing how the clock runs so much 
faster when it is my time.
    Chairman Gordon. Well, it is also moving up, not down.
    Mr. Ehlers. Thank you.
    Chairman Gordon. Dr. Griffith, you are recognized for five 
minutes.

              The Challenge of International Collaboration

    Mr. Griffith. Thank you, Mr. Chairman. I appreciate this 
opportunity, and I do think the initial discussions of this 
subject are important, even though we may not reach a 
conclusion. We do know we have a wide diversity here, with the 
life expectancy of a male in China of 73 and the life 
expectancy of the male in India of 63, which points out a great 
disparity in what the needs of the various countries are. And 
it makes it greatly difficult for a country like the United 
States that represents only five percent of the world's 
population to come to a conclusion or reach an agreement on how 
we should approach or sell ourselves to the rest of the world. 
I guess if we included Germany, France and England in that 
population group, and Denmark, we may get up to six or seven 
percent of the world's population.
    So it is a good subject, and it is certainly necessary. I 
appreciate each and every one of you being here, and I 
appreciate the Chairman bringing the subject up. I think this 
is a start, so thank you.
    Chairman Gordon. Thank you, Dr. Griffith. Dr. Bartlett is 
not here right now. We will recognize him when he gets here, so 
Mr. Smith, you are up to bat.

                       Agriculture and Livestock

    Mr. Smith of Nebraska. Thank you, Mr. Chairman. I will try 
to be brief. This is my third year here, and it is interesting 
being on the Science Committee and trying to sift through the 
science and, you know, whether something is peer reviewed, 
whether it is not, and rejection of recommendations that are 
science is peer reviewed. It has been for this Nebraskan 
interesting and how we might contribute and especially as it 
relates to industry in my district. And if any of you could 
speak to the impact, your perceived impact, of livestock 
industry, I have heard various accusations, and if any of you 
would care to comment on that.
    Dr. Caldeira. I am not expert on the livestock industry, 
but I do know that one of the concerns with respect to 
livestock and global warming are methane emissions from 
livestock. And I know that people are working on various ways 
of removing methane from gases that might be in barns or pens 
where livestock are held, and it might be potential for the 
kind of research to remove greenhouse gases from the atmosphere 
in general also to be applied to facilities such as livestock 
pens or barns.
    Mr. Smith of Nebraska. Thank you. Anyone else?
    Dr. Fleming. Yes, I am involved with the University of 
Kansas in a group that is doing this interdisciplinary graduate 
education, and certainly as one of your neighbors, the group 
there is getting technical training in agricultural sciences as 
well as in techniques to mitigate or perhaps reduce some of 
this. But the group is also looking at behavioral issues and 
choices and ways of working together with the industries to 
advance their purposes as well as other goals.
    And so the point I was making is that I think the education 
we have often is in content and technique of science or 
techniques of engineering, but that social dimension is very 
important. And so in looking at issues like global warming, 
making personal commitments and personal decisions I think is a 
very significant aspect of this program. It is not a solution 
to the beef issue, but if smoking is bad for you or beef is bad 
for the planet, people have to make some decisions or 
alignments.
    Mr. Smith of Nebraska. Are you suggesting that beef is bad 
for the planet?
    Dr. Fleming. No, but others have. It has been in the news 
recently.
    Mr. Smith of Nebraska. Well, I did read the comments of a 
writer one time who said that eating a T-bone steak is more 
egregious to the environment than driving a Hummer per se. I 
was astounded, you know. I am not sure the nutritional values 
were considered, you know, in the bigger picture, but certainly 
there are some concerns, especially in the midst of this 
economy, that in the so-called mitigating efforts, whether it 
is cap and trade, which is called a lot of other things, or 
whatever approach we might take, I hope that we remember that 
we need to look at the big picture economically, that there are 
some important factors here. Dr. Caldeira?
    Dr. Caldeira. We do not know how well these methods will 
work, these solar radiation methods will work at affecting 
regional climates, but there is at least some possibility that 
as a result of climate change, weather conditions will change 
in America's heartland and that this will impact on the 
production of grain. And you know, I would be misleading you if 
I said oh, I thought we could reverse this, but I think there 
is at least the potential that a research program with a 
relatively small investment could understand, you know, if the 
American heartland does turn into a dustbowl, is there a 
potential to change weather patterns to allow us to engage in 
agriculture once again? And so even if there is a small 
probability that this will occur, the investment is small and 
so the expected benefit of this investment is very high.
    Mr. Smith of Nebraska. In my part of the country that I 
represent we had an extended drought, and now we have certainly 
a wet October. Is that wet October a result of climate change 
and carbon emissions?
    Dr. Robock. There is a lot of weather variability that, 
because of the chaotic nature of the weather, you can't 
attribute any drought or any flooding event to global warming. 
The probability of different weather events changes over time, 
but certainly that is just part of normal weather variability.
    But cows do put a burden on the climate system. There are 
the methane emissions and there is all the energy used in the 
production of beef, and so that is--one of the mitigation 
strategies is for people to eat less beef. And maybe there 
could be a way for your constituents to gradually transition to 
other things that they could do that would create less 
greenhouse gases.
    Chairman Gordon. I am sure that is the answer you wanted to 
hear, Mr. Smith.
    Mr. Smith of Nebraska. If only my time had not expired. 
Thank you, Mr. Chairman.
    Chairman Gordon. Ms. Kosmas is recognized.

                   The Power of Scientific Innovation

    Ms. Kosmas. Thank you, Mr. Chairman. I appreciate the 
opportunity to listen to these gentleman before us today and to 
suggest to all of you here--I am from Florida, and Kennedy 
Space Center is in my district, and so I am really big on solar 
and sun as well as NASA and space exploration. So my remarks 
will be focused for the most part on the solar radiation 
management, my remarks and questions. But I want to suggest to 
my friend, Mr. Hall, that while you might think this is science 
fiction, I was talking with my daughter yesterday who was 
telling me my son, who is in China, was saying that they had a 
massive snowstorm induced by the state of China or the nation 
of China. So do you not believe that that happened?
    Dr. Robock. I believe that the snowstorm happened, but I 
don't think you can prove that they caused it.
    Ms. Kosmas. Okay. All right. Well, maybe it is science 
fiction. I don't know. But it is interesting, and I suspect if 
they could, they would. And so I think all the comments 
mentioned today about the necessity for research and 
development and international cooperation in so doing are valid 
and worth great consideration, that it is not impossible and 
maybe not even improbable that someone, somewhere will 
ultimately take advantage of the scientific opportunity. I 
would like to see us move forward with research and 
development, and I appreciate the comment of Dr. Shepherd that, 
you know, be careful what you ask for because you are going to 
have to wind it down eventually. And as you suggested with the 
volcanoes, you need to know where you are going next.
    Nevertheless, I think in this Nation we have both the 
brains and the capability to move forward on new frontiers as 
this is, mitigation, obviously, combined with new opportunities 
for better ways to produce energy and also to protect the 
environment. They kind of seem like they go without saying.
    In fact, one of the reasons that I ran for office is 
exactly that. I think we needed to be moving in a different 
direction in this country with regard to protection of the 
environment and conservation of energy and new energy 
methodology. So I am pleased to be here and pleased to be on 
this Committee.

                 Geoengineering and Climate Simulations

    I wanted to just discuss for a moment with Dr. Caldeira, 
you discussed in your comments the simulations and small-scale 
field experiments of solar radiation management. Can you 
discuss what the simulations and the experiments entailed? Let 
us start with that.
    Dr. Caldeira. Today there have been a number of modeling 
groups using climate models to simulate the effects of 
deflecting more sunlight away from the earth, and I believe 
that all of the simulations that used some reasonable amount of 
sunlight deflection found that sunlight deflection was able to 
reduce most of the climate change in most places most of the 
time. But as Alan Robock points out, after Mount Pinatubo, the 
Amazon and the Ganges River delta had some of the lowest river 
flow on record. And so there are negative consequences we need 
to be aware of and to study more deeply.
    In terms of experiments, so far no experiments have gone on 
in the field, but we could think of process-based experiments. 
You know, if you did put some material into the stratosphere, 
what kind of chemical reactions would occur? Would the 
particles stick together? So there are a lot of small-scale 
field studies that could be done short of something that 
affects climate. And we need to think carefully about how to go 
about conducting these experiments.

                       A Potential Role for NASA

    Ms. Kosmas. Okay. I know that it has been suggested that 
the National Science Foundation and DARPA, maybe, would be 
agencies. Could you tell me something about your feeling about 
NASA being involved perhaps in these projects? Yes, sir. I am 
sorry.
    Dr. Robock. We use a NASA climate model with NASA computers 
to do our simulations, and certainly NASA should be heavily 
involved in the climate research. And also, NASA puts up 
satellites, and we need a capability being able to measure 
particles in the stratosphere. There used to be the SAGE 
satellite, stratospheric aerosol and gas experiment, but they 
no longer exist. There is a spare sitting on a shelf in 
Hampton, Virginia.
    Ms. Kosmas. We could bring it down to the Kennedy Space 
Center, and I guarantee you we could get it out there.
    Dr. Robock. That is right. And so NASA really needs to be 
involved in an enhanced earth-observing program that can really 
help us. I was here in Washington earlier this year at the 
National Academy of Sciences in a panel, are we ready for the 
next volcanic eruption? And the answer was no. And Jim Hansen 
was sitting next to me. He said, no, we need a better 
capability of being able to observe the stratosphere for a 
volcanic eruption and for any geoengineering experiments. And 
NASA could be heavily involved in that.
    Chairman Gordon. Thank you, Ms. Kosmas. I think you are 
going to get some business down there.
    Ms. Kosmas. Good. Thank you.
    Chairman Gordon. Mr. Rohrabacher, Mr. Hall has been anxious 
by awaiting your five minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and no 
hearing like this would be fulfilled without my adding a list 
at this point of 100 top scientists from around the world who 
are very skeptical of the very fact that global warming exists 
at all, but I would like to submit that for the record at this 
time.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                  Skepticism of Global Climate Change

    Mr. Rohrabacher. There you go. Let me just note that there 
is ample reason for us to question whether or not things that 
are being suggested today are really needed because there is 
reason to question whether there is global warming, considering 
the fact that it has gotten--it is not gotten warmer for the 
last nine years, and the Arctic polar cap is now refreezing for 
the last two years.
    But that argument isn't what today's hearing is about, so I 
will just make sure that that is on the record and in people's 
minds when looking at some of these suggestions.
    Let me ask about some of the specific suggestions. I 
understand at 9/11 when they grounded all the airplanes that it 
actually increased the temperature of the planet, is that 
right? And thus----
    Dr. Robock. Excuse me, that is not correct.
    Mr. Rohrabacher. It is not correct?
    Dr. Robock. There was one study that showed that without 
clouds from contrails that the diurnal cycle of temperature 
went up, the daily temperature went up, the nighttime 
temperature went down, but later disproven. It was shown that 
was just part of natural weather variabilities. So that wasn't 
a very----
    Mr. Rohrabacher. Let me note that every time it doesn't fit 
into the global warming theory, it becomes natural variability 
but when it does fit in, it becomes proof that there is global 
warming.
    Let me ask you this. That really wasn't then? Does anyone 
else have another opinion of vapor trails, by the way? So we 
have learned today that we really just have--and am I 
misreading you by suggesting that you, too, are part of the 
group that believes in global warming that would like to 
restrict air travel or try to find ways of eliminating frequent 
flyer miles? We know you don't want us to eat steak now. Are we 
also not going to be able to fly on airplanes?
    Dr. Robock. Airplanes are one of the sources of emissions. 
If they use biodiesel and it recycles the fuel, then it 
wouldn't be part of the problem. But indeed, if we--we can do 
some emissions of CO<INF>2</INF>. We don't have to--these 
mobile transportation sources are very hard to retrofit on 
airplanes. With cars, you can, of course, generate electricity 
with wind and solar, but airplanes, we still have to keep 
flying and we can live with a little bit of CO<INF>2</INF> 
emission if we deal with other sources.
    Mr. Rohrabacher. Again, let me note that--by the way, you 
are a scientist here. What is the percentage of the atmosphere 
that is CO<INF>2</INF>? What percentage of the atmosphere?
    Dr. Robock. It is .039 percent.
    Mr. Rohrabacher. Okay. And most people, when I ask that 
question, Mr. Chairman, out in the hinterland, people believe 
it is 25 percent, and instead of this miniscule, that is .03, 
that is 3 percent of 1 percent of the atmosphere. And there are 
those who have realized--in the past there have been many times 
when that CO<INF>2</INF> content was enormously greater, wasn't 
that right? And during that time period there were lots of 
animals, like dinosaurs and lots of things growing, and the 
world seemed to be doing pretty good.
    Dr. Caldeira. CO<INF>2</INF> concentrations were high in 
the past, and the biosphere flourished. And even if we disagree 
about what the threats are from climate change, and I think we 
do, that, you know, I don't think my house is going to burn 
down, but I buy fire insurance. And----
    Mr. Rohrabacher. But you don't tell your neighbor that he 
can't have steak or visit his kids in an airliner, and that is 
the point.
    Dr. Caldeira. I don't----
    Mr. Rohrabacher. There are going to be changes. People have 
to understand, there are going to be huge changes in our 
lifestyle----
    Dr. Caldeira. I don't----
    Mr. Rohrabacher.--if this nonsense is accepted.
    Dr. Caldeira. I don't believe we are going to solve this 
problem by asking people to behave differently.
    Mr. Rohrabacher. Okay.
    Dr. Caldeira. I think we are going to solve it by improving 
the systems that surround us. But to get back to my point, even 
if we don't believe that climate change will damage us, we have 
to say there is some risk. So then we have to say, well, how 
much should we invest to try to mitigate that risk.
    Mr. Rohrabacher. We are broke right now, and the bottom 
line is that we have very little to invest in theories that may 
or may not be correct, and we also have a lot of indication, 
just the fact that you are using the word climate change is a 
difference than what was used 10 years ago which was global 
warming. And most of us realize that is because people now are 
trying to hedge their bets so they can have these controls, 
whatever way the temperature goes.
    Dr. Caldeira. No, I don't think that is true. You know----
    Chairman Gordon. Time.
    Mr. Rohrabacher. Thank you very much.
    Chairman Gordon. Speaking of dinosaurs, the time for Mr. 
Rohrabacher has run out, and we will need to proceed to----
    Mr. Rohrabacher. Thank you, Mr. Chairman.
    Chairman Gordon. Mrs. Dahlkemper.

                 Prioritizing Geoengineering Strategies

    Mrs. Dahlkemper. Thank you very much, Mr. Chairman, and I 
want to thank our witnesses for coming today. This is a 
fascinating hearing, and I look forward to more hearings on 
this as we delve into this subject further.
    I have a question for the panel and anyone who would like 
to address it. Do you believe that any particular 
geoengineering options should be removed from consideration 
completely? If so, why?
    Dr. Caldeira. You know, I think we have to think in terms 
of a portfolio and that there are some things that are clearly 
more promising. There are some things that can be scaled up on 
the solar radiation management side. There are things that 
could be scaled up and deployed rapidly, and I think those two 
are really particles in the stratosphere and perhaps whitening 
clouds over the ocean.
    On the carbon dioxide removal side, there are a bunch of 
land-based options to increase the storage from carbon from 
photosynthesis that need to be explored, and also 
industrialized capture of CO<INF>2</INF> from the air, and also 
spreading minerals around on the earth. My own view is that 
other options such as ocean fertilization, for example, are not 
going to play a significant role in solving the problem. That 
is not to say I would put zero money into them. I would just 
put them way down in the list of my portfolio of investments.
    Mrs. Dahlkemper. Anyone? Dr. Robock?
    Dr. Robock. There has been a suggestion to put frisbees 
into space to put a cloud of particles, of satellites, up to 
block the sun at a point between the earth and the sun, and 
that would probably cost trillions of dollars and nobody is 
sure if it would work. So I wouldn't suggest we invest money in 
that idea.
    Ms. Dahlkemper. Dr. Shepherd?
    Mr. Shepherd. I would personally exclude from consideration 
the idea of covering desert areas with reflective material 
because of the potential impacts on local rainfall patterns, 
not to mention the environmental impacts on the desert 
ecosystems themselves.
    Ms. Dahlkemper. Dr. Fleming?
    Dr. Fleming. Given the hurricane I showed that came ashore, 
I would also suggest we be very careful about redirecting 
storms.
    Mrs. Dahlkemper. Dr. Caldeira.
    Dr. Caldeira. I think we need to be clear what kind of 
research we are considering. If we are talking about a climate 
model and somebody wants to say, well, what would happen if we 
changed the reflectivity of a desert in a climate model, that 
is a small-scale, non-invasive kind of research that might be 
good to do. But if somebody wants to start rolling out giant 
plastic sheets over the deserts, that is something that we 
shouldn't do. So what I am talking about portfolio, there are 
some things that we should do at small scale, maybe just in 
climate models and that should receive relatively low priority.
    Dr. Robock. And I would say there is nothing that we should 
do right now. We need a lot more research, theoretical 
research, with climate models to see what the benefits but also 
the risks would be of different suggested strategies. So far 
everybody has done a different climate model experiment. It is 
hard to compare the results. So I am organizing an 
international program where all the climate modeling groups in 
the world do exactly the same experiment so we can see, do they 
really get drought in certain regions for certain experiments. 
And if everybody does the same experiment, we can compare it, 
and we will have a much better confidence that our models are 
correct, just like we do for global warming experiments.

                    Needed International Agreements

    Mrs. Dahlkemper. If we are looking at this climate system 
being so complex, and we haven't even talked about some of the 
international agreements, what kinds of things do we need to 
have in place in terms of international agreements and legal 
steps before we could really do a large-scale testing 
initiative? Mr. Lane?
    Mr. Lane. Yes, I would pick up on something that I said in 
my written statement which is that nations may differ in their 
interests in geoengineering, at least in solar radiation 
management, which is the kind we are talking about for the most 
part here. I would suggest that the United States really needs 
to learn a lot more about the potential risks and benefits of 
solar radiation management for the United States before it 
embarks on any kind of international agreement or international 
protocol. We need to be clear on U.S. interests, not that it 
ultimately isn't going to turn into international bargaining, 
but each country needs to be clear about its own interests 
before we are ready for diplomatic bargaining, I would suggest.
    Chairman Gordon. Thank you, Mr. Lane.
    Mrs. Dahlkemper. Thank you.
    Chairman Gordon. To demonstrate that the California 
Republican Party is a big tent, Mr. Bilbray is recognized.
    Mr. Bilbray. Thank you, Mr. Chairman. I would like to 
quickly yield to the gentleman from the frozen wasteland of 
Nebraska at this time.

                    More on Livestock Methane Output

    Mr. Smith of Nebraska. I didn't realize that was a--thank 
you, I guess.
    Dr. Robock, following up on your suggestion that mitigating 
the consumption of beef would help the environment, do you see 
any nutritional drawbacks to that? Do you consume beef 
yourself?
    Dr. Robock. Yes. Now, I am not an expert on nutrition or on 
the entire system of agriculture. I have just seen papers that 
calculate how much greenhouse gases are admitted for, say, a 
pound of beef versus a pound of pork or a pound of chicken or a 
pound of potatoes, and just in that one narrow way of looking 
at it, there is more emitted that causes more global warming 
from beef.
    Mr. Smith of Nebraska. But a narrow way of looking at it, 
you are suggesting?
    Dr. Robock. Yes. Yes. There are a lot of other 
considerations. I am just talking about the impact on global 
warming.
    Mr. Smith of Nebraska. But you would advocate mitigating 
consumption of beef as a means of accomplishing your objective?
    Dr. Robock. Yes.
    Mr. Smith of Nebraska. And how would you suggest going 
about that? And in the interest of time, I do want to leave 
some time. How would you suggest going about that?
    Dr. Robock. Education. I mean, people--you can't--I don't--
it is your job to decide what to tax or not to tax. Obviously, 
if you wanted people to behave differently, you give them 
incentives and disincentives for behavior. But that is just one 
of the ways that the climate system responds to methane and it 
responds to carbon dioxide, and the current way of producing 
beef emits a lot of those gases. That is just--what to do about 
it? What the entire portfolio of mitigation should be? I am 
not----
    Mr. Smith of Nebraska. However, you just advocated for 
something to mitigate the consumption of beef?
    Dr. Robock. Well, so the way--if you do want to do that, of 
course, then you give----
    Mr. Smith of Nebraska. For the record, I don't want to.
    Dr. Robock. I mean, I guess I am trying not to say 
something that will make you feel bad but I am trying also to 
be honest about----
    Mr. Smith of Nebraska. I think you are a little too late.
    Dr. Robock. Sorry.
    Mr. Smith of Nebraska. But thank you.

                        The Need for Mitigation

    Mr. Bilbray. Reclaiming my time, Mr. Chairman, as stated 
before, the changing, you know, quote unquote, lifestyles or 
whatever is going to be too little, too late. I want to thank 
you for having this hearing. The fact is after seeing what kind 
of proposal that supposedly was going to address climate change 
that came out of the political structure here, I have come to 
the conclusion that we need to talk about mitigation of the 
crisis because we are not going to avoid it. There is not the 
political will to do what it takes. There is not even the 
political will to make it legal in the United States to do what 
it takes to avoid climate change because I believe strongly 
that we have got to have the ability to produce energy that 
doesn't emit greenhouse gases so we can shut down all those 
facilities that do, and there is not the political will to do 
with that what we did with the interstate freeway system where 
the government went out and sited, did the planning, did the 
things so we can shut down the coal producing and the emissions 
and all that other stuff. We are not willing to do that. We are 
just willing to talk about how terrible it is.

          Global Dimming and Risks of Stratospheric Injections

    So this is going to be a treating the crisis and trying to 
mitigate the adverse impact, and I appreciate that approach. 
The question is, there was a comment, have we now eliminated 
global dimming as a consideration in this issue?
    Dr. Robock. If by global dimming you mean the effect of----
    Mr. Bilbray. The pooling effect of particulates----
    Dr. Robock. In the troposphere. That is not global but it 
is continuing in places that emit a lot of particles, like in 
India and China. But solar radiation management is global 
dimming on a global scale. People are talking about putting a 
cloud in the stratosphere, not down near here where we breathe 
it.
    Mr. Bilbray. My concern is as somebody who has worked on 
air pollution, I would assume eliminating coal--I mean, clean 
coal is like safe cigarettes. I am hard-core against it, but 
that is fine. But if you eliminate coal which puts a lot of 
particulates in, I am concerned that there may be an adverse 
impact we don't consider.
    Dr. Caldeira. If we eliminated coal use today, the earth 
would probably heat up by about another degree Fahrenheit from 
removing the sulfur. If we put just a few percent of that 
sulfur in the stratosphere, we would get the same cooling 
effect on a global average while eliminating something like 95 
or more percent of lower-level pollution. And so we need to 
think about what if China were to say, for each power plant 
that we put sulfur scrubbers on, we will take three or four 
percent of that sulfur and put it higher in the atmosphere to 
get that cooling effect while eliminating 95 or more percent of 
the----
    Chairman Gordon. Excuse me, Doctor. We have about eight 
minutes until we have to go vote. So I just want to assure Mr. 
Smith that he can go home and tell his constituents that the 
beef police will not be knocking on their door. And I recognize 
Mr. Lujan to conclude our questions.

              The Impact of Ingenuity and Behavior Change

    Mr. Lujan. Mr. Chairman, I appreciate that, and as someone 
that enjoys a T-bone or a lamb chop, sometimes it is raised on 
the family farm that I live on. And I hope to do more wonderful 
hunting in New Mexico. I would invite my colleagues to come 
down to New Mexico to see for themselves. I appreciate the 
emphasis with mitigation and what we are talking about here. I 
would say that as we look to see what we have to do as a Nation 
and what I hope that we are truly looking at here is not 
telling people they don't have to fly to visit their family or 
that they don't have to eat beef or that they don't have to do 
whatever it is that is being said today, but that we are 
telling people we can be smarter about the way that we do 
things--that we are saying when we are talking about human 
behavior, I do not see how encouraging people to be more 
efficient with their home energy use or with vehicle use or 
being smarter about things like that, that that doesn't have a 
positive impact on all that we are looking at.
    Again, being smarter about the way we do things, being able 
to embrace ingenuity and challenge our scientists, our 
engineers, our researchers to continue to do great things. You 
know, when I was young I remember watching cartoons about 
science fiction and this whole notion that people could one day 
be in space, building a space station, not only walking on the 
moon but staying up there for months upon end to do research. 
Lo and behold, yesterday there were three astronauts that came 
to visit us here on Capitol Hill who came back from making 
improvements where there are more and more people that are 
living in space, staying there for months upon end, where in a 
global community we're doing some of these things that were 
once considered science fiction. We are being smarter about the 
way we do things, and we are doing them better.
    And so as we look to see what is happening around the 
earth, I know that there are many who truly believe that there 
still isn't a problem, that this isn't something that we have 
to do something about. And I would hope that we could get 
something submitted into the record from those of you that are 
willing to speak to them, to tell us what it is that we can 
share with them as well, to talk about this problem that I 
believe is facing us as a Nation and facing us as a global 
community.

                       Climate Modeling Resources

    As we talk about the science, though, and what indeed that 
we can employ to be more aware of what is actually occurring 
with the warming of the oceans or weather patterns, can you 
talk about the importance of how we are able to include 
computer modeling capabilities, of research laboratories, of 
our national laboratories, of our colleges and our universities 
around the United States that have super-computing capabilities 
and the ability to now use new data to be able to feed you the 
information that you need so that we can indeed solve some of 
these problems? Dr. Caldeira?
    Dr. Caldeira. I and my colleagues did some of the first 
computer model simulations of the solar radiation management 
methods at a Department of Energy National Lab, Lawrence 
Livermore Lab, and the kind of computing facilities at places 
like Los Alamos and the other labs in the system are really 
valuable and were a great place to be able to do this work.
    I am also, as an academic, a strong supporter of our 
academic research institutions and the computing facilities at 
those institutions. And I think that there is potential through 
investing in this research area to revitalize our science, 
education and the computing facilities that support that 
education.
    Chairman Gordon. Dr. Caldeira and for the rest of the 
panel, we are down to less than five minutes now, so I will 
quote, if he doesn't mind, Dr. Ehlers in saying, Mr. Lujan, you 
brought us to an eloquent conclusion. Thank you for your 
statement.
    Before we close the hearing, as I told the witnesses 
earlier, I will provide for them two questions, one, what does 
a research program look like, and the second one, if we have 
any type of international treaties or collaboration, what 
should that look at. We would also welcome any comments to 
follow up, Mr. Lujan, or anything else.
    You have been an excellent panel. This has been I think an 
important hearing, the start of a longer-term discussion, and I 
think that we can say with consensus that no one is advocating 
that geoengineering is a one-stop shop or any type of an 
alternative to mitigation, but is something that needs to be 
reviewed. And so I will say now that the record will remain 
open for two weeks for additional statements from Members and 
for answers to any follow-up questions the Committee might ask 
the witnesses. The witnesses are excused, and the hearing is 
adjourned. Thank you.
    [Whereupon, at 11:45 a.m., the Committee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Answers to Post-Hearing Questions
Responses by Ken Caldeira, Professor of Environmental Science, 
        Department of Global Ecology, The Carnegie Institution of 
        Washington, and Co-Author, Royal Society Report

Questions submitted by Representative Ralph M. Hall

Q1.  For the Solar Radiation Management options, you state that there 
are only two that would be able to address a significant part if not 
all warming issues, sulfate injections and cloud seeding.

        a.  Although smaller options like white roofs and surfaces or 
        desert reflectors would not address the whole warming issue, 
        would it be useful to deploy these low impact options?

        b.  Or, is the idea that once the radiation infiltrates the 
        earth's atmosphere to a point where it would be reflected off 
        the surface, the battle has already been lost since it will be 
        captured on its return to space?

A1. Dr. Caldeira did not provide an answer to this question.

Q2.  In your testimony you mention the Mt. Pinatubo volcanic eruption 
in 1991 that caused a 1 degree Fahrenheit cooling of the earth for 
about a year or two. Then the particles in the stratosphere discharged 
by the volcano left, and the cooling effect wore off.

        a.  Where did those particles go to?

        b.  Is there a similar concern about acid rain or particulate 
        matter pollution if we inject particles into the stratosphere 
        to simulate a volcanic eruption?

A2. Dr. Caldeira did not provide an answer to this question.

Q3.  Ultimately, almost all the energy we use here on earth comes from 
the sun. Coal, oil and natural gas are essentially the remainder of 
large amounts of biomass from millions of years ago. Water, wind, and 
to a lesser extent, tidal energy are all derived from the Earth-Sun 
system. Solar and bioenergy quite obviously require energy from the 
sun. Only nuclear and geothermal energy seem to be independent of 
energy from the sun. What are the potential risks to global energy 
resources if we reduce the amount of solar radiation reaching the 
Earth?

A3. Dr. Caldeira did not provide an answer to this question.

Questions submitted by Representative Dana Rohrabacher

Q1.  If stopping coal use immediately would cause more supposed warming 
than the entire CO<INF>2</INF> increase since the beginning of 
industrialization, why is that a good thing?

A1. Dr. Caldeira did not provide an answer to this question.
                   Answers to Post-Hearing Questions
Responses by John Shepherd, FRS, Professional Research Fellow in Earth 
        System Science, National Oceanography Centre, University of 
        Southampton, and Chair, Royal Society Geoengineering Report 
        Working Group

Questions submitted by Chairman Bart Gordon

Q1.  Please describe what you think a comprehensive federal research 
program on geoengineering should entail. What are the critical features 
of such a program?

        <bullet>  Which U.S. agencies would contribute to a research 
        initiative, and in what capacity?

        <bullet>  What scale of investment would be necessary, both 
        initially and in the longer term?

        <bullet>  What kind of professional and academic expertise 
        would be required?

A1. A comprehensive research programme should involve research on both 
Solar Radiation Management (SRM) and Carbon Dioxide Removal (CDR) 
methods, since CDR methods are less risky, and would be needed for a 
long-term solution, to provide the exit strategy for SRM methods, and 
to deal with the ocean acidification problem. Since it is too early to 
pick winners, research on several of the more promising methods of each 
class should be undertaken. The scientific and technological research 
should comprise technological development, computer modelling of both 
intended and unintended environmental impacts, laboratory and pilot-
plant scale experiments, and field testing on various scales in due 
course. For methods which involve dispersion of material in the 
environment and/or transboundary effects (other than simply the removal 
of greenhouse gases (GHGs) from the atmosphere), large-scale field 
tests should await the establishment of appropriate national and/or 
international arrangements for the regulation of such research. 
Research on economic aspects (especially life-cycle assessment on 
financial, energy and carbon accounting bases), and on social, legal, 
ethical and political aspects should be undertaken in parallel.
    I am not an expert on U.S. research funding or institutional 
capability, but would advocate that the research should be undertaken 
as a coordinated joint programme by academic institutions, national 
laboratories and where appropriate also by contracted commercial 
research organisations. Funding of various aspects by NSF, DOE, NOAA 
and NASA would be appropriate. Private and philanthropic funding should 
not be excluded if channelled via a suitably transparent ``arms 
length'' mechanism.
    A suitable scale of investment for the U.S.A. would be of the order 
of $100 million per year (direct costs only) for the first five years, 
as a contribution to a coordinated international programme, increasing 
progressively thereafter (possibly doubling each five years) until one 
or more methods are selected for deployment, or all are abandoned as 
unnecessary or undesirable.
    A very wide range of scientific and engineering expertise will be 
required (the precise requirement will depend on the technology in 
question), together with professional expertise in socio-economic and 
legal fields. Particular areas which may require additional support are 
in all aspects of Earth System & Environmental Sciences, and Chemical, 
Electrical & Mechanical Engineering. The further enhancement of Earth 
System Models (and the computing infrastructure to run them) are likely 
to be an early requirement.

Q2.  Please prioritize the geoengineering strategies you believe 
warrant extensive research, and explain your reasoning.

        <bullet>  Within these, please highlight examples of potential 
        negative impacts you predict might accompany their deployment 
        and/or large-scale research.

        <bullet>  Are there any strategies that you believe should be 
        eliminated from consideration due to unacceptable risks and 
        costs?

A2. Estimates of costs for all methods are very uncertain at present, 
so cost should not be taken as a decisive selection criterion for the 
time being (and it is premature to attempt comparative cost-benefit 
analyses except at a very broad-brush level).
    Among SRM methods the order of priority, nature of the research, 
and potential negative impacts should be
    High: Stratospheric aerosols [R&D on all aspects especially 
deployment technology, and intended and unintended environmental 
impacts: possible negative impacts on stratospheric ozone, upper 
tropospheric clouds, poor cancellation of precipitation pattern 
changes].
    Medium: Cloud brightening [R&D on all aspects especially deployment 
technology, radiative forcing attainable, and intended and unintended 
environmental impacts: possible negative impacts on regional weather 
patterns & ocean upwelling due to strongly localised radiative 
forcing].
    Low: Space-based methods [R&D: Desk-based feasibility studies only: 
potential negative impacts due to non-uniform forcing and release of 
rocket fuel combustion products etc to the atmosphere].
    Among CDR methods the order of priority, nature of the research, 
and potential negative impacts should be
    High: Engineered capture of CO<INF>2</INF> from ambient air [R&D on 
technological development especially energy use and cost reduction: 
potential negative impacts due to materials used and CO<INF>2</INF> 
sequestration]
    Medium: Enhanced weathering methods (both terrestrial and oceanic) 
[R&D on technological development, effectiveness, and environmental 
impacts: potential negative impacts due to materials & energy used, and 
possibly on soil and ocean ecosystems]
    Low: Biological methods (SECS, Biochar, enhanced soil carbon & 
afforestation). [R&D on ecological impacts and land-use requirements & 
conflicts: potential negative impacts on forest & grassland ecosystems]
    Unpromising methods include land-surface (desert) albedo 
enhancement, and ocean fertilisation (by both iron and macronutrients) 
because of their expected high impacts on natural ecosystems.
    [Please see Royal Society report for further explanation of 
rationale]

Q3.  Could some geoengineering activities be confined to specific 
geographic locations?

        <bullet>  For example, could solar radiation management be 
        localized specifically for the protection of polar ice?

A3. In general CDR methods can be applied at any location (e.g. where 
energy and other costs are low) as convenient, though not all would 
necessarily be confined within national boundaries (e.g. ocean 
fertilisation).
    It would on the other hand be generally undesirable to attempt to 
localise SRM methods, because any localised radiative forcing would 
need to be proportionally larger to achieve the same global effect, and 
this is likely to induce modifications to normal spatial patterns of 
weather systems including winds, clouds, precipitation and ocean 
currents & upwelling patterns. It would be particularly undesirable to 
attempt to cool some area (e.g. the polar regions) of one hemisphere 
but not the other, as this is very likely to lead to a shift in the 
location and seasonal range of the inter-tropical convergence zone 
(ITCZ) with possible alteration of low-latitude weather systems 
(especially the seasonal pattern and strength of monsoon systems).
    It could however be useful to engineer a slight and smooth 
latitudinal variation of SRM forcing (e.g. by aerosol release primarily 
at high latitudes), to balance the spatial pattern of greenhouse 
warming more precisely, and so to reduce any residual over-compensation 
effects which are likely with a spatially uniform forcing (such as a 
simple fractional reduction of solar radiation).

Q4.  In his submitted testimony, Dr. Robock explained simply: ``To 
actually implement geoengineering, it needs to be demonstrated that the 
benefits of geoengineering outweigh the risks.''

        <bullet>  What do you believe are the ``tipping points'' that 
        would justify large scale deployment of geoengineering?

        <bullet>  Based on the current pace of carbon increases (about 
        2 parts per million a year) and your prediction of the efficacy 
        of conventional mitigation strategies, what would be an 
        appropriate timeline for research and possible deployment?

A4. I do not consider that a ``tipping point'' or ``emergency'' 
rationale for implementation of geoengineering is appropriate, simply 
because it will be extremely difficult to detect tipping points (at 
which irreversible state changes occur) before they are passed, or even 
to be certain when they have been passed. Moreover, waiting for an 
emergency situation more or less implies introducing a high level of 
intervention rapidly, which is likely to be imprudent. I think it is 
more constructive to consider trigger or threshold levels at which it 
would be prudent to commence progressive implementation of 
geoengineering over several decades (allowing the intervention to 
commence at a low level so that one could verify its intended impacts 
and hopefully detect any adverse impacts before they become serious). 
It could for example be appropriate to commence geoengineering 
intervention in time and in such a way as to limit the increase of 
global temperature to 2 C (or any other agreed level) and maintain it 
at that level for some considerable time, before deciding whether to 
seek to reduce it. As stated above and in the Royal Society report, it 
would be imprudent to commence SRM intervention without an exit 
strategy, such as simultaneously commencing CDR intervention on a scale 
sufficient to supplant the SRM intervention in the long term.
    In the light of current (i.e. post-Copenhagen) expectations of 
climate change, it would be desirable to commence a substantial 
programme of R&D immediately, with a view to possible large-scale 
deployment in about 20 years time, i.e. about 20 years before it is 
expected that the global mean temperature increase will reach 2 C.

Q5.  The effects of many geoengineering strategies such as 
stratospheric injections could not likely be tested at less than full-
scale. To your knowledge, what types of international agreements would 
address the challenges of large-scale testing?

        <bullet>  Can you identify any existing treaties or agreements 
        that would apply to large-scale testing of geoengineering?

A5. To the best of my knowledge, there are no international treaties or 
institutions which are at present appropriate to deal with regulation 
of geoengineering in general, or stratospheric aerosol release in 
particular (see fuller discussion in the Royal Society report). A major 
revision and extension of ENMOD, and the creation of an executive arm 
for this treaty, could be a possible route for the future. However, any 
such body would have to cooperate closely with the UNFCCC eventually, 
to ensure coordinated development of mitigation, adaptation and 
geoengineering activities, and such a formal linkage should be created 
in any new legal and institutional framework. A critical review of 
existing treaties and institutions is a necessary and important early 
action.

Questions submitted by Representative Ralph M. Hall

Q1.  Mr. Shepherd, in your written testimony you mention that the 
technologies required to achieve sufficient mitigation action are 
available and affordable right now.

        a.  Would you please comment on what those technologies are?

        b.  Would you consider carbon capture and sequestration 
        technologies available and affordable?

        c.  Would you consider the installation and use of such 
        technologies available and affordable?

A1. (a) Please see the report of the Royal Society ``Towards a Low 
Carbon Energy Future'' (available at http://royalsociety.org/WorkArea/
DownloadAsset.aspx?id
=5453) which summarises technologies available for implementation in 
the immediate future, the medium term (up to 2050) and thereafter. Most 
such technologies would result in somewhat higher energy prices, but 
should nevertheless be regarded as affordable, since energy prices are 
rarely the dominant component of domestic or industrial costs. Moreover 
energy prices have historically been held at artificially low levels 
(because the costs of the environmental impacts have hitherto been 
ignored). Society and industry will of course need time to adapt to 
higher energy prices.
    (b) Given a sufficient investment of effort CCS would be available 
for deployment over the next few decades, beginning well before 2020. 
It would result in a substantial increase in electricity prices, but 
for the reasons given above this should not be regarded as an 
insurmountable obstacle.
    (c) There are a number of technologies (see above) available for 
rapid development and progressively increasing deployment, but the 
timescale for the transition to a low-carbon energy system is 
nevertheless several decades even using existing technology such as 
nuclear fission.

Q2.  We've heard a great deal today about Solar Radiation Management 
techniques. Would you please tell us of some of the significant side 
effects and risks associated with stratospheric aerosol methods?

A2. Please refer to the Royal Society report ``Geoengineering the 
Climate'' for a detailed account of the possible side effects and risks 
associated with SRM using stratospheric aerosols. Briefly the possible 
side-effects identified to date are:
    (a) Imperfect cancellation (over-compensation) of important facets 
of climate change, including regional temperature patterns, but more 
seriously of the regional and seasonal distribution of precipitation 
(rainfall) especially at low latitudes. It should be noted that 
rainfall is notoriously difficult to predict in all weather forecasting 
and climate models anyway, and the reliable prediction of the effects 
of SRM intervention is similarly difficult. Advances in computer 
modelling are required for all of these purposes.
    (b) Reduction of stratospheric ozone levels.
    (c) Possible modification of high-level tropospheric clouds (with 
consequences for climate which have not yet been evaluated).
    (d) SRM methods have no effect on CO<INF>2</INF> levels and 
therefore do almost nothing to ameliorate ocean acidification.
    The most serious risk is however that SRM techniques ``would create 
an artificial, approximate, and potentially delicate balance between 
increased greenhouse gas concentrations and reduced solar radiation, 
which would have to be maintained, potentially for many centuries. It 
is doubtful that such a balance would really be sustainable for such 
long periods of time, particularly if emissions of greenhouse gases 
were allowed to continue or even increase.'' Moreover, if the 
intervention were terminated for any reason, all the climate change to 
be expected from the elevated level of GHGs still in the atmosphere 
would then occur very rapidly indeed (this is the ``termination 
problem'').

Q3.  During your ``Working Group'' deliberations, were there any 
discussions surrounding liability? For example, if one nation were to 
act, using a stratospheric aerosol method, and several nations gained 
from the resultant ``cooling'', but there were unintended negative 
impacts as well, would each nation be liable in some way or just the 
one nation taking the action? How would the liability or remediation be 
shared?

A3. We did discuss liability issues briefly (see sections 4.5 and 5.4 
of the report) but did not feel able to offer firm conclusions on this 
difficult subject (which also already arises, of course, over liability 
for the impacts of climate change itself). As with climate change, it 
is likely to be extremely difficult to attribute specific events 
causing losses to the intervention undertaken, with sufficient 
confidence to underpin a system for compensation. It may be more 
practicable to establish a generic system, similar to that which is 
evolving under the UNFCCC for compensation for the impacts of climate 
change on vulnerable communities.
                   Answers to Post-Hearing Questions
Responses by Lee Lane, Co-Director, American Enterprise Institute (Aei) 
        Geoengineering Project

Questions submitted by Chairman Bart Gordon

Q1.  Please describe what you think a comprehensive federal research 
program on geoengineering should entail. What are the critical features 
of such a program?

A1. Overview: Such a program should include both scientific research 
and technology development. Over time, resource allocation should shift 
from the former to the latter. Research should explore both the 
possible benefits and the possible risks of geoengineering options. 
Both solar radiation management (SRM) and air capture (AC) deserve to 
be explored, but the former is far more important and less likely to 
win adequate private sector support; it should receive the lion's share 
of the public funding. The SRM program will eventually entail field 
testing. The scale of the testing should gradually increase. To advance 
SRM, the U.S. government will need to build its capacity to model and 
to observe Earth's climate.

    Three broad principles are crucial:

    First, the solar radiation management (SRM) R&D program should be 
organized separately from the air capture (AC) R&D program. Exploring 
SRM entails tasks that differ from those needed to explore AC. 
Disparate tasks demand disparate skills. Also, if research on AC were 
ever to be successful it might well devolve to the private sector; 
whereas, SRM is likely to remain under direct government control. 
Yoking together two such different efforts would be certain to impede 
the progress of both.
    Second, each program should have a clearly defined and accountable 
``owner''. He or she must be accountable for project performance: 
therefore, he or she must also be able to allocate the available 
budget. The R&D process is uncertain; surprises are inevitable; 
therefore, managers must be free to respond to them.
    Third, Congress, too, would have to play a part in the success of 
R&D on geoengineering. R&D involves failures; indeed, an R&D program 
that experiences no failures is almost certainly too conservative. 
Members of Congress may be tempted to react to agency failures in ways 
that reinforce this tendency. The temptation to view R&D through the 
lens of local jobs is another notorious source of R&D inefficiency.

Q1a.  Which U.S. agencies would contribute to a research initiative, 
and in what capacity?

A1a. For SRM, R&D will involve Earth observation, modeling, and several 
different areas on scientific research. NASA, NOAA, and NSF all possess 
relevant expertise. As R&D progresses, skill in managing technology 
development will play a growing role. Few civilian agencies of the U.S. 
government have demonstrated talent for tasks of this kind.
    A critical issue will be to choose the project's lead agency. The 
lead agency should have a budget that allows it to draw on the 
expertise available in other government agencies without granting any 
of them the status of monopoly supplier. Congress would need to refrain 
from allocating tasks and dollars to favored agencies and facilities.

Q1b.  What scale of investment would be necessary, both initially and 
in the longer term?

A1b. Initially, a few million dollars a year would suffice. At some 
point, SRM would require sub-scale testing. Eventually a full scale 
test might be warranted. These tests, and the needed global 
observation, could eventually cost several billion annually. Seeking 
alternatives to satellite observation might be an important cost saving 
R&D task. At least some experts believe that such alternatives exist.

Q1c.  What kind of professional and academic expertise would be 
required?

A1c. The natural scientists on the panel are better qualified than Ito 
respond to this question as it pertains to those disciplines; however, 
Professor Fleming has observed that geoengineering also poses a number 
of questions that fall within the ambit of the social sciences. On this 
point, he is, I believe, correct. How government should respond to this 
need is an open question. In an earlier era, with the RAND Corporation, 
the U.S. government had great success in productively using social 
science. The Committee is, I believe, going to be hearing from Dr. 
Thomas Schelling. Dr. Schelling has had experience with RAND and with 
other similar ventures. The Committee might wish to draw on his views 
on this subject.
    One fundamental question about SRM is the way in. which it should 
be integrated with other means of coping with climate change. While the 
natural sciences provide important inputs to answering this question, 
economists, decision theorists, and political scientists also have 
crucial contributions to make.

Q2.  Please prioritize the geoengineering strategies you believe 
warrant extensive research, and explain your reasoning.

A2. SRM may offer a defense against the possible onset of rapid and 
very harmful climate change. Should such climate change occur, no other 
response appears to offer a comparable option for avoiding harm. This 
feature of SRM, combined with its apparently low cost, makes exploring 
it a high priority. AC may also warrant R&D, but does not offer either 
of these advantages; further, the private sector has fairly strong 
economic incentives to explore AC. In contrast, if we are to have an 
SRM option, the public sector will have to develop it.

Q2a.  Within these, please highlight examples of potential negative 
impacts you predict might accompany their deployment and/or large-scale 
research.

A2a. Professor Robock has developed an extensive list of possible 
objections. This list constitutes a starting point for the defensive 
research agenda associated with SRM. I have nothing to add to his list.
    In the case of AC, most of the technologies entail relatively 
localized impacts; however, to have a global scale impact, AC must 
capture and safely store truly gargantuan quantities of mass. The shear 
scale of the task seems to dictate that its environmental costs will be 
substantial.

Q2b.  Are there any strategies that you believe should be eliminated 
from consideration due to unacceptable risks and costs?

A2b. For reasons laid out in a recent paper (Bickel and Lane, 2009) the 
space sunshade concept is an unappealing approach to SRM. It offers few 
benefits that might not be achieved at vastly lower costs with other 
SRM techniques, and the very large up-front infrastructure costs would 
simply be so much waste if the project were to fail or be abandoned for 
any reason.

Q3.  Could some geoengineering activities be confined to specific 
geographic locations?

A3. My understanding is that Dr. Michael MacCracken has been 
considering some SRM options for localized interventions. See: 
MacCracken, Michael, C. ``On the possible use of geoengineering to 
moderate specific climate change impacts.'' Environ. Res. Lett. 4 
(2009), 045107, available at: http://www.iop.org/EJ/article/1748-9326/
4/4/045107/er19<INF>-</INF>4<INF>-</INF>045107.html#er1317855s3
    Another line of research has been summarized in recent work by 
Rasch, Latham, and Chen. See: Rasch, Philip J., John Latham, and Chih-
Chieh (Jack) Chen. ``Geoengineering by cloud seeding: influence on sea 
ice and climate system.'' Environ. Res. Lett. 4 (2009), 045112, 
available at: http://www.iop.org/EJ/article/1748-9326/4/4/045112/
er19<INF>-</INF>4<INF>-</INF>045112.pdf?request-id=dc8ba35701-01a3-
4aec-b654-eee98f4a8a71
    The Committee may wish to query these scholars on the results of 
their findings.

Q3a.  For example, could solar radiation management be localized 
specifically for the protection of polar ice? If so, how?

Q4.  In his submitted testimony, Dr. Robock explained simply: ``To 
actually implement geoengineering, it needs to be demonstrated that the 
benefits of geoengineering outweigh the risks.''

A4. The potential net benefits of SRM are, however, very large. One 
recent study found that, globally, the difference between the benefits 
of deploying SRM and the direct costs of doing so range from $200 
billion to $700 billion a year in perpetuity. If other studies confirm 
this result, SRM should be deployed unless its side-effects entail 
annual net costs of at least $200 to $700. Determining if they do is a 
key part of a research agenda for exploring this option. (Professor 
Eric Bickel of the University of Texas at Austin is currently doing 
innovative work in this field, and the Committee might wish to consult 
him on these matters.)
    Research of this kind must also encompass the indirect benefits of 
deploying SRM, e.g. lowering the risk of trade wars triggered by GHG 
controls, the ecologic havoc wreaked by biofuel mandates, and so forth. 
No valid study can weigh only the indirect costs of SRM while ignoring 
those of other approaches.

Q4a.  What do you believe are the ``tipping points'' that would justify 
large-scale deployment of geoengineering?

A4a. The natural scientists on the panel are better qualified than Ito 
respond to this question.

Q4b.  Based on the current pace of carbon increases (about 2 parts per 
million a year) and your prediction of the efficacy of conventional 
mitigation strategies, what would be an appropriate timeline for 
research and possible deployment?

A4b. Globally, no consensus exists about paying the costs of GHG 
controls, nor is such a consensus likely to emerge in less than several 
decades at the very least. Under these conditions, global emissions 
will continue rising for many decades to come. Atmospheric 
concentrations will continue rising until long after emissions have 
peaked.
    At the same time, research on SRM is likely to progress rather 
slowly. Larger scale field tests in particular might have to proceed at 
a deliberate pace. It would be better to observe the climate's reaction 
to one intervention at a time and with a significant interval between 
interventions. The latter precaution would ensure that time-lagged 
impacts were discovered. This combination of factors implies that R&D 
on SRM should begin as soon as possible in order to allow the eventual 
field tests to proceed cautiously.

Q5.  The effects of many geoengineering strategies such as 
stratospheric injections could not likely be tested at less than full-
scale. To your knowledge, what types of international agreements would 
address the challenges of large-scale testing? Can you identify any 
existing treaties or agreements that would apply to large-scale testing 
of geoengineering?

A5. In a recent paper prepared for the American Enterprise Institute, 
Professor Scott Barrett of Columbia University observed:

         ``According to Daniel Bodansky (1996: 316), ``international 
        law has relatively little specific to say about climate 
        engineering.'' Moreover, he adds, ``we should be cautious about 
        drawing conclusions from existing rules, for the simple reason 
        that these rules were not developed with climate engineering in 
        mind'' (Bodansky 1996: 316). Geoengineering creates a new 
        institutional challenge.

    Professor Barrett's observations seem to suggest that no clear 
regime exists. SRM is a problem that is likely to require arrangements 
that are designed to fit its unique characteristics.
    I would reinforce the caution that I expressed in my written 
statement There is too much uncertainty about the nature of the U.S. 
national interest in geoengineering for the U.S. government to consider 
international agreements that might restrict our government's future 
freedom of action.

Questions submitted by Representative Ralph M. Hall

Q1.  Mr. Lane, would you expand on your comments in your testimony that 
a steep decline in greenhouse gas (GHG) emissions may well cost more 
than the perceived value of its benefits?

A1. Most economic studies of climate change have concluded that a 
policy of gradually restraining global GHG emissions would yield net 
benefits. These same studies indicate that attempts to apply more rapid 
emission restraints would be likely to impose costs that exceed their 
benefits. Professor Richard Tol's recent paper for the Copenhagen 
Consensus Center basically reaffirms this consensus.
    A few studies have departed from this consensus. Some of these, 
like the analyses of Lord Stern and. William Cline, produce different 
results largely because of atypical assumptions about the rate at which 
future benefits should be discounted. William Nordhaus of Yale has 
presented a cogent critique of this approach. It is my personal 
impression that, on this point, at least here in the U.S., most 
economists who have examined the question, although not all of them, 
would favor the basic thrust of Nordhaus' analysis over that offered by 
Stern and Cline.
    On a different point, Professor Martin Weitzman of Harvard has 
argued that the possible harm from low-probability, but very high-
impact, climate change events is so great that benefit-cost analysis 
becomes, in his view, a poor guide to policy. Other economists, 
including Nordhaus, disagree. Debate continues, but unless GHG controls 
have a large impact on the trend in emissions, they might have little 
probability of lowering the risk of high-impact climate change. Nothing 
in the last twenty years' history of GHG control talks suggests that 
controls will, in fact, produce sharp reductions in emissions.
    Finally, but perhaps most importantly, how GHG controls are 
structured will have a major effect on their costs. GHG control 
policies that are overly stringent, or those that fall unevenly across 
countries or economic sectors, will drastically raise the costs of 
reaching any given emission reduction target. Unfortunately, both 
globally and in the U.S., GHG controls are taking on exactly these cost 
increasing features. China's and India's refusal at the Copenhagen 
climate talks to make firm commitments or to pledge more than business-
as-usual steps guarantees that either GHG controls will have virtually 
no effect on emissions or that they will do so only at an exorbitant 
cost.

Q2.  How do you see R&D informing or defining the scope of the 
potential problems associated with solar radiation management (SRM)?

A2. Current climate models do a poor job of replicating regional 
rainfall patterns. Yet changes in regional rainfall, if they occur, are 
likely to account for the most economically significant unwanted side 
effect of SRM. Without improved models, it will be impossible to 
determine if a problem exists and, if it does, how severe it might be. 
With all of the potential drawbacks of SRM, the initial scientific 
research should then supply inputs for studies monetizing any costs 
that are found.
    Where research finds real problems with current SRM, concept 
redesign may avoid them. Alternatively, new SRM concepts might avoid 
problems; thus, earlier defensive research may partly shape the course 
of development.

Q3.  While the U.S. is party to many international treaties, some of 
the more significant ones are agreements that we have not been able to 
sign on to, like the Law of the Sea.

        a.  How does this affect our future abilities to develop 
        international governance and regulatory structures to address 
        development and deployment of geoengineering technologies?

A3. Agreements designed for other purposes, as suggested by Dr. 
Bodansky, may fit awkwardly with the features of SRM. A workable SRM 
option would not require universal participation. Indeed, if 
transaction costs of managing the system were to be kept within reason, 
a relatively small subset of major powers would have to assume 
disproportionate authority over its operations. For the ``governance'' 
arrangements for SRM, a coalition of the willing might be a better 
model than agreements based on the fiction of international equality.

Q3b.  How soon should these international negotiations begin? Before 
the technologies are deemed feasible by research? Or should we wait 
until the technology is mature enough to be considered deployable?

A3b. The U.S. interest in the various kinds of geoengineering remains 
unclear. It is clear, however, that the concept of geoengineering as a 
weapon is nonsense, but it is also clear that the benefits and costs of 
geoengineering are likely to vary from country to country. U.S. 
interests in the future development of this concept may, therefore, 
differ from those of other countries; yet the substance and the form of 
a possible international regime on geoengineering would be likely to 
affect the course of its development. Indeed, a regime that did not 
have such an effect would be a waste of effort. The U.S. government 
should acquire substantially more knowledge about geoengineering's 
potential benefits and risks before embarking on any talks that might 
restrict its future freedom of action.
                   Answers to Post-Hearing Questions
Responses by Alan Robock, Professor, Department of Environmental 
        Sciences, School of Environmental and Biological Sciences, 
        Rutgers University 

Questions submitted by Chairman Bart Gordon

    As stated in my original testimony, geoengineering proposals can be 
separated into solar radiation management (by producing a stratospheric 
cloud or making low clouds over the ocean brighter) or carbon capture 
and sequestration (with biological or chemical means over the land or 
oceans). My expertise is in the first area. In particular, my work has 
focused on the idea of emulating explosive volcanic eruptions, by 
attempting to produce a stratospheric cloud that would reflect some 
incoming sunlight, to shade and cool the planet to counteract global 
warming. In these answers, except where indicated, I will confine my 
remarks to solar radiation management, and use the term 
``geoengineering'' to refer to only it. I do this because it is the 
suggestion that has gotten the most attention recently, and because it 
is the one that I have addressed in my work.

Q1.  Please describe what you think a comprehensive federal research 
program on geoengineering should entail. What are the critical features 
of such a program?

A1. A comprehensive federal research program should follow the advice 
of the policy statement on geoengineering endorsed by both the American 
Meteorological Society and the American Geophysical Union in 2009, who 
recommend:

        1.  ``Enhanced research on the scientific and technological 
        potential for geoengineering the climate system, including 
        research on intended and unintended environmental responses.

        2.  ``Coordinated study of historical, ethical, legal, and 
        social implications of geoengineering that integrates 
        international, interdisciplinary, and intergenerational issues 
        and perspectives and includes lessons from past efforts to 
        modify weather and climate.

        3.  ``Development and analysis of policy options to promote 
        transparency and international cooperation in exploring 
        geoengineering options along with restrictions on reckless 
        efforts to manipulate the climate system.''

    Being only an expert in the first category, I will confine my 
responses to those issues, but urge you to seek advice from historians, 
social scientists, and political scientists on items 2 and 3, which are 
also very important.
    A research program devoted to the scientific and technological 
potential should include computer modeling, engineering studies of 
systems that could create particles in the stratosphere or brighten 
clouds, and observing systems for marine stratocumulus clouds and 
stratospheric aerosols.
    State-of-the-art climate models, which have been validated by 
previous success at simulating past climate change, including the 
effects of volcanic eruptions, should be used for theoretical studies. 
They would consider different suggested scenarios for injection of 
gases or particles designed to produce a stratospheric cloud, and 
different scenarios of marine cloud brightening, and evaluate the 
positive and negative aspects of the climate response. So far, the 
small number of studies that have been conducted have all used 
different scenarios, and it is difficult to compare the results to see 
which are robust. Experiments should be coordinated among the different 
climate modeling groups that are performing runs for the Climate 
Modeling Intercomparison Project (CMIP) of the World Climate Research 
Programme Working Group on Coupled Modelling, described at http://cmip-
pcmdi.11n1.gov/, for assessing climate models and their response to 
many different causes of climate change, including anthropogenic 
greenhouse gases and aerosols. As they explain at the above website, 
CMIP is ``a standard experimental protocol for studying the output of 
coupled atmosphere-ocean general circulation models (AOGCMs). CMIP 
provides a community-based infrastructure in support of climate model 
diagnosis, validation, intercomparison, documentation and data access. 
This framework enables a diverse community of scientists to analyze 
GCMs in a systematic fashion, a process which serves to facilitate 
model improvement. Virtually the entire international climate modeling 
community has participated in this project since its inception in 
1995.'' Financial support from a national research program, in 
cooperation with other nations, will produce more rapid and more 
comprehensive results. The studies need to include advanced treatment 
of aerosol particles in climate models, including how they form and 
grow, as well as their effects on radiation and ozone.
    Another area of research that needs to be supported under the first 
category is the technology of producing a stratospheric aerosol cloud. 
Robock et al. [2009] calculated that it would cost several billion 
dollars per year to just inject enough sulfur gas into the stratosphere 
to produce a cloud that would cool the planet using existing military 
airplanes. Others have suggested that it would be quite a bit more 
expensive. However, even if SO<INF>2</INF> (sulfur dioxide) or 
H<INF>2</INF>S (hydrogen sulfide) could be injected into the 
stratosphere, there is no assurance that nozzles and injection 
strategies could be designed to produce a cloud with the right size 
droplets that would be effective at scattering sunlight. However, the 
research program will also need to fund engineers to actually build 
prototypes based on modification of existing aircraft or new designs, 
and to once again examine other potential mechanisms including 
balloons, artillery, and towers. They will also have to look into 
engineered particles, and not just assume that we would produce sulfate 
clouds that mimic volcanic eruptions. In addition, engineering studies 
will be needed for ships that could inject salt into marine clouds.
    At some point, given the results of climate models and engineering, 
there may be a desire to test such a system in the real world. But this 
is not possible without full-scale deployment, and that decision would 
have to be made without a full evaluation of the possible risks. 
Certainly individual aircraft or balloons could be launched into the 
stratosphere to release sulfur gases. Nozzles can be tested. But 
whether such a system would produce the desired cloud could not be 
tested unless it was deployed into an existing cloud that is being 
maintained in the stratosphere. While small sub-micron particles would 
be most effective at scattering sunlight and producing cooling, current 
theory [e.g., Heckendorn et al., 2009] tells us that continued emission 
of sulfur gases would cause existing particles to grow to larger sizes, 
larger than volcanic eruptions typically produce, and they would be 
less effective at cooling Earth, requiring even more emissions. Such 
effects could not be tested, except at full-scale.
    Furthermore, the climatic response to an engineered stratospheric 
cloud could not be tested, except at full-scale. The weather is too 
variable, so that it is not possible to attribute responses of the 
climate system to the effects of a stratospheric cloud without a very 
large effect of the cloud. Volcanic eruptions serve as an excellent 
natural example of this. In 1991, the Mt. Pinatubo volcano in the 
Philippines injected 20 Mt (megatons) of SO<INF>2</INF> (sulfur 
dioxide) into the stratosphere. The planet cooled by about 0.5 C (1 
F) in 1992, and then warmed back up as the volcanic cloud fell out of 
the atmosphere over the next year or so. There was a large reduction of 
the Asian monsoon in the summer of 1992 and a measurable ozone 
depletion in the stratosphere. Climate model simulations suggest that 
the equivalent of one Pinatubo every four years or so would be required 
to counteract global warming for the next few decades, because if the 
cloud were maintained in the stratosphere, it would give the climate 
system time to cool in response, unlike for the Pinatubo case, when the 
cloud fell out of the atmosphere before the climate system could react 
fully. To see, for example, what the effects of such a geoengineered 
cloud would be on precipitation patterns and ozone, we would have to 
actually do the experiment. The effects of smaller amounts of volcanic 
clouds on climate can simply not be detected, and a diffuse cloud 
produced by an experiment would not provide the correct environment for 
continued emissions of sulfur gases. The recent fairly large eruptions 
of the Kasatochi volcano in 2008 (1.5 Mt SO<INF>2</INF>) and Sarychev 
in 2009 (2 Mt SO<INF>2</INF>) did not produce a climate response that 
could be measured against the noise of chaotic weather variability.
    Any field testing of geoengineering would need to be monitored so 
that it can be evaluated. While the current climate observing system 
can do a fairly good job of measuring temperature, precipitation, and 
other weather elements, we currently have no system to measure clouds 
of particles in the stratosphere. After the 1991 Pinatubo eruption, 
observations with the Stratospheric Aerosol and Gas Experiment II (SAGE 
II) instrument on the Earth Radiation Budget Satellite showed how the 
aerosols spread, but it is no longer operating. To be able to measure 
the vertical distribution of the aerosols, a limb-scanning design, such 
as that of SAGE II, is optimal. Right now, the only limb-scanner in 
orbit is the Optical Spectrograph and InfraRed Imaging System (OSIRIS), 
a Canadian instrument on Odin, a Swedish satellite. SAGE III flew from 
2002 to 2006, and there are no plans for a follow on mission. A spare 
SAGE III sits on a shelf at a NASA lab, and could be used now. There is 
one satellite in orbit now with a laser, but it is not expected to last 
long enough to monitor future geoengineering, and there is no organized 
system to use it to produce the required observations of stratospheric 
particles. Certainly, a dedicated observational program would be needed 
as an integral part of any geoengineering implementation.

Q1a.  Which U.S. agencies would contribute to a research initiative, 
and in what capacity?

A1a. The U.S. agencies most involved in climate modeling are the 
National Science Foundation (NSF), National Center for Atmospheric 
Research (funded mostly by NSF), National Oceanic and Atmospheric 
Administration, National Aeronautics and Space Administration (NASA), 
and Department of Energy (DOE). I would recommend that NSF be in charge 
of a climate modeling research program, coordinated with the other 
agencies, with the Program for Climate Model Diagnosis and 
Intercomparison of the DOE continuing their program of archiving all 
the model output for intercomparisons. For the engineering studies, I 
recommend that NASA be in charge, in cooperation with the Department of 
Defense, which may be able to provide expertise in some of the proposed 
delivery systems. For an improved system of stratospheric aerosol 
observing, as well as better cloud observing from space, NASA should be 
in charge.

Q1b.  What scale of investment would be necessary, both initially and 
in the longer term?

A1b. A geoengineering research program should not be at the expense of 
existing research into climate change, mitigation, and adaptation. Our 
first goal should be rapid mitigation, and we need to continue the 
current increase in support for green alternatives to fossil fuels. We 
also need to continue to better understand regional climate change, to 
help us to implement mitigation and adapt to the climate change that 
will surely come in the next decades no matter what our actions today. 
But a small increment to current funding to support geoengineering will 
allow us to determine whether geoengineering deserves serious 
consideration as a policy option. The total expenditure for climate 
model experimentation should be on the order of $10 million per year, 
which would include expanding current efforts as well as training of 
new scientists to work on these problems, through postdocs and graduate 
student fellowships.
    As for the engineering studies, you would have to ask engineering 
experts. Certainly studies should be done of the feasibility of 
retrofitting existing U.S. Air Force planes to inject sulfur gases into 
the stratosphere, as described by Robock et al. [2009], as well as of 
developing new vehicles, probably remotely-piloted, for routine 
delivery of sulfur gases or production of aerosol particles. A separate 
engineering effort aimed at ships that could inject salt into marine 
clouds should be part of the effort.
    The dedicated observational effort described above would involve 
field campaigns to observe cloud experiments, which could probably be 
conducted with existing aircraft, but the campaigns would need to be 
funded. In addition, NASA needs to develop a robust, ongoing set of 
satellites to observe stratospheric aerosols, to prepare for the next 
volcanic eruptions, which serve as natural analogs for stratospheric 
geoengineering, as well as to monitor any in situ stratospheric 
experiments that may be conducted in the future. However, right now 
NASA could devote $1 million per year to just using current satellites 
to produce a continuous record of stratospheric aerosols and 
precursors. Many different observations are not being analyzed in a 
routine manner, and are only used by individual investigators to study 
specific cases, such as the Australian forest fires early in 2009 or 
the Kasatochi volcanic eruption of 2008. If a NASA-produced database 
were available routinely, much could be learned from these ongoing 
natural experiments. For new systems, experts on aircraft field 
campaigns and satellite development would need to be consulted about 
the costs.

Q1c.  What kind of professional and academic expertise would be 
required?

A1c. Climate modelers; experts in atmospheric chemistry and aerosols; 
cloud physicists; specialists in aircraft and satellite observations; 
satellite, aircraft, balloon, artillery, and tower engineers; 
historians; social scientists; political scientists.

Q2.  Please prioritize the geoengineering strategies you believe 
warrant extensive research, and explain your reasoning.

A2. Two types of solar radiation management, using stratospheric 
aerosols and marine cloud brightening, warrant extensive research. Both 
mimic observed changes in the atmosphere that have already occurred. We 
know that volcanic eruptions reduce solar radiation and cool the planet 
and we know that particles injected into marine stratocumulus clouds 
make them brighter, which presumably would cool the surface if there 
were no other compensating changed in the clouds. In both cases, there 
are no obvious serious side effects from the sulfur gases or salt 
proposed for the injections.

Q1a.  Within these, please highlight examples of potential negative 
impacts you predict might accompany their deployment and/or large-scale 
research.

A1a. Computer modeling research of stratospheric aerosols or marine 
cloud brightening would only have negative effects if it took 
resources, such as the time of scientists or computers, away from more 
productive activities. But if funded in addition to other ongoing 
climate research, it would enhance our understanding of the climate 
system both in theory and in enhanced observations.
    Actual deployment of either scheme into the atmosphere, however, 
would have the potential to produce serious side effects. That is why I 
advocate extensive computer modeling before any such decision is made, 
to better understand and quantify each of the potential problems. I 
have enumerated many potential negative impacts of stratospheric 
geoengineering in Robock [2008a, 2008b], so will only list them briefly 
here, from Robock et al. [2009]:

        1.  Drought in Africa and Asia

        2.  Continued ocean acidification from CO<INF>2

        </INF>3.  Ozone depletion

        4.  No more blue skies

        5.  Less solar power

        6.  Environmental impact of implementation

        7.  Rapid warming if stopped

        8.  Cannot stop effects quickly

        9.  Human error

        10.  Unexpected consequences

        11.  Commercial control

        12.  Military use of technology

        13.  Conflicts with current treaties

        14.  Whose hand on the thermostat?

        15.  Ruin terrestrial optical astronomy

        16.  Moral hazard - the prospect of it working would reduce 
        drive for mitigation

        17.  Moral authority - do we have the right to do this?

    As for marine cloud brightening, cooling over the oceans with 
persistent cloudiness might affect the entire oceanic biosphere and 
food chain. Because marine clouds would only be in certain locations, 
the differential cooling would change weather patterns. Jones et al. 
[2009] found in their climate model experiments that this could produce 
a drought in the Amazon rainforest, with devastating effects on the 
forests and other life there.

Q2b.  Are there any strategies that you believe should be eliminated 
from consideration due to unacceptable risks and costs?

A2b. Angel [2006] proposed placing shades in orbit between the Sun and 
Earth to reduce the amount of insolation, but it would be very 
expensive and difficult to control, so I would not recommend research 
into this idea.

Q3.  Could some geoengineering activities be confined to specific 
geographic locations?

A3. Marine cloud brightening could be conducted in specific locations, 
but that might not be very effective at dealing with global warming.

Q3a.  For example, could solar radiation management be localized 
specifically for the protection of polar ice?

A3a. Not that I know of. Marine cloud brightening would not be 
effective in the Arctic, since there is no proposed technology to 
whiten clouds that would operate on ice in the Arctic. Furthermore, one 
would need clouds in the correct location in order to brighten them. In 
the Arctic, unlike off the west coasts of North and South America and 
Africa, marine stratocumulus do not persist as regularly in specific 
locations. In addition, because of the low angle of the Sun in the 
Arctic, changing cloud albedo would not be very effective.
    With respect to stratospheric aerosols, Robock et al. [2008c] 
showed that if aerosols were created in the Arctic stratosphere, while 
Arctic temperature could be controlled and sea ice melting could be 
reversed, there would still be large consequences for the summer 
monsoons over Asia and Africa, since the aerosols would not be confined 
to the polar region.

Q3b.  If so; how?

Q4.  In your submitted testimony, you explained simply: ``To actually 
implement geoengineering, it needs to be demonstrated that the benefits 
of geoengineering outweigh the risks.'' What do you believe are the 
``tipping points'' that would justify large scale deployment of 
geoengineering?

A4. The declaration of a planetary emergency that would justify large-
scale geoengineering would require more climate research. While 
increased melting of Greenland or Antarctica along with rapidly rising 
sea level, or an increased frequency of severe hurricanes, droughts or 
floods, might appear to be a tipping point or an emergency, we would 
need much more research to quantify whether these changes were indeed 
caused by global warming and whether geoengineering would halt them. We 
would also have to be sure that the negative side effects of any 
proposed geoengineering would be much less than the problems it was 
attempting to solve, and that those affected by these actions would be 
fairly compensated.

Q4a.  Based on the current pace of carbon increases (about 2 parts per 
million a year) and your prediction of the efficacy of conventional 
mitigation strategies, what would be an appropriate timeline for 
research and possible deployment?

A4a. No matter how effective conventional mitigation strategies prove 
to be in the next decade, the amount of global warming will be about 
the same, as the greenhouse gases already in the atmosphere will 
continue to cause warming. Mitigation will only make a difference in 
the longer term. So geoengineering research should not depend on the 
short-term political decisions in the next few years (and mitigation 
should definitely not wait for the possibility of safe and effective 
geoengineering). So independent of short-term changes in greenhouse 
gases emissions, I would recommend a 10-year research program that will 
use climate models to investigate the efficacy, risks, and costs of 
proposed geoengineering schemes, include technical research to 
determine whether it is even possible to implement the proposed 
schemes, and develop and deploy robust observing systems. This will 
allow policymakers to have enough information in a decade to decide 
whether geoengineering should ever be implemented as an emergency 
measure. Since these proposed schemes would work very quickly, within a 
year or two, this would leave enough time to adequately research them 
and still implement them before catastrophic climate change is likely.

Q5.  The effects of many geoengineering strategies such as 
stratospheric injections could not likely be tested at less than full-
scale. To your knowledge, what types of international agreements would 
address the challenges of large-scale testing?

A5. There are several current international treaties, such as the 
Montreal Protocol on Substances That Deplete the Ozone Layer, the 
Antarctic Treaty, the Law of the Sea, the Framework Convention on 
Climate Change, and Nuclear Test Ban treaties, that seek to limit 
environmental damage from human emissions. These treaties, while they 
do not apply directly to geoengineering, serve as a warning that humans 
can have a strong, inadvertent, negative impact on the environment, and 
that we must keep this in mind with respect to geoengineering. They 
also serve as models for the types of treaties that different nations 
can sign to agree to protect the environment.

Q5a.  Can you identify any existing treaties or agreements that would 
apply to large-scale testing of geoengineering?

A5a. I am not a lawyer, but the U.N. Convention on the Prohibition of 
Military or Any Other Hostile Use of Environmental Modification 
Techniques (ENMOD) may apply. The terms of ENMOD explicitly prohibit 
``military or any other hostile use of environmental modification 
techniques having widespread, long-lasting or severe effects as the 
means of destruction, damage, or injury to any other State Party.'' Any 
geoengineering scheme that adversely affects regional climate, for 
example, producing warming or drought, would therefore violate ENMOD if 
done in a hostile manner, which would be difficult to determine. 
Therefore, new governance mechanisms would have to be developed before 
any experimentation in the atmosphere.
                See end of document for all references.

Questions submitted by Representative Ralph M. Hall

Q1.  In your testimony, you indicate that one of the shortcomings of 
``solar radiation management'' geo-engineering is that it could produce 
drought in Asia and Africa and threaten the food supply for billions of 
people. Some scientists have suggested that global climate change could 
have the same result; others have suggested that it will actually 
increase agricultural production in some areas of the world.

        a.  If we were to undertake some type of large scale geo-
        engineering experiment, how would we be able to differentiate 
        between the effects of global climate change and those from the 
        geo-engineering and make the necessary modifications to prevent 
        catastrophe?

A1,1a. There is a certain natural variability of climate because of the 
chaotic nature of the atmosphere and oceans. This randomness limits our 
ability to make weather forecasts beyond about two weeks and limits our 
ability to make ocean forecasts, such for El Ninno events, beyond about 
six months. So the attribution of particular weather and climate 
events, such as strong hurricanes, tornado outbreaks, droughts, and 
floods, to a particular geoengineering experiment or to the effects of 
greenhouse gases is not possible in the absolute sense and can only be 
done statistically. That is, theory (models) tell us that the 
probability of events like this would change in response to different 
things human might put into the atmosphere, but we cannot attribute any 
particular event to a particular cause. Therefore, a real-world 
geoengineering experiment would have to be conducted for a long time, 
10 or 20 years or longer, so as to gather enough data to calculate the 
statistics. It is only after 60 years of global warming since about 
1950 and decades of the IPCC process that we have a clear understanding 
the greenhouse gases are responsible.
    The answer to the question would depend on what type of 
geoengineering were conducted, such as stratospheric aerosols or marine 
cloud brightening, and the strength of the geoengineering. For a 
massive injection of aerosols into the stratosphere, or massive seeding 
of clouds, the effects of geoengineering would be stronger and a 
shorter experiment would be needed to separate the effects from global 
warming. Climate model experiments will be able to give us a good idea 
of how strong and how long a real-world experiment would be needed to 
separate the effects from natural variability and from global warming.

Q1b.  If we were able to differentiate between the effects of global 
climate change and effects from geoengineering, is it now possible to 
determine whether a drought is caused by anthropogenic climate change 
or just natural variability?

A1b. No. As explained above, the attribution of particular weather and 
climate events, such as strong hurricanes, tornado outbreaks, droughts, 
and floods, to a particular geoengineering experiment, to the effects 
of greenhouse gases, or just to natural variability is not possible in 
the absolute sense and can only be done statistically. That is, theory 
(models) tells us that the probability of events like this would change 
in response to different things human might put into the atmosphere, 
but we cannot attribute any particular event to a particular cause. For 
example, what if we start geoengineering and we get a reduction of 
summer monsoon rainfall in India for two out of the first five years? 
Could this have happened by chance, or was it caused by the 
geoengineering? We could not answer that question without many more 
years of experimentation in the real world. However, we could easily do 
that experiment in climate models.

Q2.  In your testimony you indicate that you have been using NASA 
climate models and NASA computers to conduct climate model simulations. 
You also indicate that increases in funding for research are necessary 
to explore these concepts further.

        a.  Do you believe much of this research can be done utilizing 
        existing resources such as those at NASA?

A2,2a. No. Climate modeling needs to be done at many different research 
centers with many different climate models, and the results compared to 
be sure they are robust. This is the current strategy of CMIP, as 
discussed in detail in the answer to Mr. Gordon's question 1 above.
    All the world climate modeling groups are currently finalizing 
their latest model versions so that they can begin a suite of 
experiments, called CMIP-5, in preparation for the next 
Intergovernmental Panel on Climate Change report. While NASA and other 
climate modeling centers in the United States, such as at the National 
Oceanic and Atmospheric Administration (NOAA) Geophysical Fluid 
Dynamics Laboratory. and the National Center for Atmospheric Research 
do not need new resources to complete their model development, the 
current scientists working there are completely occupied with the CMIP-
5 experiments. They would need more personnel and computer resources to 
complete additional geoengineering experiments.

Q2b.  What additional resources and capabilities would be required to 
further research in this area?

A2b. This question is completely answered in response to questions 1 
and 2 of Mr. Gordon above, and I refer you to those answers.

Q2c.  Are these models peer reviewed? Are you privy to the assumptions 
that go into building the models before you run your simulations?

A2c. Absolutely yes. The climate model we are currently using, Goddard 
Institute for Space Studies ModelE, is described in peer-reviewed 
publications by Schmidt et al. [2006], Russell et al. [1995], and Koch 
et al. [2006]. We and anyone else who reads these papers completely 
understand the assumptions that go into them. Furthermore, this model 
is part of the CMIP experiments described above, and its capabilities 
are well known and documented.

Q3.  In reading your testimony, one comes to the conclusion that 
regardless of how much research we perform ahead of time, we will never 
really know the true effects geo-engineering would have on the planet 
without actually doing it because of all the possible variables. Is 
that an accurate statement? How accurate is that for other 
technological ventures we have undertaken?

A3. I guess that depends on what ``know the true effects'' means. 
Indeed we would learn a lot by experimenting in the real world and 
would be able to compare the responses to those obtained theoretically 
by climate modeling. But as explained above, there is a certain natural 
variability of climate because of the chaotic nature of the atmosphere 
and oceans. This randomness limits our ability to make weather 
forecasts beyond about two weeks and limits our ability to make ocean 
forecasts, such for El Nino events, beyond about six months. So the 
attribution of particular weather and climate events, such as strong 
hurricanes, tornado outbreaks, droughts, and floods, to a particular 
geoengineering experiment or to the effects of greenhouse gases is not 
possible in the absolute sense and can only be done statistically. That 
is, the probability of events like this would change in response to 
different things human might put into the atmosphere. Therefore, a 
real-world experiment would have to be conducted for a long time, 10 or 
20 years or longer, so as to gather enough data to calculate the 
statistics. For example, what if we start geoengineering and we get 
less drought in California for three out of the first five years. Could 
this have happened by chance, or was it caused by the geoengineering? 
We could not answer that question without many more years of 
experimentation in the real world. However, we could easily do that 
experiment in climate models.
    As for other technical ventures, it would depend on the technology, 
and I am not an qualified to answer the question in general. But I 
would like to say that some experiments should never be conducted in 
the real world. For example, I have conducted a lot of research on the 
climatic effects of nuclear weapons. If used in warfare, the fires they 
would ignite would produce so much smoke that climate models tell us 
that the cold and dark at the Earth's surface would severely impact 
agriculture and even produce a nuclear winter [Robock et al., 2007a, 
2007b]. This is an experiment we should never try to verify in the real 
world.

References

Angel, R. (2006), Feasibility of cooling the Earth with a cloud of 
        small spacecraft near the inner Lagrange point (L1), Proc. Nat. 
        Acad. Sci., 103, 17,184-17,189.

Heckendorn P., et al. (2009), The impact of geoengineering aerosols on 
        stratospheric temperature and ozone, Environ. Res. Lett., 4; 
        045108, doi:10.1088/1748-9326/4/4/045108.

Jones, A., J. Haywood, and O. Boucher (2009), Climate impacts of 
        geoengineering marine stratocumulus clouds, J. Geophys. Res., 
        114, D10106, doi:10.1029/2008JD011450.

Koch, D., G. A. Schmidt, and C. V. Field (2006), Sulfur, sea salt, and 
        radionuclide aerosols in GISS ModelE, J. Geophys. Res., 111, 
        D06206, doi:10.1029/2004JD005550.

Robock, A., L. Oman, G. L. Stenchikov, O. B. Toon, C. Bardeen, and R. 
        P. Turco (2007a), Climatic consequences of regional nuclear 
        conflicts. Atm. Chem. Phys., 7, 2003-2012.

Robock, A., L. Oman, G. L. Stenchikov (2007b), Nuclear winter revisited 
        with a modem climate model and current nuclear arsenals: Still 
        catastrophic consequences. J. Geophys. Res., 112, D13107, 
        doi:10.1029/2006JD008235.

Robock, A. (2008a), Whither geoengineering? Science, 320, 1166-1167.

Robock, A. (2008b), 20 reasons why geoengineering may be a bad idea, 
        Bull. Atomic Scientists, 64, No. 2, 14-18, 59, doi:10.2968/
        064002006.

Robock, A., L. Oman, and G. Stenchikov (2008c), Regional climate 
        responses to geoengineering with tropical and Arctic SO<INF>2</INF> 
        injections, J. Geophys. Res., 113, D16101, doi:10.1029/
        2008JD010050.

Robock, A., A. B. Marquardt, B. Kravitz, and G. Stenchikov (2009), The 
        benefits, risks, and costs of stratospheric geoengineering. 
        Geophys. Res. Lett., 36, L19703, doi:10.10291 2009GL039209.

Russell, G. L., J. R. Miller, and D. Rind (1995), A coupled atmosphere-
        ocean model for transient climate change, Atmos.-Ocean, 33, 
        683-730.

Schmidt, G. A., et al. (2006), Present day atmospheric simulations 
        using GISS ModelE: Comparison to in-situ, satellite and 
        reanalysis data, J. Clim., 19, 153-192.
                   Answers to Post-Hearing Questions
Responses by James Fleming, Professor and Director, Science, Technology 
        and Society Program, Colby College 

Questions submitted by Chairman Bart Gordon

Q1.  Please describe what you think a comprehensive federal research 
program on geoengineering should entail. What are the critical features 
of such a program?

A2. The American Meteorological Society's Statement on Geoengineering 
http://www.ametsoc.org/policy/
2009geoengineeringclimate<INF>-</INF>ansstatement.html (also approved 
by the American Geophysical Union) recommends that proposals to 
geoengineer climate require more research of an interdisciplinary 
nature, cautious consideration, and appropriate restrictions. Here are 
their summary recommendations:

        a.  Enhanced research on the scientific and technological 
        potential for geoengineering the climate system, including 
        research on intended and unintended environmental responses.

        b.  Coordinated study of historical, ethical, legal, and social 
        implications of geoengineering that integrates international, 
        interdisciplinary, and intergenerational issues and 
        perspectives and includes lessons from past efforts to modify 
        weather and climate.

    Development and analysis of policy options to promote transparency 
and international cooperation in exploring geoengineering options along 
with restrictions on reckless efforts to manipulate the climate system.
    Geoengineering, understood as purposeful manipulation of the global 
climate and biophysical systems of the entire Earth by a particular 
project or entity, however well intentioned, could lead to 
international conflict and unpredictable ecological disasters. Humans 
know far too little about the climate system to imagine that any large-
scale intervention would have the desired result, or even a predictable 
result. Any nation engaging in global-scale geoengineering could be 
placing itself and all other life on the plant in jeopardy.
    The famous mathematician John von Neumann called climate 
engineering a ``thoroughly `abnormal' industry,'' arguing that large-
scale interventions, especially solar radiation management, were not 
necessarily rational undertakings and could have ``rather fantastic 
effects'' on a scale difficult to imagine. Tinkering with the Earth's 
heat budget or the atmosphere's general circulation, he said, ``will 
merge each nation's affairs with those of every other, more thoroughly 
than the threat of a nuclear or any other war may already have done''--
and possibly lead to ``forms of climatic warfare as yet unimagined.'' 
In this sense, geoengineering is potentially more powerful and more 
destructive than an arsenal of H-bombs. Since some forms of solar 
radiation tinkering could be undertaken by private entities or rogue 
nations unilaterally and relatively cheaply, what is urgently needed is 
research, discussion, and education on all the possible things that are 
wrong with such a technocratic approach to thinking about climate 
change. As Harry Wexler once said, ``the human race is poised 
precariously on a thin climatic knife-edge.'' One of the worst climatic 
disasters imaginable involves destabilizing the climate system, 
damaging stratospheric ozone, triggering drought, and otherwise 
destroying our relationship with the sky by misplaced climate 
tinkering.
    Therefore, a comprehensive research program in geoengineering 
cannot be merely a scientific and technically-based effort. It must be 
led by historically-informed humanistic and social science efforts to 
understand the precedents and contextualize human desires (and hubris) 
involved in intervening in natural systems. Such discussions should 
seek to avoid being dominated by Western technocratic influences, and 
would need to be fully international, interdisciplinary, and 
intergenerational in nature so that a global conversation emerges.
    In this sense, no technical agency in the U.S. or elsewhere has the 
capacity to lead such an effort. More likely international scholarly, 
humanitarian, and governance organizations would have to pool their 
resources in such an undertaking. Any scientific or technical research 
on geoengineering should be conducted only as part of the mainstream 
effort in atmospheric science. It should not be in any way be a secret 
effort within DoD, or a single or multi-agency effort funding mainly 
enthusiasts for the techniques. It should be spearheaded in the U.S. by 
NSF, which has the best open peer review practices and which also 
sponsors the National Center for Atmospheric Research (NCAR). NSF has 
the added virtue of funding social, economic, and behavioral studies 
(including Science Studies) and NCAR maintains a unit specializing in 
environmental and social impacts.
    Support is urgently needed for historical studies of existing 
environmental treaties, international accords, and efforts to govern 
new technologies. These would include the 1978 UN Convention on the 
Prohibition of Military or Any Other Hostile Use of Environmental 
Modification Techniques (ENMOD), the Antarctic Treaty, the Law of the 
Sea, the Peaceful Uses of Outer Space, and gatherings such as the 1975 
conference in Asilomar, California on recombinant DNA. This would be 
followed by meetings of historians, ethicists, social scientists, and 
policy experts from around the world for interdisciplinary discussion 
and recommendations. Funding for a program involving about 10 core 
staff, office support, a variety of conferences, and a publishing 
program with peer-reviewed reports and volumes may be able to function 
for approximately $2 million per year or ten times this amount for a 
robust international effort. To foster historical, humanistic, social, 
public policy, and governance discussions, the Woodrow Wilson 
International Center for Scholars is a likely venue. It could serve as 
a scholarly, non-partisan integration point for related efforts at 
other institutions. Investment in this program would not require much 
if any hardware purchases or facilities, but should involve a full 
program of conferences, meetings, seminars and high-level 
consultations. It should have a director and staff, senior and junior 
fellows, affiliated members from around the world, and internships and 
other student opportunities.
    Geoengineering research is currently not ready, and may never be 
ready for any field testing, large scale or otherwise. It is best done 
indoors using computer simulations and in other controlled conditions, 
such as laboratories and wind tunnels. For decades, verification of 
weather modification experiments has been stymied by natural 
variability in cloud and weather conditions. The same is true many 
times over for experiments on the global climate.
    What is most needed in atmospheric science today is more focused 
and basic research on atmospheric dynamics and chaotic forcings. If, as 
Edward Lorenz maintained, the climate system exhibits modes that are 
extremely sensitive to perturbations, what unknown effect might a 
sulfate cannon in China, Russia, or perhaps Livermore, California have 
on the global or regional climate? Also needed, especially now, is a 
concerted effort to restore scientific and public confidence in the 
atmospheric sciences, their peer review practices, Earth's instrumental 
and proxy temperature records, and the authority and behavior of 
computer models and their results. The Earth orbiting satellite 
monitoring gap identified in the National Academy's Decadal Survey 
(2007) also needs to be addressed. This effort alone may involve 
approximately doubling the current support for basic research, or about 
$1-2 billion per year.
    So in summary, $2-20 million for open conferences on social aspects 
and governance, and $1-2 billion for basic peer-reviewed research on 
and monitoring of the climate system seem to be in order.

Q2.  Please prioritize the geoengineering strategies you believe 
warrant extensive research, and explain your reasoning.

A2a. As described above, concerted study of the history, social 
aspects, and governance of technological interventions and 
geoengineering proposals, past and present, to cast a new light on just 
what is being proposed.
    b. As described above, increased capacity in basic atmospheric 
science and climate monitoring, in which model geoengineering proposal 
play a role, but only a role in a better understanding of the planet.
    c. All of the proposed techniques of solar radiation management 
(SRM) and carbon capture and sequestration (CCS) have many, many 
serious and unexamined problems. None are really cheap, because 
economists have only looked at direct costs, not at potential damages. 
None are ready for field testing or deployment. All of the techniques 
might well be researched using models and laboratory experiments. For 
example:

    Space mirrors. In 1989 James Early, a scientist from Lawrence 
Livermore National Laboratory, revisited the issue of space mirrors 
(first proposed in the 1920s) and linked space manufacturing fantasies 
with environmental issues in his wild speculations on the construction 
of a solar shield ``to offset the greenhouse effect.'' His back-of-the-
envelope calculations indicated that a massive shield some 1,250 miles 
in diameter would be needed to reduce incoming sunlight by 2 percent. 
He estimated that an ultra-thin shield, possibly manufactured from 
lunar materials using nano-fabrication techniques, might cost ``from 
one to ten trillion dollars.'' Launched from the moon by an unspecified 
``mass driver,'' the shield would reach a ``semi-stable'' orbit at the 
L1 point one million miles from Earth along a direct line toward the 
Sun, where it would perch ``like a barely balanced cart atop a steep 
hill, a hair's-width away from falling down one side or the other.'' 
Here it would be subjected to the solar wind, harsh radiation, cosmic 
rays, and the buildup of electrostatic forces. It would have to remain 
functional for ``several centuries,'' which would entail repair 
missions. It would also require an active positioning system to keep it 
from falling back to Earth or into the Sun. Early did not indicate what 
a guidance system might look like for a 5 million square mile sheet of 
material possibly thinner than kitchen plastic wrap, with a mass close 
to a billion kilograms (2.2 billion pounds in Earth gravity). In other 
words, it was not feasible. A recent update of this proposal by Roger 
Angel fares no better.
    Stratospheric Aerosols. Using guns, rockets, or balloons to 
maintain a dust or aerosol cloud in the stratosphere to increase the 
reflection of sunlight may sound cheap and appealing, but it is far 
from rational and may have many unwanted an unexpected side effects. 
Geoengineering advocate Lowell Wood has proposed attaching a long hose 
to a nonexistent but futuristic military High Altitude Airship (a 
Lockheed-Martin/DOD stratospheric super blimp now on the drawing board 
with some twenty-five times the volume of the Goodyear blimp) to 
``pump'' reflective particles into the stratosphere. According to Wood, 
``Pipe it up; spray it out!'' Wood has worked out many of the details--
except for high winds, icing, and accidents, since the HAAs are likely 
to wander as much as 100 miles from their assigned stations. Imagine a 
25-mile long hose filled with ten tons of sulfuric acid ripping loose, 
writhing wildly, and falling out of the sky. Environmental problems 
from such techniques (as documented by Alan Robock) include damage to 
tropical rainfall patterns, unwanted stratospheric ozone depletion, and 
regional effects that may lead to international disagreements.
    Air capture of carbon dioxide, with long-term storage. Klaus 
Lackner of the Earth Institute at Columbia University, collaborating 
with Tucson, Arizona-based Global Research Technologies, envisions a 
world filled with millions of inverse chimneys, some of them over 300 
feet high and 30 feet in diameter, inhaling up to 30 billion tons of 
carbon dioxide from the atmosphere every year (the world's annual 
emissions) and sequestering it in underground or undersea storage 
areas. Lackner has built a demonstration unit in which a filter filled 
with caustic and energy intensive sodium hydroxide can absorb the 
carbon dioxide output of a single car. He admits, however, that this 
system is not safe or practical, so he is currently looking into 
proprietary ``ion-exchange resins'' with undisclosed energetic and 
environmental properties. Of course, the capture, cooling, 
liquefaction, and pumping of 30 billion tons of atmospheric carbon
    dioxide (the world's annual emissions) would require an 
astronomical amount of energy and infrastructure, and it is not at all 
certain that Earth has the capacity for safe long-term storage of such 
a large amount of carbon.

Q3.  Could some geoengineering activities be confined to specific 
geographic locations?

A3. No. If they could, they would not be ``geo''--scale engineering. 
Also, the Earth's atmosphere is a fluid system that interacts and 
exchanges energy, mass, and momentum. Interventions in the radiation 
budget anywhere will trigger changes in the general circulation, 
including changes in stoma tracks and in particular storms and 
precipitation patterns. Proposals to restrict aerosol injections to the 
Arctic circle do not address the global spread of matter in the 
stratosphere or the interaction of air masses across latitudes. An 
imaginary Arctic forecasting center with authority to trigger 
stratospheric aerosol attacks is far beyond modem operational 
meteorology. Understanding and prediction are what is needed. 
Intervention and control are not really possible.

Q4.  In his submitted testimony, Dr. Robock explained simply, ``To 
actually implement geoengineering, it needs to be demonstrated that the 
benefits of geoengineering outweigh the risks.'' [Questions on tipping 
points and timeline for research and deployment].

A4. Dr. Robock has published ``20 Reasons Why Geoengineering May Be a 
Bad Idea.'' His list includes the following:

         (1) Potentially devastating effects on regional climate, 
        including drought in Africa and Asia, (2) Accelerated 
        stratospheric zone depletion, (3) Unknown environmental impacts 
        of implementation, (4) Rapid warming if deployment ever stops, 
        (5) Inability to reverse the effects quickly, (6) Continued 
        ocean acidification, (7) Whitening of the sky, with no more 
        blue skies, but nice sunsets, (8) The end of terrestrial 
        optical astronomy, (9) Greatly reduced direct beam solar power, 
        (10) Human error, (11) The moral hazard of undermining 
        emissions mitigation, (12) Commercialization of the technology, 
        (13) Militarization of the technology, (14) Conflicts with 
        current treaties, (15) Who controls the thermostat? (16) Who 
        has the moral right to do this? (17) Unexpected consequences.

    Some of these results (1-5) are derived from general circulation 
model simulations and others (6-9) from back-of-the-envelope 
calculations; most, however (10-17), stem from historical, ethical, 
legal, and social considerations. Regarding item (8), most enthusiasts 
for solar radiation management have overlooked its ``dark'' side: the 
scattering of starlight as well as sunlight, which would further 
degrade seeing conditions for both ground-based optical astronomy and 
general night sky gazing. Imagine the outcry from professional 
astronomers and the general public if the geoengineers pollute the 
stratosphere with a global sulfate cloud; imagine a night sky in which 
sixth-magnitude stars were invisible, with a barely discernable Milky 
Way, and fewer visible star clusters or galaxies. This would constitute 
a worldwide cultural catastrophe.
    Since global climate change is forced by a combination of natural 
and human factors, since it is a relatively slowly developing problem, 
and since it will affect different nations and groups differently, 
there is no clear ``cliff'' or readily defined ``tipping point,'' 
beyond which the sulfate cannons should roar. Mitigation and adaptation 
are the best strategies, so no lines in the sand can yet be set. The 
1992 UN Framework Convention on Climate Change requires the 
``stabilization of greenhouse gas concentrations in the atmosphere at a 
level that would prevent dangerous anthropogenic interference with the 
climate system.'' No one has yet defined ``dangerous,'' but attempts 
have been made to set the goal at 2 degrees of warming or 350 or 450 
ppm CO<INF>2</INF>. SRM does not stabilize greenhouse gas 
concentrations at all, it does not help with ocean acidification, and 
it may in its own right be considered ``dangerous anthropogenic 
interference with the climate system.'' CCS maybe possible, but the 
energetics, cost, and stability of long term sequestration, with giant 
pools of CO<INF>2</INF> underground remain unknown.
    The increase in CO<INF>2</INF> concentration of 2 ppm per year is 
not in itself a significant problem. It is the sensitivity of the 
climate system to CO<INF>2</INF> forcings (via water vapor, clouds, and 
other mechanisms) that is at issue. Efforts at mitigation and 
adaptation must be bipartisan and international; they must be given 
every possibility for success. Research in the historical, social, 
governance aspects of geoengineering should begin now, with the 
possibility left open that these technologies are too dangerous and 
unpredictable to govern. Also research into the negative side effects 
of geoengineering proposals should continue with modeling studies. 
There are no current prospects for responsible deployment of 
geoengineering techniques.

Q5.  The effects of many geoengineering strategies such as 
stratospheric injections could not likely be tested at less than full 
scale. To your knowledge, what types of international agreements would 
address the challenges of large-scale testing?

A5. The 1978 UN Convention on the Prohibition of Military or Any Other 
Hostile Use of Environmental Modification Techniques (ENMOD) serves as 
a landmark treaty that may have to be revisited soon to avoid or at 
least try to mitigate both inadvertent harm or possible military or 
otherwise hostile use of climate control. This includes the governance 
and possible side effects of large-scale outdoor testing. If ``climate 
change has the power to unsettle boundaries and shake up geopolitics, 
usually for the worse,'' it is certain that the governments of the 
world will have their strategic military planners working in secret on 
both worst-case scenarios and technological responses.
    Chairman Gordon, the U.S. Congress can play a large role in 
supporting efforts to study the problems and limits of the non-existent 
technologies of geoengineering, but there is as yet no warrant for 
field testing or deployment.

Questions submitted by Representative Ralph M. Hall

Q1.  Dr. Fleming, in your statement you include a short list of reasons 
that many people have claimed as the fundamental problems with climate 
engineering. Just to name a few, you mention the claims regarding lack 
of understanding, lack of technology, lack of political will to govern 
over it, etc.

        a.  Are these claims very similar to the ones people have heard 
        every time a new technology or concept arises that threatens to 
        alter our fundamental understandings of the universe?

        b.  How has society managed to get through those previous 
        technological growth spurts?

A1. Geoengineering does not ``alter our fundamental understanding of 
the universe'' in any Copernican sense. Nor is it a ``quantum 
revolution'' or in any way comparable to famous discoveries or 
theories, such as evolution, relativity, or plate tectonics. It is not 
a scientific discover at all, but a set of speculative intervention 
strategies with potential military implications. In the past new 
technologies such as radio or transistors allowed us to communicate 
across the miles and to miniaturize electronic devices such as radios 
and computers. New drugs such as penicillin battled infections. While 
they needed regulation and some guidelines, they did not offer a global 
threat to the planet. Recombinant DNA is a new technology that required 
oversight and regulatory control. This was true in spades for nuclear 
power and nuclear weapons. Geoengineering comes closest to these types 
of dangerous technologies, but it is much, much more speculative, and 
as yet, it does not even exist!
    There is no one answer to how ``society managed to get through 
those previous technological growth spurts.'' I think each case is 
unique and requires special historical contextualization. In some 
cases, such as the use of the machine gun in the Anglo-Zulu War of 
1879, that society did not ``manage'' very well. And civil society 
itself was lucky to survive the escalation of civilian aerial bombing 
that occurred during World War II.

Q2.  Just for the sake of argument, if it was decided that such climate 
engineering projects needed regulation, which Federal agency would be 
the most appropriate to do it?

A2. This answer closely parallels my response to Congressman Gordon, 
which I hope you have in hand. No technical or regulatory agency in the 
U.S. or elsewhere has the authority or capacity to lead such an effort. 
Just as no nation has the authority to set the global temperature, even 
if it could. Study and discussion of geoengineering must be 
international, interdisciplinary, and intergenerational, with strong 
historical, social, and governance efforts leading the way. In the US, 
the NSF would be the best agency to study the issues, but regulation 
would have to be international, perhaps through UN mechanisms such as 
the ENMOD Convention.

Q3.  I find it interesting that you state that the human dimension is 
the biggest wildcard in the whole climate change debate that 
essentially makes it unpredictable. One of the reasons the hearing is 
important is due to the concern that one nation, or even just one 
individual, could take it upon themselves to ``fix the climate change 
problem'' and utilize some technology that would have global effects.

        a.  Should we be looking at this issue as a national security 
        problem? Not unlike a rogue state or terrorist group that 
        releases a biological, chemical or nuclear weapon on some 
        unsuspecting populace?

        b.  Could the actions of a lone ``climate savior'' have global 
        effects that would rise to this level of concern? Or is the 
        technology really not in a place where this is an issue now, 
        but we should be discussing it for the future?

A3. Unilateral or rogue nation intervention in the global climate 
system is indeed possible and would raise very serious national and 
international security concerns, as John von Neumann in 1956 and many 
others have repeatedly pointed out. One problem is that such 
interventions may start out as well-intentioned, but the effects could 
be widespread, harmful, and unpredictable. That is, they might be 
indiscriminate. Other scenarios may include climate tinkering favoring 
one nation and harming another, for example by redirecting rainfall. 
Also attribution may be a real problem, given the large variability of 
weather and climate, so such tinkering may be hard to prove. A 
favorable result of this situation may be a desire to strengthen 
satellite or ground-based measuring and monitoring capabilities in 
order to detect such activity and take more measurements. In this sense 
it may resemble the need for verification schemes for other potential 
weapons systems.
    I think many of the recent and current geoengineering proposals 
have a tinge of ``climate savior'' As (rightly or wrongly) alarm over 
global warming spreads, some climate engineers are engaging in wild 
speculation and are advancing increasingly urgent proposals about how 
to ``control'' Earth's climate. They are stalking the hallways of 
power, hyping their proposals, and seeking support for their ideas 
about fixing the sky. The figures they scribble on the backs of 
envelopes and the results of their simple (yet somehow portrayed as 
complex) climate models have convinced them, but very few others, that 
they are planetary saviors, lifeboat builders on a sinking Titanic, 
visionaries who are taking action in the face of a looming crisis. They 
present themselves as insurance salesmen for the planet, with policies 
that may or may not pay benefits. In response to the question of what 
to do about climate change, they are prepared to take ultimate actions 
to intervene, even to do too much if others, in their estimation, are 
doing too little. We are already discussing these attitudes, and there 
may arise some day a need to stop even a well-intentioned action. Bill 
Gates is currently investing in geoengineering and may have such an 
attitude; while $25 million ``Branson prize'' for reducing global 
warming acts to encourage planetary tinkers, cum saviors.
    Ranking Member Hall, the U.S. Congress can play a large role in 
supporting efforts to study the problems and limits of the non-existent 
technologies of geoengineering, but there is as yet no warrant for 
field testing or deployment.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



   GEOENGINEERING II: THE SCIENTIFIC BASIS AND ENGINEERING CHALLENGES

                              ----------                              


                       THURSDAY, FEBRUARY 4, 2010

                  House of Representatives,
             Subcommittee on Energy and Environment
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Baird [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                           Geoengineering II:

            The Scientific Basis and Engineering Challenges

                       thursday, february 4, 2010
                              10:00 a.m.&
                   2325 rayburn house office building

Purpose

    On Thursday, February 4, 2010, the House Committee on Science & 
Technology, Subcommittee on Energy and Environment will hold a hearing 
entitled ``Geoengineering II: The Scientific Basis and Engineering 
Challenges.'' The purpose of the hearing is to explore the science, 
engineering needs, environmental impact(s), price, efficacy, and 
permanence of select geoengineering proposals.

Witnesses

        <bullet>  Dr. David Keith is the Canada Research Chair in 
        Energy and the Environment at the University of Calgary.

        <bullet>  Dr. Philip Rasch is a Laboratory Fellow of the 
        Atmospheric Sciences and Global Change Division and Chief 
        Scientist for Climate Science, Pacific Northwest National 
        Laboratory, U.S. Department of Energy.

        <bullet>  Dr. Klaus Lackner is the Ewing Worzel Professor of 
        Geophysics and Chair of the Earth and Environmental Engineering 
        Department at Columbia University.

        <bullet>  Dr. Robert Jackson is the Nicholas Chair of Global 
        Environmental Change and a professor of Biology at Duke 
        University.

Background

    This hearing is the second of a three-part series on 
geoengineering. On November 5, 2009 the Full Committee held the first 
hearing in the series, entitled ``Geoengineering: Assessing the 
Implications of Large-Scale Climate Intervention.'' This Subcommittee 
hearing will examine the scientific basis and engineering challenges of 
geoengineering. In the spring of 2010 the Committee will hold the final 
hearing in this series in which issues of governance will be discussed. 
This series of hearings serves to create the foundation for an informed 
and open dialogue on the science and engineering of geoengineering.
    As discussed in the first hearing, strategies for geoengineering 
typically fall into two major categories: Solar Radiation Management 
and Carbon Dioxide Removal (hereafter SRM and CDR, respectively). The 
objective of Solar Radiation Management (SRM) methods is to reflect a 
portion of the sun's radiation back into space, thereby reducing the 
amount of solar radiation trapped in Earth's atmosphere and stabilizing 
its energy balance. Methodologies for SRM include: installing 
reflective surfaces in space; and increasing reflectivity, or albedo 
\1\ of natural surfaces, built structures, and the atmosphere. To 
balance the impacts of increased atmospheric carbon levels, most SRM 
proposals recommend a goal of 1-2% reduction of absorbed solar 
radiation from current levels. Carbon Dioxide Removal (CDR) methods 
propose to reduce excess CO<INF>2</INF> concentrations by capturing, 
storing, or consuming carbon directly from air, as compared to direct 
capture from power plant flue gas and storage as a gas. CDR proposals 
typically include such methods as carbon sequestration in biomass and 
soils, ocean fertilization, modified ocean circulation, non-traditional 
carbon capture and sequestration in geologic formations, and 
distributing mined minerals over agricultural soils, among others.
---------------------------------------------------------------------------
    \1\ Albedo is measured on a scale from 0 to 1, with 0 representing 
the reflectivity of a material which absorbs all radiation and 1 
represents a material which reflects all radiation. Newly laid asphalt 
has a typical albedo of 0.05 and fresh snow can have an albedo of 
0.90.

---------------------------------------------------------------------------
Geoengineering Strategies

Atmospheric solar radiation management (SRM)

    One approach to atmospheric SRM is known as `marine cloud 
whitening' in which a fine spray of particles, typically via droplets 
of salt water, would be injected into the troposphere (the lowest level 
of our atmosphere) to increase the number of cloud-condensation nuclei 
and encourage greater low level cloud formation. The objective is to 
increase the albedo of existing clouds over the oceans, thus reflecting 
more sunlight into the atmosphere before it reaches Earth. To achieve 
the necessary radiative forcing to stabilize global temperatures, cloud 
cover would need to increase 50-100% from current levels.\2\
---------------------------------------------------------------------------
    \2\ An increase in ocean cloud cover to 37.5-50% of ocean surface 
area.
---------------------------------------------------------------------------
    Stratospheric sulfate injection is another atmospheric SRM 
approach.. The objective is to mimic the large quantity of sulfuric 
emissions and the consequent albedo increase that a volcanic eruption 
would naturally create. For example, the 1991 eruption of Mt. Pinatubo 
in the Philippines is thought to have caused a 1-2 year decrease in the 
average global temperature by 0.5 C by increasing global albedo.\3\ 
To accomplish this effect via stratospheric sulfate injections, a spray 
of sulfate particles would be injected into the stratosphere, which is 
between six and 30 miles above the Earth's surface. This proposal 
typically garners the most attention among geoengineering's scientific 
community.
---------------------------------------------------------------------------
    \3\ Groisman PY (1992)

Drawbacks and challenges

    Both atmospheric SRM approaches described here could be quickly 
deployed at a relatively low cost and shut down if necessary; however, 
both approaches require further research and may carry significant 
unintended consequences for ocean ecosystems, agriculture, and the 
built environment.
    Marine cloud whitening deployment strategies could include aerosol 
distribution from a large fleet of ships, unmanned radio-controlled 
ocean vessels, or aircraft. Further research is needed to optimize 
variables such as droplet size and concentration, cloud longevity, and 
the necessary increase in cloud cover to achieve desired results. The 
material itself (i.e. salt water) would be inexpensive for marine cloud 
whitening as it is abundant, and environmental impacts may be limited 
and somewhat predictable. However, it has been noted that marine cloud 
whitening activities could cause changes in local weather patterns, and 
deployment might be very energy-intensive.
    A variety of deployment methods have been suggested for 
stratospheric sulfate injections, including sprays from aircraft, land-
based guns, rockets, manmade chimneys, and aerial balloons.\4\ 
Environmental impacts from sulfate injection could occur because the 
sulfate materials would eventually fall from the stratosphere into the 
troposphere and ``rain out'' onto the land and ocean. This would 
contribute to ocean acidification and could negatively impact crop 
soils and built structures.
---------------------------------------------------------------------------
    \4\ Novim (2009)
---------------------------------------------------------------------------
    The SRM strategies discussed here would be long term investments 
that must be carefully planned and continually maintained in order to 
achieve their goals and avoid rapid climatic changes. Presumably, 
greenhouse gas levels could continuously rise while such SRM strategies 
were deployed. Therefore, in the case of an interruption or termination 
in service, the actual impact(s) of increased greenhouse gas 
concentrations would be felt, i.e., the effects of SRM would be quickly 
negated. This would present great risk to human populations and natural 
ecosystems. Apart from these effects, stratospheric injections and 
marine cloud whitening also run the risk of creating localized impacts 
on regional climates throughout their deployment. In addition, the 
decrease in sunlight over the oceans due to marine cloud whitening 
could affect precipitation patterns and regional ocean ecosystem 
function. Furthermore, as with other geoengineering ideas, these SRM 
approaches are criticized for drawing attention and resources away from 
climate change mitigation and CO<INF>2</INF> reduction efforts.

Terrestrial-based biological approaches (SRM and CDR)

    The terrestrial-based biological approaches to geoengineering 
discussed here include vegetative land cover and forestry methods 
(e.g., the biological sequestration of carbon, CDR strategies, and 
increasing the albedo of terrestrial plants, an SRM strategy). These 
strategies are at different stages of development and deployment, with 
carbon sequestration in forest ecosystems \5\ likely to be the most 
effective in the near-term.
---------------------------------------------------------------------------
    \5\ The Reduced Emissions Deforestation and Degradation (REDD) 
carbon trading concept provides a starting point for this discussion. 
The REDD program employs market mechanisms to compensate communities in 
developing countries to protect local forests as an alternative income 
mechanism to logging or farming the same land.

Increasing albedo and carbon sequestration potential in forests, 
        grasslands, and croplands
    The ability of forests and other vegetative systems such as 
grasslands and croplands to store CO<INF>2</INF> and to reflect solar 
radiation is crucial to climate change mitigation efforts. Certain 
geoengineering strategies propose to leverage these properties through 
massive-scale planting of more reflective or CO<INF>2</INF>-absorbent 
vegetation. In traditional, terrestrial-based biological carbon 
sequestration, CO<INF>2</INF> is absorbed by trees and plants and it is 
stored in the tree trunks, branches, foliage, roots, and soils. 
Geoengineers propose to alter the ability of the plants and trees to 
sequester carbon or to reflect light \6\ using non-native species and 
techniques from traditional plant breeding and genetic engineering. The 
basic processes of photosynthesis and light reflection would still 
occur, but geoengineers would either increase the carbon absorption and 
reflective capacities of existing vegetation, or introduce non-native 
species with such increased capacity(s). Deployment of these land-cover 
systems would be both systematic and massive to achieve the desired 
effect(s).
---------------------------------------------------------------------------
    \6\ Research suggests that vegetative land cover in the form of 
crops and grasslands can impact climate by increasing local albedo by 
up to 0.25 (on a 0-1 point scale) and thus reflect more light into the 
atmosphere.
---------------------------------------------------------------------------
    There are a number of advantages of these approaches. Development 
and implementation is relatively low cost and the global infrastructure 
required to create and propagate similar traits in crops and grasses 
through to large-scale cultivation already exists.\7\ There are fewer 
potential issues concerning irreversibility than other proposed 
geoengineering schemes. And, the climate impacts are inherently focused 
in the regions that are most important to food production and to 
population centers, thus providing more directed benefits even when 
applied globally. Maintaining the technology is also less of a problem 
as crops are replanted annually; however, to maintain the mitigation 
benefit, high albedo varietals must be continually planted and mature 
forests must be maintained.
---------------------------------------------------------------------------
    \7\ The technology exists, but to deploy it on a commercial scale 
across the globe could take a decade or more.

Biochar
    Biochar \8\ may have potential as an efficient method of 
atmospheric carbon removal (via plant growth) for storage in soil. 
Biomass \9\ is converted to both biochar (solid) and a bio-oil (liquid) 
by heating it in the absence of air. The bio-oil can be converted to a 
biofuel after a costly conversion process, and the biochar can serve as 
bio-sequester (i.e. atmospheric carbon capture and storage). Biochar, 
is a stable charcoal-solid that is rich in carbon content, and thus can 
potentially be used to lock globally significant amounts of carbon in 
the soil.\10\ Unlike typical CO<INF>2</INF> capture methods which 
typically require large amounts of oxygen and require energy for 
injection, the biochar process breaks the carbon dioxide cycle, 
releasing oxygen, and removing carbon from the atmosphere and 
sequestering it in the soil for possibly hundreds to thousands of 
years.\11\
---------------------------------------------------------------------------
    \8\ Biochar is charcoal created by the heating of biomass, trees 
and agriculture waste, in the absence of air, i.e. pyrolysis.
    \9\ Biomass could consist of trees and agricultural wastes.
    \10\ Laird (2008)
    \11\ Not only do biochar-enriched soils contain more carbon, 150gC/
kg compared to 20-30gC/kg in surrounding soils, but biochar-enriched 
soils are, on average, more than twice as deep as surrounding soils. 
Therefore, the total carbon stored in these soils can be one order of 
magnitude higher than adjacent soils (Winsley 2007).

Drawbacks and challenges

    The biological systems discussed here present challenges to the 
development of effective deployment, accounting, and verification 
systems for these terrestrial-based approaches to geoengineering. For 
example, the climate benefits of sequestration practices can be 
partially or completely reversed because these resources are subject to 
natural decay, disturbances, and harvests, which could result in the 
sudden or gradual release the carbon back to the atmosphere. Forests 
plateau \12\ in their ability to reflect light and absorb CO<INF>2</INF> 
as they mature, and they release CO<INF>2</INF> as they decay; 
therefore, their utilization as geoengineering strategies would require 
careful monitoring and accounting of CO<INF>2</INF> storage over time 
as these systems do not provide long-term storage stability. These 
systems would also need to be maintained even after saturation to 
prevent subsequent losses of carbon back to the atmosphere. This would 
also be the case for management of soils.\13\ \14\ \15\ Addressing 
these challenges is important if sequestration benefits are to be 
compared to other approaches.
---------------------------------------------------------------------------
    \12\ Soils also plateau in their ability to sequester 
CO<INF>2</INF>.
    \13\ Lehmann, Gaunt and Rondon (2006)
    \14\ Lal et al. (1999)
    \15\ West and Post (2002)
---------------------------------------------------------------------------
    Sophisticated and verifiable carbon accounting strategies are 
needed across the board to optimize carbon-sensitive land uses at 
different climates and geographies. Existing statistical sampling, 
models and remote sensing tools can estimate carbon sequestration and 
emission sources at the global, national, and local scales. However, 
complex spatial-temporal models would be required for each technique 
described here. For example, estimating changes in soil carbon over 
time is generally more challenging than those for forests due to the 
high degree of variability of soil organic matter--even within small 
geographic scales like a corn field--and because changes in soil carbon 
may be small compared to the total amount of soil carbon. And, it is 
not presently clear whether there would be greater carbon savings by 
planting trees and then converting those trees into biochar or planting 
trees and allowing them to grow, thereby sequestering carbon in both 
the soil and in the plant material.
    Tradeoffs between immediate climate objectives and environmental 
quality may be necessary with these techniques. If nitrogen-based 
fertilizers are applied to crops to increase yields for biological 
sequestration methods, the benefit would be partially or completely 
offset by increased emissions of N<INF>2</INF>O. The installation of 
non-native or genetically engineered species could be associated with 
additional environmental disruption such counteractive changes in 
reflectivity. For example, a large scale afforestation initiative over 
snow or highly reflective grasslands would increase carbon consumption 
but greatly decrease local albedo. Similarly, genetic modification of 
crops to increase their albedo could reduce their carbon uptake. 
Lastly, these techniques are likely to replace diverse ecosystems with 
single-species timber or grass plantations to generate greater carbon 
accumulation at the cost of biodiversity.

Non-traditional carbon capture and sequestration or conversion

    Non-traditional carbon capture and sequestration (i.e. conversion) 
strategies would utilize geological systems to capture carbon. First 
carbon would be captured by exposing it to chemical adsorbents such as 
calcium hydroxide (CaCO<INF>3</INF>, zeolites, silicates, amines, and 
magnesium hydroxide (Mg(OH)<INF>2</INF>).\16\ Then, heat or agitation 
would be used to separate the carbon from the adsorbent. The carbon can 
then be stored in a geologic receptacle or it would be stored as a new 
chemical compound in a liquid or solid formation.
---------------------------------------------------------------------------
    \16\ Dubey et al. (2002)
---------------------------------------------------------------------------
    Most geologic carbon removal strategies can be categorized as in 
situ or ex situ. Ex situ carbonation requires the sourcing and 
transportation of materials that react with carbon to the source of 
output (e.g., the smokestack). The energy input may be quite high 
because the carbon absorbent must be ground up to allow for a 
sufficient rate of carbon absorption. Air capture is a key component to 
the geologic carbon sequestration and geochemical weathering of carbon. 
In this process, a carbon-adsorbent chemical, such as calcium 
hydroxide, binds to carbon and separates it from the ambient air. The 
adsorbent chemical is then heated, the bound CO<INF>2</INF> is 
released, and a pure CO<INF>2</INF> stream is produced. Air capture 
differs from traditional carbon capture on power plants and other high-
intensity carbon emitters in that it is a distributed approach to 
capture (as many of the main sources of carbon are actually a 
collection of distributed entities, e.g. vehicles and buildings).
    Alternatively, in situ carbonation injects carbon into geologic 
formations suited to the mineralization of carbon.\17\ The injected 
material is then left in the formation to carbonize at a more natural 
rate. Carbon storage in a liquid or solid represents a more permanent 
option for carbon management and can be thought of as the mere 
stimulation of naturally occurring processes that take place over 
thousands of years instead of months. It would potentially require less 
stringent regulatory and liability frameworks than traditional carbon 
storage in a gaseous form. This could make deployment costs more 
manageable per unit than traditional carbon capture and storage.
---------------------------------------------------------------------------
    \17\ Kelemen and Matter (2008)

Challenges and drawbacks

    The scale required for deployment of non-traditional carbon capture 
and sequestration methods present challenges to their eventual use. 
Geological capture and storage at a geoengineering scale would 
represent an immense investment, requiring hundreds or thousands of 
units and immense land formations suitable for storage. In addition, 
most suggested geological sequestration strategies require a high input 
of heat or pressure, either to release the carbon from its adsorbents 
or to speed the necessary reactions for solid storage, and thus are 
energy burdens for the deployment of this technology.
    Ambient air is comprised of 0.04% carbon, and the slip streams of 
exhaust from coal fired power plants are approximately 15%; therefore, 
the amount of carbon gathered per unit of air processed would be far 
lower. In addition to issues of scale, in situ storage material may 
remain as a gas and be released after a period of time, which leads to 
additional monitoring and verification needs.

Other Strategies

    Several geoengineering strategies were not emphasized in this 
hearing due to projected environmental impacts and project feasibility. 
Several of these techniques are detailed below.

    Enhanced weathering techniques--Silicate minerals would be sourced, 
ground, and distributed over agricultural soils to form carbonates. 
This category of in situ carbonation works in the same manner as the 
non-traditional carbon consumption strategies discussed above. The 
actual mineral distribution could be performed at a relatively low 
direct cost; however, the mining activities would require sizable 
energy inputs. In addition, introducing large quantities of chemicals 
to a landmass could incur significant changes, both predictable and 
unpredictable, to the entire ecosystem.

    Chemical ocean fertilization--Similar to enhanced weathering in 
terrestrial systems, this strategy calls for the distribution of ground 
minerals over the oceans. Iron, silicates, phosphorus, nitrogen, 
calcium hydroxide and/or limestone could enhance natural chemical 
processes that consume carbon, such as photosynthesis in phytoplankton. 
Mining and environmental impacts are major challenges. Iron is the most 
popular candidate chemical for this strategy as it would require the 
smallest quantity to significantly lower carbon concentrations.

    Oceanic upwelling and downwelling--Naturally occurring ocean 
circulation would be accelerated in order to transfer atmospheric 
greenhouse gases to the deep sea. Atmospheric carbon is absorbed by the 
ocean at the air-water interface, and it is largely stored in the top 
third of the water column. This approach would use vertical pipes to 
transfer the carbon rich surface waters to the deep ocean for storage. 
It would likely require massive engineering efforts and could 
significantly alter the ocean's natural carbon cycle and circulation 
systems.

    White roofs and surfaces--Painting the roofs of urban structures 
and pavements in the urban environment white would increase their 
albedo by 15-25%. A white roofs program would need global 
implementation to achieve a meaningful impact on radiative forcing, 
incurring great costs and logistical challenges; however, white roofs 
can help mitigate the urban heat island problem, which plagues 
metropolises like Tokyo and New York City.

    Desert reflectors--Metallic and other reflective materials would be 
used to cover largely underused desert areas, which account for 2% of 
the earth's surface to reflect sunlight. This approach could have large 
detrimental impacts on local ecosystems and precipitation patterns. 
Preliminary cost estimates are in the high billions or trillions of 
dollars.

    Space-based reflective surfaces--A large satellite or an array of 
several small satellites with mirrors or sunshades would be placed in 
orbit or at the sun-earth Lagrange (L l) point to reflect some 
percentage of sun radiation. Preliminary cost estimates for this 
strategy are usually in the trillions of dollars.

References

(3) Groisman PY. (1992). Possible regional climate consequences of the 
        Pinatubo eruption: an empirical approach. Geophysical Research 
        Letters 19: 15, 1603-1606.

(4) Blackstock, JJ, Battisti, DS, Caldeira, K, Eardley, DM, Katz, JI, 
        Keith, DW, Patrinos, AAN, Schrag, DP, Socolow, RH, and Koonin, 
        SE. (Novim, 2009). Climate Engineering Responses to Climate 
        Emergencies, archived online at: http://arxiv.org/pdf/0907.5140

(5) Birdsey, RA. (1996). Regional Estimates of Timber Volume and Forest 
        Carbon for Fully Stocked Timberland, Average Management After 
        Final Clearcut Harvest. In Forests and Global Change: Forest 
        Management Opportunities for Mitigating Carbon Emissions Volume 
        2, Edited by R.N. Sampson and D. Hair. Washington, DC.

(6) Canadell, JG, and Raupach, MR. (2008). Managing forests for climate 
        change mitigation. Science. 320: 1456-1457. Available online at 
        http://wwvw.sciencemag.org/cgi/content/abstract/320/5882/
        1456?sa<INF>-</INF>campaign=Email/toc/13-June-2008/10.1126/
        science.1155458 as of January 19, 2010.

(7) Lai, R, Kimble, JM, Follett, RF, and Cole, CV. (1999). The 
        Potential of U.S. Cropland to Sequester Carbon and Mitigate the 
        Greenhouse Effect. Lewis Publishers.

(8) West, O, and Post, WM. (2002). Soil Organic Carbon Sequestration 
        Rates by Tillage and Crop Rotation: A Global Data Analysis. 
        Journal of the Soil Science Society of America. 66:1930-1946.

(9) Lehmann, J, Gaunt, J and Rondon, M. (2006). Bio-char Sequestration 
        in Terrestrial Eco-Systems--A Review. Mitigation and Adaptation 
        Strategies for Global Change. 11: 403-427. DOI: 10.100/s11027-
        005-9006-5

(10) Winsley, P. (2007). Biochar and bioenergy production for climate 
        change mitigation. New Zealand Science Review. 5: 5.

(11) Laird, DA. (2008). The Charcoal Vision: A Win-Win-Win Scenario for 
        Simultaneously Producing Bioenergy, Permanently Sequestering 
        Carbon, while Improving Soil and Water Quality. Journal of 
        Agronomy. 100: 178-181.

(13) Dubey, MK, Ziock, H, Rueff, G, Elliott, S, Smith, WS, Lackner, KS, 
        and Johnson, NA. (2002). Extraction of Carbon Dioxide from the 
        Atmosphere through Engineered Chemical Sinkage. Fuel Chemistry 
        Division Preprints. 47(1): 81-84.

(14) Kelemen, P. and Matter, J. (2008) In Situ Mineral Carbonation in 
        Peridotite for CO<INF>2</INF> Capture and Storage. Proceedings 
        of the National Academy of Sciences, U.S.A. 105(45): 17295-
        17300. Available online at http://americasclimatechoices.org/
        Geoengineering<INF>-</INF>Input/attachments/
        Kelemen%20%20Matter%20NAS%20White%20Paper.pdf as of January 15, 
        2010.
    Chairman Baird. I will call the hearing to order.\1\
---------------------------------------------------------------------------
    \1\ Some discussion was held prior to the formal opening of this 
hearing. For a transcript of these comments, see Appendix.
---------------------------------------------------------------------------
    As I mentioned earlier, I have already introduced our 
witnesses, and this is a hearing on geoengineering. As we deal 
with the issues of overheating of our planet and acidification 
of the ocean, this is one option for possibly mitigating the 
impacts, part of a series of hearings and an effort initiated 
by our Chair, Mr. Gordon.
    [The prepared statement of Chairman Baird follows:]
               Prepared Statement of Chairman Brian Baird
    Good morning. I want to welcome everyone to today's hearing 
discussing the scientific and technological premises underlying various 
proposals for geoengineering.
    Geoengineering is a term that has come to define a range of often 
controversial strategies to deliberately alter the Earth's climate 
systems for the purpose of counteracting climate change_presumably 
through reflection of sunlight or absorption of CO<INF>2</INF> from the 
air.
    Make no mistake, despite the sometimes far-fetched proposals, this 
is not a subject that should be taken lightly. As Chairman Gordon has 
also made clear: Geoengineering has been proposed as, and it can only 
be responsibly discussed as a last-ditch measure in the case that 
traditional carbon mitigation efforts prove ineffective on their own. 
Even then, a tremendous amount of research is required to know what 
strategies may be worth deploying.
    The concentration of greenhouse gases in the atmosphere is already 
driving great changes in the Earth's climate.
    The long-term consequences of climate change will become especially 
threatening, and some of these consequences are already being felt.
    For example, oceans naturally absorb atmospheric carbon through the 
air-water interface. As the concentration of greenhouse gases has 
increased in the atmosphere so has the absorption of carbon by the 
oceans. On the surface this is good because it helps to mitigate 
climate change; however, below the ocean's surface the excessive 
absorption of carbon is changing the chemistry of the ocean_it is 
creating ocean acidification.
    The effects of ocean acidification will span the ocean food web 
which will affect our fishermen, coastal communities, and our national 
and global economies.
    Today's hearing is not about ocean acidification per se, but it is 
about controversial methods to reduce or mitigate the causes and 
effects of climate change through geoengineering.
    Without question, our first priority is to reduce the production of 
global greenhouse gas emissions.
    However, as I said, if such reductions achieve too little, too 
late, there may be a need to consider a plan B_to utilize methodologies 
to counteract the climatic effects of greenhouse gas emissions by 
`geoengineering'.
    Many proposals for geoengineering have already been made. Some may 
have potential, some sound downright scary, and they all carry levels 
of uncertainty, hazards, and risks that could outweigh their intended 
benefit.
    Furthermore, the technologies proposed for deployment of many of 
these geoengineering techniques are very young or non-existent, and 
there are major uncertainties regarding their effectiveness, 
environmental impacts, and economic costs.
    For example, I am especially interested in discussing the potential 
for the solar radiation management techniques to exacerbate ocean 
acidification.
    The implications of geoengineering are decidedly global in scope, 
but geoengineering has the potential to be undertaken in a unilateral 
fashion, without consensus or regard for the well-being of other 
nations.
    Therefore, an open, public dialogue is needed in the face of such 
hazards, risks, and uncertainties. As you may recall this hearing is 
the second of a three-part series on geoengineering.
    On November 5, 2009, the Full Committee held the first hearing in 
the series, entitled ``Geoengineering: Assessing the Implications of 
Large-Scale Climate Intervention.''
    Today's Subcommittee hearing will examine the scientific basis and 
engineering challenges of geoengineering.
    This series of hearings serves to create the foundation for an 
informed and open dialogue on the science of geoengineering, and should 
in no way be regarded as supportive of deployment of geoengineering.
    With that I turn it over to the distinguished Ranking Member, Mr. 
Inglis.

    Chairman Baird. I thank the Ranking Member for being here, 
and recognize him if he has any opening remarks.
    Mr. Inglis. I don't, Mr. Chairman, and I will submit them 
for the record.
    [The prepared statement of Mr. Inglis follows:]
            Prepared Statement of Representative Bob Inglis
    Good morning, and thank you for holding this hearing, Mr. Chairman. 
I look forward to discussing the scientific and engineering challenges 
related to geoengineering.
    Last November, the full committee began our examination of 
geoengineering as a strategy to minimize the impacts of a warming 
climate. What we heard was theoretically promising: geoengineering may 
prove to be a low-cost intervention to buy us time to reduce our 
greenhouse gas emissions and limit our impact on the global climate 
system.
    Still, we face considerable uncertainty. Dr. Rasch appropriately 
describes geoengineering as a ``gamble'' in his testimony. is this a 
gamble worth trying? At this hearing, I hope to hear what steps we need 
to take to increase our understanding of geoengineering technologies 
and come one step closer to determining whether this is a viable 
option.
    In particular, I hope that the witnesses will discuss what 
technologies, techniques, and capabilities must be developed to study 
and deploy geoengineering options, and what level of financial 
investment is required for these developments. I also hope the 
witnesses will discuss the gaps in our understanding of the climate 
system that may limit our ability to justify such large-scale 
intervention, and which alternatives may minimize further changes to 
the climate, resource cycles, or global ecology.
    We also need to decide whether investments in geoengineering are 
worthwhile. There are a number of ecological, economic, and political 
uncertainties that also need to be addressed before these 
interventionist strategies are implemented. Moreover, there is a 
significant ethical question involved in deploying large-scale 
geoengineering techniques to forcibly change the climate in an effort 
to undo the damage we have already done. I hope to address these 
questions in a future hearing.
    Again, thank you for holding this important hearing, Mr. Chairman. 
I look forward to hearing from the witnesses and I yield back the 
balance of my time.

    Chairman Baird. Thank you, and I will submit my opening 
remarks for the record.
    With that, we will proceed. Each witness will have five 
minutes to proceed. Then if we have time, we will follow up 
with questions. If not, we will take a break for votes.
    Dr. Keith, please.

STATEMENTS OF DR. DAVID KEITH, CANADA RESEARCH CHAIR IN ENERGY 
 AND THE ENVIRONMENT, DIRECTOR, ISEEE ENERGY AND ENVIRONMENTAL 
              SYSTEMS GROUP, UNIVERSITY OF CALGARY

    Dr. Keith. Chairman Baird, Committee Members, thank you 
very much for having me here today.
    We must make deep cuts in global emissions if we are going 
to manage the risks of climate change. Emissions reductions are 
necessary, but they are not necessarily sufficient. This is 
because even if we halt all emissions instantly today, which is 
not going to happen, the climate risks they pose would persist 
for millennia. Also, the climate's response to the amount of 
CO<INF>2</INF> we put in the air is highly uncertain. We could 
get lucky and see small amounts of climate change, or we could 
be unlucky. Risk management is the heart of climate policy, so 
a small risk of catastrophic impact exists even with today's 
carbon burden, and that risk grows with each ton of new 
emissions. So because risk management is central, we must hope 
for the best while laying plans to navigate the worst.
    Geoengineering describes two distinct concepts. Carbon 
dioxide removal, CDR, is a set of tools for removing carbon 
dioxide from the atmosphere, while solar radiation management, 
SRM, would reduce the earth's absorption of solar energy, 
cooling the planet by adding sulfur aerosols to the upper 
atmosphere or by adding sea salt aerosols to whiten marine 
clouds. SRM and CDR_forgive my acronyms_do different things, 
entirely different things. SRM is cheap and can act quickly to 
cool the planet, but it introduces novel environmental and 
security risks, and it can at best only partially mask the 
impacts of CO<INF>2</INF> in the air. The low price tag is very 
attractive but it raises the risks of unilateral action and a 
facile cheerleading that promotes exclusive reliance on SRM.
    In concert with emissions cuts, CDR can reduce the carbon 
burden in the atmosphere, a kind of global climate remediation. 
We need this capability. Unless we can remove CO<INF>2</INF> 
from the air faster than nature does, we will, we are, 
consigning the earth to a warmer future for millennia or a 
sustained and risky program of solar radiation management.
    Carbon removal can only make a difference if we capture 
carbon by the gigaton. The sheer scale of the carbon challenge 
means that just like emissions cuts, CDR will always be much 
more expensive and much slower acting than SRM.
    SRM and CDR_again, forgive the acronyms_each provide a 
means to manage climate risk, but they are wholly distinct with 
respect to the science and technology required to deploy and 
test them, with respect to their costs and environmental risks, 
and with respect to the challenges they pose for public policy 
and governance regulation. Because these technologies have 
little in common, I suggest that we will have a better chance 
to craft sensible policy if we separate them almost entirely in 
the policy process.
    In the spirit of disclosure, I offer a few comments about 
my own work. Along with my academic work, I run a startup 
company, Carbon Engineering, that seeks to develop large-scale 
industrial technologies for capturing CO<INF>2</INF> from the 
air, a form of CDR. Professor Lackner will say more about this 
later. I am thrilled to work on this technology. It has a shot, 
however small, at providing a tool to manage one of the 
greatest environmental threats. I will be happy to answer 
questions about this and other CDR technologies but I will 
focus my remarks on SRM because I believe that is where there 
is the most urgent need for government action.
    Because of the serious concerns raised by the enormous 
leverage SRM grants us over the global climate, I think it is 
crucial that development of these technologies be managed in a 
way that is as transparent as possible. I therefore do no 
commercial or proprietary work on SRM.
    In my written comments, I offer some thoughts about the 
specific kinds of research that are needed, the funding, the 
agencies that might be appropriate or might not, the scale of 
the research program. One thing I will say here is that we 
don't want to start too fast. Research programs can be killed 
by getting too much money too quickly.
    The idea of deliberately manipulating the earth's energy 
balance to offset human-driven climate change strikes many as 
dangerous hubris. Solar engineering is like chemotherapy: no 
one wants it. It is far better to avoid carcinogens but we all 
want the ability to do chemo and to understand its risks should 
we find ourselves with dangerous cancer. The primary argument 
against doing SRM research is fear that it will sap our will to 
cut emissions. I share this view. Yet I believe that the risks 
of not doing research outweigh the risks of doing it. SRM may 
be the only means to fend off the risk of rapid and high-
consequence climate impacts. Furthermore, there are 
environmental and geopolitical risks posed by the potential of 
unilateral deployment of SRM by a small or large state acting 
alone which can best be managed by developing widely shared 
knowledge, risk assessment and norms of governance. I don't 
mean one big U.N.-style government system, I just mean some 
understanding, however it works, of how we manage this 
thermostat for the planet.
    It is a healthy sign that a common first response to 
geoengineering is revulsion. It suggests we have learned 
something from past instances of techno-optimism and subsequent 
failures, but we must not overinterpret past experience. 
Responsible management of climate risk requires sharp emissions 
cuts and clear-eyed research on SRM linked with the development 
of shared tools for managing it. The two are not in opposition. 
They are not dichotomies. We are currently doing very little on 
either, cutting emissions or this, and we urgently need action 
on both. Thank you.
    [The prepared statement of Dr. Keith follows:]
                   Prepared Statement of David Keith

Learning to manage sunlight: Research needs for Solar Radiation 
                    Management

Two kinds of geoengineering

    Geoengineering describes two distinct concepts. Carbon Dioxide 
Removal (CDR) describes a set of tools for removing carbon dioxide from 
the atmosphere, while Solar Radiation Management (SRM) would reduce the 
Earth's absorption of solar energy, cooling the planet by, for example, 
adding sulfur aerosols to the upper atmosphere or adding sea salt 
aerosols to increase the lifetime and reflectivity of low-altitude 
clouds.
    We must make deep cuts in global emissions of carbon dioxide to 
manage the risks of climate change. While emissions reductions are 
necessary, they are not necessarily sufficient. Emission cuts alone may 
be insufficient because even if we could halt all carbon emissions 
today, the climate risks they pose would persist for millennia_by some 
measures, the climate impact of carbon emissions persists longer than 
nuclear waste. Moreover, the climatic response to elevated carbon 
dioxide concentration is uncertain, so a small risk of catastrophic 
impacts exists even at today's concentration.
    Technologies for decarbonizing the energy system, from solar or 
nuclear power to the capture of CO<INF>2</INF> from the flue gases of 
coal-fired power plants, can cut emissions_allowing us to limit our 
future commitment to warming_but they cannot reduce the climate risk 
posed by the carbon we have already added to the air, and that risk 
grows as each ton of emissions drive up the atmospheric carbon burden.
    Risk management is at the heart of climate policy: planning our 
response around our current estimate of the most likely outcome is 
reckless. We must hope for the best while laying plans to navigate the 
worst.
    SRM and CDR do different things. SRM is cheap and can act quickly 
to cool the planet, but it introduces novel environmental and security 
risks and can_at best_only partially mask the environmental impacts of 
elevated carbon dioxide.
    In concert with emissions cuts, CDR technologies can reduce the 
carbon burden in the atmosphere; one might call it global climate 
remediation. We need a means to reduce atmospheric CO<INF>2</INF> 
concentrations in order to manage the long-run risks of climate change. 
Unless we can remove CO<INF>2</INF> from the air faster than nature 
does, we will consign the earth to a warmer future for millennia or 
commit ourselves to the risks of sustained SRM.
    But, carbon removal can only make a difference if we capture carbon 
by the gigaton. The shear scale of the carbon challenge means that CDR 
will always be relatively slow and expensive.
    SRM and CDR each provide a means to manage climate risks; they are, 
however, wholly distinct with respect to

         the science and technology required to develop, test and 
        deploy them;

         their costs and environmental risks; and,

         the challenges they pose for public policy and governance.

    Because these technologies have little in common, I suggest that we 
will have a better chance to craft sensible policy if we treat them 
separately.
    In the spirit of disclosure, I offer a few comments about my own 
work. I run Carbon Engineering, a startup company that aims to develop 
industrial scale technologies for capturing CO<INF>2</INF> from the 
air. I will be happy to answer questions about these technologies, but 
I will focus my remarks on SRM because I believe that is where there is 
the most urgent need for action that links the development of a 
research program to progress on learning how to manage this potentially 
dangerous technology.
    Because of the serious and legitimate concerns raised by the 
enormous leverage SRM technologies grant us over the global climate, I 
think it is crucial that development of these technologies be managed 
in a way that is as transparent as possible. I therefore do no 
commercial or proprietary work on SRM.
    The primary argument against research on SRM is fear that it will 
reduce the political will to lower greenhouse gas emissions. I believe 
that the risks of not doing research outweigh the risks of doing it. 
Solar-radiation management may be the only response that can fend off 
unlikely but rapid and high-consequence climate impacts. Further, there 
are environmental and geopolitical risks posed by the potential of 
unilateral deployment of SRM, which can best be managed by developing 
widely-shared knowledge, risk assessment, and norms of governance.
    The idea of deliberately manipulating the Earth's energy balance to 
offset human-driven climate change strikes many as dangerous hubris. It 
is a healthy sign that a common first response to geoengineering is 
revulsion. It suggests we have learned something from past instances of 
over-eager technological optimism and subsequent failures. But we must 
also avoid over-interpreting this past experience. Responsible 
management of climate risks requires sharp emissions cuts and clear-
eyed research and assessment of SRM capability. The two are not in 
opposition. We are currently doing neither; action is urgently needed 
on both.

An overview of solar radiation management

    SRM has three essential characteristics: it is cheap, fast, and 
imperfect. Long-established estimates show that SRM could offset this 
century's global-average temperature rise a few hundred times more 
cheaply than achieving the same cooling by emission cuts. This is 
because such a tiny mass is required: a few grams of sulfate particles 
in the stratosphere can offset the radiative forcing of a ton of 
atmospheric carbon dioxide. At a few $1000 a ton for aerosol delivery 
to the stratosphere that adds up to a figure in the order of $10 
billion dollars per year to provide a cooling that_however crudely_
counteracts the heating from a doubling of atmospheric carbon dioxide.
    This low price tag is attractive, but raises the risks of single 
groups acting alone and of facile cheerleading that promotes exclusive 
reliance on SRM.
    SRM can alter the global climate within months_as shown by the 1991 
eruption of Mt. Pinatubo, which cooled the globe about 0.5 C in less 
than a year. In contrast, because of the carbon cycle's inertia, even a 
massive program of emission cuts or carbon dioxide removal will take 
many decades to discernibly slow global warming.
    A world cooled by managing sunlight will not be the same as one 
cooled by lowering emissions. An SRM-cooled world would have less 
precipitation and less evaporation. Some areas would be more protected 
from temperature changes than others, creating local winners and 
losers. SRM could weaken monsoon rains and winds. It would not combat 
ocean acidification or other carbon dioxide-driven ecosystem changes 
and would introduce other environmental risks such as delaying the 
recovery of the ozone hole. Initial studies suggest that known risks 
are small, but the possibility of unanticipated risks remains a serious 
underlying concern.
    Cheap, fast and imperfect: each of these essential characteristics 
has profound implications for public policy.

        Because SRM is imperfect, it cannot replace emissions cuts. If 
we let emissions grow and rely solely on SRM to limit warming, these 
problems will eventually grow to pose risks comparable to the risks of 
uncontrolled emissions.
        Because SRM is cheap, even a small county could act alone, a 
fact that poses hard and novel challenges for international security.
        Finally, because SRM appears to be the only fast-acting method 
of slowing global warming it may be a powerful tool to manage the risks 
of unexpectedly dangerous climate outcomes.

Towards Solar Radiation Management research plan

    The capacity to implement SRM cannot simply be assumed. It must be 
developed, tested, and assessed. Research to date has largely consisted 
of a handful of climate model studies, using very simple 
parameterization of aerosol microphysics. More complex models of 
aerosol physics need to be developed and linked to global climate 
models. Field tests will be needed, such as experiments generating and 
tracking stratospheric aerosols to block sunlight and dispersing sea-
salt aerosols to brighten marine clouds. Decades of upper atmosphere 
research has produced a mass of relevant science. But, except for a 
recent ill-conceived Russian test, there have been no field tests of 
SRM.
    There has been no dedicated government research funding available 
for SRM anywhere in the world; though, a few programs for have begun in 
Europe in the past few months.
    The environmental hazards of SRM cannot be assessed without knowing 
the specific techniques that might be used, and it is impossible to 
identify and develop techniques without field testing. Such tests can 
be small: tonnes not megatonnes.
    It is widely assumed, for example, that a suitable distribution of 
stratospheric sulfate aerosols can be produced by releasing SO<INF>2</INF> 
in the stratosphere, but new simulations of aerosol micro-physics 
suggest the resultant aerosol size distribution would be skewed to 
large particles that are relatively ineffective. Several aerosol 
compositions and delivery methods may offer a way around this problem, 
but choosing between them and assessing their environmental impacts 
will require small-scale in-situ testing.
    To provide a specific example related to my own work, NASA's ER-2 
high-altitude research plane might be used to release a ton of sulfuric 
acid vapor along a 10 km plume in the stratosphere, and fly through the 
plume to assess the formation of aerosol and its sun scattering ability 
and its impact on ozone chemistry. Such tests take a few years to plan 
and cost a few million dollars.
    An international research budget growing from roughly $10 million 
to $1 billion annually over this decade would likely be sufficient to 
build the capability to deploy SRM and greatly improve understanding of 
its risks.
    It is important to start slowly. Research programs can fail if they 
get too much money too quickly. Given the limited scientific community 
now knowledgeable about SRM, a very rapid buildup of research funding 
might result in a lot of ill-conceived projects being funded and, given 
the inherently controversial nature of the technology, the result might 
be a backlash that effectively ends systematic research.
    The U.S. will need an interagency research program, because no 
single agency has the right combination of abilities to manage the 
whole program. For example, NSF's processes for transparent peer-review 
and investigator driven funding will be important in effectively 
supporting the diversity of critical analysis that is necessary on such 
an inherently controversial topic. But NSF is perhaps less suited to 
manage the larger mission oriented programs that link technology 
development and science.
    NASA has some institutional history and abilities that may be 
particularly relevant to stratospheric SRM. The high-speed research 
program, for example, linked scientific efforts to understand the 
impacts a supersonic transport fleet on the ozone layer with technology 
development aimed to minimize those impacts. The management and 
research assets used in this program could serve as the foundation of a 
program to develop and test technologies for delivering stratospheric 
aerosols. But NASA is less suited to fostering diverse early-stage 
science.
    DOE's Office of Science has a record managing large programs and 
DOE has a relevant track record with its Atmospheric Radiation 
Measurement (ARM) program. But SRM is not at its core an energy problem 
and there will be difficulties fitting it into the DOE structure.
    Finally, the inherently controversial nature of SRM research makes 
it particularly important that it not be entrusted exclusively to 
either its proponents or its adversaries. The development of an 
interagency program may help to foster the necessary diversity. Indeed, 
there may be value in a ``blue team/red team'' approach, as sometimes 
used for military preparedness planning. One team is charged to make an 
approach as effective and low-risk as possible, while the other works 
to identify all the ways it can fail. Anticipating the conditions of 
urgency, even panic, that might attend a future decision to deploy SRM, 
such an adversarial approach may increase the quality and utility of 
information available in time to aid future decision-makers.

Concluding thoughts

    Although risk of climate emergencies may motivate SRM research, it 
would be reckless to conduct the first large-scale SRM tests in an 
emergency. Instead, experiments should expand gradually to scales big 
enough to produce barely detectable climate effects and reveal 
unexpected problems, yet small enough to limit resultant risks. Our 
ability to detect the climatic response to SRM grows with the test's 
duration, so starting sooner makes the scale of experiment needed to 
give detectable results by any future date-say by 2030-smaller. A later 
start delays when results are known, or requires a bigger intervention 
in order to detect the response.
    Beyond research, building responsibly toward future SRM capability 
also requires surmounting problems of international governance that are 
hard, and novel. These are quite unlike the problems of emissions 
mitigation, where the main governance challenge is motivating 
contributions to a costly shared goal. For SRM, the main problem will 
be establishing legitimate collective control over an activity that 
some might seek to do unilaterally. Such a unilateral challenge could 
arise in many forms and from many quarters. At one extreme, a state 
might simply decide that avoiding climate-change impacts on its people 
takes precedence over environmental concerns of SRM and begin injecting 
sulfur into the stratosphere, with no prior risk assessment or 
international consultation. If this were a small state, it could be 
quickly stopped by great-power intervention. If it were a major state, 
that might not be possible.
    Alternatively a nation might grow frustrated at the pace of 
international cooperation and establish a national program of gradually 
expanding research and field tests. This might be linked to a 
distinguished international advisory board, including leading 
scientists and retired politicians of global stature. It is plausible 
that, after exhausting other avenues to limit climate risks, such a 
nation might decide to begin a gradual, well-monitored program of SRM 
deployment, even absent any international agreement on its regulation. 
In this case, one nation_which need not be a large and rich 
industrialized country_would effectively seize the initiative on global 
climate, making it extremely difficult for other powers to restrain it.
    No existing treaty or institution is well suited to SRM governance. 
Given current uncertainties immediate negotiation of a treaty is 
probably not advisable. Hasty pursuit of international regulation would 
risk locking in commitments that might soon be seen as wrong-headed, 
such as a total ban on research or testing, or burdensome vetting of 
even innocuous research projects.
    A better approach would be to build international cooperation and 
norms from the bottom up, as knowledge and experience develop_as has 
occurred in cases as diverse as the development of technical standards 
for communications technology to the landmine treaty which emerged 
bottom-up from action by NGOs. A first step might be a transparent, 
loosely-coordinated international program supporting research and risk 
assessments by multiple independent teams. Simultaneously, informal 
consultations on risk assessment, acceptability, regulation, and 
governance could engage broad groups of experts and stakeholders such 
as former government officials and NGO leaders. Iterative links between 
emerging governance and ongoing scientific and technical research would 
be the core of this bottom-up approach.
    Opinions about SRM are changing rapidly. Only a few years ago, many 
scientists opposed open discussion of the topic. Many now support 
model-based research, but discussion of field testing of the sort we 
advocate here is contentious and will likely grow more so. The main 
argument against SRM research is that it would undermine already-
inadequate resolve to cut emissions. I am keenly aware of this `moral 
hazard'_indeed I introduced the term into the geoengineering 
literature_but I am skeptical that suppressing SRM research would in 
fact raise commitment to mitigation. Indeed, with the possibility of 
SRM now widely recognized, failing to subject it to serious research 
and risk assessment may well pose the greater threat to mitigation 
efforts, by allowing implicit reliance on SRM without critical scrutiny 
of its actual requirements, limitations, and risks. If SRM proves to be 
unworkable or poses unacceptable risks, the sooner we know the less 
moral hazard it poses; if it is effective, we gain a useful additional 
tool to limit climate damages.

                       Biography for David Keith

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Professor Keith has worked near the interface between climate 
science, energy technology and public policy for 20 years. His work in 
technology and policy assessment has centered on the capture and 
storage of CO<INF>2</INF>. the technology and implications of global 
climate engineering, the economics and climatic impacts of large-scale 
wind power and the prospects for hydrogen fuel. As a technologist, 
David has built a high-accuracy infrared spectrometer for NASA's ER-2 
and developed new methods for reservoir engineering increase the safety 
of stored CO<INF>2</INF>. He now leads a team of engineers developing 
technology to capture of CO<INF>2</INF> from ambient air at an 
industrial scale.
    David took first prize in Canada's national physics prize exam, he 
won MIT's prize for excellence in experimental physics, was listed as 
one of TIME magazine's Heroes of the Environment 2009 and was named 
Environmental Scientist of the Year by Canadian Geographic in 2006. He 
spent most of his career in the United States at Harvard University and 
Carnegie Mellon University before returning to Canada in 2004 to lead a 
research group in energy and environmental systems at the University of 
Calgary.
    David has served on numerous high-profile advisory panels such as 
the U.K. Royal Society's geoengineering study, the IPCC, and Canadian 
`blue ribbon' panels and boards. David has addressed technical 
audiences with articles in Science and Nature, he has consulted for 
national governments, global industry leaders and international 
environmental groups, and has reached the public through venues such as 
the BBC, NPR, CNN and the editorial page of the New York Times.

    Chairman Baird. Thank you, Dr. Keith.
    Dr. Rasch.

  STATEMENTS OF DR. PHILIP RASCH, CHIEF SCIENTIST FOR CLIMATE 
  SCIENCE, LABORATORY FELLOW, ATMOSPHERIC SCIENCES AND GLOBAL 
     CHANGE DIVISION, PACIFIC NORTHWEST NATIONAL LABORATORY

    Dr. Rasch. Thank you, Chairman Baird and the Subcommittee, 
for inviting me today.
    I think I will start by just reminding you of what solar 
radiation management is. Scientists tend to loosely refer to 
light or heat or energy as radiation, and so when we speak of 
solar radiation management, we really mean managing the amount 
of sunlight reaching the surface of the earth. If we can 
reflect a little bit more sunlight back to space, then we will 
cool the planet.
    Before jumping into some of the scientific issues, I am 
going to speak just for a second on funding issues. If you look 
at my assessment of funding in the written testimony, you will 
see that I think that the total grants from U.S. agencies today 
for geoengineering research amounts to about $200,000 a year. 
If you add in some invisible funding that comes from faculty 
members or scientists like myself donating their time, it might 
double. If you add in foundation money, it might come to a 
million dollars a year. If you contrast this with the kind of 
program like the Apollo program to put a man on the moon of $2 
billion per year or total up all the climate research today of 
$1 billion per year, then you can see we are currently putting 
a tiny, tiny amount in, and maybe that is the right thing to 
do. That is really for policymakers like you to help us decide. 
But if you think it is important to do geoengineering research, 
then it would be very easy to make a big difference with a 
relatively small amount of money.
    You asked me to talk about the solar radiation management 
techniques known as stratospheric sulfate aerosols and cloud 
whitening. I have worked in both of these areas. Scientists are 
interested in these two ideas because we already know they play 
a role in the real world. We see that when volcanoes produce 
sulfate aerosols high in the atmosphere, the planet cools. We 
see that when ships inject aerosols as pollution into clouds, 
that those clouds become whiter and reflect more sunlight_some 
of those clouds do_which should cool the planet a bit. We think 
we might be able to do the same kind of thing deliberately. In 
climate models when we brighten the clouds, we see that the 
planet cools. When we inject an aerosol like volcanoes do, we 
see that the planet cools. That is the good news, but that 
statement is far too simple. There are also undesirable things 
that happen. We see that even though we might make the average 
temperature of the planet about right, the rainfall patterns 
would change some from today, and some places become warmer and 
some places become cooler.
    So there are going to be winners and losers in this 
geoengineering activity if we were to do it. But nevertheless, 
as David has said, there are reasons why we might consider 
doing it. We know that the models that we are using today are 
far too simple and incomplete. We know how to do better. There 
are many outstanding unresolved important issues that need to 
be addressed if one wants to understand geoengineering better. 
I have made some suggestions in my written testimony about ways 
we might use funding to strengthen the activity involving 
computer modeling, technology development, and lab and field 
research. There are a bunch of first-class research scientists 
and engineers in the United States and Europe now working for 
free in their spare time to think about this, but there are 
some things that take money to solve, and a much better job 
could be done if there was a funded program for geoengineering.
    All the work that I have suggested doing essentially comes 
down to focusing on two questions: Can we actually create 
particles in the stratosphere or whiten clouds as we assumed in 
our first climate studies? We need technology development and 
we need fundamental research to understand this.
    Then the second part would be: What would be the impact on 
climate if we did put the particles into the stratosphere or 
whiten clouds? This involves deployment, actually, at some 
level. I think I have to skip over, in the interest of time, my 
discussions of some of the subtleties of the ways we could 
focus on the cloud whitening or the stratospheric aerosols, but 
I would be glad to take questions about it.
    You also asked me to address deployment issues. I feel very 
strongly we are not ready for deployment, if by deployment you 
mean trying to affect the climate. There are too many things 
that haven't been looked at yet, but there is a lot we can do 
with fieldwork that will help us understand geoengineering but 
won't change the climate. For the cloud whitening strategy, 
field and modeling studies would help us understand a critical 
feature of the climate system called the aerosol indirect 
effect, which is really critical for understanding climate 
change more generally as well. I don't have the time to talk to 
you about this now but I would love to address it if you ask me 
questions.
    I think that if we managed to tighten up our work to the 
point that we think a geoengineering strategy looks viable, it 
would probably require a Manhattan Project, looking at it with 
a much larger group of stakeholders, checking the science, 
searching for flaws in our initial work and worrying about 
issues far beyond the scope of physical scientists.
    Thanks for listening to me and I am happy to take 
questions.
    [The prepared statement of Dr. Rasch follows:]
                   Prepared Statement of Philip Rasch
    I would like to thank the committee for the invitation to provide 
testimony at this hearing. I am aware that this is the second of three 
hearings on geoengineering, and that you have already been introduced 
to many of the concepts behind geoengineering at your previous hearing. 
A number of important documents were submitted during the previous 
hearing. I will not submit any more beyond my own testimony during this 
hearing, but I do refer to a few more scientific papers that I think 
are relevant (listed in the references at the end). I have attempted to 
strike a balance between repeating some of the information covered in 
the last hearing to provide continuity, and new material.
    There are two classes of geoengineering (the intentional 
modification of the Earth's Climate) being discussed in the scientific 
community and by the congressional committee: 1) Approaches designed to 
draw down the concentration of Greenhouse Gases, to reduce Global 
Warming; and 2) ``Solar Radiation Management''. You asked me to focus 
on Solar Radiation Management, with particular attention to 
stratospheric sulfate aerosols, and marine cloud whitening. I will try 
to respond to the specific questions that you listed in your letter, 
and will also provide additional information where I think it relevant.
    What is Solar Radiation Management? Solar Radiation Management 
refers to the idea that mankind might be able to influence the amount 
of sunlight reaching the surface of the Earth deliberately. Scientists 
sometimes use the terms ``radiation'', ``light'', ``energy'' and 
``heat'' in this context interchangeably. So ``Solar Radiation 
Management'' really means, ``managing the amount of sunlight reaching 
the Earth's surface''. The global temperature of the planet is 
determined by the Earth system finding a balance between the energy 
absorbed from sunlight, and the energy leaving the atmosphere as 
radiant energy (heat) in the infrared part of the electromagnetic 
spectrum. The idea behind Solar Radiation Management is that if mankind 
could find a way to make the planet a little more reflective to 
sunlight, then less would be absorbed by the Earth, and the planet will 
be slightly cooler than it would otherwise be. So Solar Radiation 
Management is designed to cancel some of the warming that we expect 
from increasing Greenhouse Gas Concentrations.
    Note that even if Solar Radiation Management succeeds, it will not 
cancel all the effects of increasing greenhouse gas concentrations. The 
increasing acidity of the oceans with its impact on ocean life is a 
good example of a consequence of increasing CO<INF>2</INF> that will 
not be treated by Solar Radiation Management.
    Before jumping in further, I want to get past a few ``buzzwords'' 
immediately. From here on I will often replace the term ``Solar 
Radiation Management'' with the word ``geoengineering''. And I will 
often loosely refer to the ``changes in the amount of energy entering 
or leaving some part of the planet because of some climate factor'' as 
a ``forcing''. So there is a forcing associated with increasing 
greenhouse gases, and there is another forcing associated with Solar 
Radiation Management. The idea is to try to match the forcings so that 
they kind of cancel.
    Preliminary Remarks on Geoengineering Research Goals and Expected 
Outcomes: There are many uncertainties in geoengineering research. 
Identifying the consequences of geoengineering to the climate of the 
planet is at least as difficult as identifying the changes to the 
planet that will occur from increasing greenhouse gases. Just as 
scientists cannot be certain of all of the consequences of doubling (or 
more) the concentration of CO<INF>2</INF> to the planet, we cannot be 
certain of the outcome of any particular strategy for geoengineering 
the planet to counter that warming. What science can do is use the same 
tools and body of knowledge to identify likely outcomes from either 
class of perturbations to the planet.
    I am not sure we could ever be certain of the outcome of 
geoengineering. I think it is important to recognize that 
geoengineering is a gamble. The decision to try geoengineering in the 
end will probably be based upon balancing the consequences of a 
negative outcome from geoengineering against the negative outcome from 
``not geoengineering''.
    I believe there are a variety of activities to consider for 
geoengineering research:

        <bullet>  Assessment, Integration: to brainstorm, review 
        suggested strategies, and identify obviously unsuitable 
        suggestions. Only a little work has been done to evaluate 
        proposed strategies for efficacy and costs (e.g. Royal Society 
        report, 2009 and Lenton and Vaughan, 2009).

        <bullet>  Computer Modeling: There are a variety of kinds of 
        modeling studies that are relevant to geoengineering.

                  Climate models and Earth system models are needed 
                that provide a global view about interactions between 
                many parts of the climate system over time scales as 
                long a centuries.

                  ``Process Models'' that include a lot of detail 
                about one specific feature of the Earth system are also 
                needed. These kinds of models might describe how for 
                example cloud drops might form, but they neglect 
                anything that isn't central to that understanding, like 
                what the rainfall was a thousand miles away. They do 
                calculations that are generally far too expensive to be 
                used for a global computer calculation but they are 
                incredibly useful for understanding how a particular 
                process operates. Science frequently uses global models 
                to produce a broad view of geoengineering outcomes, but 
                for those strategies that look promising, increasingly 
                stringent levels of analysis are required to see 
                whether the simple assumptions used in a climate model 
                hold up. Process models are used to understand 
                important details.

                  Other models may also be needed for a broader set of 
                questions (for example the impact of geoengineering on 
                ecosystems or the economy).

        <bullet>  Lab and Fieldwork: Lab and fieldwork are critical to 
        assure a thorough understanding of the fundamental physical 
        process important to climate and that computer models are 
        reasonably accurate in representing that process. I think it is 
        critical to distinguish between ``small scale field studies'' 
        where we might introduce some particles into the atmosphere 
        over such a small scale that they would have negligible climate 
        impact, and ``full scale deployment'' where we expect to 
        actually have a climate impact. Field studies might try to 
        induce a deliberate change to some feature of the earth system 
        at a level with a negligible impact on the climate, but the 
        change would allow us to detect a response in a component 
        important to climate. For example, with Cloud Whitening one 
        might try to modify a cloud, or a group of clouds by 
        introducing a change over a very small area, over and over 
        again for a month, to see whether we really understand how that 
        kind of cloud works, and whether models can reproduce what we 
        see in the real world. With Stratospheric Aerosols one might 
        envision devoting a few aircraft to trying to deliver the 
        material needed to make aerosol particles in the stratosphere, 
        and then look to see whether the right size particles form, and 
        how long they last.

        <bullet>  Technology Development: to develop equipment and 
        measurement strategies that might be used for process studies, 
        for exploratory trials, or as prototypes for full deployment. 
        Some work has been done to develop plans for the devices needed 
        for the cloud whitening strategy, and the ships that could 
        deploy the sea salt particles.

        <bullet>  Deployment Activities: Obviously, one can envision a 
        gradation of experiments to the climate, ranging from those 
        with no impact, to those having a huge impact. I am going to 
        reserve the word ``deployment'' to refer to geoengineering 
        designed to have a big impact on climate. I don't think 
        scientists know enough today about geoengineering, and so I 
        don't think we are ready for ``deployment''. I am going to 
        avoid much discussion of full deployment scenarios for the rest 
        of my testimony except to tell you what a climate model says 
        might happen, and to acknowledge that when and if we think we 
        understand geoengineering well enough to deploy it we must 
        consider many new issues. Monitoring, infrastructure, energy 
        consumption, economic modeling, governance, and much else are 
        needed if we reach a stage where deployment is viable.

    Preliminary Remarks on Costs associated with Geoengineering 
Research. The costs are determined in large part by the goals of the 
research, and the outcomes that are to be achieved.
    In my opinion before a nation (or the world) ever decided to deploy 
a full scale geoengineering project to try to compensate for warming by 
greenhouse gases it would require an enormous activity, equivalent to 
that presently occurring within the modeling and assessment activities 
associated with the Intergovernmental Panel on Climate Change (IPCC) 
activity, or a Manhattan Project, or both. It would involve hundreds or 
thousands of scientists and engineers and require the involvement of 
politicians, ethicists, social scientists, and possibly the military. 
These issues are outside of my area of expertise. Early ``back of the 
envelope'' calculations estimated costs of a few billion dollars per 
year for full deployment of a stratospheric aerosol strategy (see for 
example, Crutzen, (2006) or Robock et al (2009b)). These numbers are 
very rough. I am not sure it is worth refining them much at this time, 
due to the many uncertainties that need to be resolved by exploratory 
research.
    There are many smaller steps that can be taken to make initial 
progress on understanding geoengineering at a much lower cost, and at a 
level that does not require an international consensus, or actually 
introduce significant changes in the Earth's climate. These steps are 
worth doing because they allow us to identify obvious deficiencies in 
geoengineering strategies, and revise or abandon the problematic 
strategies.
    To put my recommendations on future research in context, I want to 
start by summarizing the research taking place today, and estimating 
the costs associated with that research.
    The research that has been done so far has been done on a 
shoestring budget. I am aware of 3 research groups in the U.S. that 
have done substantial geoengineering research in the last five years (I 
believe there are now 4 groups). Some of that work was done by 
postdoctoral researchers or students with fellowships allowing the 
freedom to work on any topic of their choice. Other work was done 
because a faculty member or a scientist like myself (in my previous 
position) had some small amount of flexibility in his or her 
appointment that allowed them to do research on geoengineering for a 
small fraction of their time. I believe that there are now two very 
small research grants sponsored by U.S. government agencies that 
explicitly support GEOE research totaling about $200,000/year. The 
``implicit'' funding I described might double that contribution. 
Foundations have also contributed funding for geoengineering that may 
amount to another $500,000 per year.
    I estimate the total (2009) budget for all geoengineering research 
within the U.S. is probably $1M/year or less. Perhaps half of that is 
from private foundations.
    There is a single major European Proposal funded by the E.U. at 
$1.5 Million per year to fund geoengineering research, and a number of 
activities started in the United Kingdom on geoengineering that total 
perhaps $1.6 Million per year. I believe that Germany is also now 
considering funding some geoengineering research.
    I think the Apollo Program to send a man to the moon took place 
over about 10 years, and ran about $20 Billion dollars (http://
spaceflight.nasa.gov/history/apollo) so that comes to about $2 Billion 
per year. And those costs are not cast in today's dollars, so it would 
appear to be more if we adjusted for inflation.
    I estimate from the U.S. Climate Change Science Program 2009 
budgets (http://www.usgcrp.gov/usgcrp/Library/ocp2009/ocp2009-budget-
gen.htm) that the total for climate science in the U.S. is about $l 
Billion per year.
    So the current spending on geoengineering research is tiny compared 
to these activities. And maybe it should be, that is not for me to 
decide. I think that is your job in part. But I can tell you that $10, 
20, or $50 Million per year would have an enormous effect on the 
research activity in this area.
    Finally, it is worth writing a little bit about costs of field 
experiments. Although the comprehensive, international and successful 
VOCALS field research experiment conducted off Chile in 2008 had no 
geoengineering component to it, the range of techniques and measurement 
strategies involved were very similar to those required for a limited-
area field test of the cloud whitening scheme discussed below. VOCALS 
cost $20-25 Million.
    Now, on to your questions.

How does stratospheric sulfate aerosol achieve the necessary radiative 
                    forcing?

    Mankind has known for many years that the planet cools following a 
moderately strong volcanic eruption (like Pinatubo). We believe that 
the planet cools because volcanoes inject a lot of a gas called sulfur 
dioxide into the layer of the atmosphere called the stratosphere (a 
stable layer in the atmosphere with its base at about 10km near the 
poles, and about 18km at the equator). This gas undergoes a series of 
natural chemical reactions that end up producing a mixture of water and 
sulfuric acid in small droplets we call sulfate aerosols. These sulfate 
aerosols act like small reflectors that scatter sunlight. Some of the 
sunlight hitting these drops gets scattered down, and some up. The part 
that goes up never reaches the surface of the Earth and so the Earth 
gets a bit cooler than it would otherwise.
    The geoengineering idea is to inject a ``source'' for aerosols into 
the same region of the atmosphere that volcanoes tend to inject the 
gas. I use the word ``source'' to refer to either a gas like sulfur 
dioxide (or another gas that will eventually react chemically and form 
sulfate aerosols), or to inject sulfuric acid (or some other particle 
type) directly. The expectation is that similar particles to those 
following a volcanic eruption will form from that source, and the earth 
will undergo a cooling similar to a volcano. The idea is to reduce the 
amount of energy reaching the surface of the earth to introduce just 
enough to balance the warming caused by increases in greenhouse gases. 
If the particles were like those that formed after Pinatubo we think 
that an amount like one quarter of that injected by Pinatubo per year 
would balance the warming that we expect from a doubling of CO<INF>2</INF> 
concentrations if it were injected at tropical latitudes. These numbers 
might change if the aerosols were injected in Polar Regions.
    You might also be interested to know that scientists have 
occasionally considered using other kinds of particles to do 
geoengineering. But you asked me to focus on sulfate aerosols so I will 
not discuss other particles further.
    Scale and amount of materials needed. The amount of material needed 
depends upon the size of the particles that form. Little particles are 
better reflectors than big particles, and big particles also settle out 
faster than little ones do, so it is desirable to keep them small. 
Unfortunately, the size of the particles that form is a really 
complicated process. It depends upon whether particles already reside 
in the volume where the source is introduced. If particles already 
exist near the place the source is introduced then the source will tend 
to collect on the existing particles and make them bigger, rather than 
making new small particles. One of the main challenges to this 
geoengineering strategy is finding a way to continue to make small 
particles. One very recent paper (Heckendorn et al, 2009) suggests that 
first studies underestimated how quickly big particles will form, and 
that more of the source will be needed than the first studies assumed 
(perhaps 5 times as much). One challenge to this type of geoengineering 
research is to establish whether it is possible to produce small 
particles deliberately at the appropriate altitude for long periods of 
time.

Over what time period would deployment need to take place?

    If the geoengineering works as we have seen in climate models [that 
is, it cooled the planet] there would be very strong hints that the 
strategy was working within a couple of years of deployment. Scientists 
would certainly be more comfortable considering averages of 5 to 10 
years of temperature data before making very strong statements about 
temperature changes. It would also take multiple years to sort out all 
the consequences (good and bad) to precipitation, sea ice, etc. Some of 
the known negative consequences from this type of geoengineering would 
be evident quickly (e.g. impact on concentrations of ozone in the 
stratosphere, changes in the amount of direct sunlight useful for solar 
power concentrators, and other consequences discussed in Rasch et al, 
2008 and Robock 2009). Some effects, like those on ecosystems, might 
take more years to manifest. I don't think anyone has yet looked at 
impacts on ecosystems.
    How would we do the deployment? This geoengineering strategy would 
require deploying the particle source year after year, for as long as 
society wanted to produce a cooling. Aerosols introduced in the 
stratosphere will gradually mix into other layers in the atmosphere as 
they are blown around by winds or as gravity draws them into lower 
layers where they are rapidly removed. Aerosols in the stratosphere 
tend to last about a year before being removed (shorter near the poles 
where the aerosols get flushed out faster, and longer near the 
equator). One strategy is to deploy the source near the equator, and 
allow the particles to spread as a thin layer over the whole globe 
(this is roughly how things worked for Pinatubo). This would apply a 
cooling that is relatively uniform over the globe. Model studies 
usually assume that the source would be introduced steadily near the 
equator over the course of a year. Another strategy might be to produce 
the particles only near the poles during the spring, and let them get 
flushed out over the course of a summer (because they are flushed out 
faster near the pole). While the aerosols are located above the poles, 
they would shield the sea ice to keep the poles cooler in summer, and 
then allow the aerosols to disappear during winter when there is no 
sunlight at the poles anyway. Robock (2009) has shown that the 
particles actually spread and produce a cooling beyond the Polar 
Regions.
    An important issue to note is that will be substantial difficulties 
in evaluating this geoengineering strategy without full deployment. 
This makes it difficult to improve our understanding slowly and 
carefully using field experiments that do not change the Earth's 
climate. The issue is this. We know from volcanic eruptions that 
stratospheric aerosols reside at these high altitudes for long periods 
of time (months to a year or so), and over that time, no matter where 
the aerosols are initially produced, they will spread to cover quite a 
bit of a hemisphere. We also know stratospheric aerosols develop 
differently if a source is introduced where aerosols already exist 
compared to the way they would form if there are only a few aerosols 
around. A fully implemented geoengineering solution would require that 
the aerosols cover a very large area of the globe with high 
concentrations. So it is important that we study the aerosols in an 
environment where they exist in high concentrations.
    But to avoid introducing a large perturbation to the atmosphere 
with consequences to the Earth's climate during exploratory tests it 
would be desirable to start by introducing the aerosol over a very 
small patch of the earth. However if one started with a small patch of 
aerosol, then it will mix with the rest of the atmosphere and dilute 
quite rapidly, and we do not expect the aerosol to evolve in the same 
way when the particles are dilute, as they would if there were a lot of 
them around. It will also be difficult to monitor their evolution if 
there aren't many of them around.
    So we are caught between rock and a hard place. Too small a field 
test, and it wont reveal all the subtleties of the way the aerosols 
will behave at full deployment. A bigger field test to identify the way 
the aerosols will behave when they are concentrated will have an effect 
on the planet's climate (like Pinatubo did), albeit for only a year or 
two. I have not seen a suggestion on how to avoid this issue.
    How long the direct and indirect impacts would persist: Model 
simulations, and observations of volcanic eruptions suggest that when 
the source is terminated, most of the aerosols would disappear in a 
year or two. Models suggest that the globally averaged temperature 
would respond by warming rapidly (over a decade or so) to the 
temperature similar to what would occur if no geoengineering had been 
done (Robock et al, 2008). The rapid transition to a warmer planet 
would probably be quite stressful to ecosystems and to society. There 
might be other longer timescale responses in the climate system (in 
Ecosystems (plant and animal life) because it takes many years for 
plants and animals to recover from a perturbation (think of a forest 
fire for example). Deep ocean circulations also respond very slowly, so 
it would take many years to influence them, and many years for them to 
recover. These effects have not been looked at in climate models and it 
is another area meriting scientific research.
    State of Research on geoengineering by stratospheric aerosols Here 
is a very brief overview of research has been taking place given the 
current ``shoestring budgets'':

        1.  Assessment, Integration: As mentioned above, the papers by 
        Lenton and Vaughan (2008), and the report of the Royal Society 
        (citation) provide some assessments of this strategy compared 
        to others. Those studies are already somewhat out of date, 
        given the additional information from studies over the last two 
        years.

        2.  Modeling: A number of papers have appeared in the 
        scientific literature exploring consequences of geoengineering 
        with stratospheric aerosols using global models. These studies 
        essentially frame the questions by assuming that it is possible 
        to deliver a source gas to the stratosphere, and that gas will 
        produce particles similar to the ones produced after the Mount 
        Pinatubo eruption. Then they proceed to ask questions like 
        ``What would be the effect of those aerosols on the Earth 
        System?'' using standard climate modeling techniques. The 
        community is beginning to transition from the first ``quick and 
        dirty look'' (e.g. Robock et al, 2008; Rasch et al, 2008). Each 
        modeling group that explored stratospheric aerosol 
        geoengineering did it a different way. Alan Robock has proposed 
        that modeling groups try to compare their stratospheric aerosol 
        geoengineering studies in a more systematic for the next IPCC 
        assessment. Only one group (Heckendorn) has tried to understand 
        the details of formation and aerosol size evolution, and they 
        used a model framework with a number of very significant 
        simplifications. It would be desirable to remove those 
        simplifications. It is also time to begin assessing the 
        evolution of the source of the aerosol from the time it is 
        delivered from an aircraft until it spreads to a larger volume 
        (like a few hundred km). Rasch et al (2008) revisited research 
        performed during the 1970s and 1980s to estimate the aerosol 
        formation and evolution after the source is released from an 
        aircraft.

        3.  Lab and Field Studies: I am not aware of any efforts to 
        conduct or plan lab or field studies to understand component 
        processes important for this kind of geoengineering.

        4.  Technology development: I am not aware of any efforts to 
        assess or develop technologies for producing the stratospheric 
        aerosols.

        5.  Deployment: There has been one study that tried to assess 
        the cost of just lifting various candidate compounds to the 
        needed altitude using existing technology (Robock et al, 2009). 
        There have been no studies yet published that explore what the 
        optimal source gas or liquid is, how it should be injected into 
        the atmosphere, or how to optimally deliver it. I know that 
        David Keith, who is also testifying here, has thought about 
        this, and he can do a better job briefing you on this activity 
        than I.

Cost estimates and recommendations for an improved research program for 
                    stratospheric Aerosols:

    A few $10s of Million per year funding for research would allow 
substantial theoretical progress in geoengineering research through 
modeling, and perhaps some proto-typing of instruments to produce the 
aerosol source, and specialized instruments for measurement. It might 
be sufficient for a field program every other year.

Here is an incomplete list of some of the tasks that should considered 
                    in terms of the topics the committee charged me 
                    with addressing: 1) Research, 2) Deployment, 3) 
                    Monitoring 4) Downscaling, cessation and necessary 
                    environmental remediation, and 5) Environmental 
                    impacts:

    1) Research: There are many opportunities for research. Here are a 
few ideas.

          Detailed Models

                a.  Systematic assessment of particle formation and 
                growth using size resolved aerosol models. Two 
                different kinds of models would probably be required: 
                1) A plume model to deal with the evolution of the 
                particles from source release to the point that the 
                plume has grown to maybe 10km in horizontal extent and 
                a few hundred meters in the vertical, 2) a size 
                resolved aerosol model to track the particle evolution 
                from 10km until the aerosol has been removed. 
                Investigator could be tasked with exploring whether one 
                would inject particles or a gas as a source, the 
                strategies for the temporal and spatial scales of 
                injection, and sensitive to the environment that the 
                source is injected (e.g. do the particles developed 
                differently if the air already contains aerosols).


          Global Models

                a.  Global models indicate a number of positive and 
                negative consequences to the planet from 
                geoengineering. The first ``quick and dirty'' 
                calculations described above produced different cooling 
                responses, and different precipitation responses in 
                different models. We don't yet know whether the 
                differences are due to model differences, or different 
                assumptions about emissions, particle size, etc. It 
                would be good to systematize studies of geoengineering 
                across multiple models to help in assessing uncertainty 
                about the effect of geoengineering.

                b.  We need to make sure that the global models are 
                producing similar pictures of aerosol formation, 
                coalescence and removal to the picture provided by the 
                detailed process models.

                c.  Very little work has been done in exploring 
                sensitivity to injection scenarios. For example we 
                don't know whether the geoengineering may have a 
                different impact if we produce the aerosol at a 
                constant rate over a year, or mimic a volcanic 
                injection every other year.

                d.  There has been no assessment of the impact of the 
                geoengineering aerosol on homogeneous nucleation of ice 
                clouds

                e.  There has been no exploration of how changes in how 
                geoengineering might affect ecosystems (plants and 
                animal health)

    2) Field testing and Deployment

                a.  How do we deliver the source to the region of 
                release? A variety of delivery mechanisms have been 
                proposed, but none have been tested, and no engineering 
                details have ever been developed to the point that 
                costs could be assessed.

                b.  Once we have a detailed idea of precisely what 
                source we want, can we produce that source?

                c.  Plan an exploratory field experiment to help 
                understand the formation and evolution of the particles 
                for the first few weeks. After injecting the source in 
                the stratosphere do particles form as models suggest? 
                How do we track the plume? What instruments are 
                required to measure the particle properties, the plume 
                extent, and the reduction in sunlight below the plume. 
                Do the particles coagulate and grow as our models 
                suggest? Do the particles mix and evolve the way our 
                models tell us they will (from source to the first 
                scale, and from the first scale to the globe scale?).

    3) Monitoring: We don't have much capability of monitoring the 
details of sulfate aerosol from space any more (we had better 
capability in the past before the NASA SAGE instrument died). This 
issue is documented in some of the contributions submitted by Allen 
Robock in the previous hearing. It would also be good to develop a 
``standing task force'' that was capable of monitoring the detailed 
evolution of the aerosol plume following a volcanic eruption. This 
would allow us to gain significant understanding of plume evolution 
without the need to produce a source for the aerosol.

    4) Downscaling, cessation, environmental remediation.

                a.  The only insight that we have about impacts of the 
                geoengineering by sulfate aerosols come from that 
                gained from the global climate model studies, and 
                seeing the impact of climate changing volcanic 
                eruptions. Both classes of studies suggest that if the 
                source for stratospheric aerosols was turned off, the 
                aerosols go away within a year or two, and the climate 
                returns to a state much like it was before the 
                stratospheric aerosols over a decade or so. The rapid 
                return of temperature to the ungeoengineered state 
                would probably produce significant stresses to society, 
                and ecosystems, but no studies have been done to 
                explore this.

    5) Environmental Impact: There are a variety of possible 
environmental consequences, which have been described in the studies by 
Rasch and Robock submitted at the last hearing. Among them are a) 
changes in the ratio of direct to diffuse sunlight, with possible 
impacts on ecosystem, and solar electricity generation; b) changes in 
precipitation patterns; c) changes in El Nino.

    Which U.S. Agencies might be involved: I can easily identify 
expertise and capability in the following agencies:

        1)  NASA (which has a long history of interest in particles and 
        chemistry at the relevant altitudes through its High Speed 
        Research Program and Atmospheric Effects of Aviation Programs, 
        as well as the capability of remote sensing of particles and 
        their radiative impact from space and the surface).

        2)  NSF (many university researchers can also contribute to the 
        same parts of the project that are mentioned for NASA).

        3)  There are individual research groups within DOE and NOAA 
        that could make important contributions to modeling, field 
        campaign and measurement programs.

How does marine cloud whitening achieve the necessary radiative 
                    forcing?

    The idea behind ``Solar Radiation Management'' by ``cloud 
whitening'' is to make clouds a bit ``whiter'' (a bit more reflective 
to sunlight) than they would otherwise be.
    Clouds are enormously important to the climate of the earth. 
Everyone has experienced the cooling that results on a hot summer 
afternoon when a cloud goes by overhead and shades the earth. This 
occurs because the cloud reflects the sunlight that would otherwise 
reach the surface and heat up the ground. Clear winter nights will 
frequently be much colder than a nearby night when the sky is overcast. 
This is because high clouds ``trap'' heat that would otherwise escape 
to space. So it is warmer when high ice clouds are around.
    These features of clouds acting to cool or warm the planet are 
(like the stratospheric aerosols) due to their impact on ``radiation'' 
(again loosely identified with ``energy'', or ``light'', or ``heat''). 
Low altitude liquid clouds tend to cool the planet more than they warm 
it. High altitude ice clouds also act to warm the planet, by trapping 
some of the energy that would otherwise escape to space. Scientists 
believe the low cloud effect wins out in terms of reflecting or 
trapping energy, and clouds as a whole tend to cool the planet more 
than they warm it.
    It is easy to find a few places on the planet where we know that 
mankind makes clouds ``whiter'' (by which I mean more reflective) 
because we see evidence for it in satellite pictures. These are the 
areas where ``ship tracks'' occur. In these special regions dramatic 
changes occur in cloud properties near where the ships go. Scientists 
believe that the clouds are whiter due to the aerosols emitted as 
pollution by the ships as they burn fuel. The extra aerosols in the 
clouds change the way the cloud develops, and this makes it whiter, as 
I describe below.
    All clouds are influenced by (both man-made and natural) aerosols. 
Every cloud drop has an aerosol embedded in it. Cloud drops always form 
around aerosols. The way that aerosols interact with a cloud is 
determined by the size and chemical composition of the aerosol, and by 
the cloud type. To make an extreme simplification of a very complex 
process, the general idea of geoengineering a cloud goes like this. If 
one introduces extra aerosol into a region where a cloud is going to 
form, then when the cloud forms, there will be more cloud drops in it 
than there would otherwise have been. The term ``seeding'' has been 
introduced to describe the process of introducing extra aerosols into 
an area. It ends up that if cloud has more drops in it, then it tends 
to be whiter than if it had fewer drops. Again, this is a 
simplification. The whiteness also has to do with the size of each 
cloud drop, and how it changes the way that the cloud precipitates, but 
I am trying to keep the discussion short.
    It is possible to demonstrate the whitening effect by aerosols for 
many cloud types over many regions, but the effect is most dramatic in 
the clouds that form in ship tracks.
    The whiteness of a cloud is influenced by many factors. Aerosols 
are critical but certainly not the only important factor influencing a 
cloud. One type of cloud (for example midlatitude storm clouds seen in 
Washington in January) will respond differently to aerosol changes than 
another cloud type (for example the marine stratocumulus seen off the 
coast of California).
    The whitening phenomenon is believed to occur in many cloud 
systems, but the effect may be most important in marine clouds near the 
Earth's surface. Also clouds generally become more important in 
reflecting sunlight over oceans because the ocean surface reflects less 
sunlight than the land or snow even without clouds, so putting a bright 
cloud over oceans cools the Earth more than if you put the same bright 
cloud over already bright land or ice.
    Scientists have speculated that geoengineering could be performed 
by whitening many clouds over oceans deliberately, rather than 
whitening a few of them accidently as we do today with ``ship tracks''. 
The idea is to introduce tiny particles made of sea salt into the air 
near where clouds might form, rather than the pollution particles 
produced by freighters, and to do it in a lot more places in a 
controlled and efficient way. Scientists think this seeding might make 
the clouds whiter, and thus make the planet reflect more sunlight, and 
become cooler.
    Conceptually, the idea is quite simple, but realistically many 
complications come into play. Clouds are enormously complex features of 
the atmosphere. While we know a lot about the physics of clouds, we 
aren't good at representing their effects precisely. One of the most 
complex and uncertain aspects of clouds is in understanding and 
predicting how clouds interact with aerosols (the so called ``Aerosol 
Indirect Effect''). This complexity is well described in the Fourth 
Assessment by the Intergovernmental Panel in Climate Change (AR4, 
2007). While we know that there are situations where additional aerosol 
will make a cloud whiter, we also believe there are situations where 
putting extra aerosol into a cloud will make little or no difference.
    The idea behind cloud whitening as a geoengineering strategy is 
thoroughly described in a review paper by Latham (2008). Some hints 
about the complexities associated with changing cloud properties can be 
found in the papers by Wang et al (2009a, b). Some of the difficulties 
in treating aerosol cloud interaction are discussed in the paper by 
Latham et al (2008), and the papers cited there. A very recent review 
of the reasons why aerosol cloud interactions are so difficult to treat 
in models can be found in Stevens and Feingold (2009). Some preliminary 
scoping work has been done to consider how one might design a field 
experiment to explore changing the reflectivity of a cloud. This is 
discussed below.
    One very attractive consequence of doing a limited field test of 
whitening clouds by geoengineering is that it provides an opportunity 
to get a fundamental handle on the ``Aerosol Indirect Effect''. Trying 
to whiten a cloud, or a cloud system, is a fundamental test of our 
understanding of how a particular cloud type works, and of the ways in 
which clouds and aerosols interact. Because the Aerosol Indirect Effect 
is one of the critical and outstanding questions in climate change, 
doing that kind of field experiment would be of incredible value.
    Scale and amount of materials needed: Latham et al (2008) and 
Salter et al (2008) have estimate that the total amount of aerosol that 
needs to be pumped into that atmosphere is about 30 m3 per second. They 
estimate that it might require X ships deployed over a large area 
(perhaps as much as 30% of the ocean surface) to distribute that sea.
    Over what time period would deployment need to take place and how 
would we do the deployment? One interesting and important difference 
between geoengineering using stratospheric aerosols, and geoengineering 
using cloud whitening is that the very short lifetime of clouds and 
aerosols near the surface (of a few days or less) means that if one is 
able to change clouds the changes will be local, and it should be 
possible to ``turn on'' and ``turn off' the changes in reflectivity of 
the clouds very quickly (on the time scale of a few days).
    There is a lot of variability in clouds, and scientists considering 
geoengineering by cloud whitening don't expect to change clouds as 
dramatically as a ship track does. The changes will be subtle and some 
care will be required to ``detect'' the change in clouds.
    The fact that the response by clouds to the aerosols is immediate 
and local is good and bad. The positive aspect is that a meaningful 
experiment can be designed to try to change clouds in a small region 
for a short time. Since one can restrict the experiment this way it is 
possible to be very confident that a small test would have no 
discernable effect on the Earth's climate, but it would be a meaningful 
test. (I have indicated that this is a difficult for Stratospheric 
Aerosol Geoengineering). One could imagine trying field experiment at 
successive locations to see whether it was possible to change 
particular types of cloud to gain knowledge and experience about cloud, 
aerosols, and cloud whitening. This means that designing a program to 
explore the cloud whitening concept and examine the impact on clouds in 
an incremental fashion is much easier than doing it with stratospheric 
aerosols.
    With either the stratospheric aerosol strategy, or the cloud 
whitening strategy the goal is to reduce the amount of sunlight 
reaching the Earth's surface a bit. If the strategy spreads out the 
shading over a large area (as done with the stratospheric aerosol 
strategy) then it is not necessary to make much change in sunlight 
reaching the surface anywhere. If the strategy concentrates the changes 
over smaller areas (as done with the cloud brightening strategy) then 
the change in sunlight reaching the surface will be larger at those 
locations. So geoengineering by cloud whitening is likely to introduce 
stronger effects locally than would be seen in the stratospheric 
aerosols.
    If it does prove possible to deliberately change the whiteness of a 
cloud system, then it would be possible to ramp up the activity, 
increasing the ocean area and the duration of time that the cloud 
systems are affected to the point that the Earth's climate should be 
influenced. Obviously larger and larger communities of stakeholders 
would need to be involved as scope of the project increased.
    If changing the cloud forcing was effective and it was ramped up to 
the point that it is influencing the climate then other issues must be 
considered. It ends up that the local changes in cooling patterns are 
likely to set up stronger responses in weather and ocean currents than 
the broader and weaker patterns seen with the stratospheric aerosols. 
Also, it is the case that the clouds that are believed to be most 
easily influenced by the cloud whitening reside in the subtropics, so 
the reduction in the amount of sunlight reaching the surface will tend 
to be strongest in those regions. Since the atmosphere and ocean 
distribute the heating and cooling through winds and currents the 
effect will eventually be distributed over the globe, but the 
difference in the weather or precipitation for example may still be 
more evident in the cloud whitening than the stratospheric aerosol 
strategy.
    However, there are many processes in the Earth System that would 
take much longer to respond (with timescales of weeks, months, and 
years). If society were to ``turn on'' cloud whitening globally we 
would probably see noticeable effects on surface temperature within a 
couple years. We might also see any negative consequences (e.g. changes 
in some major precipitation systems, if those changes were to occur) 
within a few years, although it would take a number of years to feel 
confident in documenting the positive or negative changes in climate 
(as also seen with stratospheric aerosol geoengineering).
    How long the direct and indirect impacts would persist: As far as I 
know, no one has explored the response of the Earth system if 
geoengineering by sea salt aerosols were terminated in a climate model, 
and there are no natural analogues like there are with stratospheric 
aerosols and volcanoes. I expect that after terminating the source for 
the aerosols, the aerosols perturbations would disappear over a few 
days. Like the stratospheric aerosols, I would expect after removal of 
the geoengineering forcing to see a rapid return (on the timescale of a 
decade or so) to the globally averaged temperature similar to a world 
experiencing only high concentrations of greenhouse gases. Again, there 
will probably be longer timescale responses in the Earth System of a 
more subtle nature (for example some ocean circulations will take years 
to respond, and there could be long term responses in ecosystems). As 
with the stratospheric aerosol strategy, these issues should be 
explored.
    State of Research on geoengineering by cloud whitening. Here is a 
very brief overview of recent research with the current ``shoestring 
budgets'':

        1.  Assessment, Integration: The report of the Royal Society 
        (2009) provides some assessments of this strategy compared to 
        others.

        2.  Modeling:

          Global Models

                a.  A number of papers have appeared in the scientific 
                literature exploring consequences of geoengineering 
                with cloud whitening using global models (Rasch et al 
                2009; Jones et al 2008). These studies essentially 
                frame the questions by assuming that it is possible to 
                control the number of drops in a cloud system 
                perfectly. Then they proceed to ask questions like 
                ``what would the effect be of those cloud changes on 
                the Earth System'' using standard climate modeling 
                techniques. The community is beginning to transition 
                from the first ``quick and dirty look'' to a more 
                thorough exploration of the subtleties of the strategy 
                (e.g. Korhonen et al, 2010) although that study still 
                employed some significant simplifications compared to 
                the state of the art in aerosol and climate modeling.

                b.  Each modeling group that has explored cloud 
                whitening geoengineering has assumed different ways of 
                producing cloud changes, and introduced those changes 
                at different longitudes and latitudes, and made 
                different assumptions about greenhouse gas 
                concentrations changes. There have been no attempts yet 
                to systematize these scenarios and explore variations 
                on them.

          Process Models

                a.  There has been some recent work with Large Eddy 
                Simulation studies on ship tracks by Wang (2009)

    3. Lab and Field Studies: No recent field studies have been done 
with cloud whitening. In 2008 a field experiment called VOCALS took 
place to study clouds and cloud aerosols interactions off the coast of 
Peru and Chile. This field experiment had no geoengineering component 
to it but the clouds systems in that region are of the type relevant to 
geoengineering, and the range of techniques and measurement strategies 
involved were very similar to those required for a limited-area field 
test of cloud whitening, and it could be used to estimate costs for 
limited field testing. There have been earlier field studies to measure 
cloud changes following ship tracks (for example, MAST, the Monterey 
Ship Track experiment), and I believe another similar study is being 
planned by B. Albrecht and J. Seinfeld.
    4. Technology Development: Some exploratory work in developing 
spray generators to produce the appropriately sized sea salt particles 
for seeding the clouds has been done in two groups, one led by Armand 
Neukermans in California, and another led by Dan Hirleman at Purdue.
    5. Deployment: I don't think we are ready to address this issue
    6. Interactions with other communities: I don't have the expertise 
to provide guidance on this issue, but I am interested.

Cost estimates and recommendations for an improved research program for 
                    cloud whitening.

    I see three logical phases to research in exploring cloud 
whitening. I believe only the first phase should be considered at this 
time. The others require much more discussion, governance, and 
involvement by national and international stakeholders and planning.

        <bullet>  Phase 1: Using Models, and extremely limited field 
        experiments where there is no chance of significantly effecting 
        to the climate to determine whether it is actually possible to 
        whiten clouds in a predictable, controlled manner. Are there 
        changes to other cloud properties (for example, cloud 
        precipitation, cloud height, cloud thickness)

        <bullet>  Phase 2: Enlarge the scope of the geoengineering 
        research and consider the consequences if we were to whiten 
        cloud for long enough that it might actually make a difference 
        to local climate. Look at the consequences to the local 
        environment on short time scales (like less than a week). These 
        consequence might matter to people, but they would be small 
        compared to the kind of ways we already perturb the climate 
        system (like the forest fires in Borneo, a Pinatubo, etc)

        <bullet>  Phase 3: Full scale deployment.

    Again, progress would be increased immediately by funding and 
attention for all of these activities. If the cloud whitening actually 
proves successful during the smallest scale tests then the deployment 
issues become important, and a second phase of research and development 
become necessary.
    For the initial exploratory phase, $10 Million per year funding for 
research would allow substantial theoretical progress in geoengineering 
research through modeling, and perhaps some proto-typing of instruments 
to produce the aerosol source, and specialized instruments for 
measurement.
    The 2008 VOCAL field campaign might serve as a reasonable estimate 
of the cost of a first class one-time field experiment with a focus on 
aerosol cloud interaction in the right kind of cloud system. That field 
experiment cost over $20 Million.
    Thus, a strong initial effort to study cloud whitening might well 
be funded at $20-$25 million per year, assuming a field study every 2-3 
years.
    Here is an incomplete list of some of the tasks that should be 
considered in terms of the topics the committee charged me with 
addressing: 1) Research, 2) Deployment, 3) Monitoring 4) Downscaling, 
cessation and necessary environmental remediation, and 5) Environmental 
impacts:

    1. Theoretical Research and Technology development:

          Process Models

                a.  The first studies by Wang (2009) using ``Large Eddy 
                Simulation'' model for ship track research should be 
                extended to explore the problem from a geoengineering 
                point of view. Investigators could be tasked with 
                exploring how to optimize the injection of the aerosols 
                (how many ships per cloud region, whether it makes a 
                difference if the cloud system has already formed or is 
                expected to form soon, sensitivity to diurnal cycle of 
                boundary layer clouds, sensitivity to levels of 
                background aerosol (pollution levels). This would 
                require simulations over larger domain, longer time 
                frames, different cloud regimes, perhaps with more 
                complex formulations of cloud and aerosol microphysics.

                b.  Very high resolution modeling studies should be 
                performed of the evolution of the aerosol particles as 
                they are emitted from the seed generator until they 
                enter a cloud.

          Global Models

                a.  Make emission scenarios uniform across multiple 
                models

                b.  Impact on precipitation
                c.  Make sure models are consistent with the picture 
                provided by the detailed models


          Technology Development

                d.  We need to develop equipment that is capable of 
                producing the aerosols that will be used to seed the 
                clouds.

    2. Deployment: The knowledge and technology are not yet at a stage 
where deployment should be considered. The research program will change 
completely if research indicates it is possible to whiten clouds in a 
controllable and reproducible way.
    3. Monitoring: During the first phase, while trying to establish 
whether cloud whitening is viable; monitoring should be consider part 
of the field campaign. The picture will change completely if deployment 
becomes viable and much more work is required to scope out a monitoring 
activity.

    4. Downscaling, cessation, environmental remediation.

                a.  During phase 1 there should be no impact on the 
                climate.

                b.  If a geoengineering solution were to be deployed, 
                The only guidance we would have on this is research 
                from global climate models. There are no analogues that 
                come to mind in nature for cessation of geoengineering 
                by cloud whitening. My suspicion is that climate models 
                would show a recovery quite similar to that discussed 
                in the section on stratospheric aerosols. This kind of 
                study should be performed.

    5. Environmental Impact: Because geoengineering has the potential 
for affecting precipitation patterns, and major circulation features 
like ENSO and monsoons, there are many ways in which it can have an 
environmental impact, with consequences to society and ecosystems. This 
issue will be very important in a ``Manhattan'' level activity if phase 
1 research ever succeeds and deployment is seriously considered.
    Which U.S. Agencies might be involved: NASA, NSF, DOE and NOAA all 
have relevant responsibilities and expertise for the Phase 1 
activities.

Closing Remarks:

    Thank you for asking me to testify. I have tried to respond to you 
questions, and provide some of the answers, although I think that 
science does not know enough to answer completely.
    I would like to leave you with a few take home messages.

        1.  I recognize that geoengineering is a very controversial and 
        complex subject, and that there are many issues associated with 
        it of concern to scientists and society. It can, for example, 
        be viewed as a distraction, or an excuse to avoid dealing with 
        greenhouse gas emissions. Scientists interested in 
        geoengineering want to be responsible and transparent. We care 
        about doing the science right, and in a responsible way. We 
        believe that our energy system transformation is proceeding too 
        slowly to avoid the risk of dangerous climate change from 
        greenhouse gases, and that there has been little societal 
        response to the scientific consensus that reductions must take 
        place soon to avoid the risk of large and undesirable impacts.

        2.  Geoengineering should be viewed as a choice of last resort, 
        It is much safer for the planet to reduce greenhouse gas 
        emissions. Geoengineering would be a gamble. Just as there are 
        many uncertainties associated with predicting the kind of 
        changes to our climate from increasing greenhouse gases, there 
        will be similar uncertainties to predicting the changes from 
        geoengineering.

        3.  Current Climate models indicate that geoengineering would 
        cool the planet and compensate for some, but not all of the 
        consequences of increased greenhouse gases.

        4.  I don't think scientists know enough today about 
        consequences of geoengineering to climate, and so I don't think 
        we are ready for ``deployment''. Before anyone should consider 
        full-scale deployment of a geoengineering strategy, lots of 
        basic work (what I call phase 1 research) could be done to lay 
        the groundwork for deployment. The basic work will help in 
        eliminating unsuitable strategies, in identifying important 
        issues to hone in on, to help us revise strategies to make them 
        more suitable for deployment, and in some cases could help in 
        revealing fundamental information critical for understanding 
        climate change (I am thinking about information about the 
        ``Aerosol Indirect Effect'' when I refer to the issue of 
        critical understanding).

        5.  Right now, less than $1 million per year is spent on 
        geoengineering research in the US. A viable research activity 
        with a chance of making rapid, solid progress including field 
        studies would probably require $20-40 million per year for 
        either program.

        6.  I believe that if phase 1 research does come up with a 
        promising strategy for geoengineering, and deployment is 
        seriously considered, that the level of scrutiny and level of 
        funding must increase very sharply to a level similar to that 
        of a ``Manhattan Project''. Such a project would need to 
        consider many issues beyond the physical sciences.

References:

Bower, K. N., Choularton, T. W., Latham, J., Sahraei, J. & Salter, S. 
        H. 2006 Computational assessment of a proposed technique for 
        global warming mitigation via albedo enhancement of marine 
        stratocumulus clouds. Atmos. Res. 82, 328-336. (doi:10.1016/
        j.atmosres.2 005.11.013)

Crutzen, P. (2006), Albedo enhancement by stratospheric sulfur 
        injections: A contribution to resolve a policy dilemma?, Clim. 
        Change, 77, 211-219, doi:10.1007/s10584-006-9101-y.

Heckendorn, P, D Weisenstein, S Fueglistaler, B P Luo, E Rozanov, M 
        Schrane, L W Thomason and T Peter 2009, The impact of 
        geoengineering aerosols on stratospheric temperature and ozone 
        Environ. Res. Letts. 4, 045108,

Korhonen, H, K. S. Carslaw, and S. Romakkaniemi, 2010, Enhancement of 
        marine cloud albedo via controlled sea spray injections: a 
        global model study of the influence of emission rates, 
        microphysics and transport, Atmos. Chem. Phys. Discuss. 10, 
        735-761, doi:10.1088/1748-9326/4/4/045108

Latham J, Rasch P J, Chen C-C, Kettles L, Gadian A, Gettelman A, 
        Morrison H, Bower K and Choularton T W, 2008 Global temperature 
        stabilization via controlled albedo enhancement of low-level 
        maritime clouds Phil. Trans. R. Soc. A 366 3969-87

Lenton, TM, and Vaughan, NE: 2009, The radiative forcing potential of 
        different climate geongineering options. Atmospheric Chemistry 
        and Physics Discussion 9, 2559-2608.

Rasch, P. J., et al. (2008a), An overview of geoengineering of climate 
        using stratospheric sulphate aerosols, Philos. Trans. R. Soc. 
        A, 366, 4007-4037, doi:10.1098/rsta.2008.0131

Rasch, PJ, J. Latham and C-C Chen, 2009, Geoengineering by cloud 
        seeding: influence on sea ice and climate system, Env. Res. 
        Letts, 4 (2009) 045112 (8pp) doi:10.1088/1748-9326/4/4/045112

Robock, A, 2009, Benefits, Risks, and Costs of Stratospheric 
        Geoengineering, Geophysical Research Letters, vol. 36, L19703, 
        doi:10.1029/2009GL039209,

Robock, A., L. Oman, and G. Stenchikov (2008), Regional climate 
        responses to geoengineering with tropical and Arctic SO<INF>2</INF> 
        injections, J. Geophys. Res., 113, D16101, doi:10.1029/
        2008JD010050.

Royal Society, 2009. Geoengineering: the climate science, governance 
        and uncertainty. Report 10/09, ISBN: 978-0.85403-773-5., 82pp.

Salter, S., Sortino, G. & Latham, J. 2009. Sea-going hardware for the 
        cloud albedo method of reversing global warming. Phil. Trans. 
        R. Soc. A 366. (doi:10.1098/rsta.2008.0136)

Steven, B., and G. Feingold, 2009, Untangling aerosol effects on clouds 
        and precipitation in a buffered system. Nature, 461, 
        doi:10.1038.

Wang, H-L and G. Feingold, 2009, Modeling Mesoscale Cellular Structures 
        and Drizzle in Marine Stratocumulus. Part II: The Microphysics 
        and Dynamics of the Boundary Region between Open and Closed 
        Cells. Journal of the atmospheric sciences, vol. 66, no11, pp. 
        3257-3275
                       Biography for Philip Rasch
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Dr. Philip Rasch serves as the Chief Scientist for Climate Science 
at the Pacific Northwest National Laboratory (PNNL), a Department of 
Energy Office of Science research laboratory. In his advisory role, he 
provides leadership and direction to PNNL's Atmospheric Sciences and 
Global Change (ASGC) Division. The Division conducts research on the 
long-term impact of human activities on climate and natural resources 
using a research strategy that starts with measurements and carries 
that information into models, with a goal of improving the nation's 
ability to predict climate change.
    Dr. Rasch provides oversight to more than 90 researchers who lead 
and contribute to programs within a number of government agencies and 
industry. These programs focus on climate, aerosol and cloud physics; 
global and regional scale modeling; integrated assessment of global 
change; and complex regional meteorology and chemistry.
    Dr. Rasch received a Bachelor Degree in Atmospheric Science and 
another in Chemistry from the University of Washington in 1976. He then 
moved to Florida State University for a Master of Science in 
Meteorology. He went to the National Center for Atmospheric Research 
(NCAR) in Boulder, Colorado as an Advanced Study Program (ASP) Graduate 
Fellow to complete his PhD (which was also awarded from Florida State 
University). Following his PhD, Rasch remained at NCAR, first as ASP 
Postdoctoral Fellow, and then as a scientist where he worked in various 
positions. He joined PNNL in 2008. Rasch also holds an adjunct position 
at the University of Colorado and is an Affiliate Professor in the 
Department of Atmospheric Science at the University of Washington.
    Dr. Rasch is internationally known for his work in general 
circulation, atmospheric chemistry, and climate modeling. He is 
particularly interested in the role of aerosols and clouds in the 
atmosphere, and has worked on the processes that describe these 
components of the atmosphere, the computational details that are needed 
to describe them in computer models, and on their impact on climate. 
For the last five years, he helped to lead the technical development 
team for the next generation of the atmospheric component of the 
Community Climate System Model Project, one of the major climate 
modeling activities in the United States. He also studies 
geoengineering, or the intentional manipulation of the atmosphere to 
counteract global warming.
    Dr. Rasch was a chair of the International Global Atmospheric 
Chemistry Program (IGAC, 20042008), and participates on the steering 
and scientific committees of a number of international scientific 
bodies. He was named a fellow of the American Association for the 
Advancement of Science, recognized for his contributions to climate 
modeling and connecting cloud formation, atmospheric chemistry and 
climate. He has contributed to scientific assessments for the World 
Meteorological Organization, NASA and the Intergovernmental Panel on 
Climate Change.

    Chairman Baird. Thank you, Dr. Rasch.
    Dr. Lackner.

 STATEMENTS OF DR. KLAUS LACKNER, DEPARTMENT CHAIR, EARTH AND 
     ENVIRONMENTAL ENGINEERING, EWING WORZEL PROFESSOR OF 
                GEOPHYSICS, COLUMBIA UNIVERSITY

    Dr. Lackner. Chairman Baird, Mr. Inglis, Members of the 
Committee, thank you for inviting me. I am delighted to be 
here. It is a great honor.
    I was a little bit puzzled though to start with why I would 
think of this, what I do, air capture and mineral sequestration 
as geoengineering. But then I started on reflection to think 
well, we have to stabilize the CO<INF>2</INF> in the atmosphere 
against 30 billion tons or more in the future of CO<INF>2</INF> 
emissions. That, by anybody's scale, would be considered 
geoengineering, and in my view, we will have to stabilize 
carbon dioxide in the atmosphere sooner or later, and it 
doesn't really matter whether we manage to do it right away or 
whether we fail and it takes a longer time and we stabilize at 
a higher level. As we reach stabilization, we have to balance 
out all emissions. We have to go to a net zero carbon economy, 
and I focus on capture and storage_these are capture and 
storage options_because I firmly believe that we have to solve 
the problem directly and not just mask the symptoms. We may 
have to do that for a short time but ultimately one has to 
solve the problem, which means managing that all the carbon 
which goes out is balanced against something else.
    That means in turn we need comprehensive solutions for 
carbon capture and storage, and I would put air capture and 
mineral sequestration into that larger category. I would argue 
that carbon capture and storage has to be more comprehensive 
than just power plants, and we have to have the ability to 
store carbon anywhere and at the requisite scale because we 
have the ability to put out one or two Lake Michigans in terms 
of mass of CO<INF>2</INF> over the next century. We better find 
a way to put all of this away, and this is where in my view 
mineral sequestration comes in as an important part.
    Let me begin briefly with the air capture and storage, and 
I would argue what makes this so nice is it separates the 
sources from the sinks. One of the side effects is, you will 
actually get a group of players who want to solve the problem 
and not just get dragged in because they must solve the 
problem. I think that is important, but most importantly, it 
allows us to rely on the future on liquid fuels. These fuels 
could come from oil, they could come from coal, they could come 
ultimately from biomass or from synthetically made processes 
which started with CO<INF>2</INF> in the first place and 
renewable energy, but whatever liquid fuel you had and burned 
in an airplane or a car will go into the atmosphere and will 
have to be taken back. Ultimately, CO<INF>2</INF> capture from 
the air allows you to reduce CO<INF>2</INF> levels in the air 
back down, and that makes it important.
    The basic idea of the technology is actually quite simple. 
You can do it in a high school experiment. As a matter of fact, 
my daughter did just that. Really, the issue is cost and 
scaling. You have to build collectors, and what we found out, 
they are actually surprisingly small, and you then move them up 
to larger and larger scales. What we are working on right now 
is an attempt to go to roughly one-ton-a-day units, and I can 
show you here what we can do in the laboratory right now. This 
actually is sort of a synthetic pine branch, as people talk 
about it, as CO<INF>2</INF> capture devices. This guy is loaded 
with CO<INF>2</INF> because he has been in my briefcase all 
day, and he picked up the CO<INF>2</INF> while we were coming 
down here.
    Ultimately, we have to get the large scale of one ton a 
day. These units as they are mass-produced would be like cars. 
You would need 10 million to make a real dent in the 
CO<INF>2</INF>, 10 million of those, maybe 100 million if you 
wanted to solve the problem exclusively, but keep in mind, in 
order to have 10 million units running, you would need one 
million production a year, which is a tiny fraction of the 
world car production. Cars and light trucks add to roughly 750 
million. Ultimately, it comes down to cost. We are predicting 
that once it is mass-produced, it would operate at about 25 
cents per each gallon of gasoline, and that is the price for 
cleaning up climate and cleaning up after yourself.
    Ultimately, let me say a few words about mineral 
sequestration. I view that as carbon storage version 2.0. It is 
bigger in scope. It can literally deal with all the carbon we 
ever have. It is definitely permanent. There is no question. It 
doesn't require monitoring because you did take the geological 
weathering cycle and you accelerated it artificially, and once 
you have done that, there is no way back. So you can break it 
into xenon tube where you mine the rock and then process it, 
which turns out is big, but is no bigger than coal-mining 
operations we have to produce the coal which produces the 
CO<INF>2</INF>. And ultimately you also have in situ. I am 
involved in a project in Iceland where we put CO<INF>2</INF> 
underground for forming carbonates under ground, and the nice 
feature there is, you can come back in 25 years and say it 
actually is permanently stored. Monitoring beyond that time is 
not necessary.
    The challenge here in my view is cost. We are roughly five 
times more expensive then we should be at this point, in my 
view, and I think that is an R&D challenge. If I look at the 
other sources of energy, I would argue a factor two is well 
within what can be done.
    So to me, air capture and mineral sequestration provide a 
comprehensive solution. Under that umbrella will be better 
specific solutions. It makes no sense to not scrub a power 
plant and then go after it from the air. But I believe we 
ultimately have a big challenge that the energy infrastructure 
of the year 2050 is not yet understood, and I think therefore I 
have a can-do attitude, but you can only do by doing and you 
can only learn by doing and you have to do the research to make 
it happen. Energy is so central to our well-being that I think 
we should not take the risk of not knowing what to do in 50 
years from now and put a reasonable large-scale research effort 
behind this. I thank you for your attention.
    [The prepared statement of Dr. Lackner follows:]
                  Prepared Statement of Klaus Lackner

Air Capture and Mineral Sequestration

Tools for Fighting Climate Change

Summary

    Thank you for giving me the opportunity to express my views on air 
capture and mineral sequestration, two of the technologies that are 
included in this hearing as geoengineering approaches to climate 
change.
    Together, air capture and mineral sequestration provide a 
comprehensive solution to combat climate change. Capturing carbon 
dioxide from the air and storing it safely and permanently as solid 
mineral carbonate provides a way to maintain access to plentiful and 
affordable energy, while stabilizing the carbon dioxide concentration 
in the atmosphere. Abandoning fossil fuels would seriously affect 
energy security. On the other hand, the continued emission of carbon 
dioxide would have harmful consequences for climate, oceans, and 
ecosystems. Air capture can extract unwanted carbon from the 
atmosphere, and mineral sequestration can provide a virtually unlimited 
and safe reservoir for the permanent storage of excess carbon.

Introduction

    Stabilizing the concentration of carbon dioxide in the air requires 
reducing carbon dioxide emissions to nearly zero. Think of pouring 
water into a cup; as long as you pour water into the cup, the water 
level in the cup goes up. It does not matter whether the maximum level 
is one inch below the rim or one and half inches below the rim. In 
either case, you will eventually have to stop pouring.
    Stopping or nearly stopping carbon dioxide emissions cannot be 
achieved with energy efficiency and conservation alone. These steps 
will slow the rate of increase but will not prevent us from eventually 
reaching the top of the glass, so to speak. Unfortunately, there are 
only a few choices for energy resources big enough to satisfy future 
world energy demand. Solar, nuclear and fossil energy are the only 
resources large enough to let a growing world population achieve a 
standard of living that we take for granted in the United States. 
Eliminating fossil fuels from the mix could precipitate a major energy 
crisis. Thus, it is critical for us to maintain all options by 
developing technologies that allow for the use of carbon-based fuels 
without leading to the accumulation of carbon dioxide in the 
atmosphere.\1\
---------------------------------------------------------------------------
    \1\ For a more detailed discussion see Lackner, K. S. (2010), 
Comparative Impacts of Fossil Fuels and Alternative Energy Sources, in 
Issues in Environmental Science and Technology: Carbon Capture, 
Sequestration and Storage, edited by R. E. Hester, and R.M. Harrison, 
pp. 1-40.
---------------------------------------------------------------------------
    The goal of a perfectly carbon neutral energy economy is only a 
slight exaggeration of what is needed; only a small and ever decreasing 
per capita rate of emissions is compatible with a constant 
concentration of carbon dioxide in the atmosphere. For the developed 
countries, this means reductions in the carbon intensity of their 
energy systems by much more than 90% by some point in this century. 
Without such reductions, the world would have to settle for far less 
energy, or an uncontrolled rise in the carbon dioxide concentration of 
the atmosphere. This is true whether the world succeeds in stabilizing 
the carbon dioxide concentration in the air at the currently suggested 
level of 450 ppm, or fails and ends up stabilizing at a much higher 
level some decades later. In my view, a transition to a carbon neutral 
economy is unavoidable. The question is only how fast we will be able 
to stabilize the carbon dioxide level in the atmosphere, and what pain 
and what risk the world will accept in exchange for a less rapid 
transition.
    Capture of carbon dioxide from the air and mineral carbonate 
sequestration are two important tools in stabilizing carbon dioxide 
concentrations without giving up on carbon-rich energy sources and 
carbon-rich fuels like gasoline, diesel, or jet fuel. While this 
committee is considering air capture and mineral sequestration in the 
context of geoengineering, these technologies are very different from 
other geoengineering approaches like albedo engineering or ocean 
fertilization technologies. They involve far less risk, because they do 
not attempt to change the dynamics of the climate system, but simply 
return it to a previous state. Air capture and mineral sequestration 
simply work towards restoring the carbon balance of the planet that has 
been disturbed by the massive mobilization of fossil carbon. Their 
purpose is to capture the carbon that has been mobilized and to 
immobilize it again. Because they function within the existing carbon 
cycle, they also have far fewer unintended consequences than many other 
geoengineering approaches.
    Air capture removes carbon dioxide directly from the air. It 
therefore can compensate for any emission, even emissions that happened 
in the past. We could theoretically reduce the atmospheric level of 
carbon dioxide to the pre-industrial level (280 ppm) while continuing 
to use fossil fuels. Mineral sequestration closes the natural 
geological carbon cycle and immobilizes carbon dioxide by forming 
stable and benign minerals. Both technologies fall into the broader 
category of carbon dioxide capture and storage. Among these 
technologies, they stand out because they are comprehensive. Air 
capture could cope with all carbon dioxide emissions; mineral 
sequestration could store all the carbon that is available in fossil 
fuels.
    Without carbon dioxide capture and storage, the only way to 
stabilize the carbon dioxide concentration of the atmosphere is to 
abandon coal, oil and natural gas. As previously discussed, this option 
is, in my opinion, not viable or practical. Carbon dioxide capture and 
storage technology offers a way to maintain access to this plentiful 
and cost-effective energy source, while addressing the biggest 
environmental downside associated with their use.
    In my view, carbon dioxide capture and storage pose two major 
challenges: how to catch the ``fugitive'' emissions that are not 
amenable to capture at the source of emission and how to deal with the 
vast amounts of carbon dioxide that will need to be stored safely and 
permanently.
    Air capture can address the myriad emissions from small emitters 
including cars and airplanes and also deal with the last few percent of 
power plant emissions whose escape is expensive to prevent. Other 
capture options may be advantageous for particular situations, e.g., in 
the flue stack of a power plant, but air capture can assure that all 
emissions can be dealt with.
    Storage of carbon dioxide is difficult. Since carbon dioxide is a 
gas, it will tend to escape from its storage site unless it is 
chemically converted to a mineral. Over this century, the mass of the 
carbon dioxide that will need to be stored will rival the amount of 
water in Lake Michigan. To avoid the escape of the carbon dioxide back 
into the atmosphere, it becomes necessary to maintain a physical 
barrier between the gas and the atmosphere, and to assure its efficacy 
for thousands of years. Given the large volumes involved, this raises 
serious questions about the safety and permanence of underground gas 
storage. These questions can only be answered by considering the 
specifics of each particular site. Quite rightly, the public will 
demand a careful risk analysis and detailed accounting, which will 
result in a gradual reassessment of the overall capacity of geological 
storage. I consider it likely that current estimates are too 
optimistic. Nevertheless there will be significant and adequately safe 
underground storage of carbon dioxide gas because there are some 
excellent storage sites available, and the technology to use them 
already exists. However, mineral sequestration may be required to 
complete the task of carbon sequestration on a longer time scale. 
Mineral sequestration converts the carbon dioxide chemically into a 
solid mineral that is common and stable in nature. There is no 
possibility of a spontaneous return of the carbon dioxide. Even though 
mineral sequestration may be more expensive up front, its long-term 
costs may prove to be more affordable.

Air Capture

    The ability to capture carbon dioxide from the air is not new. 
Every submarine and every spaceship needs to remove carbon dioxide from 
the air inside in order to keep the crew healthy. The challenge is not 
to capture carbon dioxide from the air, but to do so in an economically 
affordable fashion and on a large scale.
    I was the first to suggest that capture of carbon dioxide from the 
air should be considered as a promising approach to managing carbon 
dioxide in the atmosphere and hence to combating climate change.\2\ 
Capture from the atmosphere has many advantages. First, it separates 
carbon dioxide sources from sinks, so it makes it possible to collect 
carbon dioxide anywhere in the world. Air mixes so fast and so 
thoroughly that capture in the Nevada desert could compensate for 
emissions in New York City, in Mali, in Ghana, or anywhere in the 
world. In a matter of weeks to months after starting to capture carbon 
dioxide in the Northern Hemisphere, the carbon dioxide reduction will 
have spread out over the entirety of this hemisphere.
---------------------------------------------------------------------------
    \2\ K.S. Lackner, H.-J. Ziock, and P. Grimes (1999), Carbon Dioxide 
Extraction from Air: Is It an Option?, presented at Proceedings of the 
24th International Conference on Coal Utilization & Fuel Systems, 
Clearwater, Florida, March 8-11, 1999.
---------------------------------------------------------------------------
    Before starting research in this field, I was struck by two 
observations that suggested technical feasibility. First, the 
concentration of carbon dioxide in the air, although usually considered 
very small, is by some measure surprisingly large. To illustrate this 
point, consider a windmill, which can be viewed as an apparatus to 
reduce the human carbon footprint by delivering electricity without 
carbon dioxide emissions. For the same amount of electricity from a 
conventional power plant could be made carbon neutral with a carbon 
dioxide collector. The frontal area of this collector standing in the 
wind could be more than a hundred times smaller than that of a 
windmill. This convinced me that the cost of scrubbing the carbon 
dioxide out of the air is not in the apparatus that stands in the wind, 
but rather it is in the cost of ``scraping'' the carbon dioxide back 
off collector surfaces, so they can be used again. Fortunately, the 
binding strength of these sorbent surfaces need not be much stronger 
than the binding strength of the sorbent materials that would be used 
in a flue stack to scrub the carbon dioxide out of the flue gas. This 
fact, which follows from basic thermodynamics, is surprising 
considering the three hundred times higher initial concentration of 
carbon dioxide in the flue gas stream versus in the atmosphere. These 
insights_based on fundamental physics and thermodynamics_led me to 
start a large effort in air capture research, which has been funded by 
Gary Comer, the former owner of Lands End. Much of the work has been 
performed at a small research company (Global Research Technologies) of 
which I am member, a fact that I feel obligated for reasons of 
transparency to disclose. Much of the research effort is now housed at 
Columbia University.
    This original R&D effort allowed us to go beyond theoretical 
arguments of what could be done with some ideal sorbent materials. We 
were able to demonstrate our ability to capture carbon dioxide from the 
air with real sorbents that require very little energy both in their 
regeneration and in the preparation of a concentrated stream of carbon 
dioxide ready for sequestration. We discovered a novel process, which 
we refer to as a moisture swing absorption system. We create air 
scrubbers that load up with carbon dioxide when dry and then release 
the carbon dioxide again when exposed to moisture.
    We have demonstrated the capabilities of this sorbent in public and 
have published our results.\3\ In short, our system requires water and 
electricity to collect carbon dioxide. The water can be saline and the 
energy consumption of the process is such that only 21% of the carbon 
dioxide captured would be released again at a distant power plant that 
produces the electricity required in the process.\4\ Nearly 80% of the 
captured carbon dioxide counts toward a real reduction of carbon 
dioxide in the atmosphere. At this point we have demonstrated the 
system on the bench scale, and are moving toward a one-ton-per-day 
prototype. Just like a hand-made car will be expensive we expect a 
first of a kind version to capture carbon dioxide at approximately $200 
per ton. This cost is dominated by manufacturing and maintenance cost 
and we see significant and large potential for cost reductions. We have 
set ourselves a long term goal of $30/ton of carbon dioxide, or roughly 
an addition of 25C per gallon to the price of gasoline. While we are 
not the only ones developing air capture technology, we were the first 
to get started, and we believe we are the closest to viable solutions.
---------------------------------------------------------------------------
    \3\ Lackner, K. S. (2009), Carbon of Dioxide Capture from Ambient 
Air, The European Physics Journal: Special Topics, 176(2009), 93-106.
    \4\ The 21% is based on the average CO<INF>2</INF> emissions in 
U.S. electricity generation.
---------------------------------------------------------------------------
    Technical air capture, as opposed to growing biomass in fields, in 
forests and in algae ponds, can operate with a much smaller footprint. 
A ``synthetic tree,'' our mechanical device to capture carbon dioxide 
from the air, collects approximately a thousand times as much carbon 
dioxide as a natural tree of similar size. It is for this reason that 
air capture is of practical interest.
    Just as there are proposed side benefits to industry and the 
economy from bio-mass management of carbon dioxide, there are several 
immediate applications for carbon dioxide captured from the air. First, 
there is a small market of eight million tons per year for merchant 
carbon dioxide (i.e., carbon dioxide that is shipped by truck to its 
customers). Applications range from dry ice production to welding 
supply and carbonation of drinks. The price of merchant carbon dioxide 
depends on the distance from the nearest source and is often well above 
$100/ton. This market could provide a toehold for air capture 
technology where it could be tested before carbon regulations address 
climate change issues. Oil companies provide another potential market 
for air capture. In the United States some forty million tons of carbon 
dioxide are consumed annually in enhanced oil recovery.
    In the future one can expect a large market for air-captured carbon 
dioxide in managing carbon for climate change. Total emissions in the 
United States are nearly six billion tons of carbon dioxide per year. 
Some fraction_currently nearly half_of all emissions comes from sources 
that do not lend themselves to capture at the point source. These 
include emissions from automobiles and airplanes. Indeed, practically 
all emissions from oil consumption fall into this category. As a 
result, air capture is the only practical option to maintain access to 
oil-based energy products. Indeed, mitigating the use of liquid 
hydrocarbon fuels is an important application for air capture. There is 
no good alternative to liquid fuels, e.g., gasoline, diesel or jet 
fuel. A pound of fuel contains about one hundred times as much energy 
as a pound of battery.
    Air capture remains necessary as long as liquid carbon-based fuels 
are used in the transportation sector. Regardless of the carbon source 
in the fuel, the carbon will end up as carbon dioxide in the air, which 
will need to be captured. Rather than storing the carbon dioxide, it is 
also possible to recycle its carbon back into fuel, but this way of 
closing the carbon cycle requires renewable or other carbon-free energy 
inputs. Biomass fuels are a special example of closing the carbon 
cycle. Green plants capture carbon dioxide from the air by natural 
means and with the help of sunshine convert it into energy rich carbon 
compounds. However, the ability of biological systems to collect carbon 
dioxide from the air is slow. Thus, large-scale fuel production 
requires large swaths of land. Indeed, algae growth is limited by the 
innate ability of algae to collect carbon dioxide. And many companies 
have realized that they could improve performance by providing carbon 
dioxide from other sources. This could be carbon dioxide from a power 
plant, but ultimately one can only close the global carbon cycle if 
this carbon dioxide comes directly from the air. Air capture would be a 
natural complement to algae production of synthetic fuels.
    Air capture can work for any emission of carbon dioxide, no matter 
where it occurs. Thus, it can provide the capture of last resort. For 
most power plants, capture at the site is the most economic approach, 
but in a number of older plants, it may be cheaper to collect carbon 
dioxide from the air or to install scrubbers that can only partially 
remove the carbon dioxide in the flue stack. The remaining fraction 
would still be released to the air and could be compensated for by an 
equivalent amount of air capture.
    Finally, air capture provides one of the few options to drive the 
carbon dioxide content of the air back down. In a sense, here you are 
capturing carbon dioxide that was released decades ago. This is the 
ultimate separation of sources and sinks not only in space but also in 
time. This ability to turn the clock back, at least partially, is 
important, because it is very difficult to envision a scenario in which 
the world manages to stabilize carbon dioxide concentration so that the 
total greenhouse gas impact is less than that of 450 ppm of carbon 
dioxide. Adding up all greenhouse gases, including for example methane, 
the world is only seven years away from breaching this limit.
    Managing global carbon dioxide emissions is a huge task, but air 
capture could operate at the necessary scale. Right now the technology 
is still in its infancy, but one can already see an outline of how it 
may work in the future. A collector that can produce one ton of carbon 
dioxide per day would easily fit into a standard forty-four-foot 
shipping container. While the first few of these containers will likely 
cost $200K each, we expect the price to come down to that of a typical 
automobile or light truck.
    For the sake of argument, let us assume that air capture units stay 
at this scale, and that they are mass produced like cars. With ten 
million such units operating, air capture would make a significant 
contribution to the world's carbon balance. Ten million units would 
collect 3.6 billion tons annually or 12% of the world's carbon dioxide 
emissions. If these units last ten years, annual production would need 
to be 1 million. This is a tiny fraction of the world's annual 
production of cars and light trucks (approximately 70 million units). 
Thus, reaching relevant scales would certainly be feasible, although it 
would require a substantial commitment, and obviously a policy and 
regulatory framework that support such an effort.

Mineral Sequestration

    Capturing carbon dioxide is just the first step in carbon 
management. After one has the carbon dioxide, it must be permanently 
stored to prevent it from returning to the atmosphere. Columbia 
University has an active research program on mineral sequestration, 
involving Juerg Matter, David Goldberg, Alissa Park and Peter Kelemen. 
Our group is also working on DOE-sponsored research on monitoring 
carbon dioxide in underground reservoirs.
    Underground injection, or geological sequestration, is one option 
for carbon dioxide storage. It seems straightforward and simple, but it 
does not have an unlimited resource base, and it comes with the 
requirement of maintaining (virtually indefinitely) a seal to keep a 
gas that naturally wants to rise to the surface safely underground. By 
contrast, mineral sequestration has a much larger resource base, and it 
results in a stable, benign carbonate material that is common in nature 
and will last on a geological time scale. For all practical purposes, 
the storage of carbon dioxide in mineral carbonates is permanent. It 
requires energy to reverse the carbonation reaction. Therefore this 
reversal cannot happen spontaneously.
    Mineral sequestration taps into a very large, natural material 
cycle on Earth. Volcanic processes push carbon dioxide into the 
atmosphere, and geological weathering removes it as carbonate. Carbon 
dioxide, which in water turns to carbonic acid, reacts with a base to 
form a salt. This happens every time it rains. There are plenty of 
minerals to neutralize carbonic acid, but this geological weathering 
process is very slow. Left to its own devices, nature will take on the 
order of a hundred thousand years to reabsorb and fixate the excess 
carbon that human activities have mobilized and injected into the 
atmosphere. The purpose of mineral sequestration in managing 
anthropogenic carbon is to accelerate these natural processes to the 
point that they can keep up with human carbon dioxide releases.
    There are two fundamentally different approaches to mineral 
sequestration. The first is ex situ mineral sequestration.\5\ Here one 
envisions a mine where suitable rock, usually serpentine and/or olivine 
is mined, crushed and ground up, and then in an industrial, above-
ground processing plant, carbon dioxide is brought together with the 
minerals to form solid carbonates that can then be disposed of as mine 
tailings. Mining operations would be large, but no larger than current 
mining operations. It would take roughly six tons of rock to bind the 
carbon dioxide from one ton of coal. An above-ground mine producing 
coal in the Powder River Basin typically has to move ten tons of 
overburden in order to extract one ton of coal. Therefore, without 
wanting to minimize the scale of these operations, it is worth pointing 
out that current mining operations to produce coal already operate on 
the same scale.
---------------------------------------------------------------------------
    \5\ Lackner, K. S., C. H. Wendt, D. P. Butt, J. E.L. Joyce, and D. 
H. Sharp (1995), Carbon Dioxide Disposal in Carbonate Minerals, Energy, 
20(11), 1153-1170.
---------------------------------------------------------------------------
    The cost of ex situ mineral sequestration is directly related to 
the time it takes to convert base minerals to carbonates. In effect, 
the reactor has to hold an amount of minerals that is consumed during 
processing time. Thus, a reactor vessel which requires a day to 
complete the process is twenty-four times larger than a reactor vessel 
that finishes the job in an hour. Cost effective implementations must 
aim for a thirty to sixty minute processing time. There are very few 
minerals that are sufficiently reactive to achieve this goal. The only 
ones that exist in large quantities are serpentine and olivine. A 
recent study performed by the USGS and two of my students has shown 
that in United States, the resource base of these minerals is ample and 
could cope with U.S. carbon dioxide emissions.\6\
---------------------------------------------------------------------------
    \6\ For more information, see: http://pubs.usgs.gov/ds/414/.
---------------------------------------------------------------------------
    Worldwide, these minerals are sufficiently abundant to cope with 
all the carbon dioxide that could be produced from the entire fossil 
fuel resource.
    Somewhat surprisingly the cost of mining and managing the tailings 
is quite affordable; estimates are below $10 per ton of carbon 
dioxide.\7\ The cost that still needs to be reduced is the cost of the 
neutralization or carbonation reaction. In nature the chemical 
processes are slow and accelerating them either costs energy (which is 
self-defeating as it leads to more carbon dioxide emissions) or money. 
Today, total costs are estimated around $100 per ton of carbon dioxide, 
which makes costs roughly five times higher than they would need to be 
for a competitive process. Overcoming a factor of five in costs sounds 
challenging, but most alternative forms of energy still have high costs 
or started out with costs that were even further away from what would 
be required in a competitive market.
---------------------------------------------------------------------------
    \7\ To set the scale, $10 per ton of CO<INF>2</INF> would add 
roughly 1 cent to the cost of the electricity from a 33% efficient coal 
fired power plant, it would add 8 cents to the gallon of gasoline.
---------------------------------------------------------------------------
    The second approach to mineral sequestration is in situ mineral 
sequestration. In this case the carbon dioxide is injected underground 
just as it is in geological storage, but for in situ mineral 
sequestration, the site has been carefully selected so that the carbon 
dioxide will react with the local mineral rock and form carbonates 
underground. The result will be carbonates that form solids, or in some 
case remain dissolved in the pore water deep underground. For this to 
be useful, the reactions will have to bind all or most of the carbon 
dioxide on a time scale that is suitable for human decision making. If 
it takes more than a few decades for the carbon dioxide to bind, the 
carbonation process comes too late to affect human decision making. 
Nevertheless, a few decades is a lot longer than thirty to sixty 
minutes, which is the time limit for an above ground reactor used for 
ex situ mineralization. As a result, a larger variety of minerals are 
available for in situ mineral sequestration than for ex situ mineral 
sequestration. Of particular interest are basalt formations. At 
Columbia University we have tested this in our own backyard on the 
Palisades along the Hudson River. On a larger scale in the U.S. North 
West, the Columbia River Basalts provide an inexhaustible resource base 
for in situ mineral sequestration. The Earth Institute is also involved 
in an in situ demonstration project in Iceland called the CarbFix 
project, as Iceland boasts some of the freshest and therefore most 
reactive basalt formations in the world.\8\
---------------------------------------------------------------------------
    \8\ Matter, J. M. et al (2009), Permanent Carbon Dioxide Storage 
into Basalt: The CarbFix Pilot Project, Iceland, Energy Procedia, 1(1), 
3641-3646.
---------------------------------------------------------------------------
    Mineral sequestration could play an important role in carbon 
management, if R&D could drive the cost down. First, mineral 
sequestration would provide a very different alternative for storing 
carbon dioxide that would provide a more permanent and potentially 
safer method than geological storage. The uncertainties in geological 
storage may well result in a general downgrading of the resource 
estimates, leaving only remote and particularly well characterized 
storage sites.\9\ For example, underground storage of carbon dioxide in 
seismically active areas is almost certainly going to be challenged by 
nearby communities due to public safety concerns. Luckily, California 
has very large serpentine deposits and could entirely rely on mineral 
sequestration.
---------------------------------------------------------------------------
    \9\ Lackner, K. S., and S. Brennan (2009), Envisioning Carbon 
Capture and Storage: Expanded Possibilities Due to Air Capture, Leakage 
Insurance, and C-14 Monitoring, Climate Change, 96(3), 357-378.
---------------------------------------------------------------------------
    Second, particularly ex situ mineral sequestration may provide a 
virtually unlimited supply of carbon dioxide storage capacity and thus 
could act as an assurance that access to fossil fuels is not at risk. 
Mineral sequestration raises the value of the U.S. coal reserves 
because it assures that they could be used if they are needed. 
Otherwise, the resource limitations on fossil fuels may not be the 
carbon in the ground, but the capacity of the atmosphere to accept the 
carbon dioxide. The world resource base in coal, tars, shales, and, 
potentially, in methane hydrates is so large that the accumulation of 
carbon dioxide in the atmosphere will need to be addressed.
    Third, mineral sequestration makes accounting simple and it 
provides a high degree of assurance that the carbon storage is, for all 
practical purposes, permanent. The environmental footprint is contained 
to the site and to the time window in which the mine operates.

Combining Mineral Sequestration and Air Capture

    It has been suggested that one could combine mineral sequestration 
and air capture into a single process. For example, one could use 
olivine or serpentine minerals as soil enhancers and rely on the soils 
to remove additional carbon dioxide from the air in a typical 
geological weathering reaction. Alternatively, it is possible to spread 
these minerals into the ocean, and let the reaction between the ocean 
and the carbon dioxide from the air happen spontaneously to neutralize 
the additional base.
    I do not advocate such an approach, because I see major challenges 
with distributing that much material over large distances. For the same 
reason, I believe that in ex situ mineralization the serpentine has to 
be processed at the serpentine mine. There are several options: the 
coal plant could be collocated with the serpentine mine with the coal 
would shipped in; the carbon dioxide could be pipelined from a remote 
power plant to the serpentine mine; or the carbon dioxide could be 
captured from the air directly at the mine site. In no case, would the 
heavy serpentine rock have to move over large distances, because the 
shipment of large amounts of solid material is too expensive.
    Furthermore, I see unnecessary environmental complications with 
distributing finely ground rock in the environment. Mineral rocks, when 
ground finely, represent environmental and health hazards, which are 
better dealt with in the confines of a mining operation rather than in 
open fields of enormous extended areas. Finally, these soil enhancers 
or ocean fertilizers will, by their very nature, change the ecological 
balance in the areas to which they are applied.
    One of the major advantages of air capture and mineral 
sequestration is that both operations can be performed on a well 
contained and relatively small footprint. Thus, one can limit the 
environmental impacts to small areas and keep them well contained.

The Research Agenda

    One of the major challenges facing mankind is to provide ample 
energy without destroying the environment. The energy sector is 
exceptional in that the problems we face cannot be solved by simply 
promulgating the state of the art worldwide. With state of the art 
technology in water and food the world would be assured plenty fresh 
water and plenty of food. However, the state art in energy is based on 
fossil fuels without carbon management, and its continued growth would 
wreak environmental I havoc. While there is reason to believe that 
technologies for carbon management can be developed, they have not been 
developed yet, and thus it is necessary to create a large and ambitious 
research agenda.
    Stabilizing carbon and providing energy is a century scale problem. 
It is not just about retrofitting existing plants, but it is about 
developing a brand new energy infrastructure. The power plant of the 
future will be different from conventional plants of today. Success 
will require a portfolio from basic research to commercial 
applications. Learning by doing will not happen until we actually do 
build a new infrastructure.
    Most of the immediate research agenda does not fit with the goals 
and aspirations of a company in the private sector. Since there is no 
market for carbon reduction in the absence of regulation, it is 
difficult to appeal to a profit motive. However, since there is no 
accepted technology to solve the problem, it is difficult to force new 
power plant designs through regulation. Thus, public R&D must make 
major contributions to solve the problem of carbon dioxide emission and 
demonstrate feasibility.
    There are very few resource pools for providing the amount of 
energy that the world will need in the second half of the twentieth 
century. The only sources big enough are solar energy, nuclear energy 
and fossil fuel energy combined with carbon capture and storage. In 
developing a sustainable energy platform, the world will need to place 
a big bet on all three options and hope that at least one of these bets 
pays off. In the unlikely event that all three resources fail to become 
sustainable and affordable energy resources, the world will be hit by 
an energy crisis of unprecedented proportions. Developing these 
alternatives will take a long time and the second half of the twentieth 
century is not that far away. The world has been working for more than 
fifty years on alternatives to fossil fuels_so far without success.
    R&D will need to span the gamut from basic research to testing out 
new pilot plants, and from physics to health sciences. Nearly by 
necessity, research will span agencies from the National Science 
Foundation to the Department of Energy, from National Institute of 
Standards and Technology to the Environmental Protection Agency. Energy 
is important enough that it should be woven into nearly all aspects of 
technology development. Specific to air capture and mineral 
sequestration, research needs to focus on better sorbents, reaction 
kinetics, carbonate chemistry, and catalysts to speed up reactions. In 
applied research, we should consider applications in which carbonate 
disposal could become a byproduct of mineral extraction. We need to 
find better ways of producing carbonates from serpentines, and develop 
advanced capabilities of modeling the weathering of basalts in the 
presence of carbon dioxide. Demonstrations of the technology are 
necessary if they are ever to be introduced in the market. Altamont 
Pass was able to convince the world that wind energy has a future. 
Imagine what a large air capture park could do to convince the world 
that capturing carbon dioxide from the air is both possible and 
practical.

                      Biography for Klaus Lackner
    Klaus Lackner is the Ewing Worzel Professor of Geophysics at 
Columbia University, where he is also the Director of the Lenfest 
Center for Sustainable Energy, the Chair of the Department of Earth and 
Environmental Engineering, and a member of the Earth Institute faculty. 
Lackner's current research interests include carbon capture and 
sequestration, air capture, energy systems and scaling properties 
(including synthetic fuels and wind energy), energy and environmental 
policy, lifecycle analysis, and zero emission modeling for coal and 
cement plants.
    Lackner's scientific career started in the phenomenology of weakly 
interacting particles. While searching for quarks, he and George Zweig 
developed the chemistry of atoms with fractional nuclear charge. He 
participated in matter searches for particles with a non-integer charge 
in an experiment conducted at Stanford by Martin Perl and his group. 
After joining Los Alamos National Laboratory (LANL) in 1983, Lackner 
became involved in hydrodynamic work and fusion-related research. He 
was a scientist in the Theoretical Division, but also an active part of 
the Laboratory's upper management. He was instrumental in forming the 
Zero Emission Coal Alliance and was a lead author in the IPCC Report on 
Carbon Capture and Storage. In 2001, Lackner joined Columbia University 
and, in 2004, became a member of Global Research Technologies, LLC.
    Lackner earned his degrees from Heidelberg University, Germany: the 
Vordiplom, (equivalent to a B.S.) in 1975; the Diplom (or M.S.) in 
1976; and his Ph.D. in theoretical particle physics, summa cum laude, 
in 1978. He was awarded the Clemm-Haas Prize for his outstanding Ph.D. 
thesis at Heidelberg University. Lackner held postdoctoral positions at 
the California Institute of Technology and the Stanford Linear 
Accelerator Center before beginning his professional career, and he 
attended Cold Spring Harbor Summer School for Computational 
Neuroscience in 1985. Lackner was also awarded the Weapons Recognition 
of Excellence Award in 1991 and the National Laboratory Consortium 
Award for Technology in 2001.

    Chairman Baird. Thank you, Dr. Lackner.
    Dr. Jackson.

  STATEMENTS OF DR. ROBERT JACKSON, NICHOLAS CHAIR OF GLOBAL 
   ENVIRONMENTAL CHANGE, PROFESSOR, BIOLOGY DEPARTMENT, DUKE 
                           UNIVERSITY

    Dr. Jackson. Chairman Baird, Chairman Gordon and others, 
thank you for your attention today. Let me begin by stating 
that a wealth of evidence already shows our climate is changing 
and is a threat to people and organisms. As a scientist and 
citizen of our great Nation, I urge you to act quickly to 
reduce greenhouse gas emissions. So far today, you have heard 
about several approaches for geoengineering the earth's 
climate. My task is to discuss biological and land-based 
strategies.
    My first take-home message is that some geoengineering on 
land is already feasible, including restoring or planting 
forests, avoiding deforestation and using crops to store carbon 
in soils and reflect sunlight. Plants are one of the cheapest 
ways to remove carbon from our air. Several limitations in 
land-based approaches are worth mentioning. One is that we need 
to apply these strategies over millions of acres to play a 
meaningful role.
    The second is money. Private landowners will need 
incentives to apply geoengineering. How much will these 
incentives cost and how sustained will the landowners' 
responses be?
    A third limitation is that geoengineering will surely alter 
other resources we value, including water and biodiversity. One 
difference for geoengineering on land is that carbon removal 
and sunlight reflections both change, never just one or the 
other. Geoengineering also alters other factors that affect 
temperature. We need a new framework that includes a full 
accounting for greenhouse gases and biophysics together. That 
long-term framework should include water evaporation, energy 
exchange and other factors in addition to carbon dioxide and 
sunlight.
    Consider this example. Imagine providing incentives for 
tree planting on former croplands or pasture. This activity 
will remove carbon from air as the trees grow. What about the 
same activity viewed from the standpoint of solar radiation 
management? Trees tend to be darker than grasses or crops and 
to absorb more sunlight. The same plantation that cools the 
earth by removing carbon could warm it by reflecting less 
light. Your new plantation affects the earth's temperature in 
other ways too. Trees typically use more water than other 
plants. This increases evaporation, cools land locally, loads 
energy into the atmosphere and can produce clouds that absorb 
or reflect sunlight and produce rain. Overall, such biophysical 
changes can affect climate more than carbon removal does and 
sometimes in a conflicting way.
    New research is needed on a full accounting system for 
greenhouse gases and biophysics, particularly in climate 
models. Some gaps in scientific understanding include the ways 
the models resolve cloud cover, melt snow, supply water for 
plant growth and simulate the planetary boundary layer. The 
fusion of real-world data and models is critical for reducing 
these uncertainties.
    Our lands do more than store carbon and protect climate. 
They supply water, detoxify pollutants, support life and 
produce food. Geoengineering on land will alter the abundance 
of many things we value. We need research on its full 
environmental effects.
    In the best-case scenario, geoengineering activities can 
help the environment. Restoring habitats or avoiding 
deforestation will store carbon, slow erosion, improve water 
quality and provide habitat for wildlife. In a worst-case 
scenario, geoengineering will harm ecosystems, such as 
proposals to cover deserts with reflective shields. In most 
cases, we will have to choose which services we value most. 
Returning to our plantation example, forests store more carbon 
than grasslands but also use more water. Yearly stream flow 
often drops by half after planting and streams can dry up 
completely. Which is worth more: carbon or water? The answer 
likely depends on whether you live in a water-rich area, as I 
do, or a water-poor one. Unfortunately, you can't have your 
cake and drink it too.
    A new interdisciplinary research agenda for geoengineering 
drafted by a panel of experts is urgently needed. This process 
should be open and seek input from any stakeholders. Because no 
federal agency has the expertise to lead geoengineering alone, 
a coordinated working group is the best solution. I recommend 
that the U.S. Global Change Research Program [USGCRP], 
comprised of 13 departments and agencies, lead this effort.
    In conclusion, although emitting less carbon dioxide and 
other greenhouse gases should remain our first priority, we do 
have short-term opportunities on land. In general, though, we 
need to study the feasibility, cost and environmental co-
effects before applying geoengineering broadly. We need to get 
geoengineering right as a tool of last resort. Thank you.
    [The prepared statement of Dr. Jackson follows:]
                  Prepared Statement of Robert Jackson

Biological and Land-Based Strategies for Geoengineering Earth's Climate

    Chairman Baird and other members of the Science and Technology 
Committee, thank you for the chance to testify today. I appreciate the 
opportunity and your attention.
    Let me first state that a wealth of scientific evidence already 
shows that climate change is happening and presents a grave threat to 
people and other organisms. We need to act quickly. The safest, 
cheapest, and most prudent way to slow climate change is to reduce 
greenhouse-gas emissions soon. No approach_geoengineering or otherwise_
should lead us from that path.
    Unfortunately, the world has so far been unable to reduce 
greenhouse-gas emissions in any substantive way. We therefore need to 
explore other tools to reduce some of the harmful effects of climate 
change. That is why we are discussing what was once purely science 
fiction_the remarkable possibility of geoengineering Earth's climate.
    For my testimony, you asked me to discuss biological and land-use-
based strategies for geoengineering. Here are four take-home messages 
of my testimony:

        1)  Some biological and land-use strategies for geoengineering 
        are already feasible, including restoring or planting forests, 
        avoiding deforestation, and using croplands to reflect sunlight 
        and store carbon in soils.
        2)  Biological and land-based geoengineering alters carbon 
        uptake, sunlight absorption, and other biophysical factors that 
        affect climate together.
        3)  Geoengineering for carbon or climate will alter the 
        abundance of water, biodiversity, and other things we value.
        4)  A research agenda for geoengineering is urgently needed 
        that crosses scientific disciplines and coordinates research 
        across federal departments and agencies.

    Let me begin by describing some of the most common biological and 
land-use-based strategies for geoengineering and their relative 
effectiveness and feasibility.

Biological and Land-Based Options for Geoengineering

    As described in the recent Royal Society report, Geoengineering the 
Climate, many geoengineering options are possible. One set of 
activities focuses on carbon dioxide removal. The other examines how to 
manage systems to reflect sunlight and cool the planet, termed solar 
radiation management. I will call these approaches ``carbon'' and 
``climate'', respectively. For biological and land-based sequestration, 
what constitutes ``geoengineering'' instead of ``carbon mitigation'' or 
``offsets'' is sometimes unclear. I will try to focus on strategies 
that are usually placed in the realm of geoengineering. An example of a 
land-use strategy that is not usually considered as geoengineering is 
the production of biofuels (in the absence of carbon capture and 
storage). I do not have the space to consider biofuels in this brief 
discussion.

Biological Carbon Dioxide Removal
    Biological and land-based strategies provide a meaningful 
opportunity to remove carbon from the atmosphere and to store it on 
land. Since 1850, human activities accompanying land-use change have 
released at least 150 gigatons (10<SUP>15</SUP> g) of carbon to the 
atmosphere, roughly one fifth of the total amount of carbon in the 
atmosphere today.
    Plants and other photosynthetic organisms (hereafter ``plants'') 
provide one of the oldest and most efficient ways to remove carbon 
dioxide from our air. For this reason, they provide a feasible, 
relatively cheap way to reduce the concentration of carbon dioxide in 
the Earth's atmosphere_at least in the short term.
    Several biological and land-based approaches are possible for 
removing carbon dioxide from air. Because carbon is lost when a forest 
is cut or disturbed, restoring forests is an important tool for placing 
carbon back in lands. Afforestation, or planting trees in places that 
were not previously forested (or have not been for many years) is 
another way to remove carbon from the atmosphere. Avoided deforestation 
is a third tool that improves the carbon balance and is sometimes 
considered to be geoengineering. If a policy incentive keeps a 
rainforest in Amazonia or Alaska from being cut, carbon that would have 
moved to the atmosphere is ``removed'' from the atmosphere.
    Restoring and enhancing soil organic matter is another tool for 
carbon management and removal. Because agriculture tends to release 
soil carbon to the atmosphere, typically soon after land conversion, 
incentives to restore native ecosystems or to improve agricultural 
management are two ways to remove carbon from the atmosphere. Restoring 
or enhancing the amount of organic matter in soil has many benefits, 
including improved fertility and crop yield, reduced erosion, and 
better water-holding capacity.
    Three issues or limitations in biological or land-based 
geoengineering are important. One is the scale of the approach needed 
to reduce the amount of carbon in our air. For any given project, a 
single acre of land can be managed or manipulated to remove carbon. 
Nationally, however, we need to implement these strategies over 
millions of acres if they are to play a meaningful role in policy 
(remembering that we already manage millions of acres). Otherwise, 
their net effect will be too small compared to the amounts of carbon 
entering the atmosphere through fossil fuel emissions.
    A second issue is landowner behavior. Land is a valuable commodity, 
and private landowners will need financial incentives to make 
geoengineering a reality. How much will these incentives cost, and 
under what conditions, financial or otherwise, might they change their 
minds?
    A third issue is that biological and land-based management will 
inevitably alter other resources that we care about, including water 
and biodiversity. I will return to this point after exploring solar 
radiation management as a second type of geoengineering.

Solar Radiation Management
    Managing solar radiation directly is an alternative to removing 
carbon dioxide from air. In effect these approaches manipulate 
``climate'' directly, or at least temperature. The most common approach 
for cooling is reflecting sunlight back into space. You only have to 
reflect a small percentage of the sun's rays to counterbalance the 
temperature effects of a doubling of atmospheric carbon dioxide. 
Managing solar radiation is thus the basis for many geoengineering 
strategies, including stratospheric dust seeding and whitening clouds 
over the oceans.
    Biological and land-based strategies can also employ solar 
radiation management. One approach is to select crops, grasses, and 
trees that are ``brighter'' in color, reflecting more sunlight into 
space. This strategy can cool plants locally and save water but will 
likely reduce plant yields in some cases. The option may be especially 
valuable in sunny, dry areas of the world.
    Like strategies for carbon removal, solar radiation management will 
need to be applied across large areas to be effective, probably 
millions of acres, at least. One smaller-scale exception may be when 
solar radiation manipulations reduce the energy needed to heat or cool 
buildings. Urban forestry, white buildings, and ``green roofs'' are 
examples. The energy savings are local but could play a small but 
meaningful role in reducing our national energy budget.
    A disadvantage of solar radiation management is that it offsets 
only the climate effects of increased greenhouse gases but does not 
reduce greenhouse gas concentrations. It does nothing for the pressing 
problem of ocean acidification, for instance, caused by increased 
carbon dioxide dissolving into our oceans. Also, changing the amount of 
sunlight alters not just temperature but atmospheric circulation, 
rainfall, and many other factors. Less sunlight will almost certainly 
mean less rainfall globally and is likely to reduce global productivity 
of plants and phytoplankton.

Geoengineering on Land is Carbon and Climate Management

    As just discussed, geoengineering strategies are typically lumped 
into two categories, those that remove carbon from the atmosphere and 
those that manage solar radiation (``carbon'' and ``climate'', 
respectively). Unlike some geoengineering strategies, however, every 
biological and land-based approach will alter carbon storage and 
sunlight absorption. Moreover, sunlight is not the only factor that 
changes the temperature and energy balance of an ecosystem.
    We need a new framework for geoengineering that includes a full 
radiative accounting for greenhouse-gas and biophysical changes 
together. That long-term framework should include not just reflected 
sunlight but water evaporation, energy exchange, and other important 
biophysical factors. Such a framework will then help us make best-
practice recommendations for if, when, and where to promote 
geoengineering activities.
    To demonstrate the need for better accounting, consider the 
following example. Imagine providing landowners with incentives to 
plant trees on lands that were previously croplands or pasture. Under a 
carbon management framework, this activity will almost certainly remove 
carbon dioxide from our air (assuming that planting and management 
practices do not increase net greenhouse gas emissions). That is what 
trees do_they grow.
    What about the same activity viewed from the standpoint of solar 
radiation management or ``climate''? Trees tend to be darker than 
grasses or other crop species and thus reflect less sunlight (Figure 1; 
Jackson et al. 2008). The same plantation that cools the Earth through 
carbon removal may warm it by absorbing more sunlight. Planting dark 
trees in snowy areas could cause substantial warming, for instance.
    Your new plantation in Figure 1 also affects the Earth's 
temperature in more ways than just storing carbon and reflecting less 
sunlight. Trees typically evaporate more water than the grasses or 
other crops they replace do. This increased evaporation (the blue 
arrows in Figure 1) cools the land locally. It also loads more energy 
into the atmosphere and can alter the production of convective clouds 
that absorb or reflect sunlight and produce rain. Trees also alter the 
roughness or unevenness of the plant canopy, transmitting more heat 
into the atmosphere (the red arrows in Figure 1). Overall, such 
biophysical changes can affect local and regional climate much more 
than the accompanying carbon sequestration does_and sometimes in a 
conflicting way.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    New research is needed to provide a full radiative accounting for 
greenhouse-gas changes and biophysics together. Some examples of gaps 
in scientific understanding include the ways that climate models do 
(and don't) resolve cloud cover, melt snow, supply water for plants to 
grow, and simulate the planetary boundary layer. The fusion of 
observations and models is critical for reducing these uncertainties.

Geoengineering for Carbon or Climate Will Alter Other Valuable 
                    Resources

    As just described, our lands do many things for us. They store 
carbon and protect our climate. They also supply and purify water, 
detoxify pollutants, support a treasure of biodiversity, and produce 
the food we need to survive. Geoengineering strategies to remove carbon 
from our air or to reflect sunlight will inevitably change the 
abundance of these resources. We need immediate research on the full 
environmental effects of geoengineering.
    In a best-case scenario, managing lands to store carbon or reflect 
sunlight will provide additional ecosystem benefits. An example of this 
win-win scenario is restoring degraded lands. Restoring forests or 
native grasslands on lands that have been over-used will not just store 
carbon in plants and the soil; it will slow erosion, improve water 
quality, and provide habitat for many species. Similarly, avoiding 
deforestation in the tropics keeps carbon out of the atmosphere, 
preserves biodiversity, and provides abundant water for streams and for 
the atmosphere to be recycled in local storms.
    In a worst-case scenario, blindly managing lands to store carbon or 
reflect sunlight will harm ecosystem goods and services. Covering 
hundreds or thousands of square miles of deserts with reflective 
surfaces, as has been proposed, may indeed cool the planet. It would 
also harm many other ecosystem services we value.
    The more common reality will lie somewhere in between. One example 
of a trade-off in services that I have studied is carbon storage and 
water supply. Continuing the analogy in Figure 1, most trees store 
carbon for decades after planting. Because they grow quickly, however, 
trees also use more water than the native grasslands or shrublands they 
replace (Figure 2; Jackson et al. 2005). These losses are substantial. 
Yearly streamflow typically drops in half soon after planting. In about 
one in ten cases the streams dry up completely.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In many real-world scenarios, we will have to choose which 
ecosystem services we value most. In the specific case of our 
plantation, which currency should we value more_carbon or water? The 
answer probably depends on whether you live in a relatively water-rich 
area or a water-poor one. Unfortunately, you can't always have your 
cake and drink it, too.
    Research into the environmental co-effects of geoengineering is 
critical for successful policy and for avoiding surprises. In the final 
section of this testimony, I present a few ideas for designing and 
coordinating geoengineering research.

Which U.S. Agency Should Lead Geoengineering Research?

    Because of the range of geoengineering activities and their 
environmental consequences, no single agency has the expertise needed 
to lead all geoengineering research. A more feasible approach would 
build on a model that is sometimes used successfully_a coordinated, 
interagency working group. One example of such a group is the U.S. 
Global Change Research Program comprised of thirteen departments and 
agencies.
    Choosing a single U.S. agency to lead the research effort is 
appealing administratively but would duplicate efforts. The 
Environmental Protection Agency might be one home for geoengineering 
research, particularly if the EPA is to regulate carbon dioxide 
emissions. The Department of Agriculture, including its Forest Service 
and Agricultural Research Service, has a long history of expertise in 
managing our forests and agricultural lands. The Department of Energy 
leads federal agencies in life-cycle and energy analysis on the global 
carbon cycle. The National Aeronautics and Space Administration (NASA) 
coordinates satellite-based research needed to understand global 
processes and feedbacks. Many other agencies, including the National 
Science Foundation, the National Oceanic and Atmospheric 
Administration, and the Department of the Interior, play important 
roles in research.
    Geoengineering research is most likely to succeed if research 
agencies agree on a joint research agenda. The agencies should 
therefore immediately convene a multi-disciplinary panel of experts to 
outline an agenda for geoengineering research. This process must be 
open and should seek input from the broader research community and from 
stakeholders outside that community.

Conclusions

    To discuss the possibility of engineering the Earth's climate is to 
acknowledge that we have failed to slow greenhouse gas emissions and 
climate change. Emitting less carbon dioxide and other greenhouse gases 
should remain our first goal.
    Because our climate is already changing, we need to explore every 
tool to reduce the harmful effects of those changes. Geoengineering is 
one such tool. We have some valuable, short-term opportunities at hand, 
including restoring ecosystems and avoiding deforestation. Overall, 
though, we need to study the feasibility, cost, and environmental co-
effects of geoengineering broadly before applying it across the United 
States and the world. We need to get geoengineering right_as a tool of 
last resort.

References

Royal Society 2009 Geoengineering the climate: science, governance, and 
        uncertainty. RS Policy document 10/09, The Royal Society, 
        London.

Jackson, RB, JT Randerson, JG Canadell, RG Anderson, R Avissar, DD 
        Baldocchi, GB Bonan, K Caldeira, NS Diffenbaugh, CB Field, BA 
        Hungate, EG Jobbagy, LM Kueppers, MD Nosetto, DE Pataki. 2008. 
        Protecting climate with forests. Environmental Research Letters 
        3: 044006, doi:10.1088/1748-9326/3/4/044006.

Jackson RB, EG Jobbagy, R Avissar, S Baidya Roy, D Barrett, CW Cook, KA 
        Farley, DC le Maitre, BA McCarl, B Murray 2005 Trading water 
        for carbon with biological carbon sequestration. Science 
        310:1944-1947.

                      Biography for Robert Jackson
    Robert B. Jackson is the Nicholas Professor of Global Environmental 
Change at Duke University and a professor in the Biology Department. 
His research examines how people affect the earth, including studies of 
the global carbon and water cycles and climate change.
    Jackson received his B.S. degree in Chemical Engineering from Rice 
University (1983). He worked four years for the Dow Chemical Company 
before obtaining M.S. degrees in Ecology (1990) and Statistics (1992) 
and a Ph.D. in Ecology (1992) at Utah State University. He was a 
Department of Energy Distinguished Postdoctoral Fellow for Global 
Change at Stanford University and an assistant professor at the 
University of Texas before joining the Duke faculty in 1999. He is 
currently Director of Duke's Center on Global Change. In his quest for 
solutions to global warming, he also directs the Department of Energy-
funded National Institute for Climate Change Research for the 
southeastern United States and co-directs the Climate Change Policy 
Partnership, working with energy and utility corporations to find 
practical strategies to combat climate change.
    Jackson has received numerous awards, including a 1999 Presidential 
Early Career Award in Science and Engineering from the National Science 
Foundation (honored at the White House), a Fellow in the American 
Geophysical Union, and inclusion in the top 0.5% of most-cited 
scientific researchers (http://www.isihighlycited.com/). His trade book 
on global change, The Earth Remains Forever, was published in October 
of 2002. He has also written two children's books, Animal Mischief and 
Weekend Mischief, both published by Boyds Mills Press, the trade arm of 
Highlights Magazine. Jackson's research has been covered in various 
newspapers and magazines, such as the Boston Globe, Washington Post, 
U.S.A. Today, New York Times, Scientific American, Economist, and 
BusinessWeek, and on national public radio. He conceived and organized 
the Janus Fellowship, an annual undergraduate award to encourage the 
study of an environmental problem from diverse perspectives; 1999's 
first recipient traveled down the Nile River to examine water use and 
water policy in Egypt.

                               Discussion

    Chairman Baird. Thank you, gentlemen. I commend you for 
keeping your comments in the time period. That enabled us to 
hear all of your initial testimony. We have about probably 
seven or eight minutes until we need to leave. Then what we 
will do is, we will proceed with questions. I will probably ask 
the first one and I imagine we will have to break after that.

                    Economic Costs of Geoengineering

    I think your points are well taken about that we need to 
prepare for this, but it also well taken that we don't want to 
have people believe oh, hey, we don't have to do anything to 
reduce, and you have spoken a lot about carbon. Obviously there 
are many other greenhouse gases of great concern, some much 
more potent in their efficacy and greenhouse warming. The cost 
issue seems to me to be so prohibitive relative to all the 
other things we could do more promptly to reduce carbon. If you 
look at conservation, for example, if you look at development 
of alternative energies, if you look at the CCS cost curve, and 
I know carbon sequestration is different than what you are 
talking about, but it would seem to me that your technology may 
be fairly more expensive than carbon capture and sequestration. 
Educate me. Is it or is it not more expensive, and if so, why 
or why not?
    Dr. Keith. I think it is crucial to distinguish these two 
completely different kinds of things. Carbon removal is 
inherently expensive. We can disagree about exactly how much 
but it is expensive. Putting sulfates in the stratosphere is 
potentially so cheap that costs are irrelevant. In the same 
sense as when you think about security strategy, the actual 
cost of nuclear warheads is not a big driver in security 
strategy. Costs are so cheap that the richest people on the 
planet could perhaps afford to buy an Ice Age and that 
individual small states could act alone. So essentially that 
doesn't mean you should do it but it means that this will be a 
risk__
    Chairman Baird. How cheap is that? Educate us on that.
    Dr. Keith. Pardon?
    Chairman Baird. You are saying it is so cheap. What is it 
that makes it so cheap?

                     Atmospheric Sulfate Injections

    Dr. Keith. The underlying physical fact that makes it so 
cheap is that a couple of grams of sulfur in the stratosphere 
offsets a ton of CO<INF>2</INF> in the atmosphere, not in terms 
of all the environmental effects, but in terms of the crude 
radiative forcing. So I am working with one of the leading 
contractors of high-altitude aircraft in the United States, 
Aurora Flight Sciences. We are in the middle of a contract they 
have with us looking at the cost of doing this, and the costs 
are, as we thought, small.
    Chairman Baird. Would you add it to the fuel or would it__
    Dr. Keith. No, no, no, that doesn't work at all. That is in 
the blogosphere. No, you build custom aircraft that would fly 
at about 65,000, 75,000 feet. They would put the appropriate 
sulfur or whatever it is in the atmosphere. And the costs of 
doing that really work out to be low enough that costs don't 
matter. We are talking about a cost offset the entire effect of 
doubled CO<INF>2</INF>. That is an order of just billions a 
year, so that is 100 to 1,000 times cheaper than the cost__
    Chairman Baird. When you say offset the entire effects of 
CO<INF>2</INF>__
    Dr. Keith. In terms of gross rate of forcing. As I have 
said and we all have said, it can't solve all the problems.
    Chairman Baird. Only on the radiative side?
    Dr. Keith. Yes.
    Chairman Baird. This would have_my guess, I may be wrong_
would have no impact on ocean acidification.
    Dr. Keith. None at all.
    Chairman Baird. And I think it is really important to 
understand that.
    Dr. Keith. Absolutely. So this is inherently imperfect. It 
can't compensate for CO<INF>2</INF> in the air completely but 
it can provide an extraordinarily fast-acting thing, and this 
business of it being cheap I think is pretty much a fact, and 
it is not necessarily a good thing. The downside is, it allows 
unilateral action.
    Chairman Baird. How long does it last up there?
    Dr. Keith. The lifetimes are years, a couple years.
    Chairman Baird. And then it, what, precipitates out or__
    Dr. Keith. Yeah, that is correct.
    Chairman Baird. No toxic side effects that we know of?
    Dr. Keith. The thing we always wonder about is the unknown 
unknown, so if you are thinking about, say, the acidification, 
it is clear that is not a problem in several studies that 
showed that. But of course, the concern here is with so little 
research there may be some unknown unknown that comes out of 
left field that bites us.

                       Land-Based Geoengineering

    Dr. Jackson. There may be. There are issues that have come 
up in the literature including interactions with the ozone 
layer, the water cycle and things like that, and I agree with 
David: more research is necessary. In my group, we do work on 
both geologic sequestration, CCS sequestration and land-based, 
and I would say it is useful to remember the land-based 
strategies are much cheaper than carbon capture and storage 
strategies. The issue with land-based strategies is that on a 
50- to 100-year time frame, the bucket is not big enough to 
solve this problem. So my answer would be, there are some 
shorter term options that we can do some good and we can also 
do some harm, but there are relatively low-cost options that we 
can use to help us get started. Long term, we need these 
bigger-picture solutions like others here have talked about.
    Chairman Baird. Dr. Lackner?

              Carbon Air Capture and Mineral Sequestration

    Dr. Lackner. Let me make a case for the more expensive 
carbon capture and storage options, which all of them are. My 
point in a way is that air capture is probably more expensive 
than any other capture, but not much more expensive so they are 
all in the same ballpark. Yes, it is correct that it is cheaper 
to put some conservation in place, to drive efficiency up and 
all of this. But consider I came from New York this morning and 
I could have said, it is much cheaper to walk so maybe I should 
buy myself some running shoes and get going. But in the end I 
broke down and said the distance is so large, I will buy myself 
an airplane ticket and fly down here. And so I would argue the 
same is true here too. We can make a difference by efficiency, 
by conservation and doing all of these things, but in the end, 
if you want to keep the level in the atmosphere constant at any 
number, once you got to that number you really have to drive 
emissions close to zero, and keep in mind with the rest of the 
world growing, basically you have to come down by factors of 20 
to 30 in order to hold things in a semblance of stability and 
that requires more drastic solutions. They in the end will cost 
a little more, and you are closing the carbon loop by adding 
another third to it.
    Chairman Baird. Thank you. We are going to recess at this 
point. My belief is, we have most likely at least an hour of 
votes, so we will resume the hearing at 11:30 and with the 
indulgence of our guests and our panelists, I apologize for the 
interruptions but we don't get to set that part of the 
schedule. Thanks. We will see you in an hour.
    [Recess.]

                      Public Opinion and Education

    Chairman Baird. I thank you for your indulgence on this 
hour break. I will recognize Mr. Inglis in a minute. I will 
share with you, though, this idea of placing particles in the 
upper atmosphere. Are any of you familiar with the conspiracy 
theory known as chemtrails? Have you heard of this? It is a 
rather interesting phenomenon. I was at a town hall and a 
person opined that the shape of contrails was looking different 
than it used to, and why was that? I gave my best understanding 
of atmospheric temperature and humidity and whatnot, but the 
theory which is apparently pretty prevalent on the Net is that 
the government is putting psychotropic drugs of some sort into 
the jet fuel and that is causing a difference in appearance of 
jet fuel and allowing them to secretly disseminate these 
foreign substances through the atmosphere via our commercial 
jet airline fleet. Thanks to Dr. Keith, I know that is true. 
The blogs will have your name, Dr. Keith. I am just kidding.
    But it does_on a more serious note, it does highlight that 
if we are going to do this, we are going to have to be very 
clear with the public about what we are doing and how we are 
doing it and why we are doing it and unintended consequences, 
because legitimate scientific research must not get tied up 
into these kind of things. Dr. Keith?
    Dr. Keith. I think it is really crucial to do it in a 
transparent way. One of the reasons I think we need a small 
government program now is to inject some transparency because 
right now we have got a hodgepodge, including private money, 
and that increases the risk that people are very fired up about 
this. I have voice mails from people who told me I am going to 
burn in a lake of fire and I don't love my kids and I am a 
murderer.
    Chairman Baird. You too?
    Dr. Keith. Oh, yeah.
    Chairman Baird. We must be on the same mailing list.
    Dr. Keith. So I think that it is_the only cure for that is 
transparency.
    Chairman Baird. Mr. Inglis.

             Political, Scientific, and Economic Challenges

    Mr. Inglis. Thank you, Mr. Chairman.
    It strikes me what we are talking about here is something 
that is very difficult to do because there is no profit to be 
made in it, and if you think about it, the other way of cutting 
off the CO<INF>2</INF> has a real profit motive in it, and the 
way that you can really get things done in a free-enterprise 
society like ours is to give people an opportunity to make 
money. They will move quickly if they can make a buck. What you 
are talking about here, I think just involves government 
expenditures because I don't know of any customer who would buy 
these things. So it means if you are doing appropriations to 
support this with, A, some real questions about the science of 
it, and B, selling people on the idea of using their tax money 
to spend money on something that they can't see any tangible 
result from. It is a little bit like putting padding in a car 
to avoid injuries with DUI or something. I mean, maybe what you 
should do is stop the people from being DUI rather than putting 
padding in the car. And I am also aware that the Committee had 
an opportunity to be in Greenland and we heard about an earlier 
idea several decades ago of putting coal dust out on the 
glaciers in order to help heat up the glaciers. Gee, I am glad 
we didn't do that. And we heard too, though, about the good 
thing of getting lead out of gasoline and the result is that 
real improvement in the situation in the glaciers. So it meant 
sort of a picture. I mean, one, we are thinking about putting 
out coal dust. In the other, we are just removing a noxious 
substance, and the result was really good.
    So you have to be real certain of the science and then you 
have to figure out how you sell a constituency on it, and the 
thing I am looking for always when dealing with climate change 
is some way of getting a two-fer or a three-fer, and this is a 
one-fer. I mean, you just get one thing, CO<INF>2</INF> out of 
the air and you have a problem finding a constituency, you have 
real questions about the science. If you think about it, if you 
can incentivize people to really go after reducing emissions 
and make money at it, then you can create jobs, you can improve 
the national security of the United States, especially by 
breaking the addiction to Middle Eastern oil and you can clean 
up the air. It is a three-fer and it is driven by profit 
motive. Wow, what a deal. Because, you know, this thing, if we 
had done this by appropriations, we would be dragging behind 
our cars in a trailer, you know, with two technicians figuring 
out how to get an e-mail across but because this was profit 
motive, look at this incredible thing. They made a bazillion 
dollars making these things. So that is what we are after, 
right? And so I realize I am really panning the idea here, so 
does anybody want to defend it since I have totally panned it? 
Who wants to go? Dr. Rasch, you still look like you want to 
tell me.
    Dr. Rasch. Sure, I am happy to respond. I guess the first 
thing to say is that I think probably all of us agree with you 
on 99 percent of what you said. I think the first thing to say 
is that the only reason that we are considering doing 
geoengineering_it is going to cost money that we wish we didn't 
have to spend_is because the consequences of not doing anything 
might be more costly. That is the first thing. Then the second 
thing to just mention is that of course we also want to find a 
way of changing our energy technology so that we are not 
emitting the CO<INF>2</INF> or other greenhouse gases, and the 
best way is to do it the way that you are talking about. We are 
a bit concerned that it is going to take a while both to 
convert the technology to reduce or zero out emissions, and 
also even if we were to do that, it is going to take a while 
for the planet to come to some equilibrium with respect to the 
emissions that we have already made and those that are coming. 
There are also difficulties with respect to continuing 
emissions for things like transportation sectors, which were 
also mentioned earlier this morning. So we don't really like 
the idea of doing geoengineering, but we can't see any way 
around it. We see that we may need to do geoengineering.
    Mr. Inglis. I see that my time is up. I hope we may come 
back to it but, you know, it reminds me of the Malthusian 
predictions too about the manure in New York City. It really 
undercuts, I think, our efforts to do something about climate 
change to have Malthusian predictions. I mean, the reality is 
that Henry Ford created the car and made a bazillion dollars on 
it and the result was, we didn't have horse manure piling up to 
second-story levels in New York City or however deep is was 
supposed to get. And so I really think that when those of that 
are out there trying to say let us take responsible action or 
sort of hear the chorus of a Malthusian prediction, then it 
really undercuts our effort of trying to get people to buy into 
this and say gee, we can make a buck, we can improve the 
national security of the United States, and if you care about 
it, you don't have to care about it but if you care about it, 
we can clean up the air too. That is how to sell change.
    The other thing is, it is really hard to sell. I can tell 
you in the 4th District of South Carolina, it would be 
extremely hard to sell. I yield back.
    Chairman Baird. Apparently Dr. Keith would like to speak 
about euphemistic Malthusian predictions, which may be a 
euphemism for horse pucky, but Dr. Keith?
    Dr. Keith. I think profit motive and entrepreneurialism are 
just fantastic and I think it is vital that we actually talk 
about this in a positive way. We have solved an enormous number 
of pollution problems over the last 100 years. We made huge 
progress on cleaning up air and water and there was a lot of 
innovation that came about. I run a little company that is 
trying to innovate, and we don't think we should make that 
money, in the long run, by government appropriations. We think 
what we need is a clean, transparent law where government 
doesn't pick winners but does restrict the amount of CO<INF>2</INF> 
going in the atmosphere, and we want to and intend to compete 
and win in that world.
    Chairman Baird. Mr. Rohrabacher.

                      Skepticism of Climate Change

    Mr. Rohrabacher. Thank you very much, Mr. Chairman. You 
know, I come to this. I actually waded through the snow coming 
here, and noticing how miserable I would be without global 
warming would be even worse. Actually the snow we have had and 
the temperatures we have had in the last nine years totally are 
contrary to what we were told in this Committee for about 10 
years, all the predictions of the people who came here to talk 
to us about global warming. I know they have changed it now to 
climate change because the climate doesn't seem to be doing 
what they said it would do, but in this Committee, testimony 
after testimony about what was going to be happening. We were 
going to reach this turning point. It was going to get hotter 
and hotter until it would reach some point and then it would 
really get hotter, and it has been just the opposite. We come 
into this hearing today_just in the last month we have heard 
not only the revelations that came out of these hacked 
communications which indicate a lack of scientific credibility 
behind certain issues that have been brought up in the global 
warming debate but we also have found that there was in the 
IPCC report itself that the Himalayan glaciers that were 
predicted, that prediction was not based on any scientific 
research. Just last week it was indicated that and found out 
that the guesstimate on the Amazon rain forestation, the 
elimination of the rain forest in the Amazon had no scientific 
research and basis, and we also heard just recently a statement 
from the Russian Academy of Sciences that the information they 
had provided the IPCC was cherry-picked before it was put into 
the computer model to have an outcome that was not a scientific 
outcome but an outcome that was predetermined by the people who 
were putting the project together. These things would cause us 
reason to doubt the premise which your request for the spending 
of billions of dollars to remediate a problem is based on.
    For the record, Mr. Chairman, I would like to place in the 
record, out of_there are thousands of such scientists, and you 
know them, who disagree with this theory that your proposals 
are based upon but I would like to put a list of at least 100 
of those thousands of scientists who are prominent scientists 
who agree with the case for alarm regarding climate change is 
grossly exaggerated. Surface temperature changes over the past 
century have been episodic and modest. There has been no net 
global warming for over a decade. The computer models 
forecasting rapid temperature change abjectly fail to explain 
recent climate behavior. And finally, characterization of the 
scientific facts regarding climate change and the degree of 
certainty informing the scientific debate is simply incorrect. 
I would like to place for the record the list of 100 prominent 
scientists who agree with those statements.
    Chairman Baird. If it doesn't exceed the requisite page 
limit__
    Mr. Rohrabacher. Well, we will squeeze them down into a 
little__
    Chairman Baird. Because that is an issue.
    Mr. Rohrabacher. _one page if you would like, Mr. Chairman.
    Chairman Baird. If you want to submit one page, then 
without objection.
    Mr. Rohrabacher. Otherwise we would be wasting all of that 
carbon the paper.
    Chairman Baird. Well, it has happened before that we have 
sought to do that on our side with objections__
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Rohrabacher. So now to the questions based on some of 
the reading that I obviously have had on this. What percentage 
of the atmosphere is CO<INF>2</INF>? I have asked that 
question, by the way, of numerous people, and after hearing all 
of the various proposals about the importance of 
CO<INF>2</INF>, most novices think it is 10 percent or 20 
percent of the atmosphere. What percentage is it?
    Dr. Jackson. Three hundred and ninety parts per million.
    Mr. Rohrabacher. It is .0395 something. It is less that one 
tenth of 1 percent of the atmosphere. As a matter of fact, it 
is less than one half of one tenth percent of the atmosphere. 
Is that correct?
    Dr. Keith. Yes, and maybe it is useful to think about where 
the knowledge that that could cause a problem came from. It 
came from the Air Force geophysics lab in the 1950s. So one 
thing that you lose in all the hype, and IPCC has overhyped, 
and all the hype on both sides is the stability of the core 
science. So the original modeling that showed that 
surprisingly_it is surprising that that small amount of 
CO<INF>2</INF> could have a big effect on climate. That 
modeling was first done accurately by the U.S. Air Force and it 
wasn't__
    Mr. Rohrabacher. The point is not accurate. There are many 
scientists who disagree that that small amount of CO<INF>2</INF> 
has anything to do with the changes in the climate, especially_
now, is it your contention that this tiny, miniscule amount, 
and of course, mankind's investment into that is only 10 to 20 
percent of that. Eighty percent of it comes from natural 
sources. That makes it even more miniscule. That that is a more 
important factor to the change in our climate than solar 
activity? The biggest source of power in our universe but this 
little tiny thing is more important than that?
    Dr. Lackner. I would say yes, and I don't come at it as a 
climate scientist. I would be happy to stand away from this. I 
am a harmless physicist when it comes to this. But Joseph 
Fourier understood this in 1812. And really nothing much has 
happened new since Svante Arrhehius in 1900, and yes, if you 
were to take the CO<INF>2</INF> out, the United States would be 
very much colder than it is today. It is a simple greenhouse 
gas, and what we are talking about are fine details of what 
happens if you make small changes to that admittedly small 
number. Nevertheless, it is important. If you take it out, you 
also have no photosynthesis. Your ocean would be a hydroxide 
solution. So there are lots of things which make this 
important. Nobody argues about argon, which is comparable in 
content, because it is inert. It doesn't do anything.
    Mr. Rohrabacher. At that time in the early__
    Dr. Rasch. Those 100 scientists that you mentioned would 
not disagree with anything that Dr. Lackner just said.
    Mr. Rohrabacher. But let me try__
    Dr. Lackner. Let me try to__
    Mr. Rohrabacher. Let me ask you this specifically. Has 
there been a time when the CO<INF>2</INF> in this planet's 
history, when the CO<INF>2</INF> level was much greater but 
that we had abundant plant life, oceans that flourished.
    Dr. Keith. Absolutely. So 50 million years ago there was 
1,000 or 2,000 parts per million CO<INF>2</INF> in the air, 
several times what it is now, and there were alligators in the 
high Arctic and there is nothing wrong with that whatsoever. 
The problem is about pace of change. It took 10 million years 
for CO<INF>2</INF> levels to come down from where they were, 
and we are planning to put them back up to that level in one 
human lifetime. That is 100,000 times faster. There is nothing 
inherently wrong with a warmer climate, but that argument is 
fallacious because it neglects the issue of rate of change. 
When things came 100,000 times faster, you have a problem.
    Mr. Rohrabacher. Well, except, of course, if the earth has 
several volcanoes that erupt, right, and that might do as much 
change as what we do in a full year or two. Isn't that right?
    Dr. Rasch. If you get a big enough volcano, it can have a 
catastrophic effect on the atmosphere.
    Mr. Rohrabacher. So volcanic activity really has something 
to do with this as well that may even override what human 
beings do.
    Dr. Lackner. It certainly will override a year or two. The 
point which convinced me to work on it, because I had to go 
through the same sort of questions 10, 15 years ago when the 
climate science was far less certain, and whether it is worth 
spending time on these issues. What convinced me is we can have 
a long and learned debate what precisely is the right number to 
stop at, but once we reach that number, we have to stop 
emitting, because to a very good approximation, this is like 
pouring water in a cup. As long as I keep pouring, it goes up, 
and so we could have an argument whether 450 is the point to 
stop and there are some people who are of a different opinion 
than I am on that, but__
    Mr. Rohrabacher. A lot of scientists, for example, suggest 
that the baseline that you are using to claim that there is a 
temperature change going on starts in 1850, and we all know 
that 1850 represented the bottom of a 500-year decline in 
temperatures, which is what they call I think the Little Ice 
Age or something, which the scientists that I am talking about 
point to that and say there has not been any change, even 
though we have this supposed increase in CO<INF>2</INF>.
    Dr. Jackson. It discourages me a bit, I must confess, to 
still be debating things like whether greenhouse gases are 
increasing and whether the earth is warming. The earth's 
temperature is warming. In 1998_the only reason that there is 
some discussion about the warming slowing is the 1998 weather 
was off the charts in terms of warmth. It was unprecedented in 
terms of warmth, and it was so high that the bouncing around 
since then, it may have slowed a little bit. My suspicion is 
that in five years it will be back to the same__
    Mr. Rohrabacher. So you are saying that this 1850 argument, 
that using that as the baseline really isn't accurate because 
we have actually grown a lot more than what would have normally 
been throughout the 1,000-year, 2,000-year history of humans.
    Dr. Jackson. I am just saying that it is not an 1850 
discussion, it is a million years and longer discussion through 
different methods. I am just saying that the knowledge base is 
quite strong. I guess I would also like to add that when we 
think about changing the earth's climate, I would like_as a 
climate and environmental scientist, I would also like to 
remind people that there are millions of other species that we 
share this planet with, and for 50 million years those species 
were free to migrate and move. That is no longer the case, so 
we have to think about human adaptation and human cost but also 
the ability of the other species that we share the planet with 
to move in the kind of lifetime that David Keith was talking 
about__
    Mr. Rohrabacher. Well, the CO<INF>2</INF> argument_and I 
certainly agree that we have a footprint but it is not just a 
carbon footprint, and thank you very much. I see my time is up. 
Thank you for indulging me, Mr. Chairman.

                 The Scientific Basis of Climate Change

    Chairman Baird. I thank the gentlemen for their responses 
and want to commend you. Some of the arguments that Mr. 
Rohrabacher has made have been offered previously to panels of 
climate scientists without response, and I commend you for the 
response.
    I want to drill down a little bit on one of these issues, 
and Dana and I are very good friends and we disagree on the 
conclusion here, but there is a premise that seems to be that 
if something appears to be a small quantity, that it then 
assumes it cannot have a large effect. My understanding is, 
ricin in microscopic quantities can be dreadfully fatal. I take 
a little tiny pill each day called Lipitor, which relative to 
my body mass is pretty darn small, and it seems to extend my 
life. If I were to put a thin, thin, thin film of plastic over 
your mouth, you would die. If I hold it under the sun, it will 
warm you up a lot. A thin film of plastic which relative to 
thickness of atmosphere is far smaller than the parts per 
million we are talking about, and yet it could_you know, nobody 
would dispute you lay a piece of plastic on the ground, sun 
comes through it, things get hot. So this fundamental core 
argument that because CO<INF>2</INF> is a small percentage of 
our total atmosphere it cannot have dramatic effects is_we can 
illustrate countless examples in nature where apparently tiny 
quantities have dramatic impact. So I think we would do well to 
reject that as a line of argument.
    But beyond that, my understanding of the recent temperature 
data from this year suggests this past year was a pretty warm 
year in spite of the fact_I think proponents of climate change 
make an egregious mistake when there is a tornado somewhere or 
a hot day somewhere and they say oh, look, it must be climate 
change. The opponents are guilty of the same problem. And my 
understanding is the pattern of temperature last year was 
actually pretty warm year. Is that your understanding? And my 
understanding also is that IPCC and NASA itself have looked at 
the solar radiation issue and largely refuted the notion that 
solar radiation increases. I mean, they modeled it elsewhere 
and they said solar radiation increases are not believed to be 
responsible for the apparent temperature increase. Is that your 
understanding? The record will show that these four 
distinguished gentlemen all say yes on that.
    I think there is a need to_you know, the temptation is to 
say well, there is one thing or a few things that point maybe 
in the opposite direction or questions of doubt, and there is 
no question in my mind that if doubt is distorted on either 
side of an argument, that_as a scientist and someone who has 
introduced legislation to promote ethical scientific conduct, 
that is a problem. But a few bad examples don't seem to me to 
overwhelm the abundant evidence that I think you gentlemen are 
citing.

                  Chemical & Geological Carbon Uptake

    So back to the issue at hand of geoengineering. Let us talk 
about solar radiation management a little bit. I want to talk 
about that and also about the carbon uptake. We will start with 
carbon uptake. The white pine tree that you gave us, give us 
some costs, both carbon costs, you know, and what does it cost 
to produce that in terms of carbon and cost to manufacture? You 
mentioned, I think, 25 cents a gallon.
    Dr. Lackner. Well, this is once we are in a mass 
manufacturing mode. We are still in a research phase so we have 
developed this material which is an anion exchange resin. If it 
is dry, it absorbs CO<INF>2</INF> out of the air. If it is wet, 
it gives it back. So around that we built a cycle which allows 
us to collect the CO<INF>2</INF>, compress it, and we will pay 
energy for that, and so the main energy consumption is the 
compression. Figure that we roughly give 20 percent of the 
CO<INF>2</INF> we collected back because some distant power 
plant is generating electricity in order to feed that system, 
so that is the order of magnitude of what you have to give 
back. The cost of the electricity is small and would be well 
within that 25 cents.
    Chairman Baird. So you are able to_once that thing draws 
the carbon out of the air, you are able to then draw the carbon 
off of that?
    Dr. Lackner. Exactly. So this is like a sponge to soak it 
up and then I squeeze the sponge out and then I can do with the 
CO<INF>2</INF> whatever is necessary. I can put it to mineral 
sequestration, I can use geological sequestration or you could 
just happen to want some CO<INF>2</INF> for a fizzy drink. I 
can sell you that CO<INF>2</INF> for that purpose. Clearly, I 
have no carbon impact if I do that.
    Chairman Baird. But if we burp, we screw up the cycle.
    Dr. Lackner. Yeah, you would have kept the cycle going. But 
for a small company, again, that actually gives you the profit 
motive because in the beginning those are the markets and quite 
clearly in the beginning I am not down to $30 of ton of 
CO<INF>2</INF>. We estimate that the next round where we go to 
a one-ton-a-day unit, we are at about $200 a ton on the first 
try.
    Chairman Baird. How about the carbon costs of producing the 
material?
    Dr. Lackner. The carbon cost of that is nearly negligible 
to the total, because in a matter of a week or two this machine 
will have collected its own weight in CO<INF>2</INF> multiple 
times over. Roughly speaking, without doing a careful lifecycle 
analysis, you have collected a few times your own weight, in 
the CO<INF>2</INF> emitted that you have produced. Furthermore, 
the material is a polymer so at the end of the day it becomes 
fuel to close the cycle.
    Chairman Baird. And my understanding is, we are getting_
there was an article in Science a couple weeks ago about how we 
are making some new developments in terms of molecules that may 
be able to_and catalysts that may be able to more efficiently 
strip carbon out as well. Is that__
    Dr. Lackner. Yes. There are a variety of options. We 
believe what we did here, we discovered actually a brand new 
way of doing it and we will pursue this further and try to 
drive the costs down, and one of the things we can do is just 
make the material finer. Therefore, we use less of it, and 
therefore the cost is coming down. That is why I am optimistic 
that mass production_I don't just have to appeal to the world's 
learning curves for other things when you say things get 
cheaper if you make more, but I can point my finger to things 
here and here and here. I can make it much cheaper.

                      Alternatives to Fossil Fuels

    Chairman Baird. And one last point on this and then I will 
recognize Mr. Inglis. My understanding is that a portion of the 
energy demand, it will be very possible to meet it through 
renewable energies, particularly in off-peak times.
    Dr. Lackner. Certainly, and__
    Chairman Baird. So we are not having to burn more coal, for 
example, to power our carbon cleansing mechanism. We can use 
renewables to do that?
    Dr. Lackner. You could certainly do that, and we actually 
have developed ways where we can wait for the electricity 
demand when you don't need it so that we can fit in that way. 
But overall, I would argue you can also get away from fossil 
fuels, and the dream of the hydrogen economy is to use 
renewable energy to make hydrogen as a fuel. If I can give you 
CO<INF>2</INF> and hydrogen, you can make any fuel you like 
with technologies we have developed in the 1920s. So it seems 
to me this opens the door both ways to carbon sequestration if 
you want to go that route, and if renewable electricity or, for 
that matter, nuclear electricity, becomes cheap enough to make 
it worthwhile. You can get independent of oil by making your 
own synthetic fuels.
    Chairman Baird. Thank you.
    Mr. Inglis.

        The Successes of Protera LLC and the Need for Innovation

    Mr. Inglis. So Dr. Keith, thank you for that answer for Mr. 
Rohrabacher. I think it is a very helpful explanation because 
if it is a pace of 100,000 times faster, that really helps 
people to understand why it is that it is a problem, and that 
is the kind of thing that really builds our credibility as we 
try to address the issue, and I am with Chairman Baird, I thank 
you for answering the question because quite often those 
questions do go_or those assertions go unchallenged and so very 
cogent explanation there. It is 100,000 times faster. I think 
we can all understand that, that is fast.
    So right now I have to sort of celebrate something 
happening in our district that is relevant to this. Protera, 
which is an electric bus company, is announcing that they are 
coming to Greenville, South Carolina, at Clemson University's 
Center of Automotive Research, where they are going to begin 
building these buses. The bus has a number of advances. It is 
made out of balsa wood that is infused with resins that make it 
as strong as steel. It has got a fiberglass case on it that is 
very light. It is about a third shorter but carries as many 
people as an average bus, a city bus, because it doesn't have 
big diesel engines in the back, and it runs on 3,000 pounds of 
batteries, heavy batteries. It is a lot of batteries. They are 
quick charge and quick discharge, 6-minute charge, which means_
the physicists here can explain to us that that means they 
discharge quickly too, right? But they figure that by going 
around from stop to stop, and stop and have an extended stop, 
maybe a minute and a half, they can actually recharge the 
battery enough to get to several more stops. And so around the 
city that uses such a bus, there won't be any emissions from 
the diesel. The electric bus goes faster than a diesel because 
you can go lickety split. I drove one right up the hill here 
several months ago, and we beat a city bus off the line, and 
all you do is put the accelerator down and that thing moves. It 
doesn't have the grinding of the diesel and it doesn't have the 
smoke coming out the back. And it has regenerative braking too 
so when you let off the accelerator, the thing slows down as it 
is recapturing that energy. What an exciting thing. These 
people have decided that the economics work right now, and I 
wish I were there now to celebrate this with them but I did a 
recording yesterday to celebrate it, and what I pointed out is, 
if we get action on climate change, those economics will look 
even better, so the amazing thing is that they have something 
that works right now but imagine them in the catbird seat if we 
do actually insist on accountability and say incumbent fuels, 
consider all of your externalities, force a recognition of all 
the negative externalities and suddenly Protera is going to be_
wow, everybody is going to be asking for one of those buses or 
many of those buses and we are going to have jobs in South 
Carolina. We are going to have an improved national security 
because we are going to be saying to the Middle East, we just 
don't need you like we used to. And we will clean up the air.
    Now, of course, that assumes a clean way of producing 
electricity, but if you insist there on internalizing the 
externals associated with the cheap coal, then we will fix that 
one too. We will be building IGCC machines in Greenville, South 
Carolina, at General Electric, creating a lot of jobs there. We 
will be creating windmills. They are building wind turbines at 
General Electric in Greenville. And so we will be building 
nuclear power plants with a whole high concentration of 
engineers in the upstate of South Carolina.
    Now, you see I have a parochial interest in this. I want to 
make a lot of people very wealthy out of figuring out a way to 
fix this problem, and we can create jobs in the process. We are 
going to say to the Middle East, we just don't need you as 
much, and we are going to clean up the air. So what an exciting 
thing. So I just had to celebrate this Protera announcement, 
Mr. Chairman. Can I hear a cheer for Protera?
    Chairman Baird. Go, Protera. All I care about is you 
driving buses.
    Mr. Inglis. Yes, I shouldn't have admitted that. I don't 
have a CDL.
    Dr. Jackson. May I comment briefly? I think that is a 
wonderful example, and one way or another, one of the things 
that we clearly need is some sort of carbon price, and the 
reason I think for having a carbon price down the road is that 
you don't pick winners and losers in terms of technology. You 
let the private sector and markets drive the innovation and the 
energy savings and all the technologies including perhaps 
things like capturing CO<INF>2</INF> from the air but we must 
have a carbon price and we must figure out a way to do it 
smartly and efficiently to protect our jobs and business but 
that is what we need to drive exactly the kind of innovation 
that you are talking about. That is fantastic.
    Mr. Inglis. And can I pass one on to you? How about this? 
Art Laffer, one of Reagan's economic advisors, is a neighbor of 
Al Gore's in Tennessee. They agree on a 15-page bill that I 
have introduced. It reduces payroll taxes and an equal amount 
shifts those taxes to emissions. So it is a revenue-neutral 
bill. It is also border adjustable tax so it is removed on 
exports, and it is imposed on imports.
    Dr. Keith. That is beautiful. May I comment on the need for 
innovation?
    Mr. Inglis. Yes.
    Dr. Keith. I think private money can do great, and both 
Klaus and I are, in a friendly way, competing, and we both have 
private money to work on air capture. And in the long run 
prices are absolutely necessary to allow clean competition but 
we also have to find ways, and government has a role. It is not 
easy to figure out exactly how to do it right in incentivizing 
innovation because we just are not putting enough energy into 
energy innovation. The U.S. electric power industry puts as 
much money into R&D as a fraction of gross sales as the pet 
food industry does. I didn't make that number up. We checked 
that number. It is a very small amount, and we need to find a 
way to make this economy more innovative, and private money is 
necessary but we need ways for government to encourage 
innovation both through specifics of tax policies and direct 
funding for basic R&D. I think that is crucial.
    Mr. Inglis. You know, I found that out actually visiting 
the utility that is subject to a Public Service Commission. 
They are sort of proud of the fact they didn't have an R&D 
department, and the reason is that they can't figure out how to 
pass those costs along through the PSC, and so they took it as 
a point of pride that they weren't charging the consumer with 
those. So it is a real chicken and egg kind of thing. You have 
to figure out how to_but if you establish a clear price and you 
insist on accountability, which I believe, by the way, is a 
very conservative concept. I mean, I am a conservative 
Republican and I am here to tell you that if you allow people 
to be not accountable for what they do, well, then you get 
market distortions. But if you insist on accountability, then 
those incumbent technologies lose to new technologies.
    Dr. Lackner. Let me 100 percent agree with you on that 
point. We do need some way of holding people accountable for 
the carbon. My view is, this has to be somehow built into the 
price, ideally, as high upstream as you possibly can. And then 
we move on and say all these various options can compete. Your 
electricity-driven bus I think is a great idea. I am 100 
percent behind that. It is a little harder for my sports car to 
have all of those batteries in it, and so maybe the 100 times 
higher concentration in the liquid fuel, which could be 
synthetic, is another option, but let the market figure that 
out, and what I am driving towards is that we shouldn't close 
options off. Air capture is an option. Electricity is another 
option. Which of the two will win? I tell my students, I can't 
tell you today. The markets will have to figure this out and it 
is too close to call with 50 years ahead trying to work this 
out, but we do need the market to sort this out.

                      Increasing Structural Albedo

    Chairman Baird. Thanks, Mr. Inglis.
    I want to ask two more quick questions and then, Mr. 
Inglis, we may finish at that point. It seems to me that the 
most basic form of_you folks have been very informative here 
and it makes sense to me that we ought to look at this much 
more than we are. The most basic form of geoengineering that I 
have heard about is paint your roof white, which actually is 
very little cost and dramatic benefit. Is that your 
understanding, that if we could move, you know, towards lighter 
colored shingles_in fact, I understand people are making 
photovoltaic shingles now. What are your thoughts on that?
    Dr. Keith. Huge local benefits, such huge potential 
benefits__
    Chairman Baird. In this city__
    Dr. Keith. _cooling loads and city-level loads, but I think 
it is pretty clear that as a method of changing he global 
climate, it is both too small of a matter and actually not 
cheap. But locally to help cities and to help reduce cooling 
loads, it can be very effective.
    Chairman Baird. And dramatic_not dramatic but noticeable 
impact on cooling loads especially.
    Dr. Rasch. If I could respond, it doesn't have much effect 
on the brightness of the planet but it does have a big effect 
on the energy.
    Chairman Baird. So we are not going to change planetary 
albedo by painting our roofs white, but the city of Washington, 
D.C., could substantially reduce its load, and that means less 
air conditioning, that means less carbon burning for the air 
conditioning.
    Dr. Rasch. Yes, absolutely.

             Alternative Fuels and Conservation Priorities

    Chairman Baird. In terms of research dollars, one of my 
concerns_I was just at the World Economic Forum and there is a 
lot of discussion about CCS, carbon capture and sequestration. 
We are building an enormous base infrastructure right now. We 
already have one in coal but we are building_China, 
particularly, and other nations, are continuing to expand on 
the bet basically that we are going to have some sort of CCS 
that is economically viable. And the projections we have heard 
in this committee previously suggest there is a real question 
about that, and on top of that, if you are adding more carbon, 
the efficacy of reducing the existing carbon that you are just 
trying to keep up with an ever-fleeing target. It would seem to 
me that we would be much better to do a couple of things, to 
make a large investment right away in conservation because that 
is your quickest and most immediate return on investment. Then 
put money into disruptive technologies like distributed 
photovoltaics or wind or like Dr. Daniel Nocera is doing at the 
Massachusetts Institute of Technology [MIT], some form of 
better hydrogen and fuel cell rather than letting the money go 
into these big coal plants that just commit us to a coal path 
and then make all your clever devices, Dr. Lackner, not 
reducing down to 350, which we are already above 350 parts per 
million but trying to keep up with this fleeing target. What 
are your thoughts on this? If we throw so much money into new 
coal capacity versus_what does that do to us?
    Dr. Lackner. I think we should do what you just said 
because it is important to go after the low-hanging fruit, but 
I come back to where I started, particularly if you talk about 
what other countries are getting into, you are talking in the 
end about a world of 10 billion people who strive to have a 
style of living we take for granted, and I think we should do 
everything we can to allow that to happen. Now you need an 
awful lot of energy, probably four or five times as much energy 
as we are using today. So I started to ask myself the question, 
where could all that energy possibly come from? There are very 
few resources which are big enough to do that. I would argue 
one of them is solar energy. There is no question we have 
enough sunshine and we should have a big, big program there.
    Secondly, I think nuclear energy with all its problems is a 
second one which is actually large enough to solve this problem 
and can play as a truly big player. Thirdly, you have fossil 
fuels. We may be running out of oil. We are not so likely 
running out of gas and we are certainly not running out of coal 
in the foreseeable future. So in my view, we have some 200 
years there to keep banking on that fuel, provided you have 
carbon capture and storage in place. So that has to be part of 
the bundle because otherwise you simply couldn't dare to use 
all of this carbon. So in my view, standing back a little, 
there are three major resources and we better place three big 
bets, making sure that at least one of them pays out. And I am 
optimistic that each one of the three has a fair chance of 
getting through, but if we were to fail on all three, we would 
have an energy crisis of unprecedented proportion no matter how 
well we do in terms of conservation or improved efficiency. 
Those can help but they cannot solve the problem, and I would 
argue the other energy sources we are talking about on that 
scale are too small. So those three I would view as in a 
special category, and we have to pay attention that they work. 
And then the market has to figure out whether it is 30, 35, 40 
or whether it is one winner takes all in 50 years. I cannot 
predict that. But we better not close the door on any one of 
those.
    Dr. Jackson. May I add wind to that list as well? I agree 
with all of that. I can't pass up an opportunity to say thank 
you for emphasizing the need for conservation and renewables. 
Those are things that we can do now. When we are discussing 
geoengineering, we are talking about things that work at best 
10, 20 years and perhaps and hopefully never if we don't get to 
that point, but it is increasingly likely that we will get to 
it because of the increasing use of fossil fuels. So anything 
that we can do now, and there are many things we can do now to 
improve efficiency and provide incentives for renewables like 
wind and solar, I wholeheartedly support, and the market is the 
best way to do that. On top of that, though, when we build a 
coal plant, that coal plant is on the ground for 40 or 50 years 
perhaps, so I do believe, as strongly as I feel about 
conservation and renewables, that we have to pursue at least 
economic and feasibility analyses of CCS. Perhaps carbon 
capture and storage directly from the atmosphere is another 
example. These are not_it is not an either/or situation. In my 
view, these are backup plans because we are not doing the job 
we should be doing as quickly as we should be doing it.

               Coal and Carbon Capture and Sequestration

    Dr. Keith. CCS has become a bit of an orphan child, so I 
think we should do everything we can to stop building any new 
coal plants without CCS. I would be happy to see a ban. But I 
think it is tempting to say, and I agree very much with the 
idea that solar and nuclear and coal with capture are the big 
players in the long run, wind to a lesser extent. But I think 
it is important to be clear about the politics of CCS right 
now. It is an orphan child. The NGOs at best are lukewarm and 
the coal companies' preferred strategy, in many ways, would be 
to have it be R&D forever so they don't get regulated. And so 
it is sort of caught in between the two. Yet nevertheless, it 
looks to those of us who spent a lot of time on it that you 
could actually build gigawatt-scale power using coal with 
capture today, and the costs of doing that would be much lower 
than, say, the cost of solar today, much meaning factors of 
several.
    Chairman Baird. With respect, there is substantial dispute 
of that.
    Dr. Keith. I actually don't know any serious dispute. I 
have served on the IPCC panels.
    Chairman Baird. About the cost curve?
    Dr. Keith. Here is a simple way to say it. The feed-in 
tariffs that we need to make solar happen are of order 30, 40 
plus cents a kilowatt hour in places where we are really doing 
it. I helped to get in Alberta, where I come from, one of the 
first_probably what will be the first megaton-a-year scale 
plant happen. I helped to recommend and was involved in the 
contracting for that. Those costs are substantially lower. So 
they will be done in three years for a million-ton-a-year 
effort and that is baseload power. It is ugly. Nobody likes it. 
It is not sexy. It is something that sort of nobody wants but 
it is something you can actually do and provides low CO<INF>2</INF> 
electricity at a cost that is reasonable, and I think we would 
be very foolish to throw it out.
    Chairman Baird. I will not stipulate to that, having heard 
Mr. Heller's comments in Davos last week.
    Dr. Jackson. I am not sure I agree completely with that 
either.
    Dr. Lackner. It is indeed a complicated story, but if you 
look back to the sulfur discussions, the sulfur dioxide 
discussions in the 1980s, the estimate right before it happened 
where typically an order of magnitude larger. I think in the 
absence of economic incentives, prices tend to escalate and so 
I would argue there is a complicated story. If you want my 
intuitive feeling, and it is no more than that, these costs 
will come down to somewhere around $30 a ton in power plants.
    Chairman Baird. I also wanted to say, to say that it is an 
orphan child, the energy bill that passed the House had $100 
billion over time into CCS. That is a hell of an orphan. You 
were saying, Dr. Rasch, the best you could get was $1 billion. 
Was it even a billion? It was a million.
    Dr. Rasch. A billion dollars for climate, and we are 
currently at a million dollars per year for geoengineering.
    Chairman Baird. A million for geoengineering, so we are_
order of magnitude.
    Dr. Rasch. Many orders of magnitude.
    Chairman Baird. Three orders of magnitude.
    Dr. Lackner. Five.
    Chairman Baird. Five orders. Yes, right, five orders of 
magnitude. And so I don't think it is an orphan child by any 
means, and I think as an orphan child, it is a darn expensive 
child when you are putting $100 billion in. So if you are going 
to say that yes, the cost of CCS may come down, well, what if 
you put $100 billion in alternative technologies?
    And one last note on this and I will get to Mr. Inglis. The 
coal cost is not just the carbon cost. Five thousand miners a 
year die in China. It is a centralized system with a very 
inefficient transmission. We lose a tremendous amount of power 
across the transmission. There are all the other eminent domain 
issues, whether it is pipelines to transport the carbon or 
transporting the energy through those lines. I am very much, 
personally, much more of a distributed energy person with 
backups of the kind of thing you are doing, but I worry greatly 
about the big investment in coal, and $100 billion is a lot of 
darn money that could go somewhere else.
    Mr. Inglis.
    Mr. Inglis. Thank you, Mr. Chairman.

                   Economically Viable Energy Sources

    Just briefly. I don't know, Dr. Rasch, whether_you 
referenced $1 billion for a year in climate research. Our 
numbers show it is $2.5 billion.
    Dr. Rasch. I tried to cite the location for the information 
that I used to assess that, but I could be off by a factor of 
two. You can also correct me if I am not looking at the right 
numbers. I am glad to be educated on that.
    Mr. Inglis. Which is a fair amount of money. The thing I 
just go back to is, what we see in this Committee quite often 
is some things that work and we know they work. For example, 
wave energy works. It has obviously got to work. I mean, you 
can do it all kinds of waves. The question is whether it works 
economically, and the way to get things_I believe a basic rule 
of government is to basic research. I mean, it is an important 
function we do. But then once it gets into the applied range, 
what you are looking for is just economics at work, and when 
those economics start working, things happen quickly. So the 
internet came from defense research that then saw real 
opportunities in the private sector, and wow, what an 
opportunity it was.
    By the way, I might point out this 15-page bill, do another 
commercial for it. It starts out at $15 a ton, gets to $100 a 
ton over 30 years. But we can go steeper than that if you want 
to. Just give me a tax cut somewhere else. In other words, how 
low do you want to go on taxes? How low do you want to go on 
reducing those FICA taxes? I will go all the way down and then 
we will shift them on to something else. So the idea of the 
curve is, it gives a period of time for innovation and it 
starts going more steeply. But the process is_I just want to 
point out, the bill, as I said, that Art Laffer, Ronald 
Reagan's economic advisor, and Al Gore both support this. It is 
15 pages compared to the 1,200-page cap-and-trade monstrosity. 
And so_which is a tax increase, decimates American 
manufacturing and is a trading scheme that Wall Street brokers 
would blush about. And so we have to find something simpler and 
something that people can say oh, I see, we are just going to_
you are going to give me money in my pocket so I can go buy 
these wonderful shingles that Chairman Baird was just talking. 
We are getting ready to need to replace shingles on our house 
in several years. I want to replace them with solar-collecting 
shingles. But I need some money in my pocket, so reduce my FICA 
taxes and I got some money now to innovate. If you just give me 
a tax, I am stuck, I don't have money to innovate. And the cap-
and-trade folks who go around saying oh, it is not going to 
increase energy cost, well, then why do it? I mean, it is 
disingenuous. Of course it is going to increase energy cost. 
Otherwise you wouldn't be doing it.
    But in my case, what I am saying is, I have money for you 
in your pocket. Then we are going to increase energy cost but I 
admit that energy costs will go up under what Art Laffer, Al 
Gore and I are talking about. But we have got a tax cut. If Art 
Laffer is on the scene, you can be assured that it starts with 
a tax cut. And so you have money in your pocket. It is just a 
small fair tax. It is one sector fair tax.
    Anyway, enough of my commercial, Mr. Chairman. Thank you.
    Chairman Baird. I am actually a supporter of the commercial 
product.

                                Closing

    I want to thank our witnesses. We could go on for a great 
length here but you have been very generous with your time and 
your expertise, and it has been most informative to us. As is 
customary, the record will remain open for two weeks for 
additional statements for the Members and for answers to any 
follow-up questions the Committee may ask of the witnesses. And 
with that, the witnesses are excused with our great gratitude 
and appreciation for your work.
    [Whereupon, at 12:25 p.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by David Keith, Canada Research Chair in Energy and the 
        Environment, Director, ISEEE Energy and Environmental Systems 
        Group, University of Calgary

Questions submitted by Chairman Brian Baird

Q1.  Why does the rate of change of carbon dioxide concentration 
suggest climate risk?

A1. Several independent lines of evidence suggest that carbon dioxide 
concentrations reached about 1000 parts per million (ppm) during the 
beginning of the Eocene about 55 million years ago, these carbon 
dioxide levels then declined to about one third of that value over a 
few tens of millions of years. The Eocene climate was far warmer than 
today's. Crocodilians walked the shores of Axel Heiberg Island in the 
present-day Canadian Arctic. While there is lots of scientific 
uncertainty about the precise amount of climate change that will arise 
from increasing carbon dioxide levels, there is no doubt that carbon 
dioxide levels are currently being driven by combustion of fossil fuels 
and that were we to continue increasing our combustion of fuels at the 
current rate we would drive concentrations to roughly 1000 ppm by the 
end of the century.
    This increase in atmospheric carbon dioxide over a century would 
be, therefore, roughly as large as the declining carbon dioxide over 
the few tens of millions of years that followed the Eocene thermal 
maximum, that is a human driven rate of change perhaps 100,000 times 
larger than the average rate in nature.
    There is nothing wrong with the Eocene climate; there is no 
inherent reason we should prefer our crocodiles in the Florida Keys 
rather than on Axel Heiberg Island. The climate risks come from the 
rate of change, not because the current climate is some magic optimum 
for life. Our infrastructures, our crops, the very locations of our 
coastal cities have evolved for the current climate. The slow 
adaptation that has anchored us to the current climate puts us at risk 
if climate changes fast. The climate has varied for billions of years, 
and would keep changing without us, but on our current high-emissions 
path, the rate of climate change over the next century will likely be 
many times faster than humanity has experienced in the past millennia.
    While it is beyond the ability of science to predict the exact 
consequences of this increase in carbon dioxide, both our understanding 
of the physics of carbon dioxide and climate developed over the last 
century and with our understanding of the geological record suggest 
that the resulting climate changes will be dramatic. While the 
consequences of climate change may be somewhat worse or somewhat less 
severe than our models that predict, there is simply no scientific line 
of argument that concludes that we should expect no climate response to 
this increase in carbon dioxide.

Q2.  Is it possible to somewhat confine the impacts of atmospheric 
geoengineering strategies?

A2. The climate throughout the whole world is coupled together by winds 
and ocean currents that move heat and moisture between distant 
locations. This means that the whole world's climate is strongly 
coupled together as an interacting system. This strong coupling is not 
a one-to-one link. Its possible for one area of the world to cool, or 
to be cooled by some external influence such as geoengineering, while 
other parts warm. Nevertheless, in general and on average, any 
manipulation of solar radiation that substantially alters the climate 
over a large area, such as that of India or the continental United 
States, will necessarily involve the alteration of climate over much 
larger areas. Future research might find some particular locations or 
methods that reduced this coupling, but I suspect that the physics of 
the atmosphere makes it practically impossible to control climate of 
different parts the world in a completely independent fashion.
    So, to answer the specific question, geoengineering that focused on 
cooling the Arctic and thus increasing the extent of Arctic sea ice, 
could not be completely localized, and would necessarily have 
influences that would be felt over much of the northern hemisphere.
    That said, it's completely possible that geoengineering could be 
used both help cool the Arctic and help reduce the severity of climate 
change over the areas covered by the South Asian monsoon. It is not 
correct to assert that these two objectives are necessarily in 
opposition.

Q3.  Will adding sulfur in the stratosphere increased acidification the 
ocean?

A3. Sulfur added to the stratosphere will be returned to the earth as 
sulfuric acid in rain. However the amounts of sulfur now being 
contemplated are sufficiently low that there are no serious concerns 
about acidification of surface waters.
    Combustion of fossil fuels, most importantly coal, currently adds 
about 50 million tons of sulfur to the atmosphere each year. The 
resulting air pollution impairs the health and shortens the life of 
millions around the world, and also increases the acidity of surface 
waters, a phenomenon called ``acid rain''. The worst environmental 
effects come from concentrated sources that overwhelm the buffering 
capacity of local lakes causing them to become acidified. Because of 
the way the oceans are chemically buffered, this addition of sulfur is 
not a substantial contributor to ocean acidification which is primarily 
caused by carbon dioxide.
    Most discussion of sulfate geoengineering proposes adding a few 
million tons a year of sulfur to the stratosphere. At first glance, one 
might assume that the impact of this geoengineering on acidification of 
surface waters would thus be about a tenth as bad as the current impact 
of sulfur from fossil fuel combustion. However because the sulfur 
injection in the stratosphere would be deposited much more evenly 
around the world the rate of acid deposition would be far lower (e.g., 
100 times lower) than the concentrated acidic deposition that causes 
acidification of lakes by overwhelming their natural buffering 
capacity. The overall impact of these sulfur emissions on acidity of 
surface waters are therefore thought to be vanishingly small.
    While it seems unlikely that addition of sulfur in the stratosphere 
will be a significant contributor to acidification of surface waters, 
it's important to remember that there a host of other potential 
environmental problems that might arise from the injection of sulfur 
into the stratosphere, and that these can only be evaluated by a 
research program which enables scientists to quantify these risks.

Q4.  How much funding for geoengineering is appropriate?

A4. I think it's important to start with a relatively small amount of 
funding for Solar Radiation Management, and then to gradually increase 
the funding as the community of active scientists and engineers grows. 
I would suggest starting with about $5 million per year and then 
ramping the funding up towards $25 million per year over about five 
years.
    I suggest starting small because research programs (however 
important) can fail if too much money is spent too quickly. This seems 
to me a particular concern here because the topic is (justifiably) 
controversial and there is a relatively small community of serious 
scientists who seem currently inclined to work on the topic. Under 
these circumstances a sudden ``crash'' research program with a lot of 
funding would inevitably find some research which was ill considered 
and controversial raising a chance at the entire program would be 
killed. It's important to learn to walk before one runs.
    The agencies best positioned to begin funding research are likely 
the NSF and DOE's office of science, but many other agencies including, 
for example, NOAA, NASA and EPA clearly have capabilities that will be 
important as a research program grows.
    I don't believe, however, that agency funding alone will be 
sufficient for the program to thrive. There is a vital need for a 
crosscutting role which articulates the broad objectives of the 
research program, minimizes duplication, and provides a forum for 
within which interested parties, including nongovernmental civil 
society groups such as representatives of major environmental and 
industry organizations can advise on the programs scope and progress. I 
suspect that the Office of Science and Technology Policy will be best 
positioned fill this role. I suspect that the presence of broadly 
representative advisory panel would serve as a place for parties to air 
their differing views about the merits of this research area and that 
that would in turn increase the chance of establishing a stable and 
sustainable research program that serves the public interest.
    Finally I want to emphasize the need to begin research program 
quickly. Research programs are starting in Europe and in private hands 
as are international efforts to ban all such research through existing 
treaties. The absence of a U.S. federal research program means that the 
U.S. government is unable to play an effective role in shaping the 
direction of research on solar radiation management in the public 
interest.

Q4.  How to coordinate SRM and CDR?

A4. As I said in my opening testimony: SRM and CDR each provide a means 
to manage climate risks; but they are wholly distinct with respect to 
(a) the science and technology required to develop, test and deploy 
them; (b) their costs and environmental risks; and, (c) the challenges 
they pose for public policy and regulation.
    Because these technologies have little in common, I suggest that we 
will have a better chance to craft sensible policy if we treat them 
separately.
    As research programs, I don't believe they require more 
coordination with each other than either of them do with other areas of 
climate related research such as research into low carbon energy 
systems or adaptation to climate change. All of these (and others) need 
to be woven into a coherent national strategy for managing climate 
risk. But I see no special reason for tight coordination between SRM 
and CDR research. I don't believe one should attempt to avoid use of 
the word geoengineering, as attempts to avoid controversy by avoiding 
use of controversial terms are rarely, if ever, well advised; but in 
crafting a research program should one should treat SRM and CDR 
independently and used the word geoengineering primarily in association 
with SRM.
                   Answers to Post-Hearing Questions
Dr. Philip Rasch, Chief Scientist for Climate Science, Laboratory 
        Fellow, Atmospheric Sciences & Global Change Division, Pacific 
        Northwest National Laboratory

Questions submitted by Chairman Brian Baird

Q1.  In your testimony you suggested employed field and modeling 
studies to examine the aerosol indirect effect, which is critical to 
understanding the marine cloud whitening strategy, and climate change 
more generally. Please describe what is lacking in our understanding as 
it applies to geoengineering?

A1. As a reminder, the term ``aerosol indirect effect'' refers to the 
response of clouds to the presence of aerosols. Aerosols affect clouds 
in many ways. They can act to ``whiten'' clouds or make them more 
extensive, or more persistent, all of which will make the clouds more 
reflective to sunlight, and thus cool the planet. But aerosols can also 
act to trigger precipitation, depleting the cloud of condensed water, 
reducing cloud amount, and reducing the cloud lifetime, making the 
clouds ``less white''. These processes can act simultaneously, with 
some effects essentially counteracting others. This makes the effect of 
aerosols on clouds very uncertain (this is thoroughly discussed in the 
Assessment of the Intergovernmental Panel on Climate Change report). 
Science currently believes that on balance that aerosols tend to make 
clouds whiter, and that increasing aerosols will tend to cool the 
planet.
    Key points regarding this feature of the climate system as it 
applies to geoengineering include:

        1.  The ``cloud whitening'' geoengineering strategy depends 
        upon the ``more aerosolsT more/brighter cloudsT cooler planet'' 
        effect to work. We need to be sure that this aspect of the 
        aerosol indirect effect is the dominant one for this 
        geoengineering strategy to work.

        2.  Equally important, the aerosol indirect effect is critical 
        to our understanding of climate change in the past, and in the 
        future. Scientists believe that aerosols have increased 
        dramatically over the last 150 years. If our understanding is 
        correct, then the aerosols will have tended to cool the planet, 
        partially compensating for the warming arising from increasing 
        greenhouse gas concentrations. We believe that in the future 
        the warming from more and more greenhouse gases will eventually 
        ``win out'' over the cooling from aerosols, especially if we 
        continue to clean up our emissions of aerosols. But in the past 
        we think both effects played a role. Our lack of precision in 
        knowing how much aerosols acted to cool the planet in the past 
        also interferes with our ability to identify how much the 
        greenhouse gases warmed the planet in the past and will warm 
        the planet in the future.

    The same research on the aerosol indirect effect that will help us 
evaluate the positive and negative consequences of geoengineering will 
help us understand how much aerosols have been compensating for the 
warming arising from greenhouse gases. Our lack of understanding 
confounds our ability to interpret the past temperature record, and to 
predict the changes that will occur in the future.

What kinds of studies would be most useful for exploring the aerosol 
                    indirect effect?

    One very good way of understanding the aerosol indirect effect is 
to try to deliberately change a cloud system for a short time period. 
One would try to measure the cloud properties in an ``unperturbed 
environment'' and then do the same kind of measurement for the same 
type of clouds after deliberately and carefully trying to change the 
clouds to see whether our models can predict the changes that we see in 
the cloud system. The desired perturbation would be introduced for a 
relatively short period of time, over a small area. Mankind changes 
clouds all the time through pollution, but we don't do it in a way that 
makes it easy to measure, or to identify the response of the clouds.
    The best way to do this is in the context of a scientific field 
experiment. The field experiment should be designed to deliberately 
change the local cloud system for a short time. It would introduce a 
local change far smaller than the kinds of changes to aerosol amounts 
introduced by, for example, emissions from a large city, or a large 
forest fire, and thus the field experiment would be expected to have 
much less effect on climate than those already produced by many other 
situations.
    Our models suggest that the cloud systems most susceptible to the 
``cloud whitening effect'' are those called ``marine stratocumulus''. 
These cloud systems are also very important climatically, so it would 
be an obvious cloud system to study first. Marine Stratocumulus clouds 
were recently studied in the VOCALS field experiment. The difference 
between VOCALS and a study designed to understand the aerosol indirect 
effect would be that the study would attempt to deliberately change the 
cloud system for a short time.

Q2.  In your testimony you explain that lab and fieldwork are critical 
to assure that the physical processes that are critical to climate are 
understood. What scale would ultimately be needed to field test these 
SRM technologies to develop the technology and to test its effects?

A2. I advocate conducting scientific research to understand approaches 
to and implications of geoengineering, particularly as they relate to a 
deeper understanding of the dynamic processes and interactions of 
aerosols and cloud systems. Lab and Field tests are required at a 
variety of scales to explore the relevant issues. I describe a sequence 
of studies in the next few paragraphs.

        1.  At the smallest time and space scales it is important to 
        see whether we can produce the sea salt particles that are 
        suggested to be used to seed the clouds. The first steps would 
        involve production of the particles on a laboratory bench scale 
        for a few seconds.

        2.  If engineers were able to produce the particles for a few 
        seconds then the next stage would be to study how those 
        particles interact with each other and their environment after 
        they are produced. Do the particles bump into each other and 
        stick to each other growing big enough to sediment out from 
        gravity? Do they mix rapidly with surrounding air or stay 
        confined near the surface like the particles from a fog 
        machine? Some of these tests could be done in a big warehouse, 
        others off the end of a pier for a few minutes, to a few hours.

        3.  If the previous tests are positive then larger scale field 
        tests become informative that require studies of over areas of 
        the ocean the size of a few tens of city blocks for a few hours 
        to answer questions like the following. How rapidly would the 
        salt particles mix into the surrounding air? How long would 
        they last? Does it matter whether they are produced during the 
        day or at night? Do they go into the clouds as our models 
        suggest? Does it matter what kind of a cloud environment the 
        particles are near? (our models suggest that it would matter). 
        How many particles survive after they are produced. How rapidly 
        do they mix with their surroundings? All of these studies would 
        take place for such a small area and over such a small amount 
        of time that they would be indiscernible a few kilometers away, 
        or a few hours after they were stopped.

        4.  The next set of field tests would reach the scale where the 
        sea salt particles might actually influence cloud system for a 
        short period of time. Stage 1 (involving a single small 
        research aircraft nearby a single emitter of salt particles) 
        would be to see whether scientists could produce a ``ship 
        track'' like the ones that are seen regularly in satellite 
        pictures as a result of ship pollution, and to try to construct 
        experiments where the effects of the sea salt particle 
        emissions could produce a measurable effect on the cloud. Stage 
        2 studies on a larger scale (maybe a box a hundred kilometers 
        on a side, involving 2-3 aircraft and a ship to make 
        measurements above multiple sources of sea salt particles) 
        would look at: a) how many particles are needed to brighten a 
        particular kind of cloud; b) the influence of the seeding on 
        surrounding clouds; c) how many sources that emit particles are 
        required to influence a particular type of cloud over a small 
        region (say a square a few tens of kilometers on a side). One 
        would then be in a position to use that kind of a perturbation 
        to answer the question of whether our models are able to 
        predict the evolution of a cloud and its response to a 
        perturbation. Various strategies could be employed by turning 
        the sea salt particle source on and off for a few hours, or by 
        seeding patches of clouds adjacent to unseeded regions, and 
        contrasting the behavior of the cloud in both regions to 
        explore how the salt particles influence that particular cloud 
        type. This kind of field experiment should be performed at a 
        variety of locations to see whether scientists are able to 
        predict the response of models to such a perturbation for 
        different situations.

    Larger scale studies: All of the previous field tests would be 
designed to introduce a local change that is far smaller than the kinds 
of changes to aerosol amounts introduced by, for example, emissions 
from a large city, or a large forest fire, and the emissions would take 
place for only a brief time. Because the sea salt particles, and the 
clouds themselves persist for only a few hours to a few days the field 
experiment effects would disappear rapidly, and one would not be able 
to detect the effects of the experiment itself a few days after sea 
salt emissions were terminated.
    If the previous studies indicated that it were possible to 
introduce measurable and predictable changes in clouds, then more 
intrusive studies on the climate system would need to be considered. 
The next level of field experiments could have possible (temporary) 
effects on the climate system, and such studies would require a much 
more intensive level of scrutiny, governance and planning. These type 
of field experiments would attempt to introduce significant changes in 
clouds for a sufficiently long time over a broad enough region that 
they would temporarily cool an small area of the ocean surface, and 
possibly introduce small shifts in winds or precipitation patterns. 
While the study is taking place, it could have an equivalent effect to 
that introduced by the pollution from a city on clouds. It would still 
have a much smaller impact on climate than many major features like 
ENSO, but it could be large enough to actually be detectable days or 
weeks after the field experiment had taken place. It will take a 
dedicated and coherent research program to understand how one would 
design such field experiments to maximize the possibility of detecting 
temporary changes in surface temperature, winds and precipitation. One 
wants to make changes that are large enough to be detectable, but small 
enough that they will disappear soon after the field experiment is 
over. It is difficult to outline a complete and appropriate strategy at 
this scale without more research.
    Field experiments at scales larger than this, for longer time 
periods would have more and more impact on the climate, and thus 
require more and more caution.

Q3.  Is it possible to somewhat confine the impacts of atmospheric-
based geoengineering strategies, marine cloud whitening or 
stratospheric injections, to protect geographically-specific areas?

A3. The Earth system is interconnected in many ways, and all 
geoengineering strategies will probably affect all parts of the planet, 
but the effects will be felt most strongly near the area where the 
sunlight shading is strongest. The marine cloud whitening strategy 
should have a much more ``localized influence'' than the stratospheric 
aerosol strategy because the aerosols near the surface and the clouds 
they affect have a much shorter lifetime than the stratospheric 
aerosols. Climate models suggest that the cloud whitening strategy will 
maximize the cooling in local regions, although the effects will 
gradually spread away from a local area as the planet adjusts to the 
local cooling and that cooling effect is transmitted to other areas by 
the winds and ocean currents. This aspect of geoengineering research 
requires more study.

For example could SRM be localized specifically for the protection of 
                    polar ice?

    It may in principle be possible to apply either the cloud whitening 
strategy, or the stratospheric aerosol strategy to protect polar ice. 
Computer model studies by Caldeira and colleagues suggest that if it 
were possible to shade the Arctic by reducing sunlight reaching the 
Arctic surface by 10-20% then polar ice could be preserved to the 
current ice extent and thickness, but Robock and colleagues have shown 
that stratospheric aerosols introduced over the Arctic will spread to 
lower latitudes and influences features there also. It may also be 
possible to use the cloud whitening strategy to maintain sea ice extent 
and thickness, because there are many low clouds in the Arctic during 
the summertime. There are a number of relevant studies that could be 
made to explore these issues:

        1.  It would be useful to understand how stratospheric aerosols 
        introduced in the polar regions evolve. This would include 
        knowing how rapidly the aerosols propagate to lower latitudes, 
        and how rapidly they are removed from the stratosphere by 
        sedimentation and mixing. Both computer models and field 
        experiments should be used in these kinds of studies.

        2.  It would be useful to explore how susceptible low-level 
        polar clouds are to whitening by using aerosol particles. Most 
        of the focus to date has been on whitening clouds at 
        subtropical latitudes and little or no studies have been done 
        in polar regions. Literature reviews, computer models studies, 
        and fieldwork would help in identifying the efficacy of 
        whitening polar clouds.

        3.  It is worthwhile noting that very little work has yet to be 
        done in studying the influence of geoengineering on ocean 
        features (boundary currents, deep water formation and features 
        like ENSO) or ecosystems. The changes to these features will 
        occur only if geoengineering techniques are applied for months 
        or years, so they may not be critical for the very earliest 
        studies but these features are very important to the planet, 
        and work should be done to understand the impact of 
        geoengineering on them.

If it is unclear whether or not localized geoengineering is possible, 
                    what types of research could help inform the 
                    answer?

    More work can be done in each of the areas mentioned above with 
computer modeling. As technology becomes available to produce the 
particles needed to explore a given geoengineering strategy it would 
make sense to develop small scale field programs to verify the behavior 
predicted by the computer models. As discussed above, the initial field 
studies would not be designed to understand the consequences of 
geoengineering to the planet, but only to explore our understanding of 
the effect on components of the climate system at the process level by 
answering such questions as: 1) how rapidly do stratospheric aerosol 
particles grow? 2) how quickly are they flushed out of the 
stratosphere? 3) can we produce stratospheric aerosols in sufficient 
numbers that they might shield the planet? 4) how do sea salt particles 
mix near the ocean surface in polar regions? 5) Is there special 
chemistry taking place on those sea salt particles that influences for 
example ozone concentrations in the Arctic? 6) do the sea salt 
particles act to effectively whiten Arctic clouds in summer? These are 
just examples of the questions that need to be considered.

Q4.  In your testimony, you stated that geoengineering research 
receives about $1M per year in funding, and roughly $200,000 of that is 
from federal sources. What initial funding levels would you recommend 
for a federal program authorizing atmospheric sulfate injection and 
marine cloud whitening research?

A4. I think a minimal funding level of $5-10M/year from federal sources 
for scientific research would help progress in geoengineering research, 
and also provide reassurance to society that the research is being done 
in an objective and unbiased manner. This level would allow some 
exploratory work to take place with strategies that have already been 
thought of. The work could involve computer modeling studies, and some 
support for lab and bench studies to explore the technology needed to 
produce aerosol particles for either the stratospheric aerosol, or the 
cloud whitening to be done. That funding level might also allow some 
support for as yet unidentified strategies to be fleshed out.
    As our understanding of a particular approach increases more money 
would be required. A single ambitious field study for cloud whitening 
would involving multiple aircraft, a ship for a month, support for 
satellite studies and scientific research would require $20-30M to see 
whether one could actually produce a measurable effect on the 
reflectivity of the planet locally. More money would be needed for 
planning the field experiment and analyzing the results.
    It would probably take another factor of 10 in funding if one were 
to then start considering measuring the consequences to the planet (by 
for example looking for the impact on ecosystems, or on ocean features) 
for geoengineering that might actually have a measurable effect on the 
planet.

Which agencies and or national labs would be best equipped to initiate 
                    such modeling and laboratory and field-based 
                    research?

    NASA, DOE, NOAA, and NSF all have a mandate to study various 
relevant components of the earth system and climate change science. I 
believe firmly that each of these agencies can and should participate 
in research in stratospheric aerosol and cloud whitening strategies. 
Here is a quick list of some of the relevant labs by agency and their 
particular expertise. Each of these agencies also funds university and 
other research entities and they should also play a part.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    These Agencies also have a great deal of relevant expertise in CDR, 
but I did not testify on that topic and will not make recommendations 
on how research in that area should be conducted.

Q5.  The science and technology committee has held three geoengineering 
hearings and each witness at each hearing has emphasized the deep 
distinctions between the two types of geoengineering: solar radiation 
management) SRM) and carbon dioxide removal (CDR). If legislation were 
developed to facilitate geoengineering research, how should these 
distinctions be dealt with or accommodated? For example should CDR 
research initiatives be sited amongst existing activities at federal 
agencies while SRM research is authorized separately under the umbrella 
of ``geoengineering research?''

A5. I agree that CDR and SRM techniques should be treated separately, 
both at the funding level, and in terms of their oversight, and 
research goals. I see no reason why CDR research could not be 
accommodated within the existing activities involving managements of 
CO<INF>2</INF> and the Carbon Cycle. I do believe that SRM should be 
authorized separately.
                   Answers to Post-Hearing Questions
Dr. Klaus Lackner, Department Chair, Earth and Environmental 
        Engineering, Ewing Worzel Professor of Geophysics, Columbia 
        University

Questions submitted by Chairman Brian Baird

Q1.  The mineral sequestration technologies you describe are certainly 
distinct from the technologies being researched through existing CCS 
programs at the Department of Energy, such as the Clean Coal Power 
Initiative (CCPI). In your testimony, however, you described mineral 
sequestration as ``Carbon Storage 2.0.''

        a.  Should mineral sequestration research be sited among the 
        existing CCS activities within the federal agencies?

        b.  Alternatively, should mineral sequestration research 
        activities be undertaken in a newly established, separate 
        research program?

        c.  Which federal agency(s) would be best suited to carry out 
        mineral sequestration research activities?

A1. Mineral sequestration is a particular form of CCS, so it could well 
be sited among existing CCS programs. However, most funded CCS 
technologies are further down the development path. Mineral 
sequestration and other more innovative technologies would benefit from 
an institutional home that looks at a longer development horizon. A 
stronger role of basic sciences and the USGS would be very welcome.

Q2.  The Science and Technology Committee has held three geoengineering 
hearings, and each witness at each hearing has emphasized the deep 
distinctions between the two types of geoengineering: solar radiation 
management (SRM) and carbon dioxide removal (CDR).

        a.  If legislation were developed to facilitate geoengineering 
        research, how should these distinctions be dealt with or 
        accommodated?

        b.  For example, should CDR research initiatives be sited among 
        existing activities at federal agencies, while SRM research is 
        authorized separately under the umbrella of ``geoengineering 
        research?''

A2. Solar radiation management and most carbon dioxide removal have 
very little in common. Specifically, the technical capture of carbon 
dioxide from the air is certainly a form of CCS and naturally fits 
under this umbrella. It is very different from technologies that aim to 
modify natural geodynamic systems.
                   Answers to Post-Hearing Questions
Dr. Robert Jackson, Nicholas Chair of Global Environmental Change, 
        Professor, Biology Department, Duke University

Questions submitted by Chairman Brian Baird

Q1.  You noted in your testimony that reflective materials over deserts 
would be an undesirable geoengineering strategy because of its harmful 
effects on ecosystems. Please elaborate upon this statement.

A1. This suggestion strikes me as a poor idea, environmentally and 
scientifically. Deserts are unique ecosystems with a diverse array of 
life. They are not a wasteland to be covered over and forgotten.
    Based on the best science available, I believe that placing 
reflective shields over deserts (and other comparable manipulative 
strategies) is likely to be both unsustainable and harmful to native 
species and ecosystems. Take as one example the suggestion to use a 
reflective polyethylene-aluminum surface. This shield would alter 
almost every fundamental aspect of the native habitat, from the amount 
of sunlight received (by definition) to the way that rainfall reaches 
the ground. Implemented over the millions of acres required to make a 
difference to climate, such a shield could also alter cloud cover, 
weather, and many other important factors.
    Examined from a different perspective, consider the recent public 
opposition to solar-thermal power facilities in California, Nevada, and 
other states. If siting relatively limited power facilities in desert 
ecosystems is difficult, how likely is the public to accept such a 
disruptive shield for thousands of square miles in the United States? 
Taxpayers in the United States deserve better solutions than proposals 
such as this one.

Q2.  You described in your testimony the interrelated, and sometimes 
conflicting, impacts on atmospheric carbon concentration and surface 
albedo caused by large-scale afforestation. While new forests sequester 
atmospheric carbon through photosynthesis, the dark growth can also 
decrease the local reflectivity, causing more sunlight to be absorbed. 
One article written by scientists at Lawrence Livermore National 
Lab,\1\ among others, suggests that because of this relationship, 
tropical afforestation would be very beneficial, but afforestation in 
temperate regions would be marginally useful.
---------------------------------------------------------------------------
    \1\ Bala, Govindasamy et al.``Combined Climate and carbon-cycle 
effects of large-scale deforestation.'' PNAS, Volume 104, no. 16. April 
17, 2007. Archived online at: http://www.pnas.org/content/104/16/
6550.abstract as of April 27, 2010.

---------------------------------------------------------------------------
        a.  Do you agree with this assessment?

        b.  What geographic areas are, in general, most appropriate for 
        afforestation, and what types should be avoided?

A2. My response below is a summary based on the information in Jackson 
et al. 2008 (Jackson RB, JT Randerson, JG Canadell, RG Anderson, R 
Avissar, DD Baldocchi, GB Bonan, K Caldeira, NS Diffenbaugh, CB Field, 
BA Hungate, EG Jobbagy, LM Kueppers, MD Nosetto, DE Pataki 2008 
Protecting Climate with Forests. Environmental Research Letters 
3:044006).
    Based on decades of research in carbon sequestration and 
biophysics, we (the authors of the above paper) suggest that avoided 
deforestation, forest restoration, and afforestation in the tropics 
provide the greatest value for slowing climate change. Tropical forests 
combine rapid rates of carbon storage with biophysical effects that are 
beneficial in many settings, including greater convective rainfall. 
Forestry projects in warm-temperate regions, such as the southeastern 
US, can also help reduce warming, but large uncertainties remain for 
the net climate effects of forestry projects in temperate regions. 
Forestry projects in boreal systems are less likely to provide climate 
cooling because of the strong snow-cover feedback. Thus, incentives for 
reforesting boreal systems should be preceded by thorough analyses of 
the true cooling potential before being included in climate policies.
    Policies could also be crafted to provide incentives for beneficial 
management practices. For instance, urban forestry provides the 
opportunity to reduce energy use directly; in temperate regions 
deciduous trees block sunlight in summer, reducing the energy needed to 
cool buildings, but they allow sunlight to warm buildings in winter. In 
addition to choosing appropriate deciduous species, foresters could 
also select trees that are `brighter', such as poplars, with albedos 
relatively close to those of the grasses or crops they replace. 
Additionally, forest planting and restoration can be used to reclaim 
damaged lands, reducing erosion and stabilizing streambanks.
    It is important to remember that trade-offs and unintended 
consequences are possible when forests are included in climate 
policies. The choice of tree species matters. Eucalypts, for instance, 
grow quickly and have a fairly bright albedo, but they are fireprone, 
can be invasive, and typically use more water than native vegetation. 
Because forestry projects can appropriate scarce water resources, they 
may be poor choices in drier regions. Applying fertilizers in forest 
sequestration projects helps trees grow more quickly but also increases 
the emissions of nitrous oxide, a potent greenhouse gas. Finally and 
perhaps most importantly, forests provide a wide range of important 
services, including preserving biodiversity, wildlife habitat, and 
freshwater supply. To the greatest extent possible, policies designed 
for climate change mitigation should not jeopardize other key ecosystem 
services.

Q3.  In your testimony you recommended that the U.S. Global Change 
Research Program lead domestic geoengineering research efforts.

        a.  Is one or more of the existing interagency working groups 
        within the USGCRP equipped to absorb geoengineering research? 
        Or should one or more new working groups be created within the 
        USGCRP to work on geoengineering?

A3. Aspects of the science of geoengineering cut across many of the 
working groups within USGCRP, including atmospheric composition, global 
carbon cycle, ecosystems, human contributions and responses, and land 
use and land cover change. For that reason, a new crosscutting working 
group may be needed. Complicating matters further, coordination with 
the U.S. Climate Change Technology Program (CCTP) on the technology of 
geoengineering will be equally important.

Q4.  The Science and Technology Committee has held three geoengineering 
hearings, and each witness at each hearing has emphasized the deep 
distinctions between the two types of geoengineering: solar radiation 
management (SRM) and carbon dioxide removal (CDR).

        a.  If legislation were developed to facilitate geoengineering 
        research, how should these distinctions be dealt with or 
        accommodated?

        b.  For example, should CDR research initiatives be sited among 
        existing activities at federal agencies, while SRM research is 
        authorized separately under the umbrella of ``geoengineering 
        research?''

A4. The federal government's first priority for geoengineering research 
should be to provide incentives for carbon dioxide removal. The sooner 
we invest in, and make progress on, reducing greenhouse gas emissions 
today and promote ways to restore the atmosphere through carbon-
removing technologies in the future, the less likely we are ever to 
need much riskier global sunshades. Our goal should be to cure climate 
change outright, not in treating a few of its symptoms.
    In a new paper in Issues in Science and Technology (Jackson and 
Salzman 2010 Pursuing Geoengineering for Atmospheric Restoration), I 
coin the term ``atmospheric restoration'' as a guiding principle for 
prioritizing geoengineering efforts. The goal of atmospheric 
restoration is to return the atmosphere to a less degraded or damaged 
state and ultimately to its pre-industrial condition. Our climate is 
already changing, and we need to explore at least some kinds of carbon-
removal technologies because energy efficiency and renewables cannot 
take carbon dioxide out of the air once it's there.
    In response to your last question about where to place research 
initiatives, I have already stated that coordination through the USGCRP 
(and CCTP) is needed. If a different option is needed, some CDR 
activities could be sited within the Department of Energy. However, 
ocean fertilization is just one example of a CDR strategy that does not 
fit well in DOE and would be better placed in a different department or 
agency.
    I do not believe that a separate umbrella of ``geoengineering 
research'' should be authorized specifically for SRM activities. Such a 
stand-alone structure would give SRM greater visibility (and priority) 
than it deserves compared to CDR. It would also be counter-productive 
scientifically. Splitting CDR and SRM research may be desirable 
administratively; I simply take exception to the suggestion that CDM 
belongs in current agencies but SRM doesn't and deserves its own 
structure.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



   GEOENGINEERING III: DOMESTIC AND INTERNATIONAL RESEARCH GOVERNANCE

                              ----------                              


                        THURSDAY, MARCH 18, 2010

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 12:06 p.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                   ``Geoengineering III: Domestic and

                  International Research Governance''

                        thursday, march 18, 2010
                               12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, March 18, 2010, the House Committee on Science and 
Technology will hold a hearing entitled ``Geoengineering III: Domestic 
and International Research Governance.'' The purpose of this hearing is 
to explore the governance needs, both domestic and international, to 
initiate geoengineering research programs. Specifically, discussion 
will focus on governance to guide potential geoengineering research 
projects and which U.S. agencies and institutions have the capacity or 
authorities to conduct such research.

Witnesses

Panel I

        <bullet>  The Honorable Phil Willis, MP is the Chair of the 
        Science and Technology Committee in the United Kingdom House of 
        Commons.\1\
---------------------------------------------------------------------------
    \1\ Chairman Willis will testify via satellite.

---------------------------------------------------------------------------
Panel II

        <bullet>  Dr. Frank Rusco is the Director of Natural Resources 
        and Environment at the Government Accountability Office (GAO).

        <bullet>  Dr. Scott Barrett is the Lenfest Professor of Natural 
        Resource Economics at the School of International and Public 
        Affairs and the Earth Institute at Columbia University.

        <bullet>  Dr. Jane Long is the Deputy Principal Associate 
        Director at Large and a Fellow for the Center for Global 
        Strategic Research at Lawrence Livermore National Lab.

        <bullet>  Dr. Granger Morgan is the Department Head of 
        Engineering and Public Policy and Lord Chair Professor in 
        Engineering at Carnegie Mellon University.

Background

    Geoengineering can be described as the deliberate large-scale 
modification of the earth's climate systems for the purposes of 
counteracting climate change. Geoengineering has recently gained 
recognition as a potential tool in our response to climate change. 
However, the science is new and largely untested and the international 
implications of research and demonstration are complex and often novel 
in nature. For these reasons, a pressing need for governance of 
geoengineering research has emerged. Geoengineering can be 
controversial because of the potential for environmental harm and 
adverse socio-political impacts, uncertainty regarding the 
effectiveness and cost of the technologies, the scale that may be 
needed to demonstrate the technology, and concern that the prospect of 
geoengineering may weaken current climate change mitigation efforts.\2\ 
These issues highlight the potential barriers to research as well as 
the need for governance of these emerging technologies. Experts are 
calling for a governance model or set of models that will allow the 
field to develop in an adaptive manner that facilitates development and 
exploration of effective technologies that are environmentally and 
socially acceptable while being relevant for both domestic and 
international policy solutions.
---------------------------------------------------------------------------
    \2\ The Royal Society (2009). Geoengineering the Climate: Science, 
Governance and Uncertainty. Edited by J. Sheperd et al., New York.
---------------------------------------------------------------------------
    There is broad consensus among geoengineering experts that 
expansive reductions in greenhouse gas emissions must be made to limit 
the effects of climate change. However, political inertia and trends in 
greenhouse gas emissions indicate that traditional mitigation efforts 
may not provide an adequate response to mitigate the effects of climate 
change.\3\ Tools other than emissions reductions may be therefore 
needed. Proponents claim that geoengineering technologies, compared to 
traditional mitigation techniques, offer faster-acting, politically 
palatable, and cost-effective solutions. Only through research and 
testing can these assertions be validated or refuted. That said, 
greenhouse gas mitigation strategies alone may ultimately prove 
insufficient and the lead times that will be needed for sufficient 
geoengineering research, should it become necessary for deployment, may 
be years long.
---------------------------------------------------------------------------
    \3\ Lenton and Vaughan (2008). A review of climate geoengineering 
options. Tyndal Centre for Climate Change Research, UEA.
---------------------------------------------------------------------------
    Today's hearing is the third in a series of hearings that is 
intended to provide a forum for an open discussion of the merits and 
disadvantages of geoengineering research. These hearings are not 
intended to be an endorsement of geoengineering deployment.

Collaboration with the U.K. Science and Technology Committee

    The U.S. and the U.K. Science and Technology Committees have 
successfully built upon each other's efforts to advance the 
international and domestic dialogues on the need for international 
collaboration on regulation, oversight, environmental monitoring, and 
funding of geoengineering research. In April of 2009, Chairman Gordon 
met with the Science and Technology Committee \4\ of the U.K. House of 
Commons, chaired by the Honorable Phil Willis, MP. The chairmen agreed 
that their committees should identify a subject for collaboration. The 
U.K. Committee had recently published a report, Engineering, Turning 
Ideas into Reality, recommending that the government develop a 
publicly-funded program of geoengineering research. Given the 
international implications of geoengineering research and the 
authorities and interests of each committee, geoengineering emerged as 
an appropriate subject for collaboration by the chairmen.
---------------------------------------------------------------------------
    \4\ Formerly the U.K. Innovation, Universities, Science and Skills 
Committee.
---------------------------------------------------------------------------
    The chairmen coordinated the research and both committees have been 
in close communication throughout. The U.K. Committee established its 
terms of reference for its inquiry into the regulation of 
geoengineering, issued a call for evidence in November 2009, and is 
issuing a Committee report on the topic in March 2010. This report will 
be submitted as written testimony on behalf of Chairman Willis at 
today's hearing. The official agreement between the U.S. and U.K. 
Committees, outlining the terms of work and collaborative agreement, 
will be included in the final hearing record.
    In the first session of the 111th Congress the U.S. Science and 
Technology Committee began a formal inquiry into the potential for 
geoengineering to be a tool of last resort in a much broader program of 
climate change mitigation and adaptation strategies. To initiate this, 
Chairman Gordon requested information on geoengineering from the 
Government Accountability Office (GAO) on September 21, 2009. Dr. Frank 
Rusco, Director of Natural Resources and Environment at GAO will 
present the draft response to this request as his written testimony at 
today's hearing. The Committee formally introduced the topic of 
geoengineering research in Congress on November 5, 2009 with a Science 
and Technology Full Committee hearing, ``Geoengineering: Assessing the 
Implications of Large-Scale Climate Intervention.'' On February 4, 2010 
the Energy and Environment Subcommittee held the second hearing in the 
series, ``Geoengineering II: The Scientific Basis and Engineering 
Challenges.'' Together with today's hearing, this series of hearings 
serves as the foundation for an inclusive and transparent dialogue on 
geoengineering at the Congressional level.

Definition of Geoengineering

    Geoengineering technologies aim to intervene in the climate system 
through large-scale and deliberate modifications of the earth's energy 
balance in order to reduce temperatures and counteract the effects of 
climate change.\5\ Most proposed geoengineering technologies fall into 
two categories: Carbon Dioxide Removal (CDR) and Solar Radiation 
Management (SRM). The objective of SRM methods is to reflect a portion 
of the sun's radiation back into space, thereby reducing the amount of 
solar radiation trapped in the earth's atmosphere and stabilizing its 
energy balance. CDR methods propose to reduce excess CO<INF>2</INF> 
concentrations by capturing, storing or consuming carbon directly from 
air, as compared to direct capture from power plant flue gas and 
storage as a gas. CDR proposals typically include such methods as 
carbon sequestration in biomass and soils, modified forestry 
management, ocean fertilization, modified ocean circulation, non-
traditional carbon capture, sequestration, distribution of mined 
minerals over agricultural soils, among others.\6\
---------------------------------------------------------------------------
    \5\ The Royal Society (2009).
    \6\ See the draft CRS report (2010) that is attached to this 
charter for descriptions of CDR and SRM technologies.
---------------------------------------------------------------------------
    The above definition of geoengineering may need to be modified 
going forward to create a more productive discourse on our response to 
climate change. CDR technologies remove excess amounts of CO<INF>2</INF> 
from the air, thus presenting different hazards and risks than SRM 
technologies. In fact, many CDR technologies could be categorized with 
traditional carbon mitigation strategies, especially if they were 
undertaken at a small scale. For example, a mid-scale program for 
avoided reforestation does not carry the same risks as large-scale 
atmospheric sulfuric injections. In fact, such a program's risks and 
challenges may not be greatly divergent from some traditional carbon 
management proposals, such as carbon credits. CDR technologies may not 
invoke the need for international governance instruments either. SRM 
approaches, on the other hand, call for the introduction of 
technologies into the environment; therefore, presenting novel 
challenges to governance and larger hurdles for basic research and risk 
assessment. Some experts suggest that the term ``geoengineering'' 
encompass fewer of the more benign technologies discussed above. Coming 
to a resolution on appropriate terminology for this field may be a key 
step to increasing public understanding of geoengineering and assist 
the field in moving forward.

Domestic Research

    Although formal research in Federal agencies has been largely 
limited to a small number of National Science Foundation (NSF) grants 
to study closely-scoped issues related to geoengineering,\7\ it is 
clear that a number of Federal agencies have jurisdiction over one or 
more areas imbedded in geoengineering research. It is as yet unclear 
how Federal geoengineering research programs could be organized or 
allocated among Federal research bodies, as well as how non-
governmental research consortia might contribute. The location of 
existing expertise in pertinent scientific and engineering fields, and 
the ability to execute comprehensive plans for interdisciplinary, 
inter-agency coordination would be key considerations in structuring 
domestic research in this area. Furthermore, it should be recognized 
that many of the developments and research activities needed for a 
formal geoengineering research program are also desirable for non-
geoengineering purposes, such as general climate science research.
---------------------------------------------------------------------------
    \7\ For example, researchers at Rutgers University received a grant 
in 2008 to model stratospheric injections and sun shading.
---------------------------------------------------------------------------
    The following are examples of how existing research capacities in 
Federal agencies could be engaged in geoengineering research from the 
basic science and engineering behind the technology, to quantifying its 
effectiveness, and to understanding the risk of such hazards as 
environmental impacts.
    The National Science Foundation (NSF) supports basic foundational 
research that may assist in the identification of the most promising 
geoengineering technologies. The Biological and Environmental Research 
program (BER) at the Department of Energy's (DOE) Office of Science 
houses key expertise related to various elements of atmospheric and 
land-based geoengineering strategies. Satellite capabilities sited 
within the National Aeronautics and Space Administration (NASA) and the 
National Oceanic and Atmospheric Administration (NOAA) could help 
identify potential locations for land-based carbon management, inform 
atmospheric geoengineering approaches, and monitor large-scale land use 
changes. Climate modeling tools at NOAA, the Environmental Protection 
Agency (EPA) and DOE's Office of Science could potentially be used to 
monitor large-scale demonstration projects. Such resources could also 
be used in a basic research setting for reverse climate modeling 
activities to project the potential impacts of decreased solar 
radiation and atmospheric carbon levels. High-end computing 
capabilities within the Office of Science at DOE, e.g., facilities 
located at Oak Ridge National Lab, may be suited to provide such highly 
detailed climate projections.
    For all CDR geoengineering strategies, a robust carbon accounting 
and verification program would be needed to ensure program 
effectiveness. Existing expertise in programs at EPA, the National 
Institute of Standards and Technology (NIST), and the Ameriflux and 
Atmospheric Radiation Measurement (ARM) programs within the BER program 
at DOE could contribute to such a program. In addition, monitoring and 
verification tools such as NOAA's Carbon Tracker and the Advanced 
Global Atmospheric Gases Experiment (AGAGE) at NASA could also be 
useful. More advanced and comprehensive tools may be needed, however.
    More specifically, the Forest Service and National Resource 
Conservation Service at the Department of Agriculture (USDA), the 
United States Geological Survey (USGS) at the Department of Interior, 
and DOE's BER program could contribute expertise and management 
experience to land-based carbon reduction strategies such as 
afforestation, avoided deforestation, and biochar. NOAA's expertise in 
oceanography at offices such as the Geophysical Fluid Dynamics 
Laboratory (GFDL) could contribute to ocean fertilization research. 
DOE's Office of Fossil Energy (FE) and the National Energy Technology 
Laboratory (NETL) could leverage their capacity from such initiatives 
as FutureGen and the Clean Coal Power Initiative for air capture and 
non-traditional carbon sequestration research activities. And the 
Office of Basic Energy Sciences (BES) at DOE could inform the 
geological materials side of non-traditional carbon sequestration.
    The U.S. State Department would coordinate activities and 
agreements with foreign ministries for some geoengineering 
technologies. State Department involvement would depend, as noted, upon 
which activities are determined to impede upon existing international 
agreements or be associated with trans-boundary impacts. In addition, 
the involvement of more cabinet-level departments and Federal agencies 
may be useful for effective development of geoengineering research 
given the potential for associated agricultural, economic, 
international security, and governance effects.

Criteria for Governance Development

    Criteria to consider regarding the impacts of geoengineering 
technologies include: whether they are international or trans-boundary 
in scope; whether they dispense hazardous material into the environment 
or create hazardous conditions; and whether they directly intervene in 
the status of the ecosystem.
    Governance needs for geoengineering research will likely differ 
based on the technology type, the stage of research, the target 
environment (e.g., the high seas, space, land, atmosphere), and where 
potential impacts may occur. As noted above, SRM and CDR technologies 
may have differing regulatory needs. CDR technologies that are similar 
in scope to most of those proposed today could be governed by existing 
U.S. laws and institutions. An exception to this would possibly be 
enhanced weathering in oceans and ocean fertilization techniques (both 
are CDR technologies), which may require international governance 
structures due to the potential for trans-boundary ecosystem impacts. 
SRM technologies, on the other hand, are more likely to require 
international governance for research. For example, two proposed SRM 
technologies, marine cloud whitening and atmospheric injections of 
sulfur particles would likely take place in an area governed by the 
international community, disperse trans-nationally, and have trans-
national effects. Other SRM technologies such as land surface albedo 
modification may have lesser need for international governance.\8\ 
Different governance needs will also become apparent as research 
develops from modeling, to assessments, and finally to field trials. 
Built-in flexibility and feedback mechanisms throughout the research 
process will assist in the effective development and governance of 
these emerging technologies. Lastly, different environments for 
research and demonstration are likely to require different governance 
strategies. Activities that take place in or affect the high seas or 
space versus the lower atmosphere, terrestrial, and near-shore areas 
will fall under different jurisdictions with different legal 
authorities.
---------------------------------------------------------------------------
    \8\ For example, the deployment of genetically engineered plants 
with increased albedo could invoke treaties such as the Convention on 
Biological Diversity of 1992.

Governance Options

    Possible options for governance are outlined below. Please refer to 
the attached draft Congressional Research Service (CRS) report \9\ and 
The Royal Society's study \10\ for further information.
---------------------------------------------------------------------------
    \9\ CRS (2010).
    \10\ The Royal Society (2009).

No Regulation
    Governments could fully refrain from all governance of 
geoengineering, allowing the field to develop at will under existing 
frameworks. Advocates of this approach see private efforts as the best 
avenue to pursue research and development. Advocates of the ``no 
regulation'' approach may see government involvement as a stamp of 
approval for potentially unfavorable technologies. It is important to 
note that this approach essentially results in an unregulated research 
environment for largely new and unproven technologies, whose impacts 
are uncertain and may be unevenly distributed, even from small 
demonstration projects.

International Treaties and Agreements
    At this time, no international treaties or institutions exist with 
sufficient mandate to regulate the full suite of current geoengineering 
technologies.\11\ Although no existing international agreements or 
treaties govern geoengineering research by name, existing institutions 
could theoretically be modified to incorporate this field. For example, 
the U.N. Framework Convention on Climate Change (UNFCCC) may serve as a 
potential governing body for geoengineering. Another suggestion is that 
the Intergovernmental Panel on Climate Change (IPCC) could establish a 
technical framework to determine where the research should be focused 
and what technologies are scientifically justified.
---------------------------------------------------------------------------
    \11\ See the draft CRS report (2010) that is attached to this 
charter for descriptions of CDR and SRM technologies.
---------------------------------------------------------------------------
    Treaties for geoengineering research governance may be 
inappropriate at this time as the field encompasses many emerging 
technologies. In such a situation, treaty discussions could lead to a 
moratorium on research because nations often negotiate based on what 
their capacity for research, development, deployment and assessment is 
today, which in most cases is limited. Proponents of a moratorium argue 
that the potential risks of these technologies are just too great. 
Alternatively, some suggest that a research moratorium would be ill-
advised because it would prematurely inhibit the generation of 
scientific knowledge and fail to discourage potentially dangerous 
experimentation by less responsible parties. It could limit society's 
ability to gather the information necessary to make informed judgments 
about the feasibility or acceptability of the proposed technologies. A 
moratorium could also deter responsible parties while failing to 
dissuade potentially dangerous experimentation by less responsible 
parties.

International Research Consortia
    Given how little is understood about the scientific, technical, and 
social components of proposed geoengineering technologies, crafting 
appropriate governance through new or existing treaties may be 
difficult. International research consortia such as the World Climate 
Research Program (WCRP) could be used effectively to safely advance the 
science while building a community of responsible researchers. This 
would essentially provide a middle ground between the no regulation and 
international treaty options. Past experiences show that international 
research consortia (e.g., the Human Genome Project and the European 
Organization for Nuclear Research) can succeed at prioritizing research 
for emerging technologies, developing effective and objective 
assessment frameworks, providing independent oversight of evolving 
governance needs, and developing voluntary codes of practice to govern 
emerging technologies.

Conclusions

    Some geoengineering technologies appear to be technically feasible; 
however, there is high uncertainty regarding their effectiveness, 
costs, environmental effects, and socio-political impacts. Appropriate 
governance structures that allow for an iterative exchange between 
continued public dialogue and further research are needed to determine 
if such technologies are both capable of producing desired results and 
socially acceptable. Climate change is a global problem that impacts 
people and ecosystems at the local scale. If traditional mitigation 
efforts are not effective on their own,\12\ we will need alternatives 
at the ready. In the next decade the debate over geoengineering will 
intensify. Research will lead to increasingly plausible and 
economically feasible ways to alter with the environment. At the same 
time, political and social pressure will grow--both to put plans into 
action (whether multi- or unilaterally), and to limit the development 
of geoengineering research. These issues led the U.K. and U.S. Science 
and Technology Committees to jointly consider the role for potential 
governance structures to guide research in the near term and to oversee 
potential demonstration projects in the long term.
---------------------------------------------------------------------------
    \12\ Lenton and Vaughan. (2008).
---------------------------------------------------------------------------
    Chairman Gordon. Good morning and welcome to this hearing 
on and discussion with domestic and international research 
governance of geoengineering. And let me give a little preface, 
particularly to our guest, Chairman Willis. We are going to be 
having votes around our time, 12:30 or 1:00. You know what that 
is like, when the bells go off, so it is our hope to move 
forward with your first part of this hearing, and as we go 
along, we will have a little better understanding.
    Our changing climate has been the topic of sometimes heated 
discussion by some of our committee's hearings. It is 
understandable. As with any field of science, climate service, 
or climate science, will continue to evolve over time to 
provide an ever-greater level of accuracy for findings and 
forecasts.
    However, in my opinion, one thing is now clear. The 
overwhelming preponderance of data indicates that global 
climate is changing, that humans are at least partially 
responsible, and that we can best mitigate the damage by 
reducing our emissions of greenhouse gases such as carbon 
dioxide.
    Additionally, I am concerned that the impacts of climate 
change could outpace the world's political, economic, and 
physical ability to avoid them through greenhouse gas 
reductions alone. Therefore, we must know what other tools we 
have at our disposal. Certain proposals for deliberate 
modification of the climate, otherwise known as geoengineering, 
represent one option. But we cannot know until we have done the 
research on the full range of impacts of global engineering.
    It will take substantial time and research to determine 
whether these new technologies can develop appropriately, 
whether there is an appropriate governance structures, and to 
test them, to see what potential benefits and hazards may be 
posed.
    As the Chairman of the committee of jurisdiction, my 
interest is to provide a forum for open and honest discussion 
of geoengineering, just as we will have on nuclear power, on 
carbon capture and sequestration, other energy sources, as well 
as other types of mitigation.
    And today, we are here to discuss the matters of domestic 
and international governance of geoengineering research 
programs. With that, I would like to thank our excellent 
witness, Chairman Willis, for appearing before this committee, 
and I yield to the distinguished Ranking Member, Mr. Hall, for 
his opening remarks.
    [The prepared statement of Chairman Gordon follows:]
               Prepared Statement of Chairman Bart Gordon
    Good Afternoon. I want to welcome everyone to today's hearing to 
discuss the Domestic and International Research Governance of 
Geoengineering.
    Our changing climate has been the topic of sometimes heated 
discussion at some of our Committee's hearings.
    It is understandable--As with any field of science, climate science 
will continue to evolve over time to provide an even greater level of 
accuracy in its findings and forecasts.
    However, in my opinion one thing is clear now--the overwhelming 
preponderance of data indicates that the global climate Is changing, 
that humans are at least partially responsible, and that we can best 
mitigate the damage by reducing our emissions of greenhouse gases such 
as Carbon Dioxide.
    Additionally, I am concerned that the impacts of climate change 
could outpace the world's political, economic, and physical ability to 
avoid them through greenhouse gas reductions alone.
    Therefore, we must know what other tools we have at our disposal, 
and if certain proposals for deliberate modification of the climate, 
otherwise known as geoengineering, represent an option.
    But we cannot know until we have done the research on the full 
range of impacts of geoengineering.
    It will take substantial time to research these new technologies, 
to develop appropriate governance structures, and to test them to see 
what potential benefits and hazards they may pose.
    As the Chairman of the Committee of jurisdiction my interest is in 
providing a forum for an open and honest discussion of geoengineering, 
just as we will do for nuclear engineering, carbon caption 
sequestration, and other complex engineering subjects.
    Today we are here to discuss matters of domestic and international 
governance for geoengineering research programs.

    Mr. Hall. Thank you, Mr. Chairman, and but for my respect 
for you, I would have a lot longer opening remark here, but I 
would just say that I believe this is the third hearing our 
committee has held on geoengineering.
    As I have expressed on previous occasions, I have 
significant reservations about pursuing this line of research. 
With that, in the interest of time and courtesy to our very 
distinguished guest, I will just put this in the record.
    You can read it later, if you would like to.
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall
    Thank you, Mr. Chairman. I believe this is the third hearing our 
Committee has held on geoengineering. As I have expressed on previous 
occasions, I have significant reservations about pursuing this line of 
research.
    The debate about climate change is far from over. This statement is 
even more true today given the several admissions by the 
Intergovernmental Panel on Climate
    Change, or IPCC, since the end of last year, regarding mistakes, 
miscalculations and the use of non-peer reviewed science in the 4th 
Assessment Report. Despite many assurances that the base science has 
not been compromised, our faith in the scientific community when it 
comes to climate change research has been severely shaken. We are now 
facing an onslaught of regulations that could severely harm our economy 
based upon this science that has now come into question.
    Today's hearing focuses on domestic and international research 
governance of geoengineering. Although I think it is premature to be 
wading into this aspect of geoengineering--we have yet to agree on 
whether or not we should pursue this--there are several hurdles that 
would need to be overcome in order to implement any type of governance 
structure. On the domestic side, there is no way to truly verify the 
science without conducting experiments. Like every other test that 
could potentially effect the environment, an Environmental Impact 
Assessment would have to be conducted in order to comply with current 
law.
    Since a geoengineering experiment is supposed to affect the 
environment, I am not sure that such an Assessment could successfully 
meet current standards under the National Environmental Protection Act 
(NEPA), as this law has been interpreted over time to ensure that any 
impact on the environment is minimized or eliminated.
    Internationally, I find it hard to believe that there would be any 
kind of consensus on this issue.
    And, as we witnessed with the Copenhagen conference last December, 
when a larger consensus breaks down, a small group of nations may try 
to work out a deal amongst themselves. If world leaders decide to come 
together and seriously discuss geoengineering, it could force a 
situation where some nations feel justified embarking on their own 
program. Geoengineering could have global repercussions, so it is 
especially troubling that one or more nations could band together to 
produce an outcome that could have global implications, such as 
attempting to mimic a volcanic eruption.
    So, Mr. Chairman, while I am interested in the testimony of our 
witnesses today, I must state that I am skeptical of this research and 
wary of the potential diplomatic minefield we may be stumbling into if 
we pursue this. I look forward to hearing from our distinguished 
witnesses.

    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good Afternoon. Thank you, Mr. Chairman, for holding today's 
hearing to discuss the governance of potential geoengineering research 
projects in the U.S. and abroad.
    Global climate change is an international issue that will require 
an international response. For this reason, I am pleased to welcome our 
colleagues from the United Kingdom with whom this Committee has worked 
to explore the potential of geoengineering as a means of reducing 
greenhouse gas emissions.
    Geoengineering could have a global impact on our atmosphere, 
oceans, and land. Because these techniques have the potential to change 
the chemical make-up of the earth, international cooperation and 
governance of the research will be necessary. In particular, it will be 
important to have the involvement of as many international partners as 
possible. I would like to hear how all countries, including less 
developed countries that have been reluctant to work on climate change 
mitigation in the past, may engage in geoengineering research. Further, 
I would like to know what international organizations would best be 
suited to take the lead in governing this research.
    In addition, geoengineering remains in its earliest stages of 
research and development, but there are significant concerns about the 
safety and reliability of geoengineering. I would like to know how the 
international community may address these safety risks should 
geoengineering research move forward.
    I welcome our two panels of witnesses, and I look forward to their 
testimony.

    Chairman Gordon. Without objection. Thank you, Mr. Hall. 
And now, it is my pleasure to introduce our witness at this 
time. Member of Parliament Phil Willis is the Chairman of the 
United Kingdom's House of Commons Science and Technology 
Committee.
    Chairman Willis has represented the constituency of 
Harrogate and Knaresborough in the Parliament since 1997. 
Before his election to the House of Commons, Chairman Willis 
served as a distinguished educator in U.K. schools for over 35 
years, 20 of those years as head teacher at a large 
comprehensive school.
    During his tenure in Parliament, Chairman Willis has been a 
champion for inclusive childhood education, vocational 
training, and affordable university tuition. I am honored to 
have or embarked upon these joint activities with your 
committee during each or our last terms.
    We thank you for your commitment to this inquiry and 
appearing before us today.
    And let me remind everyone here today, this is a very 
historic and unique hearing that we are having. To the best of 
my knowledge, it is the first time that two committees, similar 
committees, in this case, the Science and Technology Committee 
within Congress and the U.K., have agreed to have a joint 
hearing, or I guess I should say parallel hearings on a topic 
from which there will be brought back information, not as a 
legislative proposal, but rather, as a potential 
recommendation.
    So, again, this is historic, and Chairman Willis, I 
appreciate you being a part of this. Your written testimony 
will be included in the record, and now, we welcome you to 
begin your oral testimony.
    Let us see. Mr.--Chairman Willis, do you hear us now? Hold 
your hand up if you can hear us. Well, we know we have a time 
delay, but not that much? Larry, what do you think? Let us--
once again, Chairman Willis, can you--raise your hand if you 
can hear me.
    Well, again, do we have Larry around, or has he escaped? I 
can understand him trying to get away. I see Chairman Willis' 
lips, but I can't read them. So, let me suggest to the staff--
are we having a parallel telephone conversation with them, or 
internet conversation? Okay.
    Well, I am going to try one more time. Mr. Willis, if you 
could hear me, raise your hand. I don't see it. So, why don't I 
suggest that our other--our Panel II come forward, and 
whatever--I wish there was a way that we could--we don't have 
any kind of parallel communication?
    Okay, Larry, what do you think? Okay. Chairman Willis, can 
you hear me? Raise your hand if you can.
    Chairman Willis. I certainly can.
    Chairman Gordon. Oh, good. Good.
    Chairman Willis. Barely hear you.
    Chairman Gordon. Well, you may have missed the well-
deserved glorious introduction that I had given you earlier, as 
well as the statement of the uniqueness and historic aspect of 
this hearing. There is another historic matter going on right 
now, and that is a healthcare debate in Congress.
    Our phone lines are being jammed, we had 40,000 yesterday, 
so it is making all communication difficult, but as we pointed 
out earlier, if we could get to the Moon, we should be able to 
complete this hearing.
    And so, with that, I welcome you to begin.

   STATEMENT OF HON. PHIL WILLIS, MP, CHAIRMAN, SCIENCE AND 
     TECHNOLOGY COMMITTEE, UNITED KINGDOM HOUSE OF COMMONS

    Chairman Willis. Well, first of all, thank you very much 
indeed, Chairman Gordon. I was making the comment that if we 
can't get this to work, then geoengineering is a long way off 
the agenda.
    But may I commence by saying how honored I am to appear 
before the U.S. House of Representatives Science and Technology 
Committee. And this, as I am probably--I am sure you said in 
Washington, is a first for our Committees, and I trust that the 
level of cooperation between our Committees can be continued 
after our general election, which occurs in, probably, May of 
this year.
    This inquiry really began right in April 2009, when we 
visited Washington, D.C., and your Chairman, Bart Gordon, and 
we discussed the possibility of a joint inquiry. My fellow 
Committee Members and I are delighted that we have managed, 
within the constraints of procedure, to undertake something 
that approached a joint inquiry.
    I state in the record that our staff have found your staff 
to be absolutely superb to work with, highly professional, 
exceedingly helpful, and knowledgeable. And we, as a committee, 
have thoroughly enjoyed the process of dovetailing our inquiry 
on geoengineering specifically to fit into your larger inquiry 
into the wider issues of geoengineering. I would very much hope 
that this relationship between our two committees is something 
that can outlast my, and indeed your, tenure.
    Today, we published in London our report, The Regulation of 
Geoengineering, and geoengineering is a topic that, as a 
committee, we have been interested in for a while. We were, I 
believe, the very first legislature to examine geoengineering, 
which we did as part of a larger report on engineering itself.
    In that report, we urged the U.K. government to consider 
the full range of policy options for managing climate change, 
and that includes various geoengineering options as potential 
Plan Bs, in the event that Plan A, mitigation and adaption, was 
not sufficient.
    We divided geoengineering into technologies that reduce 
solar radiation, SDM or SRM, as I think you call it, that is, 
to keep the Earth cooler by reflecting more of the Sun's 
energy, and carbon sequestration, that is, taking carbon out of 
the atmosphere to reduce the greenhouse effect.
    We cautioned against mass roll-outs without extensive 
research, and suggested that our U.K. Research Council fund 
research on modeling the effects of geoengineering and to start 
a public debate on the use of geoengineering techniques, both 
of which, I am pleased to say, are now underway.
    Following that inquiry, the Royal Society produced a report 
on geoengineering, an excellent report that details the 
scientific and technological issues and options, and I believe 
that you took evidence from Professor John Shepherd, who was 
Chairman of the Royal Society's geoengineering panel.
    One of the key recommendations from the Royal Society's 
report was that the regulation of geoengineering required 
careful consideration. We decided, as part of a dovetailing 
exercise with your committee, to take on that challenge and 
move the debate on the regulation of geoengineering a little 
further.
    The first question in our terms of reference for this 
inquiry was, is there a need for international regulation of 
geoengineering research and deployment? And if so, what 
international regulation mechanisms need to be deployed? We 
discovered two things. First, such geoengineering techniques 
are already subject to regulation. In fact, there is a lot of 
regulation in this field. For example, ocean fertilization is 
being managed by the London Convention on Ocean Dumping under 
the London Protocol, and existing international regulatory 
arrangements, such as the U.N. Framework Convention on Climate 
Change, could relatively easily incorporate some geoengineering 
techniques, particularly carbon dioxide removal technologies.
    Second, with regard to remaining techniques, such as 
stratospheric aerosols or space mirrors, it is not clear that 
existing treaties could be adequately altered to encompass 
them, and they would need looking at afresh.
    Additionally, particularly for technologies such as 
injecting aerosols into the stratosphere, the costs are 
relatively low, which means that a rich country might be able 
to engage in this kind of activity unilaterally. And the 
effects are not predictable, and cannot be contained with 
national boundaries. We should be keen, therefore, to avoid a 
situation where one nation, deliberately or otherwise, alters 
the climate of another nation without prior agreement.
    We concluded that, and I quote: ``The science of 
geoengineering is not sufficiently advanced to make the 
technology predictable, but this, in itself, is not grounds for 
refusing to develop a regulatory framework. There are good 
scientific reasons for allowing investigative research to 
proceed effectively to devise and implement some regulatory 
frameworks, particularly for those techniques that a single 
country or small group of countries could test or deploy and 
impact the whole climate.''
    We also concluded that there is a need to develop a 
regulatory framework for geoengineering. Whether our existing 
international regulatory regimes, which need to develop a focus 
on geoengineering, or some regulatory systems that need to be 
designed and implemented for those solar radiation management 
techniques that currently fall outside any international 
framework.
    Having decided that there is a need for regulatory regimes 
for geoengineering, we considered what principles might govern 
them. So, a group of academics from universities at Oxford, 
University College London and Cardiff, came up with a set of 
five principles, of which we are very supportive.
    And these principles are: First, that geoengineering should 
be regulated as a public good, and we need to define what a 
public good is. Second, that public participation in 
geoengineering and decision-making is absolutely essential. If 
we don't take people with us, we may well lose the argument. 
Third, that disclosure of geoengineering research and open 
publication of results is absolutely essential if we are going 
to take the scientific community with us, and particularly, if 
we are going to take the public with us. Fourth, independent 
assessment of impacts. Peer review in this area is crucially 
important. And finally, governance before deployment, that we 
make sure that we have a framework before, in fact, there is 
major deployment.
    May I conclude with a few specifics that might be of 
interest to your inquiry?
    Following careful consideration of a wide range of views on 
geoengineering, we concluded the following. First, regarding 
research that uses computers to model the impact of 
geoengineering technologies, we wholeheartedly support that 
work, so long as it adheres to principle three on the 
disclosure and open publication of results.
    We thought that even a short-term ban on solar radiation 
management research would be a mistake, largely, because it 
would be unenforceable, and therefore, having bans would not 
work.
    Third, it seems sensible that if small-scale testing of 
solar radiation management geoengineering is going to take 
place, it should adhere to the full set of principles that I 
just outlined, and there should be negligible or predictable 
environmental impact as far as is possible, and that there 
should be no trans-boundary effects.
    Fourth, it would be prudent for researchers exploring the 
impact of geoengineering techniques to make a special effort to 
include international expertise, and particularly, scientists 
from the developing world, which is most vulnerable to climate 
change.
    And finally, we concluded that, and I quote: ``Any testing 
that has impacts on the climate,'' that is large scale enough 
to have a real impact on the wider climate, must be subject to 
an international regulatory framework.
    May I finish my comments, Mr. Chairman, by making some 
broader observations? We found this to be a hugely complex 
area. International agreements are not always easy for 
noncontroversial issues, but climate change, which is a 
controversial issue, because of the impact that mitigation 
efforts might have on our economies, has proven very difficult 
to get international agreement on, as we saw recently at 
Copenhagen.
    I cannot see how geoengineering could be any easier, but 
that should not be a reason to back off. If the climate warms 
dangerously, and we can't fix the problem by reducing carbon 
emissions or adapting to the changing climate, geoengineering 
might be our only chance.
    It would be irresponsible of us not to get the ball rolling 
on regulation. And to that end, we considered the only 
appropriate forum for managing something like geoengineering 
would be the United Nations. Geoengineering covers such a wide 
range of technologies that more than one international body 
would be required to work on international agreements. And we 
suggested that the U.K. government_and it is something it might 
be able to do in partnership with the U.S. government_should 
one, press hard for a suitable international body to commission 
a review of how geoengineering regulation might work in 
practice, and two, we should press hard for the establishment 
of an international consortium to explore the safest and most 
effective geoengineering options.
    Thank you very much indeed, Mr. Chairman.
    [The prepared statement of Chairman Willis follows:]
                   Prepared Statement of Phil Willis

INTRODUCTION

    This inquiry really began life in April 2009, when we visited 
Washington DC and met with your Chairman, Bart Gordon. We discussed 
then the possibility of a joint inquiry. My fellow committee members 
and I are delighted that we have managed--within the restraints of 
procedure--to undertake something that approached a `joint' inquiry.
    May I state for the record that our staff have found your staff to 
be terrific to work with, professional, helpful and knowledgeable.
    And we as a committee have thoroughly enjoyed the process of 
dovetailing our inquiry on geoengineering specifically to fit neatly 
into your larger inquiry into geoengineering issues more broadly. I 
very much hope that this relationship between the two committees is 
something that outlast mine and Bart's tenures.

BACKGROUND

    Today we published our Report, the Regulation of Geoengineering.\1\ 
Geoengineering is a topic that as a committee we have been interested 
in for a while. We were, I believe, the very first legislature to 
examine geoengineering, which we did as part of a larger report on 
engineering. In that report we urged the U.K. Government to consider 
the full range of policy options for managing climate change, and that 
includes various geoengineering options as potential ``plan B'', in the 
event of ``plan A''--mitigation and adaptation--not being sufficient.
---------------------------------------------------------------------------
    \1\ The Science and Technology Committee, The Fifth Report of 
Session 2009-10, The Regulation of Geoengineering, HC 221
---------------------------------------------------------------------------
    We divided geoengineering into technologies that reduce solar 
insolation (that is, keep the earth cooler by reflecting more of the 
sun's energy) and carbon sequestration (that is, taking carbon out of 
the atmosphere to reduce the greenhouse effect).
    We cautioned against mass rollout without extensive research and 
suggested that our U.K. research councils fund research on modelling 
the effects of geoengineering and start a public debate on the use of 
geoengineering techniques--both of which are now underway.
    Following that inquiry, the Royal Society produced a report on 
geoengineering--a fine report that detailed the scientific and 
technological issues and options--and I believe that you took evidence 
from Professor John Shepherd, who was chairman of the Royal's 
geoengineering panel.
    One of the key recommendations from the Royal's report was that the 
regulation of geoengineering required careful consideration. We 
decided--as part of a dovetailing exercise with your committee to take 
on that challenge and move the debate on the regulation of 
geoengineering a little further.

A NEED FOR REGULATION?

    The first question in our terms of reference for this inquiry was: 
is there a need for international regulation of geoengineering research 
and deployment and if so, what international regulatory mechanisms need 
to be developed? We discovered two things.
    First, some geoengineering techniques are already subject to 
regulation. For example, ocean fertilisation is being managed by the 
London Convention on ocean dumping under the London Protocol. And 
existing international regulatory arrangements such as the UN Framework 
Convention on Climate Change could relatively easily incorporate some 
geoengineering techniques such as carbon dioxide removal technologies.
    Second, as regards the remaining techniques--such as stratospheric 
aerosols or space mirrors--it is not clear that any existing treaties 
could be adequately altered to encompass them. Additionally, 
particularly for technologies such as injecting aerosols into the 
stratosphere, the costs are relatively low--which means that a rich 
country might be able to engage in this kind of activity unilaterally-
and the effects are not predictable and cannot be contained with 
national boundaries--we should be keen to avoid a situation where one 
nation deliberately or otherwise alters the climate of another nation 
without prior agreement.
    We concluded that ``the science of geoengineering is not 
sufficiently advanced to make the technology predictable, but this of 
itself is not grounds for refusing to develop regulatory frameworks. 
There are good scientific reasons for allowing investigative research 
and better reasons for seeking to devise and implement some regulatory 
frameworks, particularly for those techniques that a single country or 
small group of countries could test or deploy and impact the whole 
climate.''
    We also concluded that there is a need to develop regulatory 
frameworks for geoengineering. There are existing international 
regulatory regimes, which need to develop a focus on geoengineering. 
And some regulatory systems need to be designed and implemented for 
those solar radiation management techniques that currently fall outside 
any international regulatory framework.

PRINCIPLES FOR GEOENGINEERING REGULATIONS

    Having decided that there is a need for regulatory regimes for 
geoengineering we considered what principles might govern them. A group 
of academics from Oxford, University College London and Cardiff came up 
with a set of five principles of which we are very supportive. These 
principles are:

        -  geoengineering to be regulated as public good

        -  public participation in geoengineering decision-making

        -  disclosure of geoengineering research and open publication 
        of results independent assessment of impacts, and

        -  governance before deployment.

    We made a series of recommendations on the basis of these excellent 
suggestions.
    1. Geoengineering should be for the public good. That is a given. 
And therefore any regulations should support this position. However, we 
suggested that for the sake of clarity,``public good'' should be 
defined; after all, there are many different ``publics''--some would 
benefit from global warming and they might not be too pleased with 
geoengineering deployment. We also noted that striving to make 
geoengineering for the ``public good'' might risk intellectual property 
rights, and that would be a shame. No IP means no industrial and 
private sector input; and without industrial input, a lot of these 
technologies might never get off the ground.
    2. We are in favour of public consultation, but a bit cautious 
about ``public participation in . . . decision-making''. For example, 
could people who were adversely affected by geoengineering--even if the 
majority of people benefited--veto or alter geoengineering tests?
    3. Our support for the notion of full disclosure of geoengineering 
research and the open publication of results is unqualified. In fact, 
we went further and suggested that an international database of 
geoengineering research to encourage and facilitate disclosure might be 
useful.
    4. The called for ``independent assessment of impacts'' is very 
important. Independent assessment is a key scientific concept--it takes 
the task of assessing the effectiveness of an intervention away from 
its inventors. That is a good thing. However, we do think that the term 
`impacts' covers a range of issues. For example, deployment of 
geoengineering might occur only when temperatures go past a dangerous 
point of warming, say 3.5 degrees centigrade, so our definition of 
impact would need honing. Another issue it raises is compensation for 
people that suffer because of geoengineering. This legal aspect of 
geoengineering is unavoidable and central to the reasons why good 
regulation is necessary.
    5. The last of the principles, ``governance before deployment'', 
again, we support without qualification. We suggested that our 
government commission research and press for research to be carried out 
through international bodies on the legal, social and ethical 
implications of geoengineering.

SPECIFICS

    May I conclude with a few specifics that may be of interest to your 
inquiry? Following careful consideration of a wide range of views on 
geoengineering, we concluded the following:

        -  regarding research that uses computers to model the impact 
        of geoengineering technologies, we support that work-so long as 
        it adheres to principle 3 on the disclosure and open 
        publication of results;

        -  we thought that even a short-term ban on all solar radiation 
        management research would be a mistake, at least in part 
        because it would be unenforceable;

        -  it seems sensible that if small-scale testing of solar 
        radiation management geoengineering is going to take place it 
        should adhere to the full set of principles that I just 
        outlined, that there should be negligible or predicable 
        environmental impact as far as is possible, and that there 
        should be no trans-boundary effects;

        -  it would be prudent for researchers exploring the impact of 
        geoengineering techniques to make a special effort to include 
        international expertise, and particularly scientists from the 
        developing world which is most vulnerable to climate change; 
        and

        -  finally, we concluded that ``any testing that impacts on the 
        climate''-that is, that is large-scale enough to have a real 
        impact on the wider climate-''must be subject to an 
        international regulatory framework''.

CLOSING

    May I finish my comments, Chairman, by making some broader 
observations. We found this to be a very complex area. International 
agreements are not always easy for non-controversial issues. Climate 
change, which is a controversial issue because of the impact that 
mitigation efforts might have on our economies, has proven very 
difficult to get international agreement on. I cannot see how 
geoengineering would be any easier.
    But that should not be a reason to back off. If the climate warms 
dangerously, and we can't fix the problem by reducing carbon emissions 
or adapting to the changing climate, geoengineering might be our only 
chance. It would be irresponsible for us not to get the ball rolling on 
regulations.
    To that end, we considered that the only appropriate forum for 
managing something like geoengineering would be the U.N. Geoengineering 
covers such a wide range of technologies that more than one 
international body would be required to work on international 
agreements. We suggested that the U.K. government--and this is 
something it might be able to do in partnership with the U.S. 
government--should (1) press hard for a suitable international body to 
commission a review of how geoengineering regulations might work in 
practice; and (2) press hard for the establishment of an international 
consortium to explore the safest and most effective geoengineering 
options.

                       Biography for Phil Willis
    Phil Willis was born in Burnley, Lancashire. At school he excelled 
in sport and at one time was a trialist for Burnley FC. He went to 
study History and Music at the City of Leeds and Carnegie College, 
qualifying as a teacher in 1963 from the University of Leeds Institute 
of Education. Later in his career he was seconded to Birmingham 
University where he gained a B.Phil. degree with distinction in 1978.
    Phil's teaching career was mostly spent in Leeds where he rose 
rapidly from Assistant Master at Middleton Secondary Boys' School in 
1963 to become Deputy Headteacher at West Leeds Boys' Grammar School in 
1974, Perhaps his most rewarding period was spent at Primrose Hill High 
School in the Chapletown district of Leeds where for seven years he was 
involved in multi-cultural education and outreach youth work.
    In 1978 he became head of Ormesby School in Middlesbrough where he 
helped pioneer the integration of children with physical disabilities 
into mainstream education. In 1983 he returned to Leeds as Head of one 
of the city's largest comprehensive schools, John Smeaton Community 
High School. Situated in one of the more deprived areas of Leeds, he 
continued his mission, for 'inclusive' education.
    He became nationally recognised for the inclusion of children with 
severe learning difficulties and others with sensory impairments into 
mainstream education. Prior to his election to Westminster he was 
involved with another pioneering development--`The family of Schools' 
initiative--which brought together all agencies concerned with 
developing first class opportunities for children from disadvantaged 
backgrounds.
    Phil joined the Liberal party in 1985 and was elected to Harrogate 
Borough Council in 1988. He became leader of the Council in 1990 and 
following his election to North Yorkshire County Council in 1993 became 
Deputy Group Leader.
    His period as Leader of Harrogate Council coincided with an 
unprecedented rise in Liberal Democrat representation and he is 
credited with many of the economic generating initiatives which have 
made the area one of the top earners in the country. His most notable 
success was turning the famous Harrogate Conference Centre from a loss 
making `white elephant' into a <brit-pound>1m a year success story.
    At Westminster, he was appointed Shadow Secretary of State for 
Education and Skills in 1999 retaining the post until 2005, when he was 
appointed Chairman of the House of Commons Science and Technology 
Select Committee. In May 2007 he was also appointed Chair of the Joint 
Committee on the Draft Human Tissue and Embryos Bill. In November 2007 
the Science and Technology Select Committee was disbanded and the House 
of Commons Innovation, Universities, Science and Skills Select 
Committee was formed; Phil Willis was elected chairman soon after.
    In the summer 2009 departmental reshuffle the department for 
Innovation, Universities and Skills was disbanded, along with its 
corresponding Select Committee. Following a hard-fought campaign from 
Phil and leading members of the Science community, the Science and 
Technology Select Committee was re-created on October 1st, with Phil 
elected as Chairman.
    Married with two children, Phil is a keen supporter of Leeds United 
and spends much of his spare time in Ireland where he retains an 
interest in his family's farm in Donegal

    Also submitted for the record by Chairman Willis:

    United Kingdom House of Commons Science and Technology Committee. 
The Regulation of Geoengineering. Fifth Report of Session 2009-10. 
London: The Stationery Office Limited. 10 March 2010.
    This report, totaling 119 pages, is available in its entirety 
archived online as of June 21, 2010 at http://
democrats.science.house.gov/Media/file/Commdocs/hearings/2010/Fu11/
18mar/
UKR<INF>-</INF>Regulation<INF>-</INF>of<INF>-</INF>Geoengineering<INF>-</INF>
report.pdf. The full report should be considered Chairman Willis' full 
submission for the hearing record.

    Attached here are:

        I. Table of Contents

        II. Executive Summary

        III. Introduction
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

                               Discussion

    Chairman Gordon. Well, thank you, Chairman Willis, for that 
very good presentation.
    We received your report, I think, 130 pages, today, which 
we are starting to go through.

                    International Research Database

    I certainly concur with you that geoengineering is 
controversial, both on the left and the right. It is, and I 
concur that it is something that we hope that will never take 
place, but it would be irresponsible for us not to start at 
least looking at the foundation for potential research.
    I think any implementation is decades out, but you have to 
start somewhere. And so, we very much appreciate your 
participation, and that of your excellent staff.
    Now, we will at this point move to the first round of 
questions, and the Chair will recognize himself for five 
minutes. As you mentioned in your testimony, you felt that an 
international database would be a very good way to have a tool 
for transparency and public understanding.
    Do you have any suggestions on how that database might be 
developed or how it would work?
    Chairman Willis. Well, first of all, Mr. Chairman, there 
are no extensive examples of international databases. I mean, 
here in the United Kingdom, we have a database which deals 
particularly with clinical trials, and the use of clinical 
trials. And in fact, the World Health Organization [WHO] also 
has a voluntary database on clinical trials. So, that is an 
example.
    And the National Center for Biotechnology, or GenBank, 
which is, of course, held in the United States, has an 
excellent international global database for looking 
particularly at gene therapies and the like.
    So, I think there are examples there. But really, it is 
hugely important that in terms of actually creating a database, 
that that is done in terms of international collaboration, that 
we include particularly Third World countries as well in that, 
because they are the most affected by climate changes, as we 
know.
    So, I think it is important to, first of all, find 
somewhere where, in fact, we would have the repository, and 
there would have to be international agreement on that. I think 
secondly, we would want to know what would go in the database. 
And we felt that there were a number of things, first of all, 
in terms of simply listing current research.
    I think it is quite possible, indeed, to pull together the 
research that is going on around the world. As you know, Mr. 
Chairman, there is some extensive research going on in the 
United States. There is research going on in Australia, in 
Canada, and elsewhere in the world.
    I think secondly, we need to ensure that we state that 
research is out. If we are looking at particularly modeling 
from, for instance, aerosols in stratosphere, it is important 
that we get the results of that midterm. We don't wait for it 
to be completed.
    I think thirdly, that we make sure that the database looks 
at the aims of research, that when research projects are being 
launched, that it is clear what the aims are, so that other 
scientists around the world can, in fact, collaborate and work 
with that, can actually replicate its experiments.
    And I think fourthly, it is important that wherever 
research is taking place, that within the database comes the 
order of risk. That we know that a lot of these technologies 
are usually low risk and therefore, you know, can easily be 
lodged in a database without, in fact, having to have huge 
explorations or it causing controversy.
    Where, in fact, you are, for instance, seeding the oceans, 
if in fact, you are going to put aerosols into the 
stratosphere, which might have an effect somewhere else, then 
clearly, those elements of risk have got to be assessed and put 
into the database. All that would be hugely influential in 
actually guiding future geoengineering regulation.

           The Future of Geoengineering Research in the U.K.

    Chairman Gordon. Thank you, and how do you foresee the 
future of geoengineering research in the United Kingdom? What 
direction will it go, if at all? Are national or European 
Commission geoengineering research programs likely to be a 
reality? Is the United Kingdom's Defense Department looking at 
geoengineering possibilities also?
    Chairman Willis. Well, thank you, Mr. Chairman. I think 
what is interesting here is, if you would have asked me that 
question 18 months ago, I would have said no, no, no, and no to 
all those points, because I think 18 months to two years ago, 
geoengineering was not on the agenda.
    I can recall having a Committee session in the U.K. 
Parliament with the Minister responsible for climate change, to 
ask if, in fact, there was any research being commissioned in 
this particular area, and the answer was no. We have Plan A, 
which is about mitigation, and we don't, in fact, plan to go 
down the road of geoengineering.
    Eighteen months later, the government has commissioned 
research, to its credit. And in fact, the National Environment 
Research Council [NERC] is also conducting research. A number 
of leading universities in the U.K. are conducting research in 
terms of regulation, and as I have said to you, the Royal 
Society has conducted a major inquiry looking at the different 
types of geoengineering, and in fact, they have just announced 
that they are going to set up a major inquiry looking at the 
regulation of geoengineering.
    In Europe as well, while there is nothing in the current 
framework program in terms of research projects for 
geoengineering, we understand that the European Research 
Council is, in fact, considering bids to actually look at, 
particularly, the modeling of geoengineering in terms of 
certain aspects.
    So, this is on the rise, and I think it is good that that 
is happening, and it is good that we are not turning our minds 
away from the future need which might arise to use 
geoengineering technologies.
    And I agree totally with you, Mr. Chairman, that this is an 
issue of last resort and must not, in fact, deflect us from our 
major task of making sure that we put less CO<INF>2</INF> into 
the air, and where it is there, that we look, in fact, to 
sequestrate it.

        Additional Opportunities for International Collaboration

    Chairman Gordon. And one last question. As we have 
discussed before, when you look at the major problems facing 
our world and globe, whether it is climate change, whether it 
is energy sustainability, or energy independence, or just 
sustainability of the planet, I think we are going to need 
cooperation with multinational efforts, both intellectually and 
financially.
    And I wanted to get your thoughts, again, in the future, 
what additional topics might be taken up? I know you had talked 
about synthetic biology at one time. Any other suggestions on 
those type of global issues that we might work on in the 
future?
    Chairman Willis. Well, Mr. Chairman, I think there is no 
doubt that the great challenges are not challenges simply for 
the United States or the United Kingdom, or indeed, for China 
or India, the emerging economies.
    They are global challenges. The great challenges of water 
security, food security, energy, as well, of course, as issues 
like terrorism and other matters, all of which science has a 
major role to play, require global solutions.
    And I think that there is a fairly exhaustive list. I mean, 
for instance, the whole of the oceans. I can remember being in 
the United States not long ago, at Woods Hole Laboratory, you 
know, looking at the effect of the oceans on the climate. I 
think that that is an area for international and global 
cooperation.
    The issue of space, and the use of space, again, requires 
global activities. You and I talked, when you were last in 
London, about the whole issue of nanotechnologies, the way in 
which nanotechnologies are going to need very, very careful 
global cooperation if, in fact, we are going to make the most 
use of those technologies.
    The issue of sustainable agriculture: there is no way, by 
2050, we are going to be able to feed the world's population, 
given current agrarian policies. And therefore, the need for 
international cooperation there is enormous.
    And if I may finally say, both your economy and our economy 
in the U.K. have suffered massively because of the economic 
downturn. And if there is one area where there is a need for 
far greater cooperation, certainly between our two nations, in 
terms of the social science of economics. My goodness, that is 
one area we ought to look at.
    Chairman Gordon. Thank you, Chairman. My time has expired. 
In the United States, we have Americans and we have Texas 
Americans, and now I recognize my Ranking Member and good 
friend from Texas, Mr. Hall.

                    Public Opinion of Geoengineering

    Mr. Hall. Now, being from Texas, we are happy to have 
international discussions from time to time, and about 10 or 15 
years ago, we had a similar discussion on asteroids here, 
urging England, Germany, France, and others to come together to 
share the cost of tracing and tracking.
    And it didn't work out, because I guess there was not 
enough there, but we learned during that time that an asteroid 
missed the Earth only about 15 minutes, I think in 1986 or '88, 
so there is a lot to learn together. And I admire the Chairman 
for making a trip over there. His trip there spawned this 
historical meeting, where you come before us, Chairman Willis, 
to testify. I have enjoyed hearing your testimony.
    I will ask you just a question or so, as kind a question as 
I know how to ask. I don't really--I am not terribly 
enthusiastic about this, but I am excited about your appearance 
here and the Chairman's vision.
    As you may have noticed from our newspapers, public opinion 
on the concept of geoengineering here in the United States 
covers the whole spectrum. It just goes everywhere here. Did 
you find yourself in a similar situation in England initially?
    Chairman Willis. Well, Representative Hall, welcome to you 
and it is good to talk to you. Or is it Mr. Hall I should 
officially address you as? But there is no doubt that when we 
did, and we did, I said, a piece of investigation about 
geoengineering 18 months ago, as part of a bigger inquiry, that 
there were many people, and particularly some of the green 
NGOs, nongovernment organizations, who contacted us to say that 
this was really a distraction. It was distracting us from the 
main issue, which was about climate change, which was about 
removing CO<INF>2</INF>, and which was about stopping the 
temperature of the Earth rising.
    And it is interesting that that has slightly changed, and 
there is now an acceptance that this is a long-term technology, 
something which clearly needs to be put into the basket of 
tricks. But equally, it is important that it does not, in fact, 
actually take U.K. pounds, in your case, U.S. dollars, away 
from the main thrust, which is about creating sort of green 
technologies for transport, you know, for energy, and indeed, 
making sure that we don't continue to create the problem.
    But I can tell you, Mr. Hall, that there are a significant 
number of people in the United Kingdom who actually regard this 
as a rather strange set of technologies, and ones that, quite 
frankly, we have better things to spend our time on.

                        The U.K. Inquiry Process

    Mr. Hall. Did you start with public hearings? How did you 
initiate it? Did you start with public hearings to discuss the 
issue?
    Chairman Willis. Well, we--what we do with all our 
inquiries is, we announce a set of terms of reference for our 
inquiry, and of course, we engage the public immediately at 
that time.
    We then try to seek out witnesses, as you did, including 
Professor Shepherd, from across the globe, in order to be able 
to feed into us, into our inquiry. And then to assemble a 
report, and make a number of key recommendations, including of 
course, interviewing the government, the government ministers, 
to see what government policy is.
    And of course, we did not have any government policy in 
this particular area, because government did not have a policy 
towards geoengineering, and it is interesting that whilst they 
still don't have a major commitment to geoengineering as a 
mitigation technology, nevertheless, the governments have, I 
think to their credit, actually engaged with the science, and 
to at least examine whether the science is or could be could be 
effective and predictable.
    Mr. Hall. I thank you for that, and I am near the end of my 
inquiry. Appreciate you being here. It is historic. I know his 
trip over there, visiting with you, spawned this meeting, and I 
think it is very helpful. Perhaps we can reciprocate with you 
somewhere down the line.
    Thank you, sir, and I yield back my time.
    Chairman Gordon. Ms. Fudge is recognized. Or Governor 
Garamendi is recognized for five minutes.
    Mr. Garamendi. The inquiry--the information from the United 
Kingdom is excellent, and I don't have any questions right now. 
Thank you.
    Chairman Gordon. And I see Ms. Dahlkemper, and Ms. 
Dahlkemper is recognized.
    Ms. Dahlkemper. I thank you, Mr. Chairman. This is a very 
interesting hearing, and I certainly appreciate the Chairman 
being here with us today, but I also do not have any questions 
at this time.
    I am sure, as we go forward with this cooperation, we will 
have many more questions. So, thank you, and I yield back.
    Chairman Gordon. Well, Chairman Willis, as I said earlier, 
we are on the precipice of votes here. We received your report 
last night. We have been in constant contact with your staff, 
and been very pleased with that.
    We are going to digest that now, and hopefully, we will 
have a chance to be back in touch with you, but we want to 
thank you for the excellent body of work that you have 
presented us with.
    Chairman Willis. Thank you indeed, Mr. Gordon, and it has 
been a pleasure not only to present to your committee, but on 
the two opportunities we have been able to meet over the past 
year, you have treated us with huge courtesy, and we hope that 
this will be the sign of things to come, certainly after our 
general election here in May.
    Chairman Gordon. Thank you. And we are going to move to a 
second panel, of which we are going to keep you tuned in, and 
so, if you would like to continue to hear that, you are 
welcome, until, again, we are required to leave for votes.
    And so, I would ask the second panel to come forward. We 
are now told that it is going to be about 1:00 before the votes 
get started, so--okay.
    So, we are ready now for our second panel. It is my 
pleasure to introduce our witnesses. First, Dr. Frank Rusco is 
the Director of Natural Resources and Environment at the 
Government Accountability Office, GAO.
    Dr. Scott Barrett is the Lenfest Professor of Natural 
Resource Economics at the School of International and Public 
Affairs and the Earth Institute at Columbia University.
    Dr. Jane Long is the Deputy Principal Associate Director at 
Large at Lawrence Livermore National Lab [LLNL].
    And Dr. Granger Morgan is Professor and Head of the 
Department of Engineering and Public Policy, as well as the 
Lord Chair Professor in the Engineering at the Carnegie Mellon 
University.
    As witnesses should know, you have five minutes for your 
spoken testimony. Your written testimony has been included in 
the record, and when you complete your spoken testimony, we 
will then have questions. Each member will have five minutes to 
ask those questions.
    So, Dr. Rusco, we will begin with you.

 STATEMENTS OF DR. FRANK RUSCO, DIRECTOR OF NATURAL RESOURCES 
       AND ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Dr. Rusco. Chairman Gordon, Ranking Member Hall, and 
Members of the Committee, thank you for the opportunity to 
speak before you today on the important issue of domestic and 
international governance of geoengineering.
    Geoengineering has recently become an area of intensified 
interest, in part, because of challenges in reaching 
international agreement to limit the growth of, and eventually 
reduce, global greenhouse gas emissions.
    In this context, if severe or relatively sudden climate 
change occurs at some future date, attempts to reverse or slow 
such trends through deployment of geoengineering technologies, 
either by reflecting some of the sun's rays that help heat the 
Earth, or by removing and sequestering ambient carbon dioxide, 
may become relatively more attractive, especially in nations or 
regions that are particularly vulnerable to the effects of 
climate change.
    Three facts point to the importance of getting in front of 
the issue of domestic and international governance of 
geoengineering research and deployment. First, the severity of 
the effects of large scale geoengineering, efforts are 
uncertain, and would likely be distributed unevenly, 
potentially creating relative winners and losers.
    As a result of the unknown severity and potential 
unevenness of outcomes, geoengineering research or deployment 
at a scale large enough to actually influence the global 
climate would carry with it the potential to be economically 
and politically destabilizing.
    Second, climate change modeling exercises or small scale 
physical experiments for certain geoengineering approaches, 
such as stratospheric aerosol injection, may be inadequate to 
evaluate the efficacy or extent and distribution of unintended 
effects of geoengineering deployed if at full scale. Put 
simply, to adequately assess the efficacy and distribution of 
effects of geoengineering, it may be necessary to actually 
deploy these technologies on a large scale and for a long 
period of time.
    Research on this scale would, itself, have uncertain and 
likely uneven effects around the globe, would potentially 
create winners and losers, and could lead to conflict over how 
to mitigate or adapt to any adverse effects.
    Third, some geoengineering technologies could be 
implemented at low enough cost that they could be undertaken by 
nations or other actors unilaterally, or in coalitions. Simply 
put, if a nation or group perceives it in their interest to 
deploy such a technology that will have global but uncertain 
and unevenly distributed effects, it may well be possible for 
them to do so without broad international consensus or 
assistance.
    In our ongoing work in this area, we have found that some 
federal agencies have funded research and small demonstration 
projects of technology related to geoengineering. However, 
federal agencies have not been directed to, nor does there 
exist, a coordinated federal geoengineering research strategy.
    Further, some existing federal laws could apply to 
geoengineering research and deployment. However, some federal 
agencies have not yet assessed their authority to regulate 
geoengineering, and those agencies that have done so have 
identified regulatory gaps.
    For example, under the Marine Protection, Research, and 
Sanctuaries Act of 1972, certain persons would be prohibited 
from dumping material for ocean fertilization into the ocean 
without a permit from EPA. EPA officials told us that the ocean 
dumping permitting process is sufficient to regulate certain 
ocean fertilization activities. However, they noted a domestic 
company could conduct ocean fertilization outside of EPA's 
regulatory jurisdiction if, for example, the company's 
fertilization activities took place outside U.S. territorial 
waters from a foreign registered ship that embarked from a 
foreign port.
    With regard to international governance, legal experts we 
spoke with identified a number of existing international 
agreements that are potentially relevant to specific 
geoengineering technologies. However, these agreements were not 
drafted with geoengineering in mind, and the signatories and 
parties to these agreements have typically not determined 
whether and how they apply to geoengineering.
    Further, these agreements have generally not been signed by 
all countries, nor have all signatories ratified or acceded to 
the agreements, thereby giving them the force of law.
    While GAO cannot advise Congress at this time on specific 
needs for domestic or international governance of 
geoengineering research or deployment, we found broad consensus 
among both legal and scientific experts we spoke with that any 
geoengineering research of a large enough scale to have trans-
boundary effects should be addressed in a transparent and 
international manner.
    However, there was a variety of views on the precise 
structure of such regulation or governance. For example, 
scientific experts recommended that research governance be 
established in consultation with the scientific community, in 
order to not unduly restrict research.
    Similarly, we found a broad consensus that additional 
geoengineering research is warranted, but no consensus on the 
desirable extent of such research. We look forward to 
continuing our work in this area for the Committee, and hope to 
be able to make specific recommendations for Federal actions in 
future reports.
    Mr. Chairman, this concludes my statement. I would be happy 
to answer any questions you or the Committee may have.
    [The prepared statement of Dr. Rusco follows:]
                   Prepared Statement of Frank Rusco
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                       Biography for Frank Rusco
    Frank Rusco is a Director in GAO's Natural Resources and 
Environment team, working on a broad spectrum of energy and related 
issues. He has worked at GAO for almost 11 years, at first, working as 
an economist in the Center for Economics. In addition to providing 
economics analysis, he also managed numerous teams working on energy 
topics, including electricity restructuring, and crude oil and 
petroleum products markets, as well as related natural resources work 
on oil and gas royalty collection and policy. Prior to coming to GAO, 
he was an assistant professor in the Department of Economics for the 
University of Hong Kong. He has published articles on energy, 
transportation, environmental economics and related topics. He received 
both his M.A. and Ph.D. in economics from the University of Washington 
in Seattle and his B.A. degree in music performance from the University 
of Nevada, Reno.

    Chairman Gordon. Thank you, Dr. Rusco, and Dr. Morgan is 
recognized.

  STATEMENTS OF DR. GRANGER MORGAN, PROFESSOR AND DEPARTMENT 
  HEAD, DEPARTMENT OF ENGINEERING AND PUBLIC POLICY, AND LORD 
   CHAIR PROFESSOR IN ENGINEERING, CARNEGIE MELLON UNIVERSITY

    Dr. Morgan. Mr. Chairman and distinguished Members, thank 
you for the opportunity to appear today to discuss issues 
related to research and governance in geoengineering.
    I am Granger Morgan, head of the Department of Engineering 
and Public Policy at Carnegie Mellon University. Our department 
is the home of a large National Science Foundation-supported 
distributed center on climate decision research.
    Some of our center's research has addressed the subject of 
solar radiation management, or SRM, that would involve adding 
fine reflective particles to the stratosphere. We have also 
supported research on technology for directly scrubbing carbon 
dioxide out of the atmosphere.
    As part of our work on SRM, we have organized and run two 
workshops to engage leading climate scientists and foreign 
policy experts in discussions of the issues of global 
governance of SRM, and we have published a paper on this topic 
in the Journal of Foreign Affairs that I have appended to my 
written testimony.
    I want to emphasize that I am not arguing that the U.S. or 
anybody else should engage in SRM. The U.S. and other large 
emitting countries need to get much more serious about reducing 
emissions and lowering the concentration of atmospheric carbon 
dioxide. I believe that can be done at an affordable cost.
    However, we also need to understand, to undertake a serious 
program of research on SRM. In a piece attached to my written 
testimony, my colleagues and I argued, in Nature this January, 
that the risk of not understanding whether and how well SRM 
might work, what it would cost, and what its intended and 
unintended consequences might be, are today greater than the 
risks associated with undertaking such research.
    Initial research on SRM should be supported via the 
National Science Foundation at a level of a few million dollars 
per year. NSF should be the initial funding agency for two 
reasons. One, NSF does a good job of supporting open, 
investigator-initiated research, and we need a lot of bright 
people thinking about this topic from different perspectives 
before developing any serious program or field studies.
    Two, in additional to natural science and engineering, NSF 
supports research in the social and behavioral sciences, and 
those perspectives on the subject are urgently needed. However, 
we will not be able to learn everything we need to learn with 
laboratory and computer studies, and once it is clear what 
sorts of field studies are needed, then NASA and/or NOAA should 
become involved. I believe that DOE should stay focused on the 
problems of de-carbonizing the energy system and reducing 
atmospheric concentrations of carbon dioxide.
    All research on SRM should be open and transparent. Hence, 
SRM research should not be undertaken by DoD or the 
intelligence communities. Private, for-profit funding of SRM 
research should be actively discouraged, since it holds the 
potential to create a special interest that might push to move 
beyond research into deployment.
    I turn now to the global governance of SRM research. I 
believe that there should be constraints on modest, low level 
field studies, done in an open and transparent manner, designed 
to better understand what is and what is not possible, what it 
might cost, and what possible unintended consequences might 
result.
    That said, I think it likely that pressure will grow for 
some more formal international oversight of SRM, and for that 
reason, I think one of the first objectives in a U.S. research 
program should be to give the phrase ``modest low-level field 
testing'' a more precise definition.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    My first slide shows one way to frame this issue. In that 
diagram, X, Y, and Z define the limits of an allowed zone. They 
refer, respectively, to the upper bounds on the amount of 
radiative forcing that an experiment might impose, the duration 
of that forcing, and the possible impacts on ozone depletion.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    As my second slide shows, early research should ask what 
should the allowed zone, how should the allowed zone be 
defined, and should it use different axes? What should be the 
shape of that zone? What should be the values of X, Y, Z, and 
so on, and then, in joint discussion with foreign policy 
experts, what forms of international agreement and enforcement, 
if any, would be most appropriate, and what scientific input 
would they require?
    Now, all my remarks are focused on SRM. There are a number 
of technologies for directly scrubbing carbon dioxide from the 
Earth's atmosphere and sequestering it underground. These are 
very important. The Department of Energy should support 
research and development, and test such technologies, starting 
at a level of several tens of millions of dollars per year. 
Research and development by private, for-profit firms in this 
area should be very actively encouraged.
    Mr. Chairman, thank you.
    [The prepared statement of Dr. Morgan follows:]
                  Prepared Statement of Granger Morgan
    Mr. Chairman, distinguished members, thank you for the opportunity 
to appear today to discuss research and governance related to the issue 
of geoengineering.
    I am Granger Morgan, Professor and Head of the Department of 
Engineering and Public Policy at Carnegie Mellon University. I hold a 
Ph.D. in applied physics and have worked on a range of the technical 
and policy aspects of climate change for roughly 30 years.
    When we were awarded a large NSF grant to create The Center for 
Integrated Study of the Human Dimensions of Global Change, in 1995, one 
of the early things we did was to conduct a review of the state of 
knowledge in geoengineering. My colleagues Hadi Dowlatabadi and David 
Keith published several papers as a result, including:

        <bullet>  David W. Keith, ``Geoengineering the Climate: History 
        and Prospect,'' Annual Review of Energy and the Environment, 
        25, pp. 245-284, 2000.

        <bullet>  David W. Keith and Hadi Dowlatabadi, ``A Serious Look 
        at Geoengineering, Eos, Transactions American Geophysical 
        Union, 73, pp. 289-293, 1992.

    After this initial work we moved on to other topics, and I did not 
think seriously about geoengineering again until about three years ago. 
At that time the foreign policy community was largely unaware of the 
possibility that humans might be able to rapidly increase earth's 
albedo (the fraction of sunlight reflected back into space) by roughly 
one percent and in so doing offset the warming caused by carbon dioxide 
and other greenhouse gases. The Royal Society had recently termed such 
activity SRM, or ``solar radiation management.''
    In reflecting on the dismayingly slow pace of progress the world 
was making in cutting emissions of carbon dioxide, I began to be 
concerned that there is a growing risk that large effects from climate 
change might occur somewhere in the world that could induce a nation or 
group of nations to unilaterally modify the albedo of the planet in 
order to offset rising temperature. If someone were to do that, it 
could impose large effects on the entire planet.
    In order to start a conversation with the foreign policy community 
I enlisted four colleagues (two like me with backgrounds in physics and 
planetary science backgrounds and two with backgrounds in political 
science and foreign policy). We organized a workshop at the Council on 
Foreign Relations (CFR) here in Washington, DC on May 5, 2008. We had 
excellent attendance from senior folks in both the science and foreign 
policy communities.
    The five of us subsequently published a paper in the journal 
Foreign Affairs that summarized our thinking at that time:

        <bullet>  David G. Victor, M. Granger Morgan, Jay Apt, John 
        Steinbruner, and Katharine Ricke, ``The Geoengineering 
        Option,'' Foreign Affairs, 88(2), 64-76, March/April 2009. 
        (Attachment 2)

    Because the CFR workshop involved only North Americans, and because 
this is a global issue, I subsequently organized a second more 
international workshop, again with the objective of stimulating 
discussion between the scientific and foreign policy communities. This 
second workshop was hosted by the Government of Portugal on April 20-
21, 2009. Participants in this second workshop came from North America, 
from across the E.U., and from China, India and Russia.
    SRM has five key attributes:

                1.  It is fast (i.e. cooling could be initiated in 
                months not decades).

                2.  It is likely to be relatively inexpensive (i.e. as 
                much as 100 to 1000 times cheaper than achieving the 
                same temperature reduction through a systematic 
                reduction of global emissions of carbon dioxide).

                3.  It will be imperfect (i.e. it will do nothing to 
                offset the effects of rising carbon dioxide levels on 
                ocean acidification and the associated destruction of 
                coral reefs and ocean ecosystems; it will dry. out the 
                hydrological cycle--and while recent studies indicate 
                it will move temperature and precipitation back closer 
                to what they were before climate change, it will not do 
                so perfectly and there will be differences in how well 
                it will work in different parts of the world); it will 
                not offset impacts from elevated concentrations of 
                carbon dioxide on terrestrial ecosystems.

                4.  Once started, if SRM is ever stopped, and carbon 
                dioxide emissions have continued to rise, the resulting 
                rapid increase in temperature would result in 
                catastrophic ecological effects.

                5.  Unlike emission reduction which requires 
                cooperation by all large emitters, a single nation 
                (indeed, perhaps even a single very wealthy private 
                party) could undertake SRM and effect the entire 
                planet.

    Up until now there has been very little serious research conducted 
on strategies to modify rapidly the albedo of the planet (i.e. on SRM): 
Historically, most folks in the climate science community have been 
reluctant to work in this area for two reasons:


        <bullet>  they did not want to deflect scarce funding and 
        attention from the very important task of improving our 
        understanding of the climate system;

        <bullet>  they were worried that if we better understand SRM 
        and how to do it, that might deflect attention away from 
        reducing emissions, and might also increase the probability 
        that someone would actually engage in SRM.

    I want to emphasize in the strongest possible terms that I am not 
arguing that the U.S. or anyone else should engage in SRM. We need to 
get much more serious about achieving a dramatic reduction in emissions 
of carbon dioxide.
    However, because I believe that we are getting closer to the time 
when someone might be tempted to unilaterally engage in SRM in order to 
address local or regional problems caused by climate change, or a 
situation in which the world faces a sudden and unexpected climate 
emergency that places large number of people at risk, I think we have 
passed a tipping point. In my view, the risks of not understanding 
better whether and how SRM might work, what its intended and unintended 
consequences might be, and what it might cost, are today greater than 
the risks associated with doing such research. My colleagues and I have 
spelled out these arguments in two recent publications:


        <bullet>  David W. Keith, Edward Parson and M. Granger Morgan, 
        ``Research on Global Sun Block Needed Now,'' Nature, 463(28), 
        426-427, January 2010. (Attachment 3)

        <bullet>  M. Granger Morgan, ``Why Geoengineering?,'' 
        Technology Review, 14-15, January/February 2010.

    With this background, I turn now to two questions which I 
understand this Committee is especially interested: who should fund 
research and what approach should be taken to issues of governance.
    Up until now my remarks have been exclusively about SRM. There are 
a number of technologies for directly scrubbing carbon dioxide the 
earth's atmosphere and sequestering it deep underground. In my view, 
these are very important, and deserve considerably expanded research 
support, but do not pose significant issues of global governance. While 
slow, this approach is particularly attractive because it gets to the 
root of the problem by reducing the amount of carbon dioxide in the 
atmosphere. Thus, unlike SRM it also addresses ecosystem risks such as 
ocean acidification.
    I believe that the Department of Energy should support research to 
develop and test technology to directly scrub carbon dioxide from the 
atmosphere at a level starting at several tens of millions of dollars 
per year. I do not believe that more than modest support is warranted 
for other strategies to remove carbon dioxide from the atmosphere.
    As with power plants with carbon capture (CCS), once carbon dioxide 
has been captured it must be disposed of. At the moment, the best 
alternative is to do this via deep geologic sequestration. There are 
significant regulatory challenges for such sequestration. At Carnegie 
Mellon, we anchor the CCSReg project that is developing recommendations 
on the form that such regulation should take. Details are available on 
the web at www.CCSReg.org and are summarized in Attachment 4.
    With respect to SRM, I believe that initial research support should 
be provided via NSF beginning at a level of a few million dollars per 
year. Indeed, both the policy and scientific work that I and my 
colleagues and Ph.D. student (Katharine Rieke) have been doing in this 
area have been conducted with support from NSF.
    I argue that NSF should be the initial funding agency for two 
reasons:

        1.  NSF does a good job of supporting open investigator 
        initiated research and we need a lot of bright people thinking 
        about this topic from different perspectives in an open and 
        transparent way before we get very far down the road of 
        developing any serious programs of field research.

        2.  In addition to natural science and engineering, NSF 
        supports research in the social and behavioral sciences. 
        Perspectives and research strategies from those fields needs to 
        be brought to bear on SRM as soon as possible.

    We will not be able to learn everything we need to learn with 
laboratory and computer studies. Once it becomes clear that we need to 
be doing some larger scale field studies, then it would be appropriate 
to engage NASA and or NOAA. In addition to small scale field studies, 
it may also be possible to learn through more intensive studies of the 
``natural SRM experiments'' that occur from time-to-time when volcanoes 
inject large amounts into the stratosphere. NSF, NASA or NOAA would all 
be able to prepare instrumentation and research plans to study such 
events, and should be encouraged to do so.
    I would argue against involving DoE. They need to stay focused on 
the problems of decarbonizing the energy system.
    While private funding should be encouraged for research and 
development of technologies to scrub carbon dioxide out of the 
atmosphere, steps should be taken to strongly discourage private 
funding for SRM since that holds the potential to create a special 
interest that might push to move past research to active deployment.
    I believe that any research in SRM should be open and transparent. 
For this reason, and for reasons of international perceptions, 1 argue 
strongly that research on SRM should not be undertaken by DOD or by the 
intelligence communities.
    Finally, I turn to the issue of global governance and SRM--the 
subject of the two workshops I described above. People do lots of 
things in the stratosphere today, most of which are pretty benign. So 
long as it is public, transparent, and modest in scale, and informally 
coordinated within the scientific community (e.g. by a group of leading 
national academies, the international council of scientific unions 
(ICSU), or some similar group) I believe there should be no constraints 
on modest low-level field testing, done in an open and transparent 
manner, designed to better understand what is and is not possible, what 
it might cost, and what possible unintended consequences might result.
    That said, I think it likely that pressure will grow for some more 
formal international oversight. For that reason I think one of the 
first objectives in a U.S. research program should be to give the 
phrase ``modest low-level field testing'' a more precise definition. 
Figure 1 illustrates one way to think about this issue. In this diagram 
X, Y and Z define the limits to an ``allowed zone.'' They refer 
respectively to upper bounds on the amount of radiative forcing that an 
experiment could impose, the duration of that forcing, and the possible 
impact on ozone depletion (the surface of particles can provide 
reaction sites at which ozone destruction could occur).
    Initial research should explore whether these three axis are the 
right ones, or whether there should be other or additional dimensions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The ``allowed space'' might not be a simple cube. For example, as 
Figure 2 suggests, if the scientific community thought it was important 
to test a small number of particles that because of special properties 
would be very long lived, but would have de minimus effect on planetary 
forcing or ozone depletion, a more complex ``allowed space'' might be 
called for.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    I am not prepared to argue that there should be a formal treaty any 
time soon that addresses these issues. However, I think there is a good 
chance that pressure will grow for some form of international agreement 
(perhaps just an agreement among major states that others can choose to 
sign on to). For this reason we should start now to lay the scientific 
foundation for defining such an ``allowed space.'' If work has not been 
done before hand it might be very hard to introduce a reasoned 
scientific argument if political momentum grows for serious 
limitations--perhaps even an outright ban or ``taboo.'' For this reason 
I think we should continue to promote discussion between the scientific 
and foreign policy communities about what form(s) of international 
agreement and enforcement (if any) would be most appropriate and what 
sorts of scientific foundation they would require.

    Attachments:
    1. Short vita for M. Granger Morgan.
    2. Copy of the paper ``The Geoengineering Option'' from Foreign 
Affairs, 2009.
    3. Copy of the opinion piece ``Research on Global Sun Block Needed 
Now'' from Nature, 2010.
    4. Summary of regulatory recommendations for deep geological 
sequestration of carbon dioxide from the CCSReg project.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                      Biography for Granger Morgan
    M. Granger Morgan is Professor and Head of the Department of 
Engineering and Public Policy at Carnegie Mellon University where he is 
also University and Lord Chair Professor in Engineering. In addition, 
he holds academic appointments in the Department of Electrical and 
Computer Engineering and in the H. John Heinz III College. His research 
addresses problems in science, technology and public policy with a 
particular focus on energy, environmental systems, climate change and 
risk analysis. Much of his work has involved the development and 
demonstration of methods to characterize and treat uncertainty in 
quantitative policy analysis. At Carnegie Mellon, Morgan directs the 
NSF Climate Decision Making Center and co-directs, with Lester Lave, 
the Carnegie Mellon Electricity Industry Center. Morgan serves as Chair 
of the Scientific and Technical Council for the International Risk 
Governance Council. In the recent past, he served as Chair of the 
Science Advisory Board of the U.S. Environmental Protection Agency and 
as Chair of the Advisory Council of the Electric Power Research 
Institute. He is a Member of the National Academy of Sciences, and a 
Fellow of the AAAS, the IEEE, and the Society for Risk Analysis. He 
holds a BA from Harvard College (1963) where he concentrated in 
Physics, an MS in Astronomy and Space Science from Cornell (1965) and a 
Ph.D. from the Department of Applied Physics and Information Sciences 
at the University of California at San Diego (1969).

    Chairman Gordon. Thank you. And Dr. Long is recognized. And 
we need to use your--there you go.

    STATEMENTS OF DR. JANE LONG, DEPUTY PRINCIPAL ASSOCIATE 
   DIRECTOR AT LARGE AND FELLOW, CENTER FOR GLOBAL STRATEGIC 
           RESEARCH, LAWRENCE LIVERMORE NATIONAL LAB

    Dr. Long. Thank you. Okay, I hope the timer starts now. Mr. 
Chairman and Members of the Committee, thank you for this 
opportunity to talk to you.
    My name is Jane Long. I am Principal Associate Director at 
Large at Lawrence Livermore, and I am currently acting as the 
Co-Chair of the National Commission on Energy Policies Task 
Force on Geoengineering. Today, my comments represent my own 
views, and not the views of either my laboratory or the NCEP 
Task Force, which has just begun its work.
    I am going to talk about geoengineering, about three 
classes of geoengineering that were identified by the American 
Meteorological Society: climate remediation, or taking carbon 
dioxide out of the air; climate intervention, which is an 
actual act to change the nature of the climate; and the third 
category, which is a catch-all category. Most of my remarks 
will focus on the second category, because you are interested 
in governance, and this is where the governance issues largely 
occur.
    My only remark about the category of climate remediation in 
my oral remarks today would be that there are fewer governance 
issues associated with it, that the research, as Dr. Morgan has 
pointed out, falls closely allied to CCS, carbon capture and 
storage research currently being pursued by the Department of 
Energy, and that this program should be expanded to include 
this. From a governance perspective, there is a question about 
whether the technology should be a public good, or we should 
tap into the forces of the market, and I think that that 
question depends on whether we end up having a price for 
carbon. If we have a price for carbon, this technology could 
easily be innovated in the private sector. If not, it is more 
like picking up the garbage, and should be a public good.
    Let me turn my attention now to climate intervention. I 
really endorse the U.K. principles that were heard this 
morning. I think they are extremely important, and I would like 
to endorse those, and say that those are at the top of my list.
    First of all, I think that the climate technology should be 
a public good, and we should say, up front, that we are not 
planning for deployment. If we start our research program by 
saying we are planning for deployment, we will feel a lot of 
pressure and a lot of pushback on whether people are against 
it. A lot of people who are against the idea of geoengineering 
are clearly for research, and we should not involve those at 
this point.
    There are four questions that we need to get after in the 
national research governance format. One is what constitutes an 
appropriate level of governance for specific types of research? 
The second is, what are the guiding principles that should be 
used to sanction the research? And then, given these 
principles, what process should be used to sanction the 
research? And then, how will the governance process engage 
society?
    Dr. Morgan has presented a concept for determining that 
level of research which should proceed with what I will call 
only ``normal governance''. I endorse that, and recommend that 
you convene a National Academy of Science panel now to help 
define what that bright line is, below which research can 
proceed with impunity. This is critically important, because we 
need to get started on research, and a lot of research is not 
problematic, and getting a definition of what we can go ahead 
with would be very important.
    Then, we need to work on principles. I would like to add a 
few principles to those you heard this morning, and that is: 
beneficence should be a principle. We should have, we heard 
transparency, we heard public good, we heard public 
participation, we heard independent assessment of impacts, and 
we heard governance before deployment.
    But I would like to add to that, we need to have some 
assessment that the benefits of the project, the potential 
benefits of the project, clearly outweigh any risks that are 
there. And some aspect of justice, ensuring a reasonable, non-
exploitive, well considered procedures, and that the risks are 
fairly distributed.
    In the research program, I think that the justice 
perspective is one that should be quite clear. We should not be 
taking advantage of people or peoples in doing research, but 
beginning to ask the question in the research program that will 
help us as we move towards possible deployment.
    The review process then has to go forward, and let me just 
make one clear point about that. We don't know how to govern 
this research and do the review, but we have other models, and 
what I would recommend now is that we start a program with mock 
governance and mock review boards, that can try different 
principles and different procedures and see how they work, much 
as the institutional reviews for human subjects research try 
different ways to proceed, and then assess how well they have 
done.
    Thank you for the opportunity to comment today, and I will, 
the rest of my remarks are my written testimony. Thank you.
    [The prepared statement of Dr. Long follows:]
                    Prepared Statement of Jane Long
    Mr. Chairman, members of the committee, thank you for this 
opportunity to add my comments about geoengineering to the record. This 
is a difficult and complex topic and your willingness to organize these 
sessions is both courageous and admirable. I hope I can add a little to 
the dialogue.
    My academic background is geohydrology; I have worked in 
environmental and resource problems for over 35 years. My experience 
includes nuclear waste storage, geothermal energy, oil and gas 
reservoirs, environmental remediation, sustainable mining, climate 
science, energy efficiency, energy systems and policy, adaptation and 
recent attention to geoengineering. I have worked at two national 
laboratories, Lawrence Berkeley National Lab and Lawrence Livermore 
National Lab and have been a dean of engineering and science at 
University of Nevada, Reno. I am a Senior Fellow of the California 
Council on Science and Technology (CCST) and an Associate of the 
National Academy of Sciences. In my current position, I am a fellow in 
Lawrence Livermore National Laboratory's Center for Global Strategic 
Research and Associate Director at Large for the laboratory. I work in 
developing strategies for a new, climate friendly energy system and 
currently chair the CCST's California's Energy Future committee which 
is charged with examining how California could meet 80% reductions in 
greenhouse gas emissions by 2050. I am also a member of the State of 
California's Climate Change Adaptation Advisory Council. I currently 
serve as co-chair of the National Commission on Energy Policy's (NCEP) 
Task Force on Geoengineering. I work to understand and advance a full 
spectrum of management choices in the face of climate change: 
mitigation, adaption and now geoengineering.
    My comments today reflect the perspective of my experience. They 
are my own opinions and do not reflect positions taken by my laboratory 
(Lawrence Livermore National Laboratory) or the NCEP task force on 
geoengineering I co-chair.

Introduction

    Our climate is changing in response to massive emission of 
greenhouse gases. First, we have to stop causing this problem. We have 
to change our energy system, food system, transportation system, 
industries and land use patterns. Even with mandatory concerted effort, 
such massive change will take decades. During these same decades we 
will continue to burn fossil fuels and add to the greenhouse gases we 
have already emitted. This atmospheric perturbation will last for 
centuries and will continue to warm our planet. We have created, and 
will continue to create unavoidable risk of disruptions to our way of 
life which may force us to spend more on protection (resistance), 
change our way of life to accommodate the change (resilience), or 
perhaps even to abandon parts of the Earth that are no longer habitable 
by virtue of being under water or having too little fresh water 
(retreat).
    Because the carbon dioxide we have already emitted will be with us 
for centuries, the problem of climate change cannot be ``solved'' in 
the same sense that other pollution problems--such as ozone depletion--
have been solved by phasing out emissions over time. Climate change is 
like a chronic disease that must be managed with an arsenal of tools 
for many years while we struggle with a long term cure. In this future, 
if climate sensitivity (the magnitude of temperature change resulting 
from a doubling of CO<INF>2</INF> concentrations in the atmosphere) 
turns out to be larger than we hope or mitigation proceeds too slowly, 
we cannot rule out the possibility that climate change will come upon 
us faster and harder than we--or the ecosystems we depend on--can 
manage. No one knows what will happen, but we face an uncertain future 
where catastrophic changes are within the realm of the possible.
    In the face of this existential threat, prudence dictates we try to 
create more options to help manage the problem and learn whether these 
are good options or bad options. I believe this is the most fundamental 
of ethical issues associated with our climate condition. We must 
continue to strive to correct the problem. This is why scientists today 
have become interested in a group of technologies commonly called 
geoengineering that are aimed at ameliorating the harmful effects of 
climate change directly and intentionally. Intentional modification of 
the climate carries risks and responsibilities that are entirely new to 
mankind. (We accept unintended but certain harm to climate from energy 
production much more easily that we accept unintended harm through 
intentional climate modification.) As we consider geoengineering, we 
have to recognize that society has not been able to quickly or easily 
respond to the climate change challenge. Consequently, the 
geoengineering option isn't just a matter of developing new science and 
technologies. It is also a matter of developing new social and 
political capacities and skills.
    As much as I think we should research geoengineering possibilities, 
I think we should remain deeply concerned by the prospect of 
geoengineering. We will not be able to perfectly predict the 
consequences of geoengineering. Some effects may be irreversible and 
unequally distributed with harm to some even if there is benefit to 
many. Geoengineering could be a cause for conflict and a challenge for 
representative government. Geoengineering might be necessary in the 
future, but as we proceed to investigate this topic, we will need 
extremely good judgment and a very large dose of hubris.
    Three different classes of geoengineering have been identified 
(American Meteorological Society, http://www.ametsoc.org/POLICY/
2009geoengineering
climate<INF>-</INF>amsstatement.html). The first is actively removing 
greenhouse gases from the atmosphere. This has been called ``Climate 
remediation'' or carbon dioxide removal (CDR) or ``carbon management''. 
Climate remediation is similar in concept to cleaning up contamination 
in our water or soil. The first problem is to stop polluting 
(mitigation) and the second is to remove the contaminants (remediation) 
and put them somewhere_for example filter CO<INF>2</INF> out of the air 
and pump it underground.
    The second set of technologies has been called ``Climate 
intervention'' where we act to modify the energy balance of the 
atmosphere in order to restore the climate closer to a prior state. 
Climate intervention has also been called solar radiation management 
(SRM) or sun-block technology and some consider the technologies to be 
a radical form of adaptation. If we cannot find a way to live with the 
altered climate, we intervene to roll back the change.
    The third is a catch-all category that includes technologies to 
manage heat flows in the ocean or actions to prevent massive release of 
methane in the melting Arctic. These technologies are less well 
understood and developed, but the classification recognizes that not 
all the ideas are in and, as well, we may wish to address some very 
specific global or sub-global scale emergencies caused by climate 
change.
    I do not view any of these methods as stand-alone solutions, but 
some or all of these could be integrated in a comprehensive climate 
change strategy that starts with mitigation. A comprehensive climate 
change strategy might include:

        <bullet>  A steady, but aggressive transformation of the global 
        energy system to eliminate emissions with concurrent 
        elimination of air pollution in a few decades (mitigation)
        <bullet>  Carbon removal over perhaps 50 to 100 years to return 
        to the ``safe zone'' of greenhouse gas concentrations (climate 
        remediation)
        <bullet>  Time limited climate intervention to counteract prior 
        emissions and reductions in air pollution, tapering off until 
        greenhouse gases fall to a ``safe'' level (climate 
        intervention).
        <bullet>  Specific focused actions to reverse regional climate 
        impacts such as preventing methane burps or melting Arctic ice 
        (technologies from the ``catch-all'' category)

    My remarks below do not discuss the technologies themselves in any 
depth as that has been done by others nor are they comprehensive. I 
will discuss some of the implications for research and experimentation. 
Where possible I will comment on existing US research programs and 
their capacity or suitability to expand into geoengineering research. 
As well, I will try to point to specific research topics that I have 
not seen in the geoengineering discourse up to now which are critical 
for any future geoengineering capability. I will bring out specific 
issues related to governance and international relations and some 
possible approaches for dealing with these. Discussion of governance 
and international relationships will focus mainly on climate 
intervention methods which are in general a more difficult societal and 
research problem. I will also some important research needed in climate 
science which is also critical for geoengineering.

Climate remediation technologies

    Climate remediation technologies are with some exceptions 
relatively safe and non controversial. They address the root cause of 
the problem, but these methods are slow to act. It would take years if 
not decades to reduce the concentration of CO<INF>2</INF> in the 
atmosphere through air capture and sequestration. These technologies 
are expensive when compared to the option of not emitting CO<INF>2</INF> 
in the first place. It costs less to capture concentrated streams of 
CO<INF>2</INF> in flue gas or to use non-emitting sources of energy in 
lieu of burning fossil fuel, so many carbon removal technologies are 
likely to remain uneconomical until we have exhausted the opportunities 
for mitigation. However, research into these ideas is important because 
at some point we may decide that the atmospheric concentrations must be 
brought down below stabilized levels. If we don't want to wait many 
hundreds of years for this to happen through natural processes, we may 
have to actively remove greenhouse gases. As we begin to understand 
more about the costs of adapting to unavoidable climate change, 
remediation technologies may become a cost effective option. Developing 
carbon removal technology that is reliable, safe, scalable and 
inexpensive should be the goal of a research program.
    Some of the more promising technologies in carbon removal are 
closely related to carbon capture and storage (CCS) technologies. CCS 
offers the most, if not only promise for preventing greenhouse gas 
emissions from fossil fuel-fired electricity generation. For CCS, we 
contemplate separating out CO<INF>2</INF> after combustion of coal and 
then pumping it deep underground into abandoned oil or gas fields or 
saline aquifers. The technologies for removing CO<INF>2</INF> from air 
(air capture) and flue gas are similar.
    In general, CCS is expected to be much less expensive than air 
capture, but air capture does have some possible advantages over CCS. 
It may be possible to site air capture facilities near a stranded 
source of energy (remote geothermal or wind power for example, or in 
the middle of the ocean) and also near geologic formations that are 
capable of holding the separated gases. This arrangement might obviate 
some of the infrastructure costs associated with capturing CO<INF>2</INF> 
at a power plant and having to choose between locating the power plant 
near the geologic storage reservoir and transmitting the power to the 
load, or conversely locating the power plant near load and conveying 
the CO<INF>2</INF> to the storage facility. Further the cost of capture 
is likely to decline. In the long-run these considerations may become 
dominant.
    After capturing the CO<INF>2</INF>, it has to be put somewhere 
isolated from the atmosphere. Currently, we are considering geologic 
disposal: pumping the CO<INF>2</INF> deep underground. There are 
important policy and legal issues associated with geologic storage. The 
implementer must obtain rights to the underground pore space and be 
able to assign liability for accidents and leakage etc. These same 
issues exist for storage of CO<INF>2</INF> in a CCS project and the US 
CCS project currently deals with them. However, Keeling (R. Keeling, 
Triage in the greenhouse, Nature Geoscience, 2, 820-822, 2009) has 
suggested that the amount of CO<INF>2</INF> we may need to remove from 
the atmosphere is such that we will have to consider disposal in the 
deep ocean as a form of environmental triage. Ocean dumping would 
clearly involve much more serious governance issues, similar to climate 
intervention which are discussed below.
    Because of the similarities with CCS, it makes some sense to 
augment current research by DOE's Fossil Energy program in CCS to 
include separation technology related to air capture of CO<INF>2</INF>. 
There are technical synergies in the chemical engineering of these 
processes and the researchers are in some cases the same. The research 
is complementary. The governance issues related to geologic storage are 
exactly the same.
    A second governance issue has to do with intellectual property 
(IP). If there is no significant price for carbon, and carbon removal 
becomes a function of the government (like picking up the garbage) we 
might consider making any air capture technology we develop freely 
available throughout the world as it is in our interest to have anyone 
who is able and willing help clean up the atmosphere. If however, there 
is a price for carbon, then IP could help to motivate innovation to 
gain a competitive edge which is also in the interest of society. 
Unfortunately, we don't have a price for carbon now, and we are not 
sure whether we will, so the choice is difficult.
    Beyond air capture, the Royal Society report on Geoengineering (J. 
Shepherd et al., Geoengineering the Climate: Science, Governance and 
Uncertainty, The Royal Society, London, 2009 http://royalsociety.org/
geoengineeringclimate/) lists a number of other carbon removal 
technologies. Among these, augmentation of natural geologic weathering 
processes and biological methods would fit well within either NSF's 
science programs or in DOE's Office of Science program. For the near 
term, research will involve the kind of modeling studies and field 
experiments that are already a mainstay of these programs. NSF is 
focused on university researchers and is extremely competitive which 
means that high risk ideas will likely not be funded. In the DOE 
program, there is more focus on mission, high risk research, and 
national laboratory researchers. There should be room for both. The US 
Geological Survey will certainly have highly applicable expertise.
    A climate remediation program should also provide money to 
investigate issues such as the possibility of putting out coal mine and 
peat fires that continually burn underground and emit large amounts of 
CO<INF>2</INF> and other greenhouse gasses. With the demise of the US 
Bureau of Mines, there is no clear place for this research, but might 
be best done through the Mine Safety and Health Administration (MSHA). 
Biological methods of remediation might include genetically modified 
organisms (GMO) that would raise governance issues. Early stage 
research would likely be covered under existing review and governance 
mechanisms in place by NIH or NSF for other GMO research. Any large 
scale experimentation would also raise governance issues similar to 
those associated with climate interventions which are discussed below. 
Similarly, ocean iron fertilization methods have governance issues 
similar to climate intervention methods and may also be governed by 
existing treaties such as the London Convention or the Law of the Sea.

Climate intervention

    Climate model simulations have shown that it is possible to change 
the global heat balance and reduce temperatures on a global basis very 
quickly with aerosol injection in the stratosphere for example. We also 
have experience with natural analogues in the form of volcanic 
eruptions which emit massive amounts of sulfates that cause colder 
temperatures for months afterwards. So we have a pretty good idea that 
some methods could be effective at reducing global temperatures.
    Climate intervention techniques include a variety of controversial 
methods aimed at changing the heat balance of the atmosphere by either 
reducing the amount of radiation reaching the Earth or reflecting more 
into outer space. The common features of these technologies are that 
they are inexpensive (especially compared to mitigation), they are fast 
acting, and they are risky. Some could lower temperatures within months 
of implementation, but they do not ``solve'' the problem in that they 
do nothing to reduce the excess greenhouse gases in the atmosphere. So, 
if we reflect more sunlight and don't reduce CO<INF>2</INF> in the 
atmosphere, the oceans will continue to acidify, severely stressing the 
ocean ecosystems that support life on Earth. And if we keep adding 
CO<INF>2</INF> the atmosphere we will eventually overwhelm our capacity 
to do anything about it with geoengineering intervention. So, climate 
intervention cannot be a stand-alone solution. It is at best only a 
part of an overall strategy to reduce atmospheric concentrations of 
greenhouse gases and adapt to the unavoidable climate change coming 
down the pike. Climate interventions are unlikely to be deployed until 
or unless we become convinced that the risks of climate change plus 
climate intervention are less than the risks of climate change alone.
    There are ideas for putting reflectors in space and increasing the 
reflectance of the oceans, land or atmosphere (see the Royal Society 
Report on Geoengineering). Some propose global interventions such as 
injection of aerosols (sulfate particles or engineered particles) in 
the stratosphere and the Novim report spells out the required technical 
research in some detail (J.J. Blackstock et al., Climate Engineering 
Responses to Climate Emergencies, Novim, Santa Barbara, CA 2009 http://
arxiv.org/pdf/0907.5140). Others propose more regional or local 
interventions, such as injecting aerosols in the Arctic atmosphere only 
in the summer to prevent the ice from melting (On the possible use of 
geoengineering to moderate specific climate change impacts, M. 
MacCracken, Env. Res. Letters, 4/2009, 045107). Even more local and 
perhaps the most benign is the idea of painting rooftops and roadways 
white to reflect heat.
    The more global and effective these methods, the more they harbor 
the possibility of unintended negative consequences which may be 
unequally distributed over the planet and extremely difficult to 
predict. We can expect few if any unintended consequences from painting 
roofs white, the benefit will be real and a cost-effective part of our 
arsenal. However, this action alone is not enough of an intervention to 
hold back runaway climate change. On the other hand, we could reverse 
several degrees of temperature rise by injecting relatively small 
amounts of aerosols in the stratosphere (because a few pounds of 
aerosols will offset the warming of a few tons of CO<INF>2</INF>), but 
it may be difficult to predict exactly how the weather patterns will 
change as a result. Although the net outcome may be positive, certain 
regions may experience deleterious conditions. It will be very 
difficult to determine whether these deleterious conditions arise 
simply from climate variability or are due to the intentional 
intervention. In general, methods with high potential benefits also 
have higher risks of unintended negative consequences.
    Climate intervention might be part of an overall climate strategy 
in ways and with difficulties that we have only begun to contemplate. 
Climate model simulations have shown that if we were to suddenly stop a 
global intervention, then the global mean temperature will quickly 
return to the trajectory it was following before the intervention. This 
means that temperatures could increase very rapidly upon cessation of 
the intervention which would likely to be devastating. Climate 
intervention may only provide temporary respite, and ironically would 
be difficult to stop. However, we already emit millions of tons of 
aerosols now in the form of air pollution which is masking an unknown 
amount of global warming, perhaps as much as 5 or 10 degrees C. So, as 
we clean up this air pollution to protect human health or stop emitting 
air pollution as we shut down coal-fired electricity generation in 
mitigation efforts, we will also cause a significant increase in short-
term warming. (Long term warming remains largely a function of the 
concentration of CO<INF>2</INF>.) We may want to offset this additional 
warming by injecting some aerosols in the stratosphere where they are 
even more effective at reflecting radiation. This plan might cause much 
less acid rain and improve human health impacts compared to the power 
plant and automobile emissions while continuing to mask undesirable 
warming. It is possible that the ``drug'' of aerosol injection could be 
a type of ``methadone'' as we withdraw from fossil fuels.
    Beyond technical problems, international strife is possible. State 
or non-state actors may think it is in their interest to deploy 
geoengineering without international consensus. Could a country 
suffering from climate change see a benefit to the technology and not 
have sufficient concern with disrupting the rainfall in other 
countries? Any indication that a nation is doing research solely to 
protect their national interests will be met with appropriate suspicion 
and hostility. On the other hand, the possibility of reaching of global 
consensus to deploy these technologies seems utterly impossible. Who 
gets to determine what intervention we deploy or even what the goal of 
the intervention should be?
    Climate intervention techniques offer tremendous potential benefits 
to life on Earth, at the same time they are hugely vulnerable to 
mismanagement and may have severe and unacceptable unintended 
consequences and risks. For all these reasons, practically no one 
thinks we should deploy these technologies now if ever and, we should 
remain skeptical and appropriately fearful of deploying these 
technologies at any point in time. But many, including me, think we 
should gain knowledge about them in a research program simply to inform 
better decisions later and to be sure we have explored all options in 
light of the enormity of the threat. It would be especially better to 
know more about what could go wrong and what not to do.

In light of these concerns, how should a research program proceed?
    The nature of research into climate intervention may call for a 
focus on public management rather than private sector motivation. There 
is much at stake_literally the future of the planet. There are distinct 
problems with letting companies with vested financial interests in 
intervention technology have a say in the intervention choices we make. 
For example, when California decided it no longer had to dig up old 
leaking gas tanks because the bacteria in the soil were able to 
remediate the contamination if just left alone (intrinsic remediation), 
the industry that served to dig up leaking gas tanks fought the ruling. 
Not digging up the tanks was in the interest of society, but the 
industry was concerned with its financial future. We do not want to 
place the deliberations about how to modify the climate in a profit 
making discourse. The role of the private sector and public-private 
partnerships should be carefully constructed to avoid these problems.
    The United States Government should make it absolutely clear we are 
not planning for deployment of climate intervention technology. Many 
serious people worry that geoengineering will form a distraction from 
mitigation. Many are worried because they do not see the societal 
capacity to make mitigation decisions commensurate with the scale of 
the climate problem. Others find the very thought of geoengineering 
abhorrent and unacceptable. However, many people who are against 
deployment are
    in favor of research. By making it clear we are not planning to 
deploy we can take some of the political pressure off the research 
program and allow more room for honest evaluation.
    A very good example of how this might work can be found in the 
Swedish nuclear waste program. In 1980, Sweden voted to end nuclear 
power generation in their country in the early part of the 21St 
century. Then, they began a program to build a repository to dispose of 
nuclear waste. Opposition to the nuclear waste program was not saddled 
by the question of the future of nuclear power. The program proceeded 
in an orderly manner and with extensive public interaction and 
consultation focused narrowly on solving the nuclear waste problem. 
They jointly developed a clear a priori statement of the requirements 
for an appropriate site before the site was chosen. Today, Sweden has 
chosen a repository site which is supported by the local population and 
is scientifically the best possible site in Sweden. (In contrast, the 
goal of the American policy was to show that we could store waste in 
order to have nuclear power, the repository site was chosen by Congress 
without public consultation. Astonishingly, the site criteria were 
established after the site was chosen. In the end we do not have a 
successful nuclear waste storage program. See J. C.S. Long and R. 
Ewing, Yucca Mountain: Earth-Science Issues at a Geologic Repository 
for High-Level Nuclear Waste, Annual Review of Earth and Planetary 
Sciences, Vol. 32: 363-401 May 2004) Likewise for geoengineering, a 
perception that the purpose of the research program is to plan 
deployment would saddle the research program with needless controversy. 
We should be careful to state we are not planning deployment.
    Second, as in the Swedish nuclear waste program, we should embed 
public engagement in the research program from the very beginning. I 
will discuss science and public engagement from three perspectives: 
national governance, international interactions, and the requirement 
for adaptive management.

National research governance:
    In constructing a national research program, we have to be 
concerned with these questions:

        1.  What constitutes appropriate levels of governance for 
        specific types of research?

        2.  What are the guiding principles and values that will be 
        used to sanction research?

        3.  Given these principles, what process will be used to 
        sanction proposed research?

        4.  How will the governance process engage society?

Types of research
    One of the truly difficult problems in climate intervention 
research has been pointed out by Robock et at (Science 29 Jan 2010, Vol 
327, p 530). Namely, it is not possible to fully understand how a 
specific technology will work on a global scale, over extended periods 
of time without actual deployment. But we certainly would not want to 
deploy an intervention without understanding how it works first. We 
cannot plunge into deployment, so how should research proceed?
    The first key point is that there are many types of research that 
require no new governance. For example computer modeling studies that 
simulate proposed interventions are clearly completely benign. On the 
other hand, a proposal for full- or even sub-scale deployment with non-
trivial effects would clearly require a very high level of scrutiny. 
So, the first task is to determine the scale and intensity of 
experimentation below which research can proceed with impunity. What 
amount of perturbation, reversibility, duration, impact, etc falls 
squarely within the existing bounds of normal research? I will call 
this the ``bright line,'' even though in practice the line is likely to 
be fuzzy and the characterization of this line is likely to be 
difficult to express quantitatively. Never-the-less, if research falls 
under the bright line, essentially no new governance is required.
    There is no single bright line for all proposed climate 
intervention research; the nature of the ``bright line'' is technology 
dependent. Although the types of questions might be similar, the 
specific questions we would ask about aerosol injection in the 
stratosphere are completely different than the questions we would ask 
about putting small bubbles on the surface of the ocean. So, when a 
technology is sufficiently mature to be seriously considered for 
expanded research, it will become necessary to understand the bright 
line for that technology. The process and deliberation used by the 
National Academy of Sciences/ National Research Council (NAS/NRC) is 
ideal for determining this bright line. They assemble a panel of 
experts, take testimony, and opine on complex scientific and social 
issues. Two of the technologies currently under discussion, aerosol 
injection in the atmosphere and cloud brightening, have probably 
reached this level. An NAS/NRC panel should be convened now to 
determine what research projects in these two technologies can proceed 
with ``normal'' governance.
    More difficult is the area of research above the bright line. The 
National Environmental Policy Act (NEPA) mandates federal agencies to 
prepare an Environmental Impact Statement (EIS) for any major federal 
action that significantly affects the quality of the human environment 
or to conduct an Environmental Assessment when the effects of the 
proposed action are uncertain. These and other environmental laws and 
regulations may directly affect above the line research. Beyond these 
environmental laws, governance principles and procedures are yet to be 
developed.
    Nanotechnology has attributes in common with climate intervention 
research. There is great promise but risks that are hard to quantify. 
How will nano-particles behave in the environment? Will they disrupt 
natural processes in a way we cannot predict? One approach has been to 
fund research on the toxicology of nano-particles to find out what 
might wrong. At least part of a climate intervention research program 
should be dedicated solely to understanding the potential negative 
impacts and what might go wrong.

Principles
    For research that rises above the bright line, there is a lot to be 
learned from examining other research governance principles and 
practices. Human subjects research is particularly apropos. The 
Nuremburg trials after WWII revealed horrendous medical experiments on 
human subjects by Nazi ``doctors''. America's shameful history of 
research on syphilis in the 1960s and 1970s which horribly mistreated 
the Tuskegee airman and subjected them to unimaginable suffering is 
another salient reminder of how dangerous experiments may be when 
detached from appropriate moral and ethical guidelines. These 
experiences led to a commission charged with providing guidance for 
future research governance. The Belmont report written by this 
commission lays out principles which must be met in order to sanction 
proposed research where humans are the subject of the research. (From 
Wikipedia http://en.wikipedia.org/wiki/Belmont<INF>-</INF>Report: The 
Belmont Report is a report created by the former United States 
Department of Health, Education, and Welfare (which was renamed to 
Health and Human Services) entitled ``Ethical Principles and Guidelines 
for the Protection of Human Subjects of Research,'' authored by Dan 
Harms, and is an important historical document in the field of medical 
ethics. ) The principles are quite basic and we can easily see how they 
might translate to principles that might apply to ``Earth subject'' 
research.
    The three fundamental principles of the Belmont report are:

        1.  respect for persons: protecting the autonomy of all people 
        and treating them with courtesy and respect and allowing for 
        informed consent;

        2.  beneficence: maximizing benefits for the research project 
        while minimizing risks to the research subjects; and

        3.  justice: ensuring reasonable, non-exploitative, and well-
        considered procedures are administered fairly (the fair 
        distribution of costs and benefits to potential research 
        participants.)

    These principles stimulate a good discussion of possible governance 
principles for geoengineering. For the first principle, there are 
really two parts, respect and informed consent. The respect part 
probably translates to ``Respect for all persons of the planet.'' 
Geoengineering research should not be frivolous, or dismissive of human 
life. As well, life other than human is also an issue, so perhaps this 
principle translates to ``respect for life on Earth''. Does the 
proposed research exhibit respect for life on Earth?
    The informed consent principle is perhaps the most important and 
most vigorously evaluated principle in human subjects research review. 
Proposals are rejected based on obfuscation of the research methods. 
For example, a proposal for research on child molestation was recently 
rejected. The proposer told parents he would be playing a game of Simon 
Says with the children. What the proposer failed to tell the parents 
was that he would ask the children to do things like ``suck my thumb''. 
The proposal was denied based on lack of informed consent. The message 
here is that the researcher obscured the procedure in order to get 
consent from the parents. What is the moral equivalent of informed 
consent for geoengineering research? I think it is at least in part 
that the proposal methods, plans, analysis and even engineering should 
be open and transparent. We might ask researchers for specific actions 
to make their work transparent and collaborative. Say posting on a 
specific website, or advertisements in new media. Beyond this, it is 
not possible to get the informed consent of all life on Earth or even 
all countries. The question will be who is informed and who has to 
consent? How will the public and the democratic process be involved? 
These are matters for public deliberation.
    The beneficence principle applies essentially without change. It is 
perhaps the most straightforwardly applicable of the three. The 
benefits of the research should outweigh the risk of unintentional harm 
to life on Earth. The research must be aimed at accomplishing a benefit 
and must not intentionally do harm. To demonstrate this, proposers 
should take actions such as modeling their results, evaluating natural 
analogues, assessing potential impacts, and other due-diligence 
measures that, in the end, must be evaluated by judgment in review. 
Again, the question is, who reviews? Who gets to sanction the research? 
We can examine the review process used for human subjects and other 
controversial research and learn more about what we should do for 
climate intervention research.
    The third principle, justice, requires somewhat different 
articulation for geoengineering, but the basic ideas apply. The intent 
of this principle is to avoid experiments that take unfair advantage of 
a class of vulnerable people (prisoners or children for example) for 
the benefit of others. In the case of Earth subject research, the issue 
might be this: does the proposed activity sacrifice the interests of 
one group of people for the benefit of everyone else? I would think 
that at the research level, the answer to this question should be 
categorically ``no'', the research does not gain information about a 
proposed method at the expense of vulnerable populations. Proposers 
could be required to show how and why they expect their research to be 
fair. The problem will become more difficult as research reaches 
subscale or full scale deployment. If some parts of the Earth are 
harmed by the intervention, will there be compensation, how much and 
from whom? How will causation be established? Worse, is it fair to 
deprive some countries of the right to choose the temperature? These 
questions themselves must be topics for research and public 
deliberation.
    There are of course major differences between the ethics governing 
medical research on human subjects and Earth subject research. One of 
the most interesting is that the need for research governance is 
diminished over time for medical research. Eventually, if the research 
is successful, protocols with statistical results to support them are 
obtained. The research results can be used to set standards of practice 
and the ethics become ethics of normal medical practice. The need for 
research review declines with time. In the case of geoengineering the 
research aspects are likely to continue indefinitely, and may become 
more acute with time. We cannot do double-blind studies. We cannot have 
a statistical sample of Earths. At some level, geoengineering, will 
always be research and always require research-ethics type governance. 
And the worst case from a risk perspective is actual implementation. 
Whereas in medical research, the need for governance subsides over 
time, for geoengineering, governance will get more and more pronounced 
over time, until or unless the idea is abandoned.

Review Process

    In human subjects research, Institutional Review Boards (IRBs) are 
vested with the authority to review and sanction research. These boards 
review the research protocols and procedures to insure they meet 
ethical standards. If the IRB approves the research, then the 
institution is free to allow the research to be conducted. If the IRB 
disapproves, the institution may not conduct the research as proposed. 
The IRB cannot decide that the research will be done, only that it may 
be done. IF the IRB disapproves, the institution must comply with the 
ruling and cannot allow the research to continue.
    There are perhaps three salient features of the IRBs that control 
the outcomes. First, they are part of the research institution. They 
are not an external body. However, once appointed, they are 
independent. Second, their rulings are not based on specific 
regulations. They are based on principles which are derived mainly from 
the Belmont report. Third, the board membership is defined by federal 
code: http://www.accessdata.fda.Rov/scripts/cdrh/cfdocs/cfCFR/
CFRSearch.cfm?fr=56.107. This guidance specifies that each IRB must 
have at least five people, members must include those qualified to 
review the research and members from the community. So, it is the 
principles and the board appointments that insure the quality of the 
IRB decisions.
    It is notable that IRB's from around the country meet regularly 
together and present prior cases without revealing their ultimate 
decisions until after the cases are discussed. Then the board that 
presented the case reveals the decision they actually made. In this 
way, the boards gain insight and skill at making difficult rulings. The 
point is, their rulings are not prescriptive, they are based on 
judgment and good judgment requires learning.
    The IRB's have public members in order to protect public interests. 
Even so, dissatisfaction with this process arises from a sense that 
IRBs end up rubber-stamping research protocols, do not deliberate 
conflict of interest issues, and do not engage in any real public 
dialogue about values. Consequently, researchers and social scientists 
are experimenting with new models to engage the public in human 
subjects research.
    Given the problems with governance of human subjects research, it 
would be wise to develop a program that seeks to propose and test 
research governance and engagement models. One of the best ways to 
learn about what works is to go through exercises in mock governance. 
For example, an institution or project could try out a governance 
process in a ``moot court'' type trial such as this:

        <bullet>  A draft set of guiding principles for research is 
        given to blue and red teams. They might start with the 
        principles outlined above for example. Both teams should 
        include scientists, but also might include members of the 
        public or social scientists.

        <bullet>  Blue teams would prepare mock (or real!) research 
        proposals for geoengineering field tests and gives these to the 
        red teams. For example, a team may propose an Arctic sulfate 
        injection or mid ocean for cloud whitening trial.

        <bullet>  Red teams prepare critiques of the blue team 
        proposals. The job of the red team is to try to find the 
        weaknesses in the blue team proposal and bring these to light.

        <bullet>  Both teams present the research and critique 
        respectively to a mock review board at the meeting following 
        the draft guidelines/principles. We might choose the people for 
        the mock board as a mix of scientific backgrounds and a strong 
        mix of public interest members as well as ethicists or 
        philosophers_ie far beyond the IRB membership as specified in 
        the federal statute.

        <bullet>  The mock board uses the draft principles to evaluate 
        the proposals. They could issue a mock ruling to sanction the 
        research, turn the proposal down, or perhaps recommend 
        additional measures for due diligence.

        <bullet>  Everyone discusses the process_did the principles 
        cover the important issues? _was the process appropriate? How 
        might the process go wrong? The goal should be to identify all 
        salient lessons learned.

        <bullet>  Do this again changing the process as appropriate.

    Another set of exercises are being tried in the field of 
nanotechnology research to incorporate the values of society. David 
Gustin, for example, describes experiments in ``anticipatory 
governance'' (Gustin, Innovation policy: not just a jumbo shrimp, 
Nature, Vol 454/21, August 2008). There are three parts to this 
process. The first part is designed to educate the public about the 
nature of the research and to bring public deliberation of values into 
the open. The second part is to have scientists and the public 
collaborate on imagining how the future might unfold given new 
technology and social trends. Gustin calls this ``anticipatory 
knowledge''. Discussions then give voice to public concerns about the 
future. Finally, the public engagement and anticipatory knowledge are 
integrated with the research. For example, social scientists and 
humanists have become ``embedded'' in nanotechnology research labs. 
They help the scientists reorient their work in more socially 
acceptable directions. This could also be a very good model for 
geoengineering. It would be possible to create a geoengineering forum 
where publics could be informed and express concerns. Exercises that 
highlight the possible futures with and without geoengineering would 
help all to understand how we should focus. Finally, keeping social 
scientists are part of any scientific research team may help with both 
guiding the research towards more socially acceptable directions and 
also help scientists with communication and outreach.
    There is no absolute clear answer to the question how to govern 
geoengineering research. The fact is that we need research and 
experimentation to understand how to govern this research, ie research 
and experimentation on how to govern research with public engagement. 
It is likely that research governance models will be different for 
different types of technologies and there will not be a one-size-fits-
all governance model. As technologies reach the stage of research that 
approaches the ``bright line'', specific governance models should be 
explored and evaluated.

International governance:
    Geoengineering research has the potential to cause international 
conflict. Tensions could easily rise if countries perceive that the 
research is being conducted solely for national interests. If 
geoengineering research programs became part of defense research 
programs, it would certainly convey the message that the goal was to 
advance national interests. Consequently, research programs should 
explicitly only develop technology that will have international 
benefits. Research should not be managed by national defense programs 
(J. J. Blackstock and J. C. S. Long, The politics of Geoengineering, 
Science, Vol 327, p. 527, 29 Jane 2010.)
    Secrecy also has the potential to create tension and conflict. It 
is important that geoengineering research be conducted in the open with 
results published in the open literature. Especially in the early 
stages, a pattern of trust and consultation will be critical to a 
future that might well require agreement and collaboration. Inclusion 
of international scientists in a national research program or the
    establishment of international research programs would have 
tremendous benefits in both expanding the knowledge base and as an 
investment in future collaboration.
    In starting down a research path, we must remember that critical 
decisions about deployment may be needed someday and that these 
decisions should not be made unilaterally. We should be extremely 
careful not to increase tensions or misperceptions that would make 
these decisions even harder. On the other hand, there is less and less 
confidence that all affected nations would ever be able to come to an 
agreement and sign a treaty to support a single set of actions. Such a 
treaty may still be our goal, but there are other strategies that can 
help us to make good choices together. I am fond of a quotation from 
the famous French sociologist, Emil Durkheim in which he noted: ``Where 
mores are strong, laws are unnecessary. Where mores are weak, laws are 
unenforceable.'' In that spirit, we may hope that good cooperative 
relationships in geoengineering research and research governance may 
help to develop common norms of behavior and it may be these norms that 
provide the capacity to make good collaborative decisions in the 
future.

Adaptive management
    Climate is a complex, non-linear system with many moving parts. 
When we set about to intentionally intervene in climate outcomes, there 
will always be uncertainty about whether our chosen actions will result 
in the desired outcomes. An essential feature of any climate 
intervention will be the need to provide for adaptive management, also 
known as ``learning by doing''. If we are to use adaptive management in 
a climate intervention it means that we

        1.  Choose to make an intervention,

        2.  Predict the results of the intervention,

        3.  Monitor the results of the intervention,

        4.  Compare the observations to the predictions,

        5.  Decide if we are going in the right direction and

        6.  Make a new set of decisions about what to do.

    (See http://en.wikipedia.org/wiki/Adaptive<INF>-</INF>management.). 
In the real world it is very hard to actually do adaptive management.
    First, it is difficult enough to make a decision to act. To then 
change this decision becomes confusing and politically negative. 
Consequently, successful adaptive management establishes a structure 
for the adaptive modification a priori. So, regular intervals and 
formats are established for comparing observations with predictions and 
a formal requirement is put in place for deciding whether or not and 
when to change directions. When this process is specified up front, it 
can avoid the political fallout of changing direction. Part of a 
geoengineering research program should examine the potential policy and 
institutional frameworks for conducting adaptive management. In 
particular it is important to determine a priori how the technical and 
political parts of the process will interact. Will the deciding entity 
be a board made up of scientists and policy makers and perhaps members 
of the public and social scientists?
    Or should we structure a hierarchy of decision makers where higher 
level boards have decisions about overall direction, but less control 
of specifics?
    Second, you must have a very good data base of observations. If you 
haven't made extensive observations all along, how will you be able to 
detect what is changing? This is not just a problem for geoengineering, 
but for all of our climate strategies. The observation network we have 
for climate related data is far too sparse and in some cases, 
inadequately calibrated. We need a major commitment for all our climate 
research to collecting and calibrating data relevant to climate change 
on a continuous, ubiquitous basis and perpetual basis. This is a sine 
qua non recommendation for any climate solution. We cannot rewind the 
tape and go back to collect data that we failed to collect over time. 
The observation network for climate is inadequate to our needs and this 
is an extremely high priority for research dollars.
    Third, you must be able to discern whether a change is attributable 
to simple climate variability or to the specific intervention. The 
science of detection and attribution of human effects on climate has 
advanced tremendously in the past decades. But the challenge of 
detecting and attributing changes to intentional, fairly short term 
interventions has not been met. This must be a focus of research. As it 
is strongly related to the existing climate science program, the 
expanded work belongs there.
    In the simplest terms, the scientific approach to attribution of 
human induced climate change_whether through unintentional emissions or 
intentional climate intervention_is to use climate models to simulate 
climate behavior with and without the human activity in question. If 
the results of the simulations including the activity clearly match 
observations better than the results without the activity, then 
scientists say they have ``fingerprinted'' the activity as causing a 
change in the climate. Perhaps the most famous illustration in the 
International Panel on Climate Change (IPCC) reports shows two sets of 
multiple model simulations of mean global temperature over the 
twentieth century, one with and the other without emitted greenhouse 
gases. On top of this plot, the actual temperature record lines up 
squarely in the middle of the model results that included greenhouse 
gas emissions. This plot is a ``fingerprint'' for human induced 
warming. Scientists have gone far beyond mean global temperature as a 
metric for climate change. Temperature profiles in the atmosphere and 
ocean, the patterns of temperature around the globe and even recently 
the time of peak stream flow have been used to fingerprint human 
induced warming.
    Structured climate model intercomparison projects are fundamental 
to drawing fingerprinting inferences. No single model of the climate 
gets it all right. Each climate model incorporates slightly different 
approaches to approximating the complex physics and chemistry that 
control climate outcomes. So, we use multiple models all running the 
same problems. We can then examine a statistical sample of results and 
compare this to data. In a form of ``wisdom of the crowd'', the mean of 
all the model results has proven to be a better overall predictor of 
climate than any single model.
    The science of fingerprinting is becoming more and more 
sophisticated. Increasingly, scientists are looking at patterns of 
observations rather than a single number like mean temperature. 
Patternmatching is a much more robust indicator of causality because it 
is much harder to explain alternative causality for a geographic or 
time-series pattern than for a single value of a single parameter. A 
famous example of this was discerning between global warming caused by 
emissions versus caused by a change in solar radiation. Solar radiation 
changes could not account for the observed pattern of cooling of the 
stratosphere occurring simultaneously with a warming of the 
troposphere, but this is exactly what models predicted for emission 
forced climate change. There exist ``killer metrics'' like this that 
tightly constrain the possible causes of climate observations.
    We are making progress on the ``holy grail'' of using present 
observations to predict future climate states. Recently, Santer et al 
showed that it possible to rank individual models with respect to their 
particular skill at predicting different aspects of future climate. 
Interestingly, the models fall into groups. The top ten models that get 
the mean behavior right are different than the top ten models that get 
the variability right. (Santer et al., PNAS 2009, Incorporating model 
quality information in climate change detection and attribution 
studies, http://www.pnas.org/content/106/35/14778.full?sid=e20c4c31-
5ab1-4f69-b541-5158e62e4baf).
    Some think that the ability to detect and attribute intentional 
climate intervention will be nearly impossible. The fingerprinting of 
human induced climate change has been based on decades of data under 
extremely large human induced perturbations. For climate intervention, 
we contemplate much smaller perturbations and would like proof positive 
of their consequences in a matter of years. Even though this is clearly 
a big challenge, it is not hopeless. Neither should we expect a 
panacea. We will be able to identify specific observations that certain 
models are better at predicting and we will be able to find some 
``killer metrics'' that constrain the possible causes of the 
observations. In some respects, conclusive results will not be possible 
and we will have to learn how to deal with this. Fingerprinting_
detection and attribution of human intervention effects on climate_must 
be an important area for research if we are to be able to conduct 
adaptive and successful management of geoengineering. As this topic is 
closely interconnected to basic climate science, the program to extend 
research into intentional intervention should belong in the US Climate 
Science Program.
    A geoengineering research program should include the development of 
technology and capacity for adaptive management.

The ``Catch-All'' Category

    Recent studies have shown vast amounts of methane, a powerful 
greenhouse gas, are leaking from the Arctic Ocean floor. Billions of 
tons of methane are stored in permafrost and will be released as the 
frozen lands thaw. Methane is a green house gas that is approximately 
25 times more powerful than CO<INF>2</INF>. Abrupt increases in methane 
emissions have been implicated in mass extinctions observed in the 
geologic record and could trigger runaway climate change again. (It is 
the possibility of such runaway climate change that most clearly 
supports the need for geoengineering research.) James Cascio recently 
posed an idea for deploying genetically engineered methanotrophic 
bacteria (bacteria that eat methane) at the East Siberian Ice Shelf 
(http://ieet.org/index.php/IEET/more/3793/). Is this possible? Could 
bacteria survive in the Arctic? Could they eat the methane fast enough 
to make a difference?
    What are the risks? Could release of genetically modified 
methanotropic organisms cause problems to the Arctic ecosystems? Is the 
idea worth pursuing? This may be an idea with merit -or it may be a 
very stupid idea.
    Somewhere in the geoengineering research program there should be 
funding to freely explore theoretical ideas and perform the modeling 
and laboratory studies to determine which concepts are worthy of more 
work, and which are completely impractical or too dangerous. This 
should be a ``gated'' research program wherein small amounts of funding 
are provided to explore many out-of-the-box ideas with thought 
experiments, modeling and laboratory experiments as appropriate. At 
this stage, none of the research ideas should require more than 
traditional governance mechanisms provided by existing research 
programs. At the end of this initial funding, the concepts would have 
to be reviewed and if they are deemed to have promise, then they would 
become eligible for more funding. If the ideas are found to be lacking 
in merit, then they would be shelved. Several stages or gates should be 
set up with increasingly higher bars so that a large number of ideas 
can be generated at the first gate, but these are increasingly winnowed 
down as we learn more about their practicality, dangers and 
effectiveness.
    Beyond this ``bottom-up'' approach, there should be a ``top-down'' 
research program that examines potential emergencies that could result 
from climate change and then attempts to design interventions for these 
specific situations. The primary climate interventions currently under 
discussion attempt to reduce temperature. Although higher temperatures 
that result from climate change will be a severe problem, I would argue 
that other impacts of climate change might be more critical. For 
example, one of the major impacts of climate change will be increased 
water stress_we will need more water because it is hotter and there 
will be less water because there will be more droughts. Water shortage 
will lead to problems with food security. A choice to control 
temperatures with aerosol injection for example might result in reduced 
precipitation. Volcanic eruptions such as Pinatubo provide a natural 
analogue for such aerosol interventions. Gillett et al. were able to 
show that a result of these eruptions caused a reduction in 
precipitation (Gillett, N.P., A.J. Weaver, F.W. Zwiers, and M.F. 
Wehner, 2004: Detection of volcanic influence on global precipitation, 
Geophysical Research Letters, 31, doi: 10.1029/2004GL020044.). So, we 
might reduce temperatures with aerosols, but make hydrological 
conditions worse. Reducing precipitation would clearly be a bad thing 
to do. By looking only at what we know how to do (reduce temperatures) 
vs what problem we want to solve (increase water supply), we could be 
making conditions worse. Geoengineering research should not only be 
structured around ``hammers'' we know about. We should also collect the 
most important ``nails'' and see if we can design the right hammer.
    Thus, we might try to develop methods that directly attack specific 
climate impacts. Can we conceive of a way to control the onset, 
intensity or duration of monsoons to ensure successful crops in India? 
Can we conceive of a way to stop methane burps, or hold back melting 
glaciers? Some part of a geoengineering research program should take 
stock of the possible climate emergencies and then look for ideas that 
would ameliorate these problems.

Conclusions

    The above comments describe a number of measures we might take in 
establishing a geoengineering research program. If we are to have a 
successful research program we must be careful about public engagement, 
principled actions, transparency, international interaction and 
adaptive management. We will have to build the capacity to develop 
rational options coupled to the capacity to make rational decisions 
about deploying them. If we succeed, it may be that these capacities 
spill over into other difficult climate problems. We may ask in the 
end: Are we building the capacity to do geoengineering or using 
geoengineering research to build capacity for any climate solution? If 
we are lucky, the answer will be the latter.

                        Biography for Jane Long

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Dr. Long is currently the Principal Associate Director at Large for 
Lawrence Livermore National Laboratory working on energy and climate. 
She is also a Fellow in the LLNL Center for Global Strategic Research. 
Her current interests are in managing climate change including 
reinvention of the energy system, adaptation and geoengineering. From 
2004 to 2007, as Associate Director, she led the Energy and Environment 
Directorate for the Lawrence Livermore National Laboratory. The Energy 
and Environment Directorate included programs in Earth System Science 
and Engineering, Nuclear System Science and Engineering, National 
Atmospheric Release Advisory Center, and the Center for Accelerator 
Mass Spectrometry. In addition, the directorate included 12 
disciplinary groups ranging from Earth sciences, to energy efficiency 
to risk science. From 1997 to 2003 Dr. Long was the Dean of the Mackay 
School of Mines. The Mackay School of Mines had departments of 
Geological Sciences, Mining Engineering and Chemical Engineering and 
Materials Science and Engineering as well as the Nevada Seismological 
Laboratory, the Nevada Bureau of Mines and Geology and the Keck Museum. 
Dr. Long led the University of Nevada, Reno's initiative for renewable 
energy projects and served as the Director of the Great Basin Center 
for Geothermal Energy and initiated the Mining Life-Cycle Center. Prior 
to this appointment, Dr. Long worked at Lawrence Berkeley National 
Laboratory for 20 years. She served as Department Chair for the Energy 
Resources Technology Department including geothermal and fossil fuel 
research, and the Environmental Research Department. She holds a 
bachelor's degree in engineering from Brown University and Masters and 
Ph.D. from U. C. Berkeley.
    Dr. Long has conducted research in nuclear waste storage, 
geothermal reservoirs, petroleum reservoirs and contaminant transport. 
For the National Academy of Sciences, Dr. Long was chairman of the US 
National Committee for Rock Mechanics, the Committee for Fracture 
Characterization and Fluid Flow and a committee to recommend a research 
program for the Environmental Management Science Program for DOE. She 
served on the NAS/NRC Board on Radioactive Waste Management, as well as 
several study committees under the aegis of this board, and had been a 
member of the Board on Energy and Environmental Systems. In 2001, she 
was appointed as a member, subsequently chair of the State of Nevada 
Renewable Energy Task Force. She is an Associate of the National 
Academies of Science, member of the Stanford University College of 
Earth Sciences Advisory Board, the Energy and Environment and National 
Security Visiting Committee for Brookhaven National Laboratory, the 
Intercampus Advisory Board for the UC Energy Institute, the chairman 
for the mitigation advisory committee of the NAS Koshland Science 
Museum's Climate Change exhibition, and member of the Governor's Task 
Force on California's Adaptation to Climate Change sponsored by the 
Pacific Council. Dr. Long currently co-chairs the ``California's Energy 
Future'' study being conducted by the California Council on Science and 
Technology (CCST) and was recently elected as a Senior Fellow of CCST. 
She is a member of the National Commission on Energy Policy's Task 
force on Geoengineering. She has been a member of the UC Berkeley 
Department of Nuclear Engineering Advisory Board, the Colorado School 
of Mines Department of Geophysics Advisory Board, and the American 
Geological Institute Foundation Board.

    Chairman Gordon. Thank you, Dr. Long, and Dr. Barrett is 
recognized.

 STATEMENTS OF DR. SCOTT BARRETT, LENFEST PROFESSOR OF NATURAL 
RESOURCE ECONOMICS, SCHOOL OF INTERNATIONAL AND PUBLIC AFFAIRS 
         AND THE EARTH INSTITUTE AT COLUMBIA UNIVERSITY

    Dr. Barrett. Thank you very much, Chairman Gordon, and 
thank you other Members for this opportunity.
    Climate change is a real risk, and we have to do five 
things to limit that risk. First, we need to reduce global 
emissions of greenhouse gases. Second, we need to invest in 
research and development to develop new technologies to allow 
us to reduce emissions at lower cost in the future. Third, we 
need to prepare to adapt, and to assist more vulnerable 
countries to adapt. Fourth, we need to develop technologies 
that can remove carbon dioxide directly from the atmosphere.
    And finally, we need to contemplate the possibility of 
using geoengineering, which I will define as being a technology 
that can address global warming without affecting the 
concentration of greenhouse gases in the atmosphere. Solar 
radiation management [SRM] might be a shorthand for what I just 
said.
    I think it is helpful to look at this problem from two 
different perspectives. One is from that of the perspective of 
the world as a whole, and the other is the perspective of 
individual countries.
    Let us start with the perspective of the world as a whole. 
I think there are four different options for thinking about 
deployment of geoengineering. The first one would be we just 
ban it, and there are a lot of people, I think, their first 
instincts would be that we should ban it. But then, you have to 
imagine going forward.
    Suppose we are in the situation where we start to see the 
worst fears of abrupt, catastrophic climate change appearing. 
At that point, the only thing we could do that would have any 
impact, would have an immediate impact, would be to use 
geoengineering. So, I believe that a ban on geoengineering, 
although I understand the instinct, I believe it would not be a 
credible policy, or even a responsible policy.
    The second thing we could do would be to rely entirely on 
geoengineering, a quick fix and an easy way of dealing with 
this problem. That would also be irresponsible, because this is 
a risk problem, and that would be putting all our eggs in one 
basket. Also, of course, the geoengineering that we are 
discussing won't address other problems, such as ocean 
acidification.
    The third thing we might do is start using geoengineering, 
actually fairly soon, in conjunction with, say, emission 
reductions or other policies. And the fourth thing that we 
might do would be to develop the technology, and to keep it in 
reserve, should the moment arise in the future where we do face 
this scenario of abrupt and catastrophic climate change.
    I have looked at all four options, and I think a case can 
be made for the last two. I think a case may not be made for 
the first two.
    So, let us look at this issue now from the perspective of 
individual countries, and I think two scenarios are relevant. 
One is the scenario of gradual climate change. This is kind of 
the slow unfolding of climate change over time. And what we 
know about this scenario is that it produces winners and 
losers.
    Now, the losers_and I have done some back of the envelope 
calculations_the losers may find it in their interests to want 
to use geoengineering to offset the effects of what I will call 
global warming. The problem is that if that kind of climate 
change creates winners and losers, the use of geoengineering 
will also create winners and losers. So, this is a situation in 
which there will be, I would say international tensions and 
possibly conflict.
    I actually think, though, that when you have a situation 
like this, there are incentives there for the conflict to be 
resolved, and I am going to come back to that a little bit 
later. I don't worry about geoengineering wars.
    The second scenario that I think is relevant would be 
abrupt and catastrophic climate change. In that scenario, 
opinion around the world is going to be very uniform, and a lot 
of countries are going to want to contemplate the use of this 
technology. So, I think in that scenario, clearly, you don't 
have a problem of international conflict.
    In both cases, though, I think we need to contemplate the 
development now of rules, because rules will reduce 
uncertainty, and uncertainty is something we want to manage 
these risks. And in particular, I think we need rules for the 
possible use of geoengineering, as well as for research and 
development into geoengineering.
    And the essential thing to understand about this is that we 
also need rules, we need international arrangements to reduce 
emissions, but the incentives for countries to reduce emissions 
individually are relatively modest, even though collectively, 
we would be much better off if all countries took action. So, 
we have a colossal free-riding problem.
    But geoengineering is exactly the opposite. It would be 
something a country could do its own, and the costs, as we 
understand them today, are sufficiently low that it may be in 
one country's interest, or a small coalition of countries' 
interests, to actually use it.
    So, for the one issue, reducing emissions, you want to 
encourage countries to act. On geoengineering, you want to do 
the opposite. You want to restrain countries from acting, when 
that action would be opposed and may possibly harm other 
countries.
    Now, what kind of rules would we need to address 
geoengineering? I can think of seven that would be relevant 
right now. The first is that we need to understand that 
geoengineering is only one of, as I said, five things we need 
to do to reduce the risks associated with climate change, and I 
think that geoengineering should be embodied within an 
agreement like the Framework Convention on Climate Change, so 
we can balance all those risks.
    Second, we should make that agreement open for all 
countries to participate, since all countries would be 
affected. Third, the focus of the agreement should be on what 
countries can agree on, and not what they cannot agree on. 
Fourth, there should be a requirement that states must declare, 
announce that they will use geoengineering. There should be 
prior information about that. Fifth, there should be an 
obligation for countries to cooperate, to resolve any 
conflicts. And finally, we should be seeking a seeking a 
consensus. And then, finally, on research and development, we 
should have transparency, and I would also encourage 
international cooperation.
    I think the final point to make is that we need not only to 
understand the technology, but also, to build trust. Thank you.
    [The prepared statement of Dr. Barrett follows:]
                  Prepared Statement of Scott Barrett
    There are two ways to look at the policy challenges posed by the 
threat of global climate change. The first is ``top down,'' from the 
perspective of the world as a whole. Looked at in this way, the 
fundamental challenge is to reduce risk. The second is ``bottom up,'' 
from the perspective of each of nearly 200 countries. Looked at in this 
way, the fundamental challenge is to realign incentives. Ultimately, 
the aim of policy should be to realign incentives so that states will 
make choices, either on their own or in concert with others, that serve 
the same purpose as the first perspective_choices that reduce global 
risks.
    Reducing global risks requires that we do five things. First, we 
need to reduce global emissions of greenhouse gases. Second, we need to 
invest in research and development and demonstration of new 
technologies so that we can reduce global emissions substantially, and 
at lower cost, in the future. Third, we need to adapt, and help 
vulnerable countries to adapt. Fourth, we need to invest in 
technologies that can directly remove greenhouse gases from the 
atmosphere. Finally, we need to consider the possible role that 
geoengineering can play in reducing global risks.
    The important point is that geoengineering's role should be looked 
at in the context of all the other things we need to do, just as these 
other things should now be looked at in the context of us possibly 
choosing to use geoengineering.

Defining geoengineering

    The term ``geoengineering'' lacks a common definition. I take it to 
mean actions taken deliberately to alter the temperature without 
changing the atmospheric concentration of greenhouse gases. More 
formally, the temperature is determined by the amount of incoming 
shortwave radiation and outgoing longwave radiation. Actions to limit 
concentrations of greenhouse gases seek to increase the amount of 
longwave radiation emitted by the Earth. Geoengineering options, as 
defined here, limit the amount of shortwave radiation absorbed by the 
Earth.
    Some people define the term more broadly, to include interventions 
that remove greenhouse gases directly from the atmosphere. This 
approach to reducing risks is very important. It was the fourth of the 
five things I said we need to do to reduce risks. But it is very 
different from technologies that reduce incoming shortwave radiation, 
which is why I think it is better to distinguish between these 
approaches. Industrial air capture, assuming that it can be scaled to 
nearly any level, would be a true backstop technology. It is a nearly 
perfect substitute for reducing emissions. Changes in shortwave 
radiation_as defined here, ``geoengineering'' techniques_are an 
imperfect substitute for efforts to reduce emissions.
    There are four basic ways to change incoming shortwave radiation_by 
increasing the amount of solar radiation reflected from space, from the 
stratosphere, from low-level clouds that blanket the skies over parts 
of the ocean, and from the Earth's surface. There are significant 
differences as between these approaches. There are interesting 
questions as to whether one approach may be better than the others, 
whether combinations of approaches may be better still, and whether new 
approaches, as yet unimagined, may be even better. In my testimony, I 
shall ignore all these distinctions and consider ``geoengineering'' as 
a generic intervention.

Geoengineering and related risks

    From the perspective of risk, reducing emissions is a conservative 
policy. It means not putting something into the atmosphere that is not 
currently in the atmosphere. Energy conservation is an especially 
conservative policy for reducing climate change risks.
    Adaptation lowers the damages from climate change. It would 
therefore reduce the benefit of cutting emissions. In other words, 
adaptation is a substitute for reducing emissions. It is often asserted 
that these approaches are complementary. What people mean by this, 
however, is that we will need to do both of these things. This is true; 
we should reduce emissions now and we will need to adapt in the future 
and make investments today that will help us to adapt in the future. 
But it is also true that the more we reduce emissions now, the less we 
will need to adapt in the future; and the more able we are to adapt to 
climate change in the future, the less we need to reduce emissions now.
    R&D and demonstration is a complement to emission reductions. As we 
invest more in these activities, the costs of reducing emissions will 
fall. As we do more R&D, we will therefore want to reduce emissions by 
more; and the more we want to reduce emissions, the more we will want 
to spend on R&D.
    Air capture is a substitute for reducing emissions, but it could be 
a more flexible option. Emission reductions, by definition, cannot 
exceed the ``business as usual'' level. Air capture, by contrast, can 
potentially remove more greenhouse gases from the atmosphere than we 
add to it. Only air capture can produce ``negative'' emissions.
    Geoengineering is also a substitute for reducing emissions. It 
would be used to reduce climate change damages. One reason often 
mentioned for not considering geoengineering is the fear that, if it 
were believed that geoengineering would work, less effort would be 
devoted to reducing emissions. But if we knew that geoengineering would 
work, and if the costs of geoengineering were low relative to the cost 
of reducing emissions, then it would make sense to reduce emissions by 
less.
    As noted before, however, geoengineering is an imperfect substitute 
for reducing emissions. For example, geoengineering would not address 
the problem of ocean acidification. Also, we don't know if 
geoengineering will work, or how effective it will be, or what its full 
side effects will be. We may contemplate using geoengineering to reduce 
climate change risks, but using geoengineering would introduce new 
risks. It would mean trying to reduce the risks of one planetary 
experiment (adding greenhouse gases to the atmosphere) by carrying out 
another planetary experiment (reducing shortwave radiation). As 
compared with reducing emissions by promoting energy conservation, 
geoengineering is a radical approach to reducing climate change risks.
    We need to be careful how we think about this. We can reduce 
emissions somewhat by means of energy conservation, even using existing 
technologies. To reduce emissions dramatically, however, will require 
other approaches. It is difficult to see how emissions could be reduced 
dramatically without expanding the use of nuclear power. This may mean 
spread of this technology to countries_many of them nondemocratic_that 
currently lack any experience in using it, increasing the risk of 
proliferation. It would certainly mean the need to dispose of more 
nuclear waste. Abatement of emissions can thus also involve risks.
    I mentioned before that ``air capture'' is a near perfect 
substitute for reducing emissions. But if the carbon dioxide removed 
from the atmosphere were stored in geologic deposits, it might leak out 
or affect water supplies. If it were put into the deep ocean, it may 
harm ecosystems the importance of which we barely understand. It would 
also, after a very long time, be returned to the atmosphere. This 
technology also involves risks.
    The main point I am trying to make here is that we face risk-risk 
tradeoffs. Geoengineering would introduce new risks even as it reduced 
others. But the same is true, more or less, of other approaches to 
reducing climate change risk. Adaptation maybe an exception (we don't 
yet know this; there may be some kinds of adaptation that introduce new 
risks), but adaptation, like geoengineering, is an imperfect substitute 
for reducing emissions.
    I can imagine some people thinking that we can address the 
challenge entirely through energy conservation and by substituting 
renewable energy for fossil fuels. Some people might think that we can 
do this while also closing down all our existing nuclear power plants. 
It might even be believed that we could do this without having to 
remove carbon dioxide from the atmosphere and storing it underground. 
All these choices are certainly feasible. But they will also be costly. 
The question is whether people are willing to bear this cost in order 
to reduce the associated risks.
    Even if we make all these choices, risks will remain. The threat of 
climate change has now advanced to the stage where every choice we make 
requires risk-risk tradeoffs. Many people believe that it is imperative 
that we limit mean global temperature change to 2 degrees Celsius. 
Indeed, some people believe that we ought to limit temperature change 
to no more than 1.5 degrees Celsius. Due to ``climate sensitivity'' and 
long delays in thermal responses, however, there is a chance we may 
overshoot these targets, even if we reduced global emissions to zero 
immediately. People who believe we must stay within these temperature 
limits should be especially open to the idea of using geoengineering. 
Alternatively, if they perceive that geoengineering is the greater 
threat, then they should reconsider the imperative of staying within 
these temperature change bounds.

Policy options for deployment

    There are four main options.
    First, we could ban geoengineering. One reason for doing so would 
be that use of geoengineering poses unacceptable risks. Another reason 
would be that, if use of geoengineering were banned, efforts to reduce 
emissions would be shored up.
    One problem with this proposal is that, as already mentioned, our 
other options also pose risks. We need to be rational and consistent in 
how these risks are balanced.
    Another problem is that a ban lacks credibility. Suppose that our 
worst fears about the future start to come true, and we are confronting 
a situation of ``runaway climate change.'' At that point, adaptation 
would help very little. Air capture would reduce concentrations only 
over a period of decades, and because of thermal lags it would take 
decades more before these reductions translated into significant 
temperature change. Meanwhile, the climate changes set in motion could, 
and probably would, be irreversible. The only intervention that could 
prevent ``catastrophe'' would be geoengineering. If we had banned its 
use before this time, we would want to change our minds. We would 
change our minds.
    In a referendum thirty years ago, voters in Sweden supported a 
phase-out of nuclear power. Today, the government says that new 
reactors are needed to address the threat of climate change. Polls 
indicate that the public supports this change. Bans can be, and often 
are, reversed.
    Second, we could make geoengineering the cornerstone of our climate 
policy, and not bother to reduce emissions or do the other things I 
said we needed to do. One reason would be that this would spare us from 
having to incur costs in the short
    term. Another is that we wouldn't need to take action until 
uncertainties about climate change were revealed. Geoengineering would 
be a ``quick fix.''
    A problem with this proposal is that we may find that 
geoengineering does not work as expected. It may not reduce temperature 
by much, or it may change the spatial distribution of climate. It may, 
and probably would, have unexpected side effects. We know it would not 
address ocean acidification. But it might also fail to address the 
``catastrophe'' we face at that particular time, even if worked 
precisely as expected. For example, this catastrophe may be due to 
ocean warming, which geoengineering could alter only over a long period 
of time. Putting all our eggs, as it were, in the geoengineering basket 
would be reckless.
    Third, we could use geoengineering soon and in combination with 
emission reductions, as suggested by Wigley (2006). By using 
geoengineering soon, we could prevent global mean temperature from 
increasing, or from increasing by much. By reducing emissions we could 
avoid serious climate change in the future. We could limit ocean 
acidification. We could also avoid the need to use geoengineering in 
the future. As noted before, it is extremely unlikely that we could 
limit global mean temperature change to 1.5 degrees Celsius by reducing 
emissions only. The goal is likely to be achievable only if we used air 
capture or geoengineering or a combination of the two approaches in 
addition to reducing emissions. By extension, the same may also be true 
for meeting the more modest but still very ambitious goal of limiting 
mean global temperature change to 2 degrees Celsius.
    Finally, we might hold geoengineering in reserve, and use it only 
if and when signs of ``abrupt and catastrophic'' climate change first 
emerged. The advantage in this proposal is that we would avoid the 
risks associated with geoengineering until the risks of climate change 
were revealed to be substantial. The disadvantage is that, when we 
finally used geoengineering, we might discover that it does not work as 
expected, or that it cannot prevent the changes taking place at that 
time.
    Overall, the third and fourth options have merit. I cannot see the 
case for the first and second options.

Implications for R&D

    Having now contemplated when we might one day use geoengineering, 
let me now turn to the question of near-term decisions to carry out 
R&D.
    A ban on R&D would expose the world to serious risks. Suppose we 
face a situation of ``abrupt and catastrophic'' climate change, and 
decide that we must use geoengineering, but that, because of the ban 
put in place previously, we had not done any R&D before this time. Then 
we would deploy the technology without knowing whether it would work, 
or how it would work, or how we could make it work better and with 
fewer side effects.
    R&D can involve computer simulations, examination of the data 
provided by ``natural, large-scale experiments'' like volcanic 
eruptions, and ``small-scale'' experiments. Ultimately, however, large-
scale experiments, undertaken over a sustained period of time, would be 
required to learn more about this technology. If
    such an experiment were done for the purpose of learning how 
geoengineering might be deployed to avoid a future risk of ``abrupt and 
catastrophic'' climate change, it would resemble using geoengineering 
along with emission reductions to prevent significant climate change. 
This makes the distinction between R&D and deployment somewhat blurred. 
It also blurs the distinction between the third and fourth options 
discussed above.
    It might be argued that carrying out R&D would hasten the use of 
the technology. That depends on what we discover. We might discover 
that it doesn't work, or that it has worrying side effects of which we 
were previously unaware (in addition to the worrying side effects of 
which we were previously aware). This would make us less inclined ever 
to use geoengineering. Alternatively, we might discover that we can 
make it work better, and reduce its side effects. This would make us 
more inclined to use it_but this knowledge should make us more inclined 
to use it.
    It is very hard to understand how knowing less about this option 
could possibly make us better off.

The geopolitics of geoengineering

    Thus far I have considered geoengineering's role in a climate 
policy oriented towards reducing global risks. As mentioned in my 
introduction, this is one of two important perspectives. The second is 
the perspective of the nation state.
    It is important that we consider the perspective of different 
states and not only our own. Many countries are capable of deploying 
geoengineering. Over time, more and more countries will be capable of 
deploying geoengineering.

Risks and incentives

    Let us now reconsider all the things that can and should be done to 
reduce the risks associated with climate change, but do so from the 
perspective of individual countries.
    Emission reductions are a global public good. Emissions mix in the 
atmosphere. The benefits of reducing emissions are thus diffused. A 
country that reduces its own emissions receives just a fraction of the 
global benefit, while paying the full cost. There is thus a temptation 
for countries to ``free ride.'' In the case of climate change this 
tendency is particularly powerful because the costs of abating one more 
ton increase as the level of emission reductions increases. Put 
differently, starting from a situation in which every state is cutting 
its emissions, each state has a strong incentive to save costs by 
abating less.
    Countries are also interconnected through trade. As one country or 
small group of countries cuts its emissions, ``comparative advantage'' 
in greenhouse-intensive goods will shift to other countries, causing 
the emissions of these countries to increase. In addition, as some 
countries reduce their emissions by reducing their use of fossil fuels, 
the price of these fuels traded internationally will fall, causing 
other countries to increase their consumption and, hence, their 
emissions.
    Overall, the incentive for countries to cut back their emissions is 
weak (Barrett 2005). This explains why international agreements to 
limit emissions worldwide are needed. This also explains why our 
efforts to develop effective agreements have failed. It is really 
because of this failure that we need to consider geoengineering.
    We also need to undertake R&D into new technologies that can help 
us to reduce emissions at lower costs. However, the returns to this 
investment in R&D depend on the prospects of the knowledge generated 
being embodied in new technologies that are used worldwide to reduce 
emissions. In other words, the incentives to undertake R&D are derived 
from the incentives to reduce emissions. Because the latter incentives 
are weak, the former incentives are weak, which explains why the world 
has done remarkably little to develop the new technologies needed to 
address the threat of climate change fundamentally.
    Adaptation is very different. The benefits of adaptation are almost 
entirely local. The incentives for countries to adapt are very 
powerful.
    The problem here is that some countries are incapable of adapting. 
Much adaptation will be done via the market mechanism. The rest of it 
will mainly involve local public goods (dikes being an obvious 
example). The countries that have failed to develop are the countries 
that will fail to adapt.
    These countries need our assistance, and we and other rich 
countries have pledged to offer this assistance, most recently in the 
Copenhagen Accord. But the incentives for the assistance to be given 
are rather weak. Climate change could widen existing inequalities.
    The incentives to undertake air capture are mixed. On the one hand, 
air capture can be undertaken unilaterally. In theory, a single country 
could use this technology to stabilize atmospheric concentrations, even 
if every other country failed to lift a finger to help. Air capture is 
thus very unlike the challenge of getting countries to reduce their 
emissions. However, inexpensive options for air capture are of limited 
scale, while options to remove carbon dioxide from the atmosphere on a 
large scale are expensive (Barrett 2009). The latter options would only 
be used if the threat posed by climate change were considered to be 
very grave.
    Geoengineering is like air capture. It can be undertaken as a 
single project. It can be done by a single country acting unilaterally, 
or by a few countries acting ``minilaterally.'' It does not require the 
same scale of cooperation as reducing emissions. But geoengineering is 
very unlike air capture in other ways. It does not address the root 
cause of climate change. It does not address the associated problem of 
ocean acidification. Most importantly for purposes of this discussion, 
geoengineering is cheap (Barrett 2008a). The economic threshold for 
deploying geoengineering is a lot lower than the threshold for 
deploying air capture at a massive scale.
    Because the cost of geoengineering is low, the incentives to deploy 
geoengineering unilaterally or minilaterally are strong. In this sense, 
geoengineering is akin to adaptation. The difference is that 
geoengineering undertaken by one country or by a coalition of the 
willing would change the climate for everyone. Depending on the 
circumstances, this could be a good thing (recall that the incentives 
for rich countries to adapt are powerful, but that their incentives to 
help the poor to adapt are weak) or a bad thing. It is because the 
incentives for individual countries to use geoengineering may be 
strong, and yet other countries may be adversely affected, that 
geoengineering poses a challenge for governance.

A scenario of ``gradual'' climate change

    Imagine first a situation in which climate change unfolds 
gradually. In this scenario, there will be winners and losers over the 
next few decades, perhaps even for longer. (Over a long enough period 
of time, if climate change were not limited, all countries will lose.)
    To be concrete, let us consider estimates of the effects of climate 
change on agriculture as developed by William Cline (2007). According 
to this work, India's agricultural potential could fall 30 percent for 
a 3+ C mean global temperature increase by around 2080. Upon doing some 
back-of-the-envelope calculations, I have found that India might suffer 
a loss valued at around $70 billion in 2080. Estimates of the costs of 
offsetting this amount of warming by geoengineering are generally lower 
than this. Hence, it is at least plausible that India might be tempted 
to use geoengineering in the future.
    To reinforce this point, note that about 70 percent of India's more 
than one billion people currently live in rural areas. Over time, this 
percentage will fall, but perhaps not by that much. Is it realistic to 
expect that a democracy will not act to help a substantial fraction of 
its people when doing so is feasible and not very costly?
    Note as well that India has already sent an unmanned spacecraft to 
the moon. It is currently planning a manned mission to the moon. It is 
certainly within India's technical capability to deploy a 
geoengineering project.
    It is also within its political capability. In early 2009, a joint 
German-Indian research team undertook an experiment on ``ocean 
fertilization'' in the South Atlantic, despite protests by 
environmentalists. India, it should also be remembered, developed 
nuclear weapons outside of the Nuclear Nonproliferation Treaty, and 
tested those weapons over the objections of other countries. External 
pressure for restraint may not deter India from deploying 
geoengineering, should India believe that its national interests are at 
stake.
    India would also have a moral and quasi-legal case for using 
geoengineering. The Framework Convention on Climate Change says that 
``developed countries [need] to take immediate action . . . as a first 
step towards comprehensive response . . ..'' India might argue that 
developed countries failed to fulfill this duty. It might also claim 
that it lacked any alternative means of protection. India might 
conceivably assert a need to use geoengineering for reasons of ``self-
defense.''
    I am not saying that it is inevitable that India would want to 
deploy geoengineering. I am only saying that, under plausible 
assumptions, the possibility needs to be considered.
    Of course, India may not be the first country to contemplate using 
geoengineering. May other scenarios can be imagined.
    If ``gradual'' climate change produces winners and losers, then the 
use of geoengineering to reduce the effects of gradual climate change 
will also produce winners and losers. The winners would join India. 
They might be willing to provide financial support for India's 
geoengineering effort. If a ``coalition of the willing'' were to form, 
the economics of ``minilateral'' action would likely strengthen the 
likelihood of geoengineering being deployed.
    The losers of any such geoengineering effort would have very 
different incentives. Cline (2007) finds that, due to gradual climate 
change, agricultural capacity in China, Russia, and the United States 
would likely increase 6 to 8 percent by around 2080. Under this 
scenario, if India, on its own or in concert with others, were to 
deploy geoengineering to protect their economies, other countries may 
suffer as a consequence.
    What might these other countries do? They would certainly voice 
their objections. They might threaten to impose sanctions. They might 
attempt a countervailing geoengineering effort to warm the Earth. They 
might seek to ``disable'' India's geoengineering effort by military 
means. This last possibility is especially worrying, given that many of 
the states mentioned as being affected, whether positively or 
negatively, possess nuclear weapons.
    But it is also for this reason that a military strike is most 
unlikely. The situation I have described here points to a clash in 
rights-the right of one or more states to use geoengineering to avoid 
losses from climate change versus the right of other states not to be 
harmed by geoengineering. Clashes like this occur all the time. They 
rarely, if ever, lead to military conflict.
    To give an example, there are no general rules for assigning rights 
to trans-boundary water resources. An upstream state will assert its 
right to divert the waters of a shared river for its own purposes, 
while the downstream state will claim its right to an uninterrupted 
flow of this water. Resolution of such disputes invariably demands 
mutual concessions. Typically, the parties will seek an ``equitable'' 
solution, meaning a sharing of rights. The nature of the bargain that 
is struck will depend on the context, including the characteristics of 
the parties. For example, if the upstream state is poor and the 
downstream state rich, the latter state may need to pay the upstream 
state not to divert its waters. By contrast, if the upstream state is 
rich and the downstream state poor, the former may need to compensate 
the latter.
    Perhaps, then, India will refrain from using geoengineering, or 
scale back its plans, in exchange for other countries offering to help 
India improve the productivity of its agriculture (taking the climate 
as given). By contrast, if the United States were inclined to use 
geoengineering first, it seems more likely that there would be an 
expectation that the US should finance investments in other countries, 
to blunt the negative impacts on these countries of its use of 
geoengineering. In both cases, the need for a state to take into 
account the concerns of other states would have a moderating influence.

A scenario of ``abrupt and catastrophic'' climate change

    The situation changes when we peer farther into the future. Over 
longer periods of time, even gradual climate change will be harmful all 
around_melting of the Greenland Ice Sheet, for example, would increase 
sea level by about seven meters. It is hard to see how any country 
could gain from this degree of sea level rise, even if it unfolded, as 
expected, over a period of many centuries.
    Abrupt climate change is a greater worry. Warming is expected to be 
especially strong in the Arctic region. Should this warming trigger 
massive releases of carbon dioxide and methane, a positive feedback 
will be unleashed. No country will gain from such a climate shock. A 
collapse of the West Antarctic Ice Sheet, though unlikely, would also 
have very serious consequences. No country will gain from this kind of 
change either.
    It thus seems likely that the interests of states as regards 
geoengineering will tend to converge over time. Tensions that loom 
large in a world of gradual climate change will evaporate in the longer 
run and will disappear very quickly should the prospect of abrupt, 
catastrophic climate change appear imminent.

Outlines of a geoengineering regime

    Should there be a regime for using, or not using, geoengineering? 
Currently, no such regime exists. There are some agreements and some 
aspects of custom that would be relevant to such a decision (Bodansky 
1996). But the situation we are contemplating here is unprecedented. 
Should a country believe that its national security interests were at 
stake, it would make decisions largely unrestrained by international 
law. The absence of a regime essentially allows states to act as they 
please.
    This means that the United States could act as it pleased, more or 
less. But it also means that Russia and China, India and Brazil, 
Europe, and Japan, and Indonesia and South Africa could all act as they 
pleased as well. It is in the interests of each county to agree to 
restrain its own choices in exchange for other countries agreeing to 
restrain theirs. The governance arrangement needed for geoengineering 
is thus one of mutual restraint (Barrett 2007).
    As I have stressed throughout this testimony, geoengineering needs 
to be considered in the context of all the other things we need to do 
to limit climate change risk. For this reason, international governance 
arrangements for geoengineering should be developed under the Framework 
Convention on Climate Change. Currently, the focus of the Framework 
Convention is on limiting atmospheric concentrations of greenhouse 
gases. It would be better, in my view, if the agreement were revised to 
focus on reducing climate change risk, and on balancing this risk 
against the risks associated with addressing climate change. Every good 
international agreement is revised and reworked as circumstances 
change.
    Protocols developed under this convention should address specific 
collective action challenges that serve to reduce risks. There should 
be many such protocols, even as regards reducing emissions (Barrett 
2008b). There should also be a protocol for geoengineering governance.
    A geoengineering protocol should be open to be signed and ratified 
by every party to the Framework Convention. It is important to 
underscore that every country is entitled to participate in the 
Framework Convention, and that nearly every country in the world is a 
party to this treaty today (the only non-parties are the Holy See and 
Andorra). This principle of universality is important. Every country 
will be affected by whatever is decided about geoengineering. Every 
country should have an opportunity to shape this technology's 
governance.
    The protocol can be more or less restrictive. As it becomes more 
restrictive, fewer states will consent to participate. An agreement 
that fails to attract the participation of the geoengineering-capable 
states would be of little benefit. It will be in every country's 
interests that as many geoengineering-capable states as possible 
participate in this agreement. It may not be essential that every 
geoengineering-capable state participate, but at the very least the 
agreement should establish normative limits that would restrain the 
behavior even of non-parties.
    As a general approach, negotiations should focus on what countries 
can agree on rather than on what they cannot agree on. The treaty 
should enter into force only after being ratified by a substantial 
number of countries. An additional requirement may be needed to ensure 
that the geoengineering-capable states also participate in great 
numbers. Note, however, that as the latter condition for entry into 
force becomes more restrictive the agreement will essentially hand 
every such state the veto. A consequence may be that the agreement 
would never enter into force.
    What is it that countries can countries agree on? It is likely that 
all states will agree that every state ought to be obligated to inform 
all other states of any intention to deploy geoengineering. One reason 
for this is that deployment would be observable by other states in any 
event. As well, deployment must be sustained if it is to affect the 
climate. The element of surprise would offer no advantages.
    Negotiations will likely focus on a state's rights and 
responsibilities_its right to deploy geoengineering to safeguard its 
own citizens and its responsibility not to harm other states. It is in 
the nature of this technology that the latter outcome could not be 
assured. This is likely to have a restraining influence on the decision 
to deploy.
    Countries may agree that they should cooperate to resolve 
conflicts. A country declaring an intention to deploy geoengineering 
may agree to hear opposition to its plans (these will be voiced in any 
event, but an agreement may help to establish the basis on which 
opposition can be expressed). It is unlikely that the geoengineering-
capable states would be willing to have their hands tied completely. It 
is also unlikely that they would agree to have their freedom of action 
be determined by a vote. Even if they did agree to this in principle, 
it would be very hard to conceive of a voting rule that would be 
acceptable to all states. It is, however, likely that states would 
agree to aim to seek a consensus.
    Consensus has powerful advantages. It makes each state take into 
account the collective interests of all states, and the individual 
interests of every state. It creates a presumption in favor of 
unanimity. At the same time, however, it does not give any state the 
veto. Every state may retain the right to act, should a consensus not 
be possible. But any state contemplating deployment would have to face 
the consequences of its actions. These consequences would include 
possible counter measures by other states.
    Rules for R&D will be influenced by the rules for deployment. An 
agreement to cooperate over deployment would reduce any advantages to 
undertaking R&D secretively. In justifying its decision to deploy, for 
example, a country would need to present evidence that geoengineering 
would not harm other states. Undertaking R&D openly, and 
collaboratively would favor a shared understanding of this technology's 
capabilities and effects. It would promote trust.
    The rules I have sketched here are minimal. The main purpose of the 
protocol would be to provide a restraining influence, a forum for 
resolving conflicts, and a setting in which various risks can be 
balanced. Returning to the two scenarios outlined previously, in the 
case where some countries might be in favor of geoengineering and some 
against, the consensus rule would create a space for negotiating 
conflict resolution. In the case where nearly all countries would favor 
geoengineering, this arrangement would provide the stamp of approval.

References

Barrett, Scott (2009). ``The Coming Global Climate-Technology 
        Revolution,''Journal of Economic Perspectives, 23(2): 53-75.

Barrett, Scott (2008a) ``The Incredible Economics of Geoengineering,'' 
        Environmental and Resource Economics, 39: 45-54.

Barrett, Scott (2008b). ``Climate Treaties and the Imperative of 
        Enforcement,'' Oxford Review of Economic Policy, 24(2): 239-
        258.

Barrett, Scott (2007). Why Cooperate?: The Incentive to Supply Global 
        Public Goods. Oxford: Oxford University Press.

Barrett, Scott (2005). Environment and Statecraft: The Strategy of 
        Environmental Treaty-Making, Oxford: Oxford University Press 
        (paperback edition).

Bodansky, Daniel (1996). ``May We Engineer the Climate?'' Climatic 
        Change 33: 309321.

Cline, W. R. (2007). Global Warming and Agriculture: Impact Estimates 
        by Country, Washington, DC: Peterson Institute for 
        International Economics.

Wigley, T.M.L. (2006). ``A Combined Mitigation/Geoengineering Approach 
        to Climate Stabilization.'' Science 314: 452-454.
                      Biography for Scott Barrett
    Scott Barrett is the Lenfest-Earth Institute Professor of Natural 
Resource Economics at Columbia University in New York City. He is also 
a research fellow with CESifo (Munich), the Beijer Institute 
(Stockholm), and the Institute of World Economics (Kiel). Until 
recently, he was a professor at the Johns Hopkins University School of 
Advanced International Studies in Washington, DC. He was previously on 
the faculty of the London Business School, and has also been a visiting 
scholar at Yale. He has advised a number of international organizations 
on climate change, including the United Nations, the World Bank, the 
OECD, the European Commission, and the International Task Force on 
Global Public Goods. He was previously a lead author of the 
Intergovernmental Panel on Climate Change and a member of the Academic 
Panel to the Department of Environment in the U.K. He is the author of 
Environment and Statecraft: The Strategy of Environmental Treaty-
Making, published in paperback by Oxford University Press in 2005. His 
most recent book, Why Cooperate? The Incentive to Supply Global Public 
Goods, also published by Oxford University Press, will appear in 
paperback, with a new afterword, in May 2010. His research has been 
awarded the Resources for the Future Dissertation Prize and the Erik 
Kempe Award. He received his Ph.D. in economics from the London School 
of Economics.

                               Discussion

    Chairman Gordon. Thank you, Dr. Barrett.
    I think the concept of trying to find what we can agree 
upon is, unfortunately, unusual around here. We spend too much 
time on what we can't agree upon.
    I thank all of our witnesses for their testimony. I 
understand that Dr. Barrett and Dr. Long are Co-Members of the 
Bipartisan Policy Centers Initiative. Well, you and we are all 
part of a pioneering effort here. So, we look forward to your 
additional information, in this, in the body of evidence, in 
this early, pioneering effort.
    And I am, now I am going to yield to Mr.--Governor 
Garamendi for any question he might have.

                          Initial Regulations

    Mr. Garamendi. Thank you very much. Dr. Barrett, your rules 
are a great place to start. What we need is some forum in which 
to begin the discussion, and setting out the rules of the game. 
And I really urge this committee and Congress, and anybody else 
to try to figure out what that forum would be, to set that 
down.
    Do you have a suggestion on how that might be accomplished?
    Dr. Barrett. You need a process to initiate discussion. You 
know, it is a great question, and right now, you know, in the 
follow-up to Copenhagen, there has been a lot of discussion 
about that process, and whether that process is the problem. 
And I actually don't think the process, the U.N. process is the 
problem. I think it is our approach to climate change that has 
been the problem. So, I think the diagnosis is very important.
    I think on this issue, because all countries have a stake 
in the issue, and I think this is an issue that people need 
some time to think about. You know, our first reactions to this 
issue were not the same as our reactions as we think about it 
more.
    So, I think the natural place in which there should be the 
beginning of a discussion would be under the United Nations 
Framework Convention on Climate Change [UNFCCC]. I think that 
agreement needs to be revised to address this fundamental 
problem of reducing risk, and once we look at this as a problem 
of reducing risk, we will want to, you know, conclude under 
that agreement a lot of different issues, including 
geoengineering.

               A Potential Role for DOE and National Labs

    Mr. Garamendi. I don't have time with my questions to go to 
each one of you about that, but I think that is really a 
central piece of where we need to go as a committee is to, 
okay, what is the next step, what is the process for that.
    I wanted to--I would like to go to Dr. Long for a couple of 
reasons. One, we have had wonderful discussions about this over 
the years, and you are from my district. So, the other three 
please excuse me. And this really speaks to Dr. Morgan's point 
that the Department of Energy should not have a role here. I 
disagree with that, and I would like Dr. Long to really talk to 
this issue.
    It turns out that the national laboratories, the Department 
of Energy labs, have a very, I think, wrongly defined mission 
at the moment, which is nuclear security, and I think they 
should have to have a change in their mission statement to one 
of national security, where all of the resources at those labs 
can be used to deal with a broader range of national security 
issues, non-bombs.
    For example, the biggest and perhaps the best computer to 
deal with climate modeling is at Lawrence Livermore National 
Laboratories. Sometimes, Los Alamos will dispute that, and 
others will dispute it, but the labs do have extraordinary 
computing capability, which is central to this issue. And also, 
a lot of knowledge about things that go boom. For example, if 
you want to seed the atmosphere with sulfates, you are probably 
going to use something that goes boom.
    Anyway, these kinds of things are there, and I would just 
recommend that.
    So, Dr. Long, if you could speak about the assets that are 
at the laboratories, in the context of dealing with this issue?
    Dr. Long. Well, I think one of the most important things 
that is in my written testimony, and I didn't get a chance to 
talk about, is the need for adaptive management in this 
problem.
    And to do adaptive management, we are going to have to be 
able to predict, we are going to have to make a prediction 
about the result of our actions, and then, we are going to have 
to be able to discern whether that prediction is correct, by 
making observations. And then, we are going to have to decide 
whether we are going in the right direction, and change 
direction if we are not.
    There are many things that are required to do that. One of 
them is computing, and one of them is simulation of the 
climate. The laboratory conducts, currently, a program called 
PCMDI, which is program and model comparison for climate. These 
kinds of studies that provide very careful, even-handed 
assessments of whether the climate is changing in response to 
the actions we are taking, or it is just climate variability 
that we are seeing, are going to be critical. and These kinds 
of calculations are very demanding, and can be done at national 
laboratories.
    But also, this problem, though, also relates to something 
that Dr. Barrett said. Somewhere in here, we have to engage 
with the public and with the policymakers at the same time that 
this kind of analysis is coming in, because the hardest piece 
is, as hard as it is to make a decision to take an action, we 
are also going to have to make decisions to change the 
direction of our action, and that is going to have to be 
supported hand in hand with really good analysis and 
fingerprinting of what we are actually doing. And that exists 
at the National Laboratories.
    Mr. Garamendi. Dr. Morgan, do you want to jump in in the 
remaining seconds, do so.
    Dr. Morgan. One activity that is going forward, the Royal 
Society, as we heard in the first session, has just undertaken 
something called the Solar Radiation Management Governance 
Initiative, which will be undertaken by the Royal Society, the 
science societies of the developing world, by Environmental 
Defense Fund, the NGO, and a number of other organizations, 
including, for example, the International Risk Governance 
Council, whose Scientific and Technical Council I chair, and 
which convened one of the two workshops that I mentioned.
    So, that is a process, an international process that is 
ongoing. I would argue that one does not want to get too firm a 
restriction in place on small scale studies early on, because 
it will tie the science's hands.
    Mr. Garamendi. Well, you were very quick on--when the red 
light came on, right in the middle of a sentence. I don't know 
if the Chairman is that strict. Could you finish your sentence?
    Dr. Morgan. No, I was simply--I mean, the reason I showed 
that slide with the funny box was to simply say, I think what 
the science community ought to be trying to do is say, you do 
small scale stuff inside this space, and it is a scientific 
question what that space ought to be. There shouldn't be a lot 
of oversight and restriction. If you put too much U.N. approval 
and other stuff in place, we are never going to get any 
answers.
    And so, we have got to find a space that is safe and 
appropriate to do studies, and then say, outside that, that is 
forbidden until, you know, there is some larger governance 
structure in place.
    Mr. Garamendi. Mr. Chairman, I am going to take another 30 
seconds if I might, and just compliment you on this meeting, 
and really urge you and your committee staff and the rest of 
us, to really hone in on this issue.
    I am very taken by the issue of setting the rules, whatever 
those might be, and the caution that was given, and also, the 
full utilization of all of our research capabilities here in 
the United States and around the world, in some sort of a 
coordinated effort. It is really, really important in my mind, 
and I thank you for the hearing.
    Chairman Gordon. Thank you, Governor. The lights are 
automatic, but folks have made a lot of effort to get here and 
participate, so we try to be generous with our time.
    Mr. Hall is recognized.
    Mr. Hall. Mr. Chairman, I only want to ask unanimous 
consent to do something here, if I can find it. I want to, a 
paper that was published in the Journal of Petroleum Science 
and Engineering, by the Economides couple. I would like 
unanimous consent to place that journal article into the 
record.
    Chairman Gordon. Without objection.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Hall. I yield back my time, sir.
    Chairman Gordon. Dr. Baird is recognized.

               The Prospect of Unilateral Geoengineering

    Mr. Baird. I thank the Chair. I thank our witnesses. I find 
this one of the most fascinating things we are dealing with, 
because you have got as consequential a situation as you can 
imagine, and a system more complex than anything else on Earth, 
because it is Earth, and lots of unintended consequence risks.
    In just the last week, or this week, I read an article 
about fertilization of the oceans leading to excessive algal 
blooms, presumably, and domoic acid. And the question here is, 
we are doing geoengineering. It is called the CO<INF>2</INF> we 
are putting into the atmosphere, and the methane, et cetera. 
And now, we are trying to sort of put that genie back in the 
bottle.
    Let us suppose I am on the Maldive Islands, and I quite 
fairly and realistically assume that the likelihood of the 
industrialized world actually cutting CO<INF>2</INF> emissions 
in a reasonable time is grim, and it is existential for us, and 
I am going to just do some SRM on our own. You can't hardly 
fault them. We have done geoengineering in the other direction 
on our own. What is to prevent that, or even in a James Bond 
scenario, some rogue rich guy puts some airplanes in the air 
and seeds the clouds? What is to prevent that? Dr. Morgan, or 
Dr. Rusco, you please talk about that.
    Dr. Morgan. Nothing to prevent somebody initiating it, but 
the U.S. Navy can stop the Maldives. The U.S. Navy can't stop, 
you know, Russia, if it decides that the whole interior of the 
country has become an impermeable bog, because of the thawing 
of permafrost, China, because precipitation patterns have 
changed and they can't feed their people anymore.
    So, one of the reasons that we initiated this workshop at 
the Council on Foreign Relations a couple of years ago was 
precisely to begin to address the issue of unilateral action of 
the sort you have described, and I think it remains a serious 
concern. There is disagreement within the foreign policy 
community about just how big a concern unilateral activity 
might be, but the notion that one or a couple of major states 
might decide to do it, I think, is quite troubling, and given 
the right circumstances, might be very hard to do much about.
    Mr. Baird. And a new variation on mutually assured 
destruction. Yeah, Dr. Barrett.
    Dr. Barrett. It is a great question. I think an important, 
and actually, there is a scenario I developed in my written 
testimony about India. That would be much more likely, to be 
the country to use it. It is only a hypothetical, but still, it 
is very plausible, given the impact on their population.
    Mr. Baird. Yes, indeed.
    Dr. Barrett. And the migration that would be forced by it, 
sure. Yes, indeed. And, but other countries, again, that 
scenario of graduated climate change. If India had the 
incentive to want to use geoengineering, other countries would 
be adversely affected. They, of course, would oppose that move, 
and you can imagine, first, opposition would be voiced, then 
other measures might be taken. There might be a development of 
counter-geoengineering measures, and also, there could be a 
military strike. It is precisely because of that, actually, I 
think what you are looking for, and I think what we want in the 
form of, what I call ``rules.'' Or in terms of a kind of regime 
on geoengineering, a space in which countries can actually 
negotiate through their differences.
    And I think there will be strong incentives to do that. The 
countries that are the most capable to act on geoengineering 
are all nuclear-capable states, and I think the most important 
thing is that we don't let this whole system rift, but we 
create the space for negotiation.
    Mr. Baird. Dr. Long.
    Dr. Long. I would like to add to that that I think that the 
research program can help to mitigate the situation. The thing 
that we need to focus on is the creation of international norms 
and mores that support the same ethical constructs when it 
comes to deploying geoengineering, and by building that in to 
an international research program, and beginning to practice 
those kinds of relationships and norm-building exercises 
through the research program, I think we can help to mitigate 
that situation.

       The National Security and Geopolitical Impacts of Climate 
                                 Change

    Mr. Baird. I would really encourage this panel and my 
colleagues on the other side of the aisle to, I think there is 
an urgent need for a constructive dialogue with my friends on 
the other side of the aisle on this, because we spend an 
inordinate amount of time here, on this committee, 
unfortunately, debating whether or not this is real, as if the 
outcome of our debate will somehow impact what happens in the 
real world.
    By that, I mean, as if climate change is going to be 
stopped if we declare it is not happening. But I think the 
adverse consequences that you are describing, the profound 
geopolitical, national security, economic disruption if you get 
your bet wrong, really has to be discussed. Because if we are 
at this level of discussion, and when you talk about India, the 
migratory disruption of coastal sea rises, it is astonishing, 
and how that affects everything else.
    You really have to engage my friends on the other side, who 
have a good and healthy decent respect for national security 
and economic issues, to consider this aspect, and we haven't 
done it enough, and I would invite them to discuss with you 
folks these implications. Because if we just say well, we are 
not going to do anything, because climate change is a hoax, as 
is sometimes said by colleagues, that hoax can have some darn 
serious consequences if it is not a hoax.
    And we just need to speak in the language of my friends on 
the Republican side, I think, will appreciate, in terms of 
national security, et cetera, and so, I hope--I am sorry they 
are not here, but I think it is an avenue that we ought to 
explore more.
    Thank you, Mr. Chairman, for calling this hearing.
    Chairman Gordon. Thank you, Dr. Baird. We will be sure to 
have metal detectors when we get ready to do that discussion.

                     The Role for Federal Agencies

    Let me conclude here, unless Mr. Hall has some additional 
suggestions, there have been discussions about federal 
research. Could, I would ask the panel in general, what 
different agencies would be the, what agency or agencies would 
be the appropriate vehicles for this type of research, and we 
will just start and go down.
    Dr. Rusco. Thank you. We are in the process of engaging all 
the agencies that might have a role to play in this, and we 
will be reporting on that soon to the Committee.
    Chairman Gordon. Will you speak something like the National 
Nanotechnology Initiative, where there would be a coordinated 
effort across a variety of different agencies?
    Dr. Rusco. I think that our past work points to a need for 
a coordinated effort on anything of this magnitude. There, you 
want to avoid unnecessary duplicative activities, but you also 
want to utilize all the many resources and assets that the 
Federal agencies bring to this sort of an effort. And so, a 
coordinated effort that looks at the costs and benefits of a 
national strategy for looking at this sort of research is what 
is needed.
    Chairman Gordon. We are being called for votes, so let me 
just ask, I would assume everyone concurs with that, unless you 
have a suggestion of something specific. Otherwise, is there 
anyone that has anything else? Yes, Dr. Long.
    Dr. Long. In carbon remediation, on the carbon remediation 
side, we already, as I mentioned, we already run a CCS program 
that could be easily expanded. EPA should probably be involved 
in that. On the climate intervention technologies, many of them 
are related strongly to Climate Science Program, and much of 
it, particularly the observation network and the ability to 
predict what is going to happen when you make an intervention, 
that is, as an expansion of climate science, DOE, NASA, NSF, 
are all involved, and should be probably involved in that.
    Dr. Morgan. And my testimony speaks specifically to your 
question, so I won't.
    Dr. Barrett. Briefly. First, I would not have the 
Department of Defense, and second, I would encourage 
international collaboration.
    Chairman Gordon. And you want to elaborate on why you would 
not have the Department of Defense participate?
    Dr. Morgan. I think this issue of trust that I ended my 
testimony on, is extremely important, and I think the moment 
that, and if our Defense Department can be involved, then so 
can other countries, and I think there is already enough 
distrust on a number of issues, including, for example, space, 
involving different countries.
    And I think it could be much better to keep this as an 
issue that is addressing just the one threat.
    Dr. Barrett. Both of the international workshops reached 
much that same conclusion.
    Dr. Long. Thank you. And I would take it one step further, 
which is to say that our national programs should explicitly 
look at research that would enhance the global welfare, rather 
than the national welfare.
    Mr. Baird. Mr. Chairman.
    Chairman Gordon. Dr. Baird is recognized.
    Mr. Baird. Would you not, however, think it is beneficial 
for the Department of Defense to at least inform the debate by 
this body about the consequences if we fail to address this? 
They may not be involved in structuring the global regulatory 
environment, but they certainly ought to be involved in gaming 
out the consequences for their responsibilities. Would that 
make sense?
    Dr. Barrett. I think they already are, in terms of what 
would happen, in terms of migration of peoples and that sort of 
thing.
    Mr. Baird. They certainly are. Just--that point I made 
earlier. I want__
    Dr. Barrett. You give some credibility.
    Chairman Gordon. As I said, we, our votes are on their way 
right now, so let me thank all of our witnesses for being here 
today. The record will remain open for two weeks for additional 
statements from Members, and for answers to any follow-up 
questions this committee may ask the witnesses.
    Once again, I appreciate you giving you information to this 
pioneering body of information, that I think will be beneficial 
for generations to come.
    And this hearing is concluded, and the witnesses are 
excused.
    [Whereupon, at 1:23 p.m., the Committee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Frank Rusco, Director of Natural Resources and 
        Environment, Government Accountability Office (GAO)

Questions submitted by Chairman Bart Gordon

Q1.  Geoengineering is an emerging field, and as such, it does not have 
a standard, widely agreed upon definition.

Q1,1a.  How is geoengineering being defined today?

A1,1a. Our work to date indicates that scientists, policy experts, and 
major research bodies have not yet agreed on the definition of 
geoengineering. Our testimony uses the relatively broad definition of 
geoengineering--deliberate large-scale interventions to diminish 
climate change and its impacts--used by the United Kingdom's Royal 
Society in its September 2009 geoengineering report, which classified 
geoengineering approaches into two major categories: solar radiation 
management (SRM) and carbon dioxide removal (CDR).\1\ The National 
Academy of Sciences used a similarly broad definition of geoengineering 
in its 1992 report on the policy implications of greenhouse warming.\2\ 
However, some policy experts have published articles that apply a 
relatively narrow definition of geoengineering that only includes SRM 
approaches. Most recently, the scientific organizing committee of the 
March 2010 Asilomar International Conference on Climate Intervention 
Technologies released a statement reclassifying geoengineering 
approaches into two groups--climate intervention methods (SRM) and 
climate remediation methods (CDR).
---------------------------------------------------------------------------
    \1\ The Royal Society, Geoengineering and the climate: science, 
governance and uncertainty (London: September 2009).
    \2\ National Academy of Sciences, Policy Implications of Greenhouse 
Warming: Mitgadon, Adaptation, and the Science Base (Washington, D.C.: 
1992).

---------------------------------------------------------------------------
Q1,1b.  Discuss the pros and eons of the existing definitions.

A1,1b. We have not formally evaluated the advantages and disadvantages 
of the existing definitions for geoengineering as part of our work to 
date and, as a result, do not have an opinion on this issue. However, 
as we have testified, the experts we spoke with stated that there are 
different policy implications associated with pursuing SRM compared to 
most CDR approaches. Consequently, the definition policymakers chose 
when deciding whether to pursue geoengineering as part of a broader 
response to climate change would affect which policy issues and 
research needs a federal geoengineering strategy would have to address. 
For instance, we testified that some experts consider certain SRM 
approaches to be relatively inexpensive to implement and generally hold 
greater potential for causing uneven environmental impacts-such as 
changes in precipitation beyond national or regional boundaries. Thus, 
these approaches risk undesirable economic, ethical, legal, and 
political implications that would need to be addressed prior to 
deploying any of these technologies. In contrast, some experts noted 
that most CDR approaches-with the exception of ocean-based strategies 
such as fertilization-would have limited impacts across national 
boundaries and could, therefore, mostly involve discussions with 
domestic stakeholders.\3\
---------------------------------------------------------------------------
    \3\ As we testified, the Royal Society noted that large-scale 
deployment of some CDR approaches such as widespread afforestation--
planting of forests on lands that historically have not been forested--
or methods requiring substantial mineral extraction--including land or 
ocean-based enhanced weathering-may have unintended and significant 
impacts within and beyond national borders.

---------------------------------------------------------------------------
Q1,1c.  Lastly, how should geoengineering be defined going forward?

A1,1c. Because we have not formally evaluated the pros and cons of 
different definitions, we do not have a position on the appropriate 
definition for geoengineering. However, other scientific and policy 
organizations will be providing their perspectives on geoengineering 
later this year, which may provide additional insight on this issue. 
For example, the National Academy of Sciences will be including 
geoengineering as part of its America's Climate Choices review for the 
Congress, which is scheduled for release this year. Additionally, the 
National Commission on Energy Policy has indicated that it has plans to 
explore the definition of geoengineering as part of its project due 
later this year. Finally, the scientific organizing committee of the 
Asilomar International Conference on Climate Intervention Technologies 
expects to issue a report this year on the conference's proceedings, 
which may include potential geoengineering research principles based on 
the discussions among participating scientific and policy experts.

Q2.  Which federal research agencies or programs, as well as which 
nonfederal institutions, such as universities, have the capacity to 
contribute to potential geoengineering research programs?

A2. We have not specifically examined the capacity of federal agencies, 
programs, and universities to contribute to geoengineering research. 
However, we testified that some federal agencies, such as the 
Department of Energy, the National Science Foundation, and the National 
Aeronautics and Space Administration, among others, have already 
sponsored or conducted some research related to geoengineering. 
Furthermore, as we testified, federal officials stated that ongoing 
federal research and observations on basic climate change and earth 
science conducted by, for example, agencies participating in the U.S. 
Global Change Research Program (USGCRP), could be relevant to improving 
understanding about proposed geoengineering approaches and their 
potential impacts. Additionally, our interviews with experts to date 
indicate that a federal geoengineering research program should be an 
interdisciplinary effort across multiple agencies, although experts 
differed as to which agencies should be involved in such a program. We 
plan to provide further information on existing federal geoengineering 
efforts in our report to be issued later this year.

Q3.  Which agencies or programs should not be involved? Why?

A3. We do not have a position on which agencies should or should not be 
involved in a federal geoengineering research program. As indicated in 
our response to question 1b; how narrowly or broadly geoengineering is 
defined could have implications for the design of a federal research 
program and for the decision on which agencies would participate.

Questions submitted by Representative Ralph M. Hall

Q1.  There are several basic questions, about the governance of 
geoengineering that need to be explored before delving into this 
research. On the international side:

Q1,1a.  If we were to enter into an international agreement to explore 
cooperative research efforts into geoengineering, which countries would 
necessarily need to be included?

A1,1a. This is an important question and is worthy of study. However, 
an analysis of which countries would need to be included in an 
international agreement to explore geoengineering research is beyond 
the scope of our ongoing work.

Q1,1b.  Do you envision such an agreement facing resistance similar to 
previous attempts at global agreements addressing climate change?

A1,1b. We have not examined whether an international agreement to 
explore cooperative research would face resistance similar to previous 
climate change agreements. However, in our testimony we noted that 
legal experts we interviewed agreed that the governance of 
geoengineering research should be separated from the governance of 
deployment. These legal experts agreed that some type of regulation for 
geoengineering field experiments was necessary, but they differed on 
whether there should be a comprehensive international governance regime 
under the auspices of a treaty such as the United Nations Framework 
Convention on Climate Change, or whether other existing international 
agreements could be adapted and used to address specific geoengineering 
approaches that fall within their purview. Regarding deployment, we 
testified that some scientific and policy experts we interviewed noted 
that establishing a governance regime over geoengineering deployment 
for certain approaches may be as challenging as achieving international 
consensus on carbon mitigation strategies. This issue is challenging 
because of questions about whether deployment is warranted, how to 
determine an appropriate new environmental equilibrium, and what 
compensation should be offered for adverse impacts, among other issues.

Q1,1c.  Should we be looking at this issue as a national security 
problem, not unlike a rogue state or terrorist group that releases a 
biological, chemical or nuclear weapon on some unsuspecting populace?

A1,1c. We do not have a position on whether the Congress should be 
looking at geoengineering as a national security problem. However, we 
testified that, according to the experts we spoke with, the potential 
uneven distribution of environmental and economic impacts associated 
with some geoengineering approaches, particularly SRM, may create 
relative winners and losers which would sow conflict among nations. As 
we also testified, several experts we spoke with stated that since some 
SRM approaches are considered to be relatively inexpensive to 
implement, one nation, group, or individual could decide to 
unilaterally deploy one of these technologies. These experts stated 
that it is important to begin studying how the United States or the 
international community might respond to the unilateral deployment of a 
SRM technology that resulted in gains for some nations and losses for 
others.

Q1,1d.  Could the actions of a lone ``climate savior'' have global 
effects that would rise to this level of concern? Or is the technology 
really not in place where this is an issue now? Should we be discussing 
it for the future?

A1,1d. As we noted in our response to your question 1c, we testified 
that some SRM approaches would be relatively inexpensive to implement 
and that a nation, group, or individual could decide to unilaterally 
deploy one of these technologies. Additionally, some experts we spoke 
with said that it would be possible to deploy some form of SRM, such as 
stratospheric aerosol injection, using current technology. Furthermore, 
as we testified, several experts stated that it is important to begin 
studying how the United States or the international community might 
respond to the unilateral deployment of a SRM technology that resulted 
in gains for some nations and losses for others.

    On the domestic side:

Q1,1e.  There are several existing federal laws that could cover some, 
but not all, aspects of geoengineering. What are the specific gaps in 
the domestic federal framework that would be needed for us to move 
forward with this? How much would such a regulatory structure cost to 
implement?

A1,1e. In our statement, we identified several domestic regulatory 
gaps. For instance, while EPA plans to issue a final rule governing 
underground injection of carbon dioxide for geological sequestration 
under the Safe Drinking Water Act, EPA officials noted that this 
rulemaking was not intended to resolve questions concerning how other 
environmental statutes might apply to injected carbon dioxide. 
Additionally, EPA officials noted that while the agency has the 
authority to regulate some ocean fertilization activities under the 
Marine Protection, Research and Sanctuaries Act of 1972, the law only 
applied under certain conditions. Consequently, a domestic company 
could conduct ocean fertilization--introducing nutrients to promote 
phytoplankton growth and enhance biological storage of carbon--outside 
of EPA's regulatory jurisdiction and control if, for example, the 
company's fertilization activities took place outside U.S. territorial 
waters, which extend 12 miles from the shoreline or coastal baseline, 
from a foreign-registered ship that embarked from a foreign port.
    We will continue our work related to the views federal officials 
and experts have on how existing domestic laws and international 
agreements may apply to geoengineering. We expect to include additional 
detail on these issues in our final report to be completed later this 
year. While the costs for implementing a regulatory structure for 
geoengineering is certainly an important consideration for any future 
policy development and is worthy of study, such an analysis is beyond 
the scope of our current effort.

Q1,1f.  Would the decision to deploy such a technology be appropriate 
for government only? Or, if there is private sector investment and work 
in this area, should they have a say in the decision? Are there any 
safeguards for the private sector to prevent the government from 
deploying such a technology?

A1,1f. We do not have a position on the level of involvement that the 
private sector should have in the decision to deploy any geoengineering 
approach, and this issue is beyond the scope of our work to date. 
Similarly, we have not examined the private sector's ability to prevent 
the government's deployment of a given geoengineering technology, and 
we will not be addressing this issue in our final report.

Q1,1g.  Would the domestic decision to deploy a geoengineering 
technology be similar to the Presidential decision-making power to use 
nuclear weapons? Or, would this type of deployment benefit from the 
input of the Congressional and Judicial branches of government?

A1,1g. We have not studied the dynamics of federal decision-making 
concerning the deployment of any geoengineering technology and doing so 
is beyond the scope of our ongoing work.

Q1,1h.  If we were to deploy such a technology, and it did not work as 
expected, where would the liability for the unintended consequences 
lie? With those who developed the technology, or with those who decided 
to use it?

A1,1h. Liability for unintended consequences from geoengineering is an 
important and complex governance issue that would require a detailed 
analysis. Specifically, the Royal Society report on geoengineering 
identified liability as a key governance issue that should be evaluated 
prior to any large-scale experimentation or implementation of a 
particular geoengineering approach.\4\ Additionally, our prior work on 
carbon capture and storage discussed stakeholder concerns regarding 
liability for stored carbon dioxide in underground formations, which 
could be relevant to some CDR approaches.\5\ Although conducting a 
detailed analysis of liability issues is beyond the scope of our 
ongoing work, we expect to provide some context for this issue in our 
final report based on our review of relevant literature.
---------------------------------------------------------------------------
    \4\ The Royal Society, Geoengineering arid the climate: science, 
governance and uncertainty.
    \5\ GAO, Climate Change: Federal Actions Will GreatlyAffect the 
Viability of Carbon Capture and Storage as a Key Mitigation Option, 
GAO-08-1080 (Washington, D. C.: Sept. 30, 2008).

Q2.  Several months ago, a paper was published in the Journal of 
Petroleum Science and Engineering titled, ``Sequestering carbon dioxide 
in a close underground volume.'' The authors of this study, Christine 
Ehlig-Economides and Michael J. Economides, suggest that ``underground 
carbon dioxide sequestration via bulk CO<INF>2</INF> injection is not 
feasible at any cost,'' since the CO<INF>2</INF> would require up to 
500 times more space underground than the carbon did when it was bound 
---------------------------------------------------------------------------
as coal, oil or natural gas.

Q2,2a.  If this hypothesis is correct, how would this affect your 
estimation on the feasibility of geoengineering as a viable option from 
a technological and a cost effectiveness point of view?

A2,2a. We have not evaluated the feasibility of geoengineering 
approaches from a technological or cost-effectiveness perspective as 
part of our work to date. As we testified, substantial uncertainties 
remain regarding the efficacy and potential environmental effects of 
proposed geoengineering approaches, and additional research would be 
needed before a proper assessment of feasibility or cost effectiveness 
could be conducted However, should the government choose to move 
forward with geoengineering research, we have reported that a 
comprehensive assessment of costs and benefits that includes all 
relevant risks and uncertainties is a key component in strategic 
planning for technology-based research programs. We do not expect to 
report on the feasibility or cost-effectiveness of the various 
technological options for geoengineering as part of our final report. 
However, we are conducting a geoengineering technology assessment for 
the Committee, which will address technological feasibility in greater 
detail.

Q2b.  How would such a hypothesis alter the debate that is currently 
ongoing about the need to mitigate climate change through reducing 
emissions?

A2b. We have not evaluated how such a hypothesis might alter the debate 
that is ongoing about the need to mitigate climate change through 
reducing emissions as part of our work to date, and this is beyond the 
scope of our ongoing work.

Q3.  During your research into this topic, were there any discussions 
surrounding liability? For example, if one nation were to act using a 
stratospheric aerosol method, and several nations gained from the 
resultant ``cooling'', what if there were unintended negative impacts. 
Could each nation be liable in some way, or just the one nation taking 
the action? How would the liability or remediation be shared?

A3. See our response to your question 1h, above.

Q4.  In your testimony, you list several Executive Branch agencies that 
currently enforce laws that would partially cover geoengineering 
research and deployment. The Environmental Protection Agency is the 
primary agency. Would you advocate that EPA take the primary role in 
developing a federal regulatory structure for the research and 
deployment of geoengineering technologies? Are they the most qualified? 
Are there any other areas of research like this in which EPA, which is 
first and foremost a regulatory and not a research agency, takes the 
lead Federal role?

A4. We do not have a position on whether EPA should take the primary 
role, or whether EPA is the most qualified agency to develop a federal 
regulatory structure for geoengineering research and deployment. 
Additionally, we have not examined whether there are other research 
areas where EPA has taken the lead federal role as part of our work to 
date. However, as we testified, while staff from federal offices 
coordinating the U.S. response to climate change--the President's 
Council on Environmental Quality (CEQ), the Office of Science and 
Technology Policy (OTSP), and the USGCRP--stated that they do not 
currently have a geoengineering strategy or position, several experts 
we interviewed stated that geoengineering research should be led by a 
multiagency coordinating body, such as OSTP or USGCRP. Furthermore, we 
testified that the White House recently established an interagency task 
force on carbon capture and storage (CCS)--which will report to CEQ--to 
propose a plan to overcome the barriers to widespread CCS deployment, 
and that the plan will address, among other issues, legal barriers to 
deployment and identify areas where additional statutory authority may 
be necessary. This task force was not specifically established to 
address regulatory barriers for geoengineering approaches; however, the 
legal and regulatory issues surrounding underground storage of carbon 
dioxide could apply to some CDR approaches. Additionally, we will 
continue to collect federal officials' and experts' views related to 
how existing domestic laws and international agreements are being 
applied to geoengineering and expect to include further detail on these 
issues in our final report.
                   Answers to Post-Hearing Questions
Responses by Scott Barrett, Lenfest Professor of Natural Resource 
        Economics, School of International and Public Affairs and the 
        Earth Institute at Columbia University

Questions submitted by Chairman Bart Gordon

Q1.  How is geoengineering being defined today? Discuss pros and cons 
of existing definitions. How should geoengineering be defined going 
forward?

A1. There is no standard definition today. I think this is not 
important. It is, however, important that people define the term before 
using it.
    In my opinion, the best definition is the one given in my written 
testimony; actions taken deliberately to alter the temperature without 
changing the atmospheric concentration of greenhouse gases. 
Importantly, by this definition, ``solar radiation management'' is 
geoengineering. ``Carbon Dioxide Removal'' is not. These two approaches 
really need to be distinguished because they are very different The 
former can act quickly, but does not address the problem fundamentally. 
The latter addresses the problem fundamentally, but is slow and 
expensive.
    As our understanding of the technological possibilities improves, 
we'll start to focus on particular ideas. My guess is that, by the time 
we deploy geoengineering, should that time ever come, we will use a 
different approach from the ones being discussed today. It is because 
of this that I focused my written testimony on ``geoengineering'' as a 
generic intervention.

Q2.  Which Federal agencies, as well as non-Federal institutions, have 
capacity to contribute to geoengineering research? Which should not be 
involved?

A2. I think the most important thing is that any research be done in 
the context of an international framework. The reason is that, if we 
are thinking of possibly doing geoengineering research, other countries 
will be thinking the same thing. Given the implications of deploying 
geoengineering, and the problem in distinguishing research from 
deployment, it is best that this be done under a governance 
arrangement.
    For similar reasons, I think it would be best for research to be 
done in a collaborative way with other countries. It is essential that 
this process build trust.
    We should not only do research on geoengineering itself but on the 
consequences of deployment--for agriculture, terrestrial ecosystems, 
the oceans, and so on, and for other countries and parts of the world 
as well as for the United States.
    Many agencies and non-federal institutions could play a part. I 
think it is important that the Department of Defense not undertake 
research into geoengineering. If this technology is ever to be used, it 
must be used for peaceful purposes, and our research initiatives must 
make that pledge credible.

Questions submitted by Representative Ralph M. Hall

Q1.  There are several basic questions about the governance of 
geoengineering that need to be explored before delving into this 
research. On the international side:

        a.  If we were to enter into an international agreement to 
        explore cooperative research efforts into geoengineering, which 
        countries would need to be included?

        b.  Do you envision such an agreement facing resistance similar 
        to previous attempts at global agreements addressing climate 
        change?

        c.  How would a global partnership be structured?

        d.  Would certain countries be required to provide more 
        resources than others? If a country provided more resources, 
        would they have more decision-making authority or more input?

        e.  Should we be looking at this issue as a national security 
        problem, not unlike a rogue state or terrorist group that 
        releases a biological, chemical or nuclear weapon on some 
        unsuspecting populace?

        f.  Could the actions of a lone``climate savior'' have global 
        effects that would rise to this level of concern? Or is the 
        technology really not in a place where this is an issue now? 
        Should we be discussing it for the future?

    On the domestic side:

        g.  Would the decision to deploy such a technology be 
        appropriate for government only? Or, if there is private sector 
        investment and work in this area, should they have a say in the 
        decision? Are there any safeguards for the private sector to 
        prevent the government from deploying such a technology?

        h.  If we were to deploy such a technology; and it did not work 
        as expected, where would the liability for the unintended 
        consequences lie? With those who developed the technology, or 
        with those who decided to use it?

A1. Governance-note that, unless stated otherwise, I am taking 
``geoengineering'' here to mean actions taken deliberately to alter the 
temperature without changing the atmospheric concentration of 
greenhouse gases. This creates a novel challenge for governance. ``Air 
capture'' and storage of carbon dioxide is also important, and 
addressed below, but this technology poses a very different challenge 
for governance.

    International

a. Since every country will be affected by the deployment of 
geoengineering, and since research would be undertaken with a view, 
possibly, to deployment, the international governance arrangements 
should be open to all countries. My view is that these arrangements 
should be expressed as a protocol under the Framework Convention on 
Climate Change, in which case participation would be open to every 
country that is a party to this Convention (virtually every country in 
the world is already a party to this agreement). Note that the 
Framework Convention should be revised to stress the importance of 
reducing risks. Note also that countries may also wish to negotiate 
collaborative agreements about specific research initiatives. These 
would only need to involve the participation of the states involved--
perhaps a small number of states. The important thing is that these 
``minilateral'' agreements on research be undertaken in accordance with 
the very broad governance arrangement noted above.

b. I do not believe that there will be resistance to negotiating such a 
protocol. Getting countries to reduce emissions is the hardest of all 
global collective action problems, and so we shouldn't be surprised 
that we have found this difficult to do. Getting countries to agree on 
basic rules for geoengineering governance is very different. 
International negotiations are never easy, but these negotiations will 
be easier than negotiations on limiting emissions.

c. I would recommend that the protocol aim to spell out very broad 
principles. The focus should be on what countries can agree on rather 
than on what they cannot agree on. These, I think, should be the main 
points: (1) that the protocol be open to every party to the Framework 
Convention to sign and ratify; (2) that the agreement enter into force 
after being ratified by a substantial number of countries, including a 
significant number of ``geoengineering-capable'' states; (3) that every 
party be obligated to inform all other parties of an intention to 
deploy geoengineering, including any ``field testing''; (4) that 
deployment be undertaken for peaceful purposes and for purposes that 
contribute to meeting the objectives of the Convention (which, as I 
mentioned above, should be revised to stress the importance of reducing 
risk); (5) that every party be obligated to cooperate to resolve any 
possible conflicts; (6) that agreements to resolve conflict be made as 
far as possible by consensus; and (7) that R&D be done openly, and 
preferably collaboratively, and subject to monitoring/verification. 
Transparency builds trust.

d. As noted above, agreements to collaborate in doing R&D may involve a 
small number of states. There are many ways to share the burden of 
financing. We have many precedents, such as the ITER project, CERN, and 
the International Space Station. A very simple way to allocate this 
burden is by reference to the UN scale of assessments. As regards 
decision-making authority, the agreement should be under the protocol I 
noted above, which sets the parameters, as it were, for international 
governance. Subject to this, the principle that is almost certain to be 
applied is ``no representation without taxation.''

e. I think the deployment of geoengineering outside of the 
international framework noted above would be perceived as constituting 
a possible threat to the security-of other states. Geoengineering 
should only be undertaken for peaceful purposes, and by agreement-by 
consensus as far as possible.

f. Any geoengineering undertaken outside of the international framework 
noted above should be discouraged, and considered as lacking 
international legitimacy. Any such effort would thus be vulnerable to 
intervention, discouraging investment in the first place.

    Domestic:


g. Under the above international framework, the state deploying 
geoengineering would be responsible for its consequences, whether that 
deployment were done by the government or another entity under its 
control (as in within its territory). Whether the private sector were 
involved or had any say would be up to individual states, but the state 
deploying geoengineering would be responsible for the consequences, 
under the international framework outlined above. Any safeguards for 
the private sector would need to be provided by domestic law.

h. Liability would be extremely difficult to determine, which is why it 
is essential that the decision to deploy be based on consensus insofar 
as possible. Domestically, risk sharing would likely be a public 
decision (much like third party liability for nuclear power accidents).

Q2.  Several months ago, a paper was published in the Journal of 
Petroleum Science and Engineering titled,``Sequestering carbon dioxide 
in a close underground volume'' The authors of this study, Christine 
Ehlig-Economides and Michael J. Economides suggest that ``underground 
carbon dioxide sequestration via bulk CO<INF>2</INF> injection is not 
feasible at any cost,'' since the CO<INF>2</INF> would require up to 
500 times more space underground than the carbon did when it was bound 
as coal, oil or natural gas. (Could we please enter the journal article 
into the record?)

        a.  If this hypothesis is correct, how would this affect your 
        estimation on the feasibility of geoengineering as a viable 
        option from a technological and a cost effectiveness point of 
        view?

        b.  How would such a hypothesis alter the debate that is 
        currently ongoing about the need to mitigate climate change 
        through reducing emissions?

A2a. There will be physical limits to storage of CO<INF>2</INF> in 
geologic deposits, in the oceans, and in silicate rock. Depending on 
the policy being contemplated, these limits may not matter. The cost of 
direct carbon dioxide removal from the air is very high, and so I think 
this technology is most likely to be used only if the threat of abrupt 
and catastrophic climate change appeared very great (carbon capture and 
storage from the power plant is less costly). I do think this is a very 
important technology. It is the only true ``backstop'' technology we 
have for reducing emissions. It would be a very good technology to have 
were geoengineering in the form of ``solar radiation management'' to be 
tried and found to have serious and undesirable consequences.

A2b. This is an illustration of why we need more research. This 
finding, if supported by further analysis, would vastly strengthen the 
case for reducing emissions by means other than underground storage.

Q3.  Is it possible that a steep decline in greenhouse gas (GHG) 
emissions may well cost more than the perceived value of its benefits?

A3. All economic analyses of climate change that I am aware of find 
that the benefits of reducing greenhouse gas emissions a little vastly 
exceed the cost. Some studies support steeper reductions. A few commend 
very substantial reductions immediately. The different conclusions 
depend on many things, but two factors are crucial. The first is the 
rate of discount, since the benefits of reducing emissions will be 
realized decades after the costs have been incurred. The second is the 
prospect of catastrophic consequences from not reducing emissions. My 
view is that the second factor is ultimately the most important, and 
that the prospect of very serious consequences will only grow over time 
and at an accelerated rate as we do less to limit emissions now. I know 
of no economic analysis that suggests we should not be developing a 
substantial, serious, global effort to reduce greenhouse gas emissions.

Q4.  In your testimony, you list five things that we should do to 
mitigate anthropogenic climate change. You state that research into 
geoengineering should be the last option.

        a.  Does this mean that you think our research dollars would be 
        betterspent on energy efficiency or renewable energy research?

        b.  Is there a way to really calculate a return on investment 
        when itcomes to geoengineering?

Aa. We should not put all of our research dollars in one basket. We 
should spread this money around, so that the returns in every category 
are roughly equal at the margin. I think the greatest priority today 
should be to invest in research that can allow us to reduce emissions 
at lower cost. But we should also spend research dollars on adaptation 
technologies, direct carbon capture removal and storage, and solar 
radiation management.

b. As noted above, we need to balance our investments so that they 
offer a near-equal return at the margin. A convenient way to think of 
this is to ask which technologies would be deployed were carbon priced 
at the ``social cost of carbon.'' This concept derives a cost per ton 
of carbon dioxide by taking into account the effect of emissions on 
concentrations, concentrations on radiative forcing, radiative forcing 
on temperature, and temperature on ``damages.'' In the case of ``solar 
radiation management'' we cannot make a direct comparison with emission 
reductions, because SRM would affect temperature via a different 
mechanism, because it would entail new risks, and because it would not 
address related environmental problems like ocean acidification. But, 
in principle, a return can be calculated.

Q5.  In previous hearings, we have heard from witnesses that the 
technologies required to achieve sufficient mitigation action are 
available and affordable right now.

        a.  Do you think this is an accurate statement? If so, would 
        you please comment on what those technologies are?

        b.  Would you consider carbon capture and sequestration 
        technologies available and affordable?

        c.  Would you consider the installation and use of such 
        technologies available and affordable?

Aa. The technologies required to reduce emissions substantially 
certainly exist. We could simply shut down all our coal-fired power 
plants, turn off our natural gas transmission lines, and close every 
gasoline station. This is feasible. But it's not desirable; it would be 
too harmful to welfare, given our understanding of the benefit of 
reducing emissions. So we need to take less drastic measures. We need 
to conserve energy; we need to reduce emissions per unit of energy; we 
need to invest more in renewable energy technologies and nuclear power. 
And we need to invest in complementary technologies for storage and 
transmission and in R&D to develop new technologies that will allow us 
to reduce emissions more cheaply in the future.

b. Carbon capture and sequestration is already being done, so this 
technology is available. However, it is not being done at the scale of 
a power plant and in the range of environments needed to demonstrate 
its effectiveness, safety, and cost around the world. This is why more 
research and development must be spent on pilot projects. Whether this 
technology is affordable depends on whether we think climate change is 
a risk worth making sacrifices to avoid. A different way to think about 
R&D is whether we would like the option to use this technology at some 
point in the future, and want to find out now whether it works, and 
whether its operation is efficient and safe. In my view, this should be 
a top priority for R&D funding.

c. Again, we need to establish a number of such stations around the 
world, just to demonstrate its effectiveness, safety, and cost. This 
should be our first priority. We should be doing this now. There is no 
reason for delay. After we learn from these projects, we'll know if we 
should encourage or even mandate use of this technology. Based on the 
engineering cost estimates developed so far, it is likely that 
economics will favor deployment of this technology (in conjunction with 
many other efforts) in the very near future. But, again, let's build 
and operate the pilot plants first. Our efforts to address this great 
challenge will need to unfold over a very long period of time, but it 
is long past time to get started.
                   Answers to Post-Hearing Questions
Responses by Jane Long, Deputy Principal Associate Director at Large 
        and Fellow, Center for Global Strategic Research, Lawrence 
        Livermore National Lab

Questions submitted by Chairman Bart Gordon

Q1.  Geoengineering is an emerging field, and as such, it does not have 
a standard, widely agreed upon definition.

        a.  How is geoengineering being defined today?

        b.  Discuss the pros and cons of the existing definitions.

        c.  Lastly, how should geoengineering be defined going forward?

A1. Geoengineering has been defined in several reports as intentional 
intervention in the climate. However the term itself carries an 
implication that we know enough to design a modification and implement 
it, i.e. to ``engineer'' the geosphere. The term is also used as an 
umbrella for at least two if not three entirely different types of 
technology--carbon dioxide removal, solar radiation management and a 
catch all category for things we largely haven't thought of yet. These 
categories are different in goal, cost, speed of action and risk. They 
have little in common except they are all responses to climate 
conditions we determine are dangerous.
    Unfortunately, the term geoengineering has stuck and is probably 
not easy to lose at this point. What we could do is use better terms 
for the various categories and make it clear which we are talking 
about. I suggest we talk about (at least) two categories and call them:

        <bullet>  Climate remediation: The act of removing greenhouse 
        gases from the atmosphere and storing them somewhere else such 
        as deep underground.

        <bullet>  Climate intervention: The intentional modification of 
        the climate to counteract climate forcing caused anthropogenic 
        emission of greenhouse gases.

Q2.  Which Federal research agencies or programs, as well as which non-
Federal institutions such as universities, have the capacity to 
contribute to potential geoengineering research programs?

        a.  Which agencies or programs should not be involved? Why?

A2. Any institution which is currently doing research in climate 
science can probably contribute to climate intervention research at 
some level. The U.S. Global Change program includes thirteen agencies 
that contribute to data collection and assimilation, modeling and 
evaluation (http://www.globalchange.gov/). The agencies cooperate in 
this program and have formed a number of interagency working groups all 
of which have some application to climate intervention:

        <bullet>  Atmospheric Composition

        <bullet>  Climate Variability and Change

        <bullet>  Communications

        <bullet>  Ecosystems

        <bullet>  Global Carbon Cycle

        <bullet>  Global Water Cycle

        <bullet>  Human Contributions and Responses

        <bullet>  International Research and Coo aeration

        <bullet>  Land Use and Land Cover Change

        <bullet>  Observationsand Monitoring

    Some of the major challenges in with climate science are also key 
to understanding how climate intervention might work. For example, the 
role of aerosols and clouds are difficult to get right in climate 
models and are the subject of major research efforts in climate 
science. These issues correspond exactly the two most prominent ideas 
for climate intervention: SRM and cloud brightening. So the university 
and lab research programs that address aerosols and clouds are the 
right place to start in developing a climate intervention program.
    That said, there is a need for much different kinds of research 
than is currently being carried out. For example, any significant 
climate intervention research will be controversial and it is best that 
the entire research process--from the call for proposals to the actual 
implementation of the research--involve governance, public engagement 
and international collaboration. The existing research in climate 
science is not conducted with a need for governance and public 
engagement although it does involve extensive international 
collaboration. Most likely, a research program in climate intervention 
will have to build a new administrative structure to handle this 
problem and it is not obvious where best to place this activity.
    Likewise, any institution doing work in CCS can probably contribute 
to climate remediation research. For example, DOE's Fossil Energy 
program conducts work in the capture of CO<INF>2</INF> from flue gas. 
It would make sense to expand this program to include air capture work.
    We will need international collaboration should we ever decide we 
need to deploy geoengineering. There fore, it would be wise to frame a 
geoengineering research program as an international effort with 
collaboration and transparency at its heart. If a U.S. geoengineering 
research is viewed as a national defense program, it will send a 
message to the international community that is most likely to interfere 
with future collaboration. As such, basing this program in the 
Department of Defense would be unwise.

Q3.  Explain the term ``adaptive management'' and discuss how it could 
be used with climate change and geoengineering research.

        a.  What are the advantages and disadvantages of an adaptive 
        management approach to research?

        b.  Why is adaptive management not being more fully utilized 
        today in federal research projects in these and other research 
        areas?

A3. Adaptive management is a way to run a project when the system you 
are managing is very complex and you are not sure you can control the 
outcomes of your management choices. (The alternative to adaptive 
management would he to make a choice and stick to it no matter what 
happens.) When we conduct a climate intervention experiment, we will be 
perturbing a very complex, dynamic climate system and we will not be 
able to predict the outcome of our interventions with complete 
certainty. So, it will be wise to observe the results of the 
intervention and, if things are not going the way we hoped they would, 
respond with a new decision about what to do. This is a fairly simple 
and obvious idea, but it is difficult to do in practice.
    Imagine how difficult it will be to make a decision to an 
intervention in the climate by, for example, injecting aerosols into 
the stratosphere. But for the sake of argument, imagine that we somehow 
do make that decision and some years later we see little effect on 
temperature or perhaps it becomes extremely cold or we see abnormal and 
destructive weather patterns. It is fairly obvious that we should not 
ignore this data. We should re-evaluate the decision. Maybe we should 
decrease the injections, maybe we should increase them. Maybe we should 
counter the bad effects with some other action. These will be very 
difficult decisions for two major reasons. First, we will not be sure 
that the negative effects are actually caused by our interventions. 
They could just be normal climate variability and it will be hard to 
tell the difference. Second, if we had political trouble making a 
decision to act, imagine how difficult it will be to change direction.
    The ability to relate cause (climate intervention) and effect (a 
change in the climate) should be a major part of a geoengineering 
research program. If we are not able to determine whether the actions 
we have taken are causing a change in the climate, then we are flying 
blind with a lot at risk. Secondly, we need to social science research 
on the institutional structure for making adaptive
    decisions. For example, adaptively managed projects work best when 
there is an a priori agreement to re-evaluate management choices on a 
regular prescribed schedule in prescribed process. Research should 
focus on how best to structure this process.

Questions submitted by Representative Ralph M. Hall

Q1.  There are several basic questions about the governance of 
geoengineering that need to be explored before delving into this 
research. On the international side:


        a.  If we were to enter into an international agreement to 
        explore cooperative research efforts into geoengineering, which 
        countries would necessarily need to be included?

        b.  Do you envision such an agreement facing resistance similar 
        to previous attempts at global agreements addressing climate 
        change?

        c.  How would a global partnership be structured?

        d.  Would certain countries be required to provide more 
        resources than others? If a country provided more resources, 
        would they have more decision-making authority or more input?

        e.  Should we be looking at this issue as a national security 
        problem; not unlike a rogue state or terrorist group that 
        releases a biological chemical or nuclear weapon on some 
        unsuspecting populace?

        f.  Could the actions of a lone ``climate savior'' have global 
        effects, that would rise to this level of concern? Or is the 
        technology really not in a place where this is an issue now? 
        Should we be discussing it for the future?

    On the domestic side:

        g.  There are several existing federal laws that could cover 
        some, but not all, aspects of geoengineering. What are the 
        specific gaps in the domestic federal framework that would be 
        needed for us to move forward with this? How much would such a 
        regulatory structure cost to implement?

        h.  Would the decision to deploy such a technology be 
        appropriate for government only? Or, if there is private sector 
        investment and work in this area, should they have a say in the 
        decision? Are there any safeguards for the private sector to 
        prevent the government from deploying such a technology?

        i.  Would the domestic decision to deploy a geoengineering 
        technology be similar to the Presidential decision-making power 
        to use nuclear weapons? Or, would this type of deployment 
        benefit from the input of the Congressional and judicial 
        branches of government?

        j.  If we were to deploy such a technology, and it did not work 
        as expected, where would the liability for the unintended 
        consequences lie? With those who developed the technology, or 
        with those who decided to use it?

Aa. It may be possible to group countries into different categories and 
involve each category in a different way. At one end of the spectrum, 
there will be a small number of countries that will have geoengineering 
research programs (U.K. may be an example). With these countries we 
should have strong collaboration. Other countries may have scientists 
involved in our projects. Any country should be able to observe the 
research and know what we are doing.

b. The dynamics of international agreements for climate intervention 
may be quite different than for mitigation. It is quite difficult for 
single countries to commit to mitigation measures on their own. The 
dynamics of international negotiations on mitigation focus on trying to 
get everyone to mitigate at the same time. In contrast, international 
agreements on climate intervention should act to prevent a single 
country or non-state actor from making a climate intervention on their 
own and build relationships and institutions that will help us make 
appropriate global decisions in the future.

c. Global partnerships in research could be structured to share 
observational obligations, conduct model intercomparisons and conduct 
collaborative experiments. As well, other agreements might include 
agreements for consultation, the right to observe and receive research 
results, and participation in governance exercises.

d. For the case of climate intervention, the costs are quite likely 
minimal. Thus the use of economic contribution as way to determine who 
gets to say what is done seems irrelevant. In the case of climate 
remediation, the negotiation is quite similar to mitigation. The costs 
are relatively high and everyone benefits from deployment. Thus the 
framework for, and dynamics of international agreements on climate 
remediation might be quite similar to the framework and dynamics of 
mitigation.

e. I do not think that terrorism or rogue state actors are a good 
analogy for this problem. This is a new international problem and 
deserves its own careful analysis. What would happen if a single 
country or group of countries decides that they should act? What would 
happen if we think we should act? I do not think there is a perfect 
analogue for this situation in history. The likely motivations are 
quite different than terrorism and the ability to act is different.

f. I see little danger of an actor perpetrating an effective climate 
intervention in the immediate future. There are still technical issues 
to solve and the risks of using intervention today are much greater 
than the problems we are currently experiencing in the current climate. 
In the future, if the climate deteriorates and countries become 
desperate, it could become an issue.

g. We do not have in place a system to govern geoengineering research. 
This should involve the development of governing principles, public 
engagement and a process and structure for adaptive management of large 
field experiments. The costs associated with developing these are 
probably not large. The difficulty is that we have no historical model 
that fits this issue, Consequently we need to work hard to develop a 
thoughtful approach to governance, public engagement and the principles 
we wish to act under. I think a good approach would be to develop some 
experiments in research governance and public engagement to evaluate 
the best course of action.

h. Public sector involvement makes a lot of sense for climate 
remediation technologies. We can use the power of innovation in the 
market to develop faster, better, cheaper ways to remove CO<INF>2</INF> 
from the atmosphere, but only if there is a price for carbon which 
drives the market to develop this industry. As long as there is no 
price for carbon, geologic storage of CO<INF>2</INF> could be thought 
of as a public service, like picking up the garbage. In the case of 
climate intervention, public sector engagement raises the spector of 
vested financial interests lobbying for programs that benefit their 
companies, rather than the future of the Earth. It is my opinion that 
we should think of all climate intervention technologies--not to 
mention deployment--as a public good. One idea is to manage climate 
intervention like a regulated utility. Another might be a non-profit 
public/private partnership. Public policy research should be part of a 
geoengineering research program to help illuminate good choices for 
managing public/private relationships in climate intervention.

i. This question is clearly beyond my expertise, but I don't think 
there is any perfect analogue for this situation. The questions of who 
decides, how they decide and when to deploy climate intervention 
technology is terra incognito.

j. My expertise is technical, not legal, but I would agree liability is 
an issue.

Q2.   Several months ago, a paper was published in the journal of 
Petroleum Science and Engineering titled, ``Sequestering carbon dioxide 
in a close underground volume.'' The authors of this study, Christine 
Ehlig Economides and Michael J. Economides suggest that ``underground, 
carbon dioxide sequestration via bulk CO<INF>2</INF>-injection is not 
feasible at any cost,'' since the CO<INF>2</INF> would require up to 
500 times more space underground than the carbon ,did when it was bound 
as coal, oil or natural gas. (Could we please enter the journal article 
into the record?)

        a.  If this hypothesis is correct, how would this affect your 
        estimation on the feasibility of geoengineering as a viable 
        option from a technological and a cost effectiveness point of 
        view?

        b.  How would such a hypothesis alter the debate that is 
        currently ongoing about the need to mitigate climate change 
        through reducing emissions?

Aa. Evidence to date does not support the hypothesis put forward by 
Economides and Economides. The actual CO<INF>2</INF> injection cases 
currently under way do not behave as these authors predict. It is quite 
likely that their assumptions are not correct. They apparently assume 
that the reservoirs act like closed systems and the more CO<INF>2</INF> 
that is injected, the higher the pressure in the reservoir, making it 
harder and harder to continue to inject CO<INF>2</INF>. In practice, 
the pressure build-ups predicted by Economides and Economides are not 
observed. The fact that there are four large commercial end-to-end, 
integrated carbon dioxide capture and facilities currently in operation 
around disproves the Economides and Economides assertion that carbon 
dioxide capture and storage cannot work at any price. They have not 
been observed in pilot projects (e.g., Frio Brine pilot, South Liberty 
Texas) or in commercial projects (Mississippi's Cranfield project, In 
Salah in Algeria, or Sleipner in the North Sea). Some reservoirs, for 
example in the Illinois basin, are thought to be so permeable that 
pressures may not increase very much at all due to injection. 
Economides and Economides seem to have an opinion about how CO<INF>2</INF> 
injection will work that is at odds both with actual data and with a 
significant number of scientists and engineers involved carbon 
sequestration. I am aware that scientists in the U.S. and in Europe are 
working on critiques of the Ehlig-Economides and Economides paper to be 
submitted to the same journal in which Ehlig-Economides and Economides 
published. Three useful as yet unpublished analyses of the faults in 
their paper can be found in JJ Dooley and CL Davidson, 2010. ``A Brief 
Technical Critique of Ehlig-Economides and Economides 2010 
'Sequestering Carbon Dioxide in a Closed Underground Volume.'' ``PNNL-
19249. Joint Global Change Research Institute, Pacific Northwest 
National Laboratory, College Park, MD. April 2010, Comments on 
Economides and Ehlig-Economides, ``Sequestering carbon dioxide in a 
closed underground volume,'' SPE 124430, Oct. 2009'' by the Geologic 
Carbon Sequestration Program, Lawrence Berkeley National Laboratory, by 
Oldenburg, Pruess, Birkholzer, and Doughty, Oct. 22, 2009 and finally 
American Petroleum Institute (API) comments on: Sequestering Carbon 
Dioxide in a Closed Underground Volume.

b. Whether they are right or wrong, it doesn't change the dire need to 
mitigate climate change by reducing emissions. It will be very 
difficult to reduce emissions unless CCS is deployed because it will be 
difficult to stop generating electricity with coal for some time. CCS 
is not a solution that will work for ever. It is a way to reduce 
emissions from coal while alternative energy systems are developed.

Q3.  It has been suggested in prior hearings that one of the 
shortcomings of solar radiation management geoengineering is that it 
could produce drought in Asia and Africa and threaten the food supply 
for billions of people. Some scientists have suggested that global 
climate change could have the same result; others have suggested that 
it will actually increase agricultural production in some areas of the 
world.

        a.  If we were to undertake some type of large-scale 
        geoengineering experiment, how would we be able to 
        differentiate between the effects of global climate change and 
        those from geoengineering and make the necessary modifications 
        to prevent catastrophe?

        b.  If we were able to differentiate between the effects of 
        global climate change and effects from geoengineering, is it 
        now possible to determine whether a drought is caused by 
        anthropogenic climate change or just natural variability?

A3. These issues were addressed in my written testimony and are 
abstracted here. A significant issue for geoengineering is to be able 
to differentiate between the effects of natural climate variability, 
human induced climate change, and geoengineering induced climate 
intervention. The science of detection and attribution of human effects 
on climate has advanced tremendously in the past decades. But the 
challenge of detecting and attributing changes to intentional, fairly 
short term interventions has not been met. This must be a focus of 
research. We cannot now, or perhaps ever, be able to perfectly 
differentiate various causes from various effects. We can, however, 
improve our ability to do so.
    In the simplest terms, the scientific approach to attribution of 
human induced climate change--whether through unintentional emissions 
or intentional climate intervention--is to use climate models to 
simulate climate behavior in two ways: one with and one without the 
human activity in question. If the results of the simulations including 
the human activity clearly match observations better than the results 
without the activity, then scientists say they have ``fingerprinted'' 
the activity as causing a change in the climate. Perhaps the most 
famous illustration in the International Panel on Climate Change (IPCC) 
reports shows two sets of multiple model simulations of mean global 
temperature over the twentieth century, one with and the other without 
emitted greenhouse gases. On top of this plot, the actual temperature 
record lines up squarely in the middle of the model results that 
included greenhouse gas emissions. This plot is a ``fingerprint' for 
human induced warming. Scientists have gone far beyond mean global 
temperature as a metric for climate change. Temperature profiles in the 
atmosphere and ocean, the patterns of temperature around the globe and 
even recently the time of peak stream flow have been used to 
fingerprint human induced warming.
    The science of fingerprinting is becoming more and more 
sophisticated. Increasingly, scientists are looking at patterns of 
observations rather than a single number like mean temperature. 
Patternmatching is a much more robust indicator of causality because it 
is much harder to explain alternative causality for a geographic or 
time-series pattern than for a time series of a single parameter. A 
famous example of this was discerning between global warming caused by 
emissions versus caused by a change in solar radiation. Solar radiation 
changes could not account for the observed pattern of cooling of the 
stratosphere occurring simultaneously with a warming of the 
troposphere, but this is exactly what models predicted for emission 
forced climate change. There do exist ``killer metrics'' like this that 
tightly constrain the possible causes of climate observations.
    Scientists are constantly trying to improve our ability to predict 
future climate states. Recently, Santer et al. showed that it possible 
to rank individual models with respect to their particular skill at 
predicting different aspects of future climate. http: //www.pnas.org/
content/106/35/14778.full?sid=e20c4c31-5ab1-4f69-b541-5158e62e4baf). 
Some think that the ability to detect and attribute intentional climate 
intervention will be nearly impossible. The fingerprinting of human 
induced climate change has been based on decades of data under 
extremely large human induced perturbations. For climate intervention, 
we contemplate much smaller perturbations. and would like proof 
positive of their consequences in a matter of years. Even though this 
is clearly a big challenge, it is not hopeless. Neither should we 
expect a panacea. We will be able to identify specific observations 
that certain models are better at predicting and we will be able to 
find some ``killer metrics'' that constrain the possible causes of the 
observations. In some respects, conclusive results will not be possible 
and if we ever come to deploy, we will likely have to deal with this. 
Fingerprinting--detection and attribution of human intervention effects 
on climate--must be an important area for research if we are to be able 
to conduct adaptive and successful management of geoengineering.
                   Answers to Post-Hearing Questions
Responses by Granger Morgan, Professor and Department Head, Department 
        of Engineering and Public Policy, and Lord Chair Professor in 
        Engineering, Carnegie Mellon University

Questions submitted by Chairman Bart Gordon

Q1.  Geoengineering is an emerging field, and as such, it does not have 
a standard, widely agreed upon definition.

        a.  How is geoengineering being defined today?

        b.  Discuss the pros and cons of the existing definitions.

        c.  Lastly, how should geoengineering be defined going forward?

A1. Unfortunately, there is today no standard definition of 
geoengineering. The result in recent years has been that a wide range 
of very different activities have gotten lumped together under this 
heading. This is not helpful in promoting reasoned discourse because it 
allows people to make general assertions that in fact apply to only a 
subset of what others think they are talking about.
    In its report of September 2009, the Royal Society defined 
geoengineering as ``the deliberate large-scale intervention in the 
Earth's climate system . . ..'' That report then goes on to introduce 
two additional terms:

        <bullet>  Carbon dioxide removal, or CDR, defined as techniques 
        that remove greenhouse gases from the atmosphere.

        <bullet>  Solar radiation management, or SRM, defined as 
        techniques that offset the effects of increased greenhouse gas 
        concentrations by causing the earth to absorb less solar 
        radiation.

    In most of our recent work, my colleagues and I have stopped using 
the phrase geoengineering and instead are now using SRM.
    All methods of CDR are inherently slow and many are local in scale. 
The most promising methods of SRM are potentially very fast and are 
global in scale. In my view, these methods of SRM that present 
significant new challenges of national and international regulations 
and governance.

Q2.  Which Federal research agencies or programs, as well as which non-
Federal institutions such as universities, have the capacity to 
contribute to potential geoengineering research programs?

        a.  Which agencies or programs should not be involved? Why?

A2. I argued in my testimony that it would be best if the first phase 
of research on SRM were supported by the National Science Foundation. I 
made this argument for two reasons:

        1.  NSF does a good job of supporting open investigator 
        initiated research and we need a lot of bright people thinking 
        about this topic from different perspectives in an open and 
        transparent way before we get very far down the road of 
        developing any serious programs of field research.

        2.  In addition to natural science and engineering, NSF 
        supports research in the social and behavioral sciences. 
        Perspectives and research strategies from those fields needs to 
        be brought to bear on SRM as soon as possible.

    During the Q&A I was asked why DoE should not be the lead agency on 
early stages of SRM research. In contrast to work supported by NSF, 
research programs conducted through DoE often do not engage as wide a 
range of investigators and institutions. They frequently start with a 
more focused prior definition of what problems should be addressed and 
how that should be done. They often do a poorer job of incorporating 
relevant behavioral social science and do not always draw in the best 
academic research.
    Clearly, the modeling and other capabilities of the DoE national 
labs, as well as other laboratories, such as NCAR, NASA, Goddard, and 
GFDL, should be used in support of research on SRM. That, however, is 
different from placing lead responsibility with those agencies.
    In my testimony, I also argued that once it becomes clear that we 
need to be doing some larger scale field studies, then it would be 
appropriate to engage NASA and or NOAA. I also see no problem with 
involving the military in providing logistical support to such 
research, when they have the most appropriate assets.
    A key point is that any research undertaken on SRM should be open 
and transparent. It is for that reason that I believe that it would be 
entirely inappropriate for the intelligence community to be involved in 
the experimental aspects of SRM research. We should also work hard to 
avoid getting ourselves into a situation in which private parties 
develop an interest in promoting the deployment of SRM because they 
stand to gain financially from such deployment.

Q3.  In your testimony, you discuss the need for an international 
scientific body to provide oversight for geoengineering research at 
this time, rather than a formal international agreement to govern 
research.

        a.  What types and at what scale would research be conducted 
        under the purview of such a scientific body?

        b.  At what point would it be prudent for a binding 
        international agreement on geoengineering research to be 
        instituted, if ever?

A3. I believe that it would be premature to seek any sort of formal 
international accord on SRM today, since there does not appear to be 
any state or other party about to engage in this activity. Before 
moving to any formal international negotiation on this topic it would 
be highly desirable to have completed serious research so that 
negotiations can be based on a better understanding that we have today. 
My colleagues and I discuss these issues at greater length in the paper 
from Foreign Affairs that I submitted with my testimony.
    I argued in my testimony that ``so long as it is public, 
transparent, and modest in scale, and informally coordinated within the 
scientific community (e.g., by a group of leading national academies, 
the international council of scientific unions (ICSU), or some similar 
group) I believe there should be no constraints on modest low-level 
field testing, done in an open and transparent manner, designed to 
better understand what is and is not possible, what it might cost, and 
what possible unintended consequences might result.''
    I went on to argue that giving meaning to the phrase ``modest low-
level field testing'' should be top priority for the early phase of a 
U.S. research program on SRM. The point of the diagrams I showed was to 
give more concrete meaning to that argument.
    The Royal Society is at present taking the lead in facilitating the 
next round of international discussion among experts and others on how 
issues of global governance might best proceed. A description of that 
process is provided below:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    It is my view that this is an appropriate way to proceed. Any move 
to negotiate some sort of treaty arrangement now, before we have a 
better technical understanding of SRM, would in my view be premature.

Questions submitted by Representative Ralph M. Hall

Q1.  Dr. Morgan, right now, the Department of Energy is heavily engaged 
in modeling the climate system, biological and atmospheric interactions 
and the carbon cycle. Yet, in your testimony, you suggest that when it 
comes to geoengineering, the Department of Energy should not be 
involved in these activities. Instead, you recommend that the National 
Science Foundation, NOAA or NASA be tasked with developing 
instrumentation and research plans to study solar radiation management 
events. Why do you think that DOE should not be involved? Do you think 
they have reached beyond their original mission?

A1. As I argued in my response to Chairman Gordon's second question 
above, clearly the modeling and other capabilities of the DoE national 
labs, as well as those of other laboratories, such as NCAR, NASA, 
Goddard, and GFDL, should be used in support of research on SRM. That, 
however, is different from placing lead responsibility for the initial 
phase of research on SRM with DoE or some other agency.
    In contrast to work supported by NSF, research programs conducted 
through DoE often do not engage as wide a range of investigators and 
institutions. They frequently start with a more focused prior 
definition of what problems should be addressed and how. They often do 
a poorer job of incorporating relevant behavioral social science and do 
not always draw in the best academic research.
    Our nation faces enormous challenges in transforming the energy 
system: both in lowering the environmental footprint and the cost of 
producing and moving energy to end users, and in improving efficiency 
with which we convert that energy into useful services. Given the 
enormity of the challenges we face, I believe that DOE should focus as 
much of its attention and resources as possible on advancing these 
objectives and avoid getting diverted into yet more areas.

Q2.  You mention the need for a more formal international oversight 
mechanism that will grow as the research continues. Would you suggest a 
group such as the Intergovernmental Panel on Climate Change being in 
charge of such a mission? Why or why not?

A2. I am not an expert in international relations so this question 
might better be directed to some of the political scientists with whom 
I have worked on issues related to SRM. Three who have been thinking 
about SRM and have somewhat dissimilar views are John Steinbrenner at 
the University of Maryland, David Victor at UCSD or Ted Parson at 
Michigan.
    That said, I view the multi-party follow-on study on governance 
issues related to SRM that has been initiated by the Royal Society to 
be an excellent next step. In my response to Chairman Gordon's 3rd 
question, I provided a description of that process.

Q3.  In previous hearings on this issue, some witnesses suggested that 
regardless of how much research we perform ahead of time, we will never 
really know the true effects geoenginering would have on the planet 
without actually doing it because of all the possible variables. Is 
that an accurate statement? How accurate is that for other 
technological ventures we have undertaken?

A3. Certainly we can never expect to learn all the effects that large-
scale implementation of SRM might have before its possible 
implementation. But, a well-designed research program can be expected 
to provide considerably more understanding and insight than we now 
possess. The situation we face can be illustrated with a series of 
simple decision trees as shown on the following page.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q4.  Several months ago, a paper was published in the Journal of 
Petroleum Science and Engineering titled, ``Sequestering carbon dioxide 
in a close underground volume.'' The authors of this study, Christine 
Ehlig-Economides and Michael J. Economides suggest that ``underground 
carbon dioxide sequestration via bulk CO<INF>2</INF> injection is not 
feasible at any cost,'' since the CO<INF>2</INF> would require up to 
500 times more space underground than the carbon did when it was bound 
as coal, oil or natural gas.

        a.  If this hypothesis is correct, how would this affect your 
        estimation on the feasibility of geoengineering as a viable 
        option from a technological and a cost effectiveness point of 
        view?

        b.  How would such a hypothesis alter the debate that is 
        currently ongoing about the need to mitigate climate change 
        through reducing emissions?

A4. In April, J.J. Dooley and C.L. Davidson at PPNL prepared an 
assessment of this paper for the Department of Energy (PNNL-19249). The 
summary of their report reads in part as follows:

         ``. . . the paper is built upon two flawed premises: first, 
        that effective CO<INF>2</INF> storage requires the presence of 
        complete structural closure bounded on all sides by impermeable 
        media, and second, that any other storage system is guaranteed 
        to leak. These two assumptions inform every aspect of the 
        authors' analyses, and without them, the paper fails to prove 
        its conclusions. The assertion put forward by Ehlig-Economides 
        and Economides that anthropogenic CO<INF>2</INF> cannot be 
        stored in deep geologic formations is refuted by even the most 
        cursory examination of the more than 25 years of accumulated 
        commercial carbon dioxide capture and storage experience.''

    The American Petroleum. Institute has also prepared a critique. The 
following is an excerpt from the summary of their assessment:

         ``. . . the fundamental premise of the paper--that 
        sequestration at the individual project-level will occur in 
        ``closed underground volumes''--can be characterized as very 
        conservative, bordering on unrealistic. By making this 
        assumption, the authors are effectively characterizing all 
        geologic formations used for CO<INF>2</INF> storage as sealed, 
        pressure tight containers with storage capacities limited by 
        pressure constraints. While this condition can occur, it is 
        unrealistic to assume it as the ``baseline'' condition in all 
        potential storage reservoirs.

         The oil and gas industry's vast experience clearly shows that 
        truly closed reservoirs are relatively uncommon. Industry 
        experience shows that a majority of producing geologic 
        formations have some form of pressure communication across very 
        broad areas. There is little reason to expect significantly 
        different conditions (i.e. the supposed pressure containment) 
        in saline portions of those same geologic formations or saline 
        reservoirs that under- or over-lay those same formations . . 
        ..''

    Geological sequestration of carbon dioxide falls under the category 
of CDR. While it does not appear that the assessment by Ehlig-
Economides is correct, its validity has little bearing on the 
``feasibility'' of SRM, the type of geoengineering I discussed. Nor 
does the volume of available pore space for use in CCS have any 
relevance to the question of whether we should be reducing CO<INF>2</INF> 
emissions.
    We need to reduce global CO<INF>2</INF> emissions by roughly an 
order of magnitude over the course of the next few decades if we are to 
avoid very major, and probably irreversible, climate change. How much 
pore space may be available to sequester CO<INF>2</INF> has no bearing 
on that fact.
    There is no single technological silver bullet that will achieve a 
major reduction of CO<INF>2</INF> emissions. Doing that will require a 
cost-effective portfolio of all available strategies and technologies. 
The volume of pore space available for sequestration might change the 
composition of that portfolio but will have no impact on the need to 
achieve a major reduction in emissions.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                   

</pre></body></html>
